APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals for the Fourth Circuit
(March 5, 2020) .................................................................................................... App. 1
Order to Enter Final Judgment in the United States District Court for
the Eastern District of Virginia Alexandria Division
(June 22, 2018) .................................................................................................. App. 27
Judgment in the United States District Court for the Eastern District of
Virginia Alexandria Division
(June 26, 2018) .................................................................................................. App. 32
Order in the United States District Court for
the Eastern District of Virginia Alexandria Division
(June 18, 2018) .................................................................................................. App. 33
Memorandum Opinion in the United States District Court for
the Eastern District of Virginia Alexandria Division
(April 16, 2018) .................................................................................................. App. 34
Order in the United States District Court for
the Eastern District of Virginia Alexandria Division
(April 16, 2018) .................................................................................................. App. 43
Order in the United States District Court for
the Eastern District of Virginia Alexandria Division
(September 18, 2017) .......................................................................................... App. 44
Order Denying Petition for Rehearing and Rehearing en banc in the United
States Court of Appeals for the Fourth Circuit
(May 4, 2020) .................................................................................................. App. 45
Order Entering Judgment of the Equal Employment Opportunity
Commission
(March 19, 2014) ................................................................................................. App. 46
Order for Damages Evidence of the Equal Employment Opportunity
Commission
(January 13, 2014) .............................................................................................. App. 68
Decision of the Equal Employment Commission
(May 18, 2010) .................................................................................................. App. 71

i

Recommended Decision of Administrative Judge Mark W. Harvey of the
Department of Defense Office of Hearings and Appeals
(September 5, 2007) ........................................................................................... App. 82
Statutory, Regulatory, and Executive Order Provisions Involved ................... App. 94
ADEA

.................................................................................................. App. 94

Title VII ................................................................................................ App. 100
Title 5 – Government Organization and Employees
§ 2302 ................................................................................................ App. 104
National Security Act of 1947................................................................ App. 110
DOD 5200.2-R ........................................................................................ App. 117
Code of Federal Regulations Part 732
National Security Positions.............................................................. App. 161
Executive Order 10450 Security requirements for Government
employment ....................................................................................... App. 163
Executive Order 12968 Access to Classified
Information ....................................................................................... App. 170
Executive Order 13292 Further Amendment to Executive Order 12958,
as Amended, Classified National Security Information ................. App. 181

ii

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 1 of 26

PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1890
WALTON CAMPBELL,
Plaintiff – Appellant,
v.
RYAN D. MCCARTHY, Secretary of the Army,
Defendant – Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Alexandria. Claude M. Hilton, Senior District Judge. (1:17-cv-00568-CMH-TCB)
Argued: December 10, 2019

Decided: March 5, 2020

Before KING, AGEE, and RICHARDSON, Circuit Judges.
Vacated and remanded by published opinion. Judge King wrote the opinion, in which
Judge Agee and Judge Richardson joined. Judge Richardson wrote a separate concurring
opinion.
ARGUED: Nina Yuanyuan Ren, KALIJARVI, CHUZI, NEWMAN & FITCH, P.C.,
Washington, D.C., for Appellant. Sean Douglas Jansen, OFFICE OF THE UNITED
STATES ATTORNEY, Norfolk, Virginia, for Appellee. ON BRIEF: Richard R. Renner,
KALIJARVI, CHUZI, NEWMAN & FITCH, P.C., Washington, D.C., for Appellant. G.
Zachary Terwilliger, United States Attorney, Lauren A. Wetzler, Chief, Civil Division,
OFFICE OF THE UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellee.

App. 1

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 2 of 26

KING, Circuit Judge:
Plaintiff Walton Campbell, a civilian employee of the Army Corps of Engineers,
initiated this civil action against the Secretary of the Army (the “Army”) challenging the
Army’s decision to suspend him from his employment pending review of his security
clearance. 1 In his operative complaint, Campbell alleges three claims: a claim under Title
VII of the Civil Rights Act of 1964 (the “Title VII claim”), a claim under the Age
Discrimination in Employment Act of 1967 (the “Age claim”), and a claim under the
Whistleblower Protection Act of 1989 (the “Whistleblower claim”). After dismissing
without prejudice the Whistleblower claim for failure to exhaust administrative remedies,
the district court awarded summary judgment to the Army on the Title VII and Age claims.
Shortly thereafter, the court denied Campbell’s motion to alter or amend judgment.
Campbell has appealed and, as explained below, we are satisfied that the Supreme Court’s
decision in Department of the Navy v. Egan, 484 U.S. 518 (1988), deprived the district
court of jurisdiction to review any of Campbell’s claims. We therefore vacate and remand
for dismissal.

Campbell started these proceedings in the District of Columbia. After that district
court granted the Army’s motion to transfer venue to the Eastern District of Virginia,
Campbell filed his operative complaint in Alexandria. See Campbell v. Speer, No. 1:17cv-00568 (D.D.C. May 17, 2017), ECF No. 11; Campbell v. Speer, No. 1:17-cv-00568
(E.D. Va. Jul. 7, 2017), ECF No. 28. Campbell therein sued the Acting Secretary of the
Army in his official capacity. The Secretary of the Army in his official capacity has
properly been substituted as the defendant. See ECF Nos. 3, 44.
1

2
App. 2

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 3 of 26

I.
On July 27, 2004, Walton Campbell began working as a physical scientist at the
Topographic Engineering Center, a laboratory of the Corps of Engineers’ Engineer
Research and Development Center. 2 Located adjacent to Fort Belvoir in Alexandria, the
Topographic Engineering Center develops “products that could improve the U.S. Army’s
warfighting capabilities,” and physical scientists employed there must maintain a top secret
security clearance with sensitive compartmented information access. See J.A. 127. 3
Because of the classified nature of its work, the Topographic Engineering Center is a
“restricted area” subject to prohibitions against recording and photographic devices in
certain sections thereof. And many Topographic Engineering Center employees work in
the Center’s Sensitive Compartmented Information Facility, in which recording and
photographic devices are prohibited entirely.
A.
Within months of starting his job, Campbell became embroiled in a workplace
dispute with three of his coworkers. Because the escalation of that dispute resulted in the
suspension of Campbell’s employment pending review of his security clearance by the
Army’s Central Clearance Facility, we first relate the circumstances of that dispute.

2

The Topographic Engineering Center is now called the Army Geospatial Center.

Citations herein to “J.A. __” refer to the contents of the Joint Appendix filed by
the parties in this appeal. Because this appeal concerns an award of summary judgment,
we recite the facts in the light most favorable to Campbell, as the non-moving party. See
United States v. Ancient Coin Collectors Guild, 899 F.3d 295, 312 (4th Cir. 2018).
3

3
App. 3

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 4 of 26

1.
When Campbell began working at the Topographic Engineering Center, he did not
possess a security clearance. As a result, he was assigned duties unrelated to his physical
scientist position while his security clearance application was processed. During that time,
Campbell was assigned to work on the Source Acquisition Team. Campbell’s first-level
supervisor was then Mary Pat Santoro, the Chief of the Information Services Branch.
While he was assigned to the Source Acquisition Team, Campbell would regularly
have lunch with three of his younger coworkers, Tish Kennan, Alana Hubbard, and Marty
Downing. Kennan, Hubbard, and Downing wished, however, that Campbell would not
socialize with them because his behavior made them uncomfortable. That was because,
among other things, Campbell described himself as a person who often sought revenge and
remarked that he knew how to construct bombs. Kennan, in particular, related that
Campbell frequently paid her unwanted attention. Campbell would stare at her and refer
to her as “Trouble.” See J.A. 214. He also told Kennan that he had located information
about her estranged husband on the internet and that he had driven through the
neighborhood where she resided. On several occasions, Campbell had given Kennan
unwanted gifts.

For example, Campbell gave Kennan a battery cleaner after she

commented that she needed to jump-start her car. And Campbell often followed Kennan
around, “wait[ing] for [her] outside the bathroom” or “[standing] aside while [she] was
having conversations with others so that he could follow [her] afterwards.” Id. at 218.
On February 9, 2005, the Army granted Campbell a top secret security clearance
with sensitive compartmented information access. Campbell’s security clearance thus
4
App. 4

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 5 of 26

authorized him to access information that, if released, would result in “exceptionally grave
damage to national security.” See J.A. 196. That security clearance also allowed Campbell
to access the Sensitive Compartmented Information Facility, and his workspace was
relocated therein. In accepting his security clearance, Campbell agreed to abide by certain
conditions. Relevant here, Campbell agreed to report any change in his legal residence
within seven days.
2.
Thirteen days later, on February 22, 2005, Campbell was transferred from the
Source Acquisition Team to the Current Operations Team. As a result of this transfer,
Charles Lopez, the Chief of the Terrain Analysis Branch, became Campbell’s first-level
supervisor.

And although Campbell no longer worked with Kennan, Hubbard, or

Downing, he continued to visit them in the Source Acquisition Team’s workspace and to
involve himself in their lunch plans. By the end of that week, on February 25, 2005,
Campbell had worn out his welcome. That day, without invitation, Campbell went to the
Source Acquisition Team’s workspace and watched Kennan and Hubbard as they worked.
At one point, R. Paul Harwig — a Division Chief of the Topographic Engineering Center
and Campbell’s second-level supervisor — entered the workspace and observed Campbell
“sitting too close” to Kennan and Hubbard. See J.A. 197. When Kennan and Hubbard left
to go to lunch, Campbell followed them. Hubbard recalled that “because of his disturbing
behavior,” they were too “scared” to tell Campbell that he was not welcome to join them
for lunch. Id. at 216.

5
App. 5

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 6 of 26

Following an unpleasant lunch outing to a Chili’s restaurant, Kennan and Hubbard
reported their concerns about Campbell’s behavior to Division Chief Harwig. More
specifically, they informed Harwig that they were planning to tell Campbell that “he could
no longer go to lunch and that he could no longer follow [them] around [the Topographic
Engineering Center], and that [they] did not want any more gifts from him.” See J.A. 21617. In response, Harwig asked the Current Operations Team Leader, Jeffrey Popp, to
inform Campbell that he was no longer permitted in the Source Acquisition Team
workspace, that he was not to distract Kennan and Hubbard from their work, and that he
was to minimize his contacts with Kennan and Hubbard. Team Leader Popp relayed those
instructions to Campbell on February 28, 2005.
3.
Shortly after meeting with Team Leader Popp, on March 7, 2005, Campbell sent an
e-mail message entitled “Whistleblowing on aberrant staff behavior” to Topographic
Engineering Center leadership, including Division Chief Harwig and Branch Chief Lopez.
See J.A. 199-205. In that message and an accompanying attachment, Campbell denied any
wrongdoing and made allegations concerning the “professionalism and mental stability of
[Kennan and Hubbard], who hold current [sensitive compartmented information]
clearances and have access to classified materials.” Id. at 199. Regarding Kennan,
Campbell claimed that her complaints about him were the result of a laundry list of
“personal stresses.” Id. at 199, 203-04. And Campbell painted Hubbard as a “disgruntled
employee,” who, during the lunch outing of February 25, 2005, complained “angr[ily] and
openly” about having to train new employees (a complaint that Campbell surmised was
6
App. 6

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 7 of 26

“unusual for a proud mother of two”) and used “vitriolic language” to describe her
supervisor’s and a coworker’s professional competence. Id. Following an investigation
into Campbell’s allegations, Harwig concluded that Campbell’s e-mail “was in retaliation
as a result of having his feelings hurt and that his allegations [had] no merit.” Id. at 208.
On the evening of March 9, 2005, after learning of Campbell’s allegations against
her, Kennan reported to Branch Chief Santoro that Campbell’s behavior made her feel
unsafe at work. And Kennan explained to Santoro that she no longer felt safe outside of
work because Campbell had tried to follow her home from the Topographic Engineering
Center that afternoon. Kennan related that, as she was driving home, she saw Campbell
pull into traffic behind her.

Believing that Campbell was following her, Kennan

“purposefully made a series of turns to evade him” and returned to the Topographic
Engineering Center to make her report to Santoro. See J.A. 209.
Division Chief Harwig and Branch Chief Lopez met with Campbell on March 10,
2005, and informed him that he was under investigation for misconduct related to his
interactions with Kennan and Hubbard. On that occasion, Campbell was instructed to
avoid all contact with Kennan and Hubbard and to relocate his workspace from the
Sensitive Compartmented Information Facility to a less-restricted section of the
Topographic Engineering Center. On the next day, March 11, 2005, Harwig, Lopez, Team
Leader Popp, and the Topographic Engineering Center Chief of Security, Thomas Cain,
met with Campbell regarding Kennan’s stalking allegations. That meeting was held in a
room of the Topographic Engineering Center in which information classified as secret may

7
App. 7

USCA4 Appeal: 18-1890

be discussed.

Doc: 45

Filed: 03/05/2020

Pg: 8 of 26

After the meeting, Campbell remained in the room while potentially

classified information was discussed.
During the weekend, in addition to relating her stalking allegations to Branch Chief
Santoro, Kennan obtained from a Fairfax County magistrate an emergency protective order
against Campbell, which resulted in the issuance of an arrest warrant for stalking. 4 When
Fairfax County police officers sought to execute that warrant using the legal residence that
Campbell had reported to the Topographic Engineering Center, they discovered that it was
a post-office box address. Because the officers were unable to locate Campbell’s residence,
the Fort Belvoir Military Police and Security Chief Cain detained Campbell upon his
arrival at work on Monday, March 14, 2005. Campbell was searched by the Fairfax County
police officers when they arrived to execute the arrest warrant. The search revealed that
Campbell was wearing a microcassette recorder with a microphone that was wired from
the recorder through his shirt sleeve to his wristwatch. The officers also recovered a
cellphone with a camera, two additional driver’s licenses in Campbell’s name from
Louisiana and Texas, a digital voice recorder, and a pen that appeared to contain a
recording device (but that was actually an FM radio).
Believing that Campbell’s possession of the recording devices posed a national
security threat, the Army Criminal Investigation Command and the FBI were notified. FBI
Special Agents interviewed Campbell, and Campbell explained that he intended to record

On October 19, 2005, Campbell was tried on the stalking charge in a Fairfax
County court. The jury found Campbell not guilty.
4

8
App. 8

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 9 of 26

his conversations with Kennan so that he would have proof if she threatened him.
Campbell also admitted that he attempted to record the March 11, 2005, meeting in order
to protect himself from Kennan’s stalking accusations. The FBI Agents concluded that,
although Campbell had committed a security violation, he had not managed to compromise
any classified information.
B.
Contemporaneously, the Director of the Topographic Engineering Center and
Campbell’s third-level supervisor, Robert Burkhardt, notified the Commanding Officer of
the Engineer Research and Development Center, Colonel James Rowan, of Campbell’s
stalking arrest and his possession of the recording devices and out-of-state driver’s licenses.
Director Burkhardt also informed Colonel Rowan that Campbell had provided a post-office
box address as his legal residence. Based on that information, Rowan determined that
Campbell “posed a risk to national security” and suspended Campbell’s access to classified
information. See J.A. 123, 243. Rowan subsequently recommended that the Central
Clearance Facility permanently revoke Campbell’s security clearance.

That

recommendation was predicated on Rowan’s conclusion that revocation was “in the
interests of national security” because of Campbell’s “potential criminal conduct, personal
conduct and inappropriate use of photography equipment and recording devices in a
restricted area.” Id. at 191, 245. Before making the recommendation regarding Campbell,
Rowan had never recommended a permanent revocation of an Engineer Research and

9
App. 9

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 10 of 26

Development Center employee’s security clearance. On April 4, 2005, Campbell was
notified that his security clearance had been suspended. 5
By memorandum of April 27, 2005, Division Chief Harwig notified Campbell of
his proposal to suspend Campbell from his employment with the Army pending review of
his security clearance by the Central Clearance Facility. This proposed suspension was
based on Campbell’s provisional loss of his security clearance, plus the requirement of
Campbell’s position that he maintain a security clearance. And the memorandum further
specified why Campbell’s security clearance had been suspended:
1.

“Violation of security regulations or practices whereby [Campbell]
brought recording devices, both voice and image into a secure facility
on multiple occasions.” See J.A. 188.

2.

“Acts of commission that indicate poor judgment, unreliability or
untrustworthiness whereby [Campbell] covertly recorded
conversation with [his] supervisors.” Id.

3.

“Knowingly misrepresenting [his] current legal residence to [his]
supervisor, Mr. Chuck Lopez.” Id.

4.

“Acts of commission that indicate poor judgment, unreliability or
untrustworthiness whereby [Campbell] created a disturbance in the
workplace involving co-workers.” Id.

On May 19, 2005, Campbell, with counsel, submitted an oral reply to Director
Burkhardt, who was responsible for deciding whether to adopt Division Chief Harwig’s
proposal to suspend Campbell from his employment. Campbell did not dispute that his
security clearance was suspended for the reasons articulated in Harwig’s memorandum.

We refer herein to Campbell’s access to classified information and his security
clearance collectively as his “security clearance.”
5

10
App. 10

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 11 of 26

Rather, Campbell argued that he should be reassigned to unclassified duties while the
Central Clearance Facility reviewed his security clearance. Nonetheless, based on the
reasons that Campbell’s security clearance was suspended, Burkhardt determined that
Campbell’s actions were distinguishable from other Engineer Research and Development
Center employees who had lost access to classified information but were reassigned to
unclassified duties.

Amplifying Harwig’s statement of the reasons that Campbell’s

security clearance was suspended, Burkhardt explained:
1.

“On 14 March 05, [Campbell] entered a restricted facility, namely the
[Topographic Engineering Center], wearing a recording microphone
on [his] wrist that was connected via a wire through [his] sleeve to a
micro cassette recorder in [his] pants pocket. On that date, [he]
secretly recorded conversations inside the restricted facility.” See J.A.
229.

2.

“On 14 March 05, [Campbell] entered a restricted facility, namely the
[Topographic Engineering Center], bringing with [him] a digital voice
recorder, and a cell phone camera with capabilities for both still
images and video.” Id. at 230.

3.

“On 14 March 05, [Campbell] admitted to an FBI Special Agent that
[he] ‘had recorded another conversation with [his] supervisors.’
[Campbell’s] supervisors [reported] that that conversation took place
on 11 March 2005 in room 506, which is a classified area. They [also
reported] that [Campbell] remained in room 506 after that
conversation while another conversation took place in which
classified material was discussed. . . . Because [Campbell] wore a
wire on two separate dates, [he] intentionally disregarded national
security regulations and policies, and showed a willingness to
compromise classified information for the sake of [his] own, personal
interests.” Id. (emphasis added).

4.

“Instead of providing [his] current [legal] residence, [Campbell]
provided a post office box number at a commercial mail facility.” Id.

5.

“[Campbell] created a disturbance in the workplace involving
coworkers. Specifically, [Campbell] boasted to co-workers that [he
11
App. 11

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 12 of 26

was] a person who sought revenge and knew how to make bombs.
[Campbell’s] boast created fear and apprehension on the part of [his]
co-workers, and such fear and apprehension stifles open and timely
discussion and reporting of suspicious or unusual activity, which
could have a significant impact on the mission and on National
Security.” Id.
In short, Burkhardt determined that Campbell’s actions resulting in the suspension
of his security clearance were distinguishable from those of the Engineer Research and
Development Center employees who were reassigned to unclassified duties because
Campbell had taken “overt action that could have compromised classified information.”
See J.A. 229. Namely, Campbell brought recording and photographic devices to the
Topographic Engineering Center and attempted to record conversations therein,
misrepresented his legal residence, and made his coworkers feel unsafe. Burkhardt further
related that “[t]he Commander of the [Engineer Research and Development Center] ha[d]
never recommended that any clearance be revoked, until [Campbell’s] case. In all cases,
not one of the employees took any overt action that could have compromised classified
information.” Id. For those reasons — that is, the reasons why Campbell’s security
clearance had been suspended — Burkhardt concluded that “[u]nder the circumstances,
[Campbell’s] retention in duty status would be detrimental to national security interests.”
Id. at 231. Burkhardt thus suspended Campbell’s employment with the Army pending
review of his security clearance.
C.
Twelve years later, in early 2017, following lengthy administrative proceedings
before the Department of Defense Office of Hearings and Appeals and the Equal
12
App. 12

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 13 of 26

Employment Opportunity Commission (the “EEOC”), Campbell commenced this civil
action against the Army. 6 Campbell alleges that the Army discriminated and retaliated
against him when it declined to reassign him to unclassified duties and instead suspended
him pending review of his security clearance. Those allegations underlie the three claims
of his operative complaint, that is, the Title VII claim, the Age claim, and the
Whistleblower claim.
Pursuant to Federal Rules of Civil Procedure 12(b)(1) and 12(b)(6), the Army
moved in July 2017 to dismiss Campbell’s operative complaint for lack of subject matter
jurisdiction and for failure to state a claim. Especially pertinent here, the Army argued that
the Supreme Court’s decision in Department of the Navy v. Egan, 484 U.S. 518 (1988),
deprived the district court of jurisdiction to review any of Campbell’s claims. The Army
also maintained that judicial review of the Whistleblower claim was foreclosed by
Campbell’s failure to exhaust administrative remedies and that he had failed to sufficiently
state claims of discrimination or retaliation.
On September 18, 2017, after argument of the motion to dismiss, the district court
declined to dismiss the Title VII and Age claims, concluding that it was “of the opinion
that [Campbell had] stated claims upon which recovery may be had.” See Campbell v.
Speer, No. 1:17-cv-00568, slip op. at 1 (E.D. Va. Sept. 18, 2017), ECF No. 41. And the

The proceedings before the Department of Defense Office of Hearings and
Appeals resulted in the restoration of Campbell’s security clearance on September 26,
2007. Notwithstanding, on March 19, 2014, an EEOC administrative judge found in favor
of the Army. The EEOC proceedings concluded on December 2, 2016, when the
administrative judge’s decision was affirmed by the Office of Federal Operations.
6

13
App. 13

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 14 of 26

court dismissed without prejudice the Whistleblower claim because Campbell had “not
exhausted his administrative remedies.” Id. The court did not, however, address the
Army’s argument that, under Egan, it lacked subject matter jurisdiction to review any of
Campbell’s claims.
Thereafter, for reasons explained in its Opinion of April 16, 2018, the district court
awarded summary judgment to the Army on the Title VII and Age claims. Although the
Army again argued that review of any of Campbell’s claims was foreclosed by Egan, the
court failed to address that contention. Reaching the merits of Campbell’s claims, the court
ruled that Campbell could not establish a prima facie case of either sex or age
discrimination, that the Army had “provided legitimate, non-discriminatory reasons for the
suspension decision, and [that Campbell could not] demonstrate that those reasons were
pretextual.” See Campbell v. Speer, No. 1:17-cv-00568, slip op. at 6-7 (E.D. Va. Apr. 16,
2018), ECF No. 65. The court also ruled that Campbell could not establish a prima facie
case of retaliation and that he had “not produced evidence to show that [the Army’s]
justifications [for the suspension were] pretextual.” Id. at 8-9. Subsequently, the court
denied Campbell’s motion to alter or amend judgment. This appeal followed, and we
possess jurisdiction under 28 U.S.C. § 1291. 7

Our jurisdiction extends to the Whistleblower claim even though the district court
dismissed that claim without prejudice. Of course, “[t]he jurisdiction of a court of appeals
is generally limited to the review of final decisions made by the district courts, within the
meaning of 28 U.S.C. § 1291, and to the review of certain interlocutory orders, as provided
for in 28 U.S.C. § 1292.” See Williamson v. Stirling, 912 F.3d 154, 169 (4th Cir. 2018).
And a dismissal without prejudice is generally not an appealable final order. See De’Lonta
v. Johnson, 708 F.3d 520, 523 n.2 (4th Cir. 2013). Nevertheless, when “the grounds of the
(Continued)
7

14
App. 14

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 15 of 26

II.
We review de novo a district court’s dismissal of a complaint for lack of subject
matter jurisdiction. See Doe v. Meron, 929 F.3d 153, 163 (4th Cir. 2019). We also review
de novo a district court’s award of summary judgment. See United States v. Ancient Coin
Collectors Guild, 899 F.3d 295, 312 (4th Cir. 2018). In this appeal, however, because the
Army maintains that the district court lacked subject matter jurisdiction to review any of
Campbell’s claims, we are obliged to first address the question of jurisdiction. See Sigmon
Coal Co. v. Apfel, 226 F.3d 291, 299 (4th Cir. 2000), aff’d sub nom. Barnhart v. Sigmon
Coal Co., 534 U.S. 438 (2002); Goldsmith v. Mayor & City Council of Balt., 845 F.2d 61,
64 (4th Cir. 1988).

III.
In Department of the Navy v. Egan, a civilian Navy employee with a criminal record
and history of alcohol abuse was denied a security clearance. See 484 U.S. 518, 521-22
(1988). He accordingly became ineligible for his Navy position. Id. After the Merit
Systems Protection Board concluded that it lacked authority to review the Navy’s security
clearance decision, the employee appealed. Id. at 522-25. Emphasizing that classifying

dismissal make clear that no amendment could cure the defects in the plaintiff’s case,” a
dismissal order is “final in fact and therefore appealable.” See Goode v. Cent. Va. Legal
Aid Soc’y, Inc., 807 F.3d 619, 623 (4th Cir. 2015) (internal quotation marks omitted). Here,
Campbell could not cure his failure to exhaust administrative remedies for the
Whistleblower claim by amending his complaint. Accordingly, the Order dismissing the
Whistleblower claim without prejudice is a final appealable decision. We thus possess
jurisdiction to review the court’s dismissal of that claim pursuant to § 1291.
15
App. 15

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 16 of 26

and controlling access to “information bearing on national security” is the province of the
Executive, the Supreme Court recognized that “the protection of classified information
must be committed to the broad discretion of the agency responsible,” including the “broad
discretion to determine who may have access to it.” Id. at 527, 529. To that end, the Court
reasoned that the “[p]redictive judgment” required of security clearance decisions was best
left to “those with the necessary expertise in protecting classified information.” Id. at 529.
The Court thus agreed that, absent specific authorization from Congress (and there was
none), the Merit Systems Protection Board did not possess the authority to review the
reasons underlying a security clearance decision. Id. at 530.
We have adhered to the view that Egan generally proscribes judicial review of a
security clearance decision “absent a specific mandate from Congress providing
otherwise.” See Hegab v. Long, 716 F.3d 790, 794 (4th Cir. 2013); Reinbold v. Evers, 187
F.3d 348, 357-58 (4th Cir. 1999); Becerra v. Dalton, 94 F.3d 145, 148-49 (4th Cir. 1996);
Guillot v. Garrett, 970 F.2d 1320, 1324-25 (4th Cir. 1992); see also Jamil v. Sec’y, Dep’t
of Def., 910 F.2d 1203, 1205-06 (4th Cir. 1990) (extending Egan to judicial review of
security clearance decisions). And we have never discerned an “unmistakable expression
of purpose by Congress in Title VII [of the Civil Rights Act of 1964]” to subject security
clearance decisions “to judicial scrutiny.” See Becerra, 94 F.3d at 149. 8 But we have not

Several of our sister circuits have also concluded that, under Egan, security
clearance decisions cannot be reviewed for violations of Title VII. See, e.g., Ryan v. Reno,
168 F.3d 520, 523-24 (D.C. Cir. 1999); Brazil v. U.S. Dep’t of the Navy, 66 F.3d 193, 19697 (9th Cir. 1995).
8

16
App. 16

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 17 of 26

had occasion to consider whether Congress has provided for judicial review of security
clearance decisions through the Age Discrimination in Employment Act of 1967 (the
“ADEA”) or the Whistleblower Protection Act of 1989 (the “WPA”). As explained below,
Congress has not specifically provided for any such review in either statute.
A.
We first consider the ADEA. And, as it must, our inquiry begins with the plain
language thereof. See Stewart v. Iancu, 912 F.3d 693, 702 (4th Cir. 2019). After all,
Congress’ intent generally will be most apparent “from the words of the statute itself.” See
Sigmon Coal Co. v. Apfel, 226 F.3d 291, 304 (4th Cir. 2000), aff’d sub nom. Barnhart v.
Sigmon Coal Co., 534 U.S. 438 (2002). “To determine a statute’s plain meaning, we not
only look to the language itself, but also the specific context in which the language is used,
and the broader context of the statute as a whole.” See Hately v. Watts, 917 F.3d 770, 784
(4th Cir. 2019) (internal quotation marks omitted).
As codified at 29 U.S.C. § 633a, the federal-sector provision of the ADEA prohibits
age discrimination against federal employees. See 29 U.S.C. § 633a. Specifically, § 633a
provides that “[a]ll personnel actions” involving federal employees “who are at least 40
years of age . . . shall be made free from any discrimination based on age.” Id. § 633a(a).
To that end, the EEOC “is authorized to enforce” § 633a(a) “through appropriate remedies,
including reinstatement or hiring of employees with or without backpay.” Id. § 633a(b).
Section 633a further authorizes “[a]ny person aggrieved” to “bring a civil action” for “such
legal or equitable relief as will effectuate the purposes” thereof. Id. § 633a(c). “[B]y its
terms,” § 633a thus “does not confer broad authority” on the federal courts to review
17
App. 17

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 18 of 26

security clearance decisions. See Egan, 484 U.S. at 530. That is, nothing in § 633a plainly
“evidence[s] the kind of unmistakable expression of purpose,” see Becerra, 94 F.3d at 149
(quoting Guillot, 970 F.2d at 1325), that Egan requires in order to subject a security
clearance decision to review by “an outside nonexpert body” such as a federal court, see
Egan, 484 U.S. at 529.
Our confidence that Congress did not provide for judicial review of security
clearance decisions through the ADEA is bolstered by § 633a’s legislative history. Though
we generally “need look no further” if the plain language of the statute is unambiguous,
see Hately, 917 F.3d at 784, mirroring the Supreme Court’s approach in Egan, we will
consider § 633a’s “language along with . . . its legislative history,” see Egan, 484 U.S. at
530 (internal quotation marks omitted). We do so to confirm that Congress did not
otherwise express its intent to subject security clearance decisions to judicial review for
violations of § 633a. See King v. Burwell, 135 S. Ct. 2480, 2496 (2015) (recognizing that
courts must “take care not to undo what [Congress] has done”); In re Sunterra Corp., 361
F.3d 257, 265 (4th Cir. 2004) (recognizing that when plain meaning conflicts with “clearly
expressed” congressional intent, a court may look beyond unambiguous statutory language
(internal quotation marks omitted)).
Like the legislative history for the ADEA’s private-sector provisions, the legislative
history for § 633a indicates that Congress was primarily concerned with “remov[ing]
discriminatory barriers against employment of older workers.” See S. Rep. No. 93-690, at
56 (1974); H.R. Rep. No. 93-913, at 40-41 (1974); see also S. Rep. No. 90-723, at 7 (1967)
(“It is not the purpose of [the ADEA’s private-sector provisions] to require the employment
18
App. 18

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 19 of 26

of anyone, regardless of age, who is not qualified on grounds other than age to perform the
job. . . . The purpose of this legislation, simply stated, is to insure that age, within the limits
prescribed herein, is not a determining factor in a refusal to hire.”); H.R. Rep. No. 90-805,
at 6 (1967) (explaining that the “primary objective” of the ADEA’s private-sector
provisions is “the promotion of employment opportunities for older workers”). Indeed,
Congress appears to have considered § 633a’s applicability to government personnel
actions taken in the interests of national security and declined to disturb the discretion of
the Executive with respect to such actions. When submitting the Conference Report for
the Fair Labor Standards Amendments of 1974, Pub. L. No. 93-259, 88 Stat. 55 (1974),
which set forth § 633a, the Bill’s sponsor explained:
Questions have been raised about the applicability of the Age Discrimination
provisions to the discretion which now may rest in the heads of certain
executive agencies to terminate an employee in the interests of the national
security of the United States. It was not the intent of the conferees to affect
the exercise of such discretion, other than by barring actions which, in fact,
would be illegal, such as a termination of employment or a refusal to hire
based on age.
See 120 Cong. Rec. 8,764 (1974). 9 We are thus satisfied that there is no “unmistakable
expression of purpose by Congress” in § 633a of the ADEA to authorize judicial review of
security clearance decisions. See Becerra, 94 F.3d at 149; Guillot, 970 F.2d at 1325.

In determining legislative intent, the statements of a bill’s sponsor made during
debate are “entitled to weight.” See Lewis v. United States, 445 U.S. 55, 63 (1980).
9

19
App. 19

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 20 of 26

B.
Next, we turn to the WPA. And, again, our inquiry begins with the plain language
of the statute. See Stewart, 912 F.3d at 702. As codified at 5 U.S.C. § 2302, the WPA
proscribes “personnel action” taken in retaliation for certain whistleblowing activities.
Those activities include (1) the disclosure of information evidencing violations of “any
law, rule, or regulation” or “gross mismanagement, a gross waste of funds, an abuse of
authority, or a substantial and specific danger to public health or safety” and (2) “the
exercise of any appeal, complaint, or grievance right granted by any law, rule, or
regulation.” See 5 U.S.C. §§ 2302(b)(8), (9)(A). And § 2302(a)(2)(A) of Title 5 identifies
twelve types of prohibited personnel actions. Only one of those personnel actions — that
is, “any other significant change in duties, responsibilities, or working conditions” — could
conceivably cover a security clearance decision. Id. § 2302(a)(2)(A)(xii).
Arguably, a security clearance decision could result in “a significant change in
duties, responsibilities, or working conditions,” by rendering a federal employee ineligible
for her position. See 5 U.S.C. § 2302(a)(2)(A)(xii). But Egan requires an “unmistakable
expression of purpose by Congress” to subject a security clearance decision to judicial
scrutiny. See Becerra, 94 F.3d at 149; Guillot, 970 F.2d at 1325. We thus cannot conclude
that “by its terms,” the WPA specifically “confer[s] broad authority . . . to review a
security-clearance determination.” See Egan, 484 U.S. at 530; Hesse v. Dep’t of State, 217
F.3d 1372, 1378 (Fed. Cir. 2000) (concluding that § 2302(a)(2)(A)(xii) “falls far short of
constituting a specific statement of congressional intent to authorize review of security
clearance determinations”); see also SKY CABLE, LLC v. DIRECTV, INC., 886 F.3d 375,
20
App. 20

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 21 of 26

388 (4th Cir. 2018) (recognizing that “ejusdem generis instructs that, when general words
follow the enumeration of specific items in a list, the general words apply only to other
items akin to those specifically enumerated” (internal quotation marks omitted)).
Likewise, our examination of the relevant legislative history — in particular that of
the Whistleblower Protection Enhancement Act of 2012 (the “WPEA”), Pub. L. No. 112199, 126 Stat. 1465 (2012) — fortifies our conclusion that Congress did not intend to
provide for judicial review of security clearance decisions through the WPA.

The

legislative history for the WPEA — which strengthened whistleblower protections, in part
by amending the WPA — reflects that Congress explicitly recognized a “critical need” to
extend “the protections for whistleblowers to include those who are retaliated against
through the loss of their security clearances or access to classified information.” See S.
Rep. No. 112-155, at 35-36 (2012) (citing Hesse). And although Congress appears to have
considered providing for review of retaliatory security clearance decisions by both the
Merit Systems Protection Board and the federal courts, the Senate Homeland Security and
Governmental Affairs Committee Report accompanying the 2012 Act explained “that an
Executive Branch process can provide adequate review of security clearance retaliation.”
Id. at 36, 39. For the reasons specified therein, the Act did not “provide for any judicial
review of security clearance retaliation claims” by whistleblowers in the WPA, or
elsewhere. Id. at 40. 10 Therefore, we are similarly satisfied that there is no “unmistakable

The WPEA as enacted did not contain any provision extending whistleblower
protections to security clearance decisions. See Pub. L. No. 112-199, 126 Stat. 1465
(2012); see also Gulf Oil Corp. v. Copp Paving Co., 419 U.S. 186, 200 (1974) (observing
(Continued)
10

21
App. 21

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 22 of 26

expression of purpose by Congress” in the WPA to subject security clearance decisions to
judicial review. See Becerra, 94 F.3d at 149; Guillot, 970 F.2d at 1325.
C.
Because Title VII, the ADEA, and the WPA do not specifically provide for judicial
review of a security clearance decision, we must evaluate whether any of Campbell’s three
claims against the Army can be assessed without reviewing the suspension of his security
clearance. And we are readily satisfied that they cannot. As a result, Egan deprived the
district court of subject matter jurisdiction in this litigation.
Under Egan, a claim that an adverse employment decision violated a plaintiff’s
statutory rights is unreviewable when it “necessarily depends upon a review of” an
agency’s security clearance decision. See Guillot, 970 F.2d at 1326. In other words, when
review of such a claim requires review of “the very issue[] that the Supreme Court has held
[is] non-reviewable” — namely, a security clearance decision — Egan deprives the federal
courts of subject matter jurisdiction. See Becerra, 94 F.3d at 149.

that the deletion of language from the statute as enacted “strongly militates against a
judgment that Congress intended a result that it expressly declined to enact”). A similar
provision that also committed review of certain agencies’ retaliatory security clearance
decisions to the Executive was later enacted as part of the Intelligence Authorization Act
for Fiscal Year 2014. See Pub. L. No. 113-126, 128 Stat. 1390, 1417-20 (2014).
22
App. 22

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 23 of 26

Campbell argues that Director Burkhardt’s conclusion that Campbell posed a unique
threat to national security and thus could not be reassigned to unclassified duties was
simply a pretext for discrimination and retaliation. 11 But Campbell’s security clearance
was suspended for the same reasons relied on by Burkhardt to reach that conclusion. Under
the burden-shifting framework upon which Campbell’s Title VII and Age claims rely,
determining whether the reasons for suspending Campbell were legitimate and nonpretextual thus requires review of the Army’s security clearance decision. See McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 807 (1973); Ryan v. Reno, 168 F.3d 520, 523-24
(D.C. Cir. 1999); Brazil v. U.S. Dep’t of the Navy, 66 F.3d 193, 196-97 (9th Cir. 1995).
Therefore, the district court lacked subject matter jurisdiction with respect to the Title VII
and Age claims. So too with the Whistleblower claim, which requires reviewing the
Army’s security clearance decision to determine whether Campbell was suspended for
engaging in some protected activity rather than for the reasons he provisionally lost his
security clearance. See Bonds v. Leavitt, 629 F.3d 369, 381 (4th Cir. 2011) (setting forth
requirements for claim of WPA retaliation).
Seeking to clear this jurisdictional hurdle, Campbell emphasizes the Supreme
Court’s conclusion in Egan that, under 5 U.S.C. § 7513, the Merit Systems Protection
Board has jurisdiction to review “adverse actions” to determine “whether transfer to a

During oral argument of this appeal, Campbell’s primary assertion was that he
was “entitled to reasonable inferences” that Director Burkhardt’s conclusion that he “posed
a unique threat” and thus could not be reassigned to unclassified duties was “pretextual.”
See Oral Argument at 1:10-1:20, Campbell v. Esper, No. 18-1890 (4th Cir. Dec. 10, 2019),
http://www.ca4.uscourts.gov/oral-argument/listen-to-oral-arguments.
11

23
App. 23

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 24 of 26

nonsensitive position was feasible.” See Egan, 484 U.S. at 530. Accordingly, Campbell
maintains that jurisdiction to review his claims — each of which concern Director
Burkhardt’s refusal to reassign him to unclassified duties — is unaffected by Egan. He is
mistaken in that regard.
Contrary to Campbell’s assertion, Egan does not “impose on an agency the
obligation, independent of statute or regulation, to transfer employees who lose their
security clearance.” See Jamil, 910 F.2d at 1208. Rather, when an “independent source
for a right to a transfer [to a nonsensitive position] exists,” Egan authorizes a limited review
of whether such a transfer is feasible. Id. at 1208-09; Guillot, 970 F.2d at 1326-27.
Campbell argues that, in this case, such a review is enabled by the prior instances in which
Engineer Research and Development Center employees who lost their access to classified
information were reassigned to unclassified duties. But nothing in this record refutes
Director Burkhardt’s determination that the Engineer Research and Development Center’s
past practice was inapposite to Campbell. As with Burkhardt’s ultimate conclusion that
Campbell’s “retention in duty status would be detrimental to national security interests,”
that determination was predicated on the reasons that Campbell’s security clearance was
suspended. See J.A. 229-31. We do not see how, in these circumstances, the Engineer
Research and Development Center’s past practice provides an “independent source for a
right to a transfer” as contemplated by Egan and our precedents. See Jamil, 910 F.2d at
1208-09; Guillot, 970 F.2d at 1326-27.

24
App. 24

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 25 of 26

***
In sum, Campbell was suspended by the Army pending review of his security
clearance for the very same reasons that he provisionally lost his security clearance.
Because review of any of Campbell’s claims requires review of the suspension of his
security clearance — a review that necessarily “goes to the very heart of the protection of
classified information” — Egan deprived the district court of subject matter jurisdiction to
review each of Campbell’s claims. See Becerra, 94 F.3d at 149. The court thus erred by
failing to dismiss these claims outright for lack of subject matter jurisdiction.

IV.
Pursuant to the foregoing, we vacate the district court’s judgment and remand for
dismissal of the operative complaint for want of subject matter jurisdiction.
VACATED AND REMANDED

25
App. 25

USCA4 Appeal: 18-1890

Doc: 45

Filed: 03/05/2020

Pg: 26 of 26

RICHARDSON, Circuit Judge, concurring:
I readily join the majority’s fine opinion in full. But I write separately to note the
Supreme Court’s odd use of legislative history in this context. It is hard to fathom how we
might unearth within legislative history ‘a specific mandate from Congress’ or ‘an
unmistakable expression of purpose’ to overcome the presumption against review of
security-clearance decisions made by the executive branch. The “psychoanalysis of
Congress” is a “weird endeavor” in any event, United States v. Public Utilities Commission
of California, 345 U.S. 295, 319 (1953) (Jackson, J., concurring), but particularly so when
the sensitivity and importance of a discretionary executive branch action requires that we
avoid review in the first place. But the Supreme Court has instructed that we try.
Department of the Navy v. Egan, 484 U.S. 518, 530 (1988). And so we do.

26
App. 26

Case 1:17-cv-00568-CMH-TCB Document 75 Filed 06/22/18 Page 1 of 5 PageID# 1236

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

WALTON CAMPBELL,
Plaintiff,

v.

Case No. l:17-cv-568-CMH-TCB

MARK ESPER,
Secretary of the Army,
Defendant
DEFENDANT'S MEMORANDUM IN SUPPORT OF UNOPPOSED MOTION
REQUESTING ENTRY OF FINAL JUDGMENT

Pursuant to Federal Rule of Civil Procedure 58(d), Defendant, Mark Esper, Secretary of
the Army (" Army"), respectfully requests that the Court enter final judgment as a separate
document. In support of this request, the Army states as follows:

I.

Federal Rule of Civil Procedure 58(b)(l)(C) provides that the "clerk must ... enter

judgment when ... the court denies all relief."
2.

On March 16, 2018, the Army filed a Motion for Summary Judgment requesting

that the Court dismiss all of Plaintiff's remaining claims. ECF No. 57.
3.

On April 16, 2018, after the Army's Motion for Summary Judgment was fully

briefed, the Court issued an Order and Opinion granting the Army's Motion for Summary
Judgment and dismissed all of Plaintiff's remaining claims. ECF Nos. 65-66.
4.

On May 11, 2018, Plaintiff filed a Motion to Alter or Amend Judgment requesting

that the Court reconsider its grant of the Army's Motion for Summary Judgment. ECF Nos. 67-68.

App. 27

Case 1:17-cv-00568-CMH-TCB Document 75 Filed 06/22/18 Page 2 of 5 PageID# 1237

5.

On June 18, 2018, after Plaintiff's Motion to Alter or Amend Judgment was fully

briefed, the Court issued an Order denying Plaintiff's Motion to Alter or Amend Judgment. ECF
No. 72.
Accordingly, because the Court has denied all relief requested by Plaintiff, the Army
respectfully requests that the Court enter final judgment as a separate document pursuant to Federal
Rule of Civil Procedure 58. Although Plaintiff does not agree with the Court's Order and Opinion
granting the Army's Motion for Summary Judgment, Plaintiff does not oppose the Army's request
that the Court enter judgment as a separate document.
Respectfully submitted,
G. ZACHARY TERWILLIGER
UNITED STATES ATTORNEY
Lauren A. Wetzler,
Chief, Civil Division
By:

Isl Sean D. Jansen

Sean D. Jansen
Assistant U.S. Attorney
Virginia State Bar No. 82252
Counsel for Defendant
Office of the United States Attorney
101 W. Main Street, Suite 8000
Norfolk, Virginia 23510
Phone: (757) 441-6331
Fax: (757) 441-6689
Email: sean.jansen@usdoj.gov

2

App. 28

Case 1:17-cv-00568-CMH-TCB Document 75 Filed 06/22/18 Page 3 of 5 PageID# 1238

CERTIFICATE OF SERVICE
I hereby certify that on June 21, 2018, I filed the foregoing with the Clerk of Court using
the CM/ECF system, which will send a notification of electronic filing (NEF) to the following
counsel of record:
Sarah Martin, Esq.
Nina Ren, Esq.
Richard R. Renner, Esq.
Kalijarvi, Chuzi & Newman & Fitch, P.C.
818 Connecticut Avenue, N.W., Suite 1000
Washington, D.C. 20006
smartin@kcnlaw.com
nren@kcnlaw.com
rrenner@kcnlaw.com
By:

Isl

Sean D. Jansen
Assistant U.S. Attorney
Virginia State Bar No. 82252
Counsel for Defendant
Office of the United States Attorney
IO 1 W. Main Street, Suite 8000
Norfolk, Virginia 23510
Phone: (757) 441-6331
Fax: (757) 441-6689
Email: sean.jansen@usdoj.gov

App. 29

Case 1:17-cv-00568-CMH-TCB Document 75 Filed 06/22/18 Page 4 of 5 PageID# 1239
Case 1:17-cv-00568-CMH-TCB Document 73 Filed 06/21/18 Page 1 of 2 PagelD# 1231

UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

WALTON CAMPBELL,
Plaintiff,

v.

Case No.1:17-cv-568-CMH-TCB

MARK ESPER,
Secretary of the Army,
Defendant
DEFENDANT'S UNOPPOSED MOTION REQUESTING ENTRY OF FINAL
JUDGMENT

Pursuant to Federal Rule of Civil Procedure 58(d), Defendant, Mark Esper, Secretary of
the Army, hereby respectfully files this Motion Requesting Entry of Final Judgment. The grounds
for this motion are fully set forth in the concurrently-filed memorandum in support of the motion.
Respectfully submitted,
G. ZACHARY TERWILLIGER
UNITED STATES ATTORNEY
Lauren A. Wetzler,
Chief, Civil Division
By:

Isl Sean D. Jansen
Sean D. Jansen
Assistant U.S. Attorney
Virginia State Bar No. 82252
Counsel for Defendant
Office of the United States Attorney
101 W. Main Street, Suite 8000
Norfolk, Virginia 23510
Phone: (757) 441-6331
Fax: (757) 441-6689
Email: sean.jansen@usdoj.gov

App. 30

Case 1:17-cv-00568-CMH-TCB Document 75 Filed 06/22/18 Page 5 of 5 PageID# 1240
Case 1:17-cv-00568-CMH-TCB Document 73 Filed 06/21/18 Page 2 of 2 PagelD# 1232

CERTIFICATE OF SERVICE

I hereby certify that on June 21, 2018, I filed the foregoing with the Clerk of Court using
the CM/ECF system, which will send a notification of electronic filing (NEF) to the following
counsel of record:
Sarah Martin, Esq.
Nina Ren, Esq.
Richard R. Renner, Esq.
Kalijarvi, Chuzi & Newman & Fitch, P.C.
818 Connecticut Avenue, N.W., Suite 1000
Washington, D.C. 20006
smartin@kcnlaw.com
nren@kcnlaw.com
rrenner@kcnlaw.com

By:

Isl

Sean D. Jansen
Assistant U.S. Attorney
Virginia State Bar No. 82252
Counsel for Defendant
Office of the United States Attorney
101 W. Main Street, Suite 8000
Norfolk, Virginia 23510
Phone: (757) 441-6331
Fax: (757) 441-6689
Email: sean.jansen@usdoj.gov

App. 31

Case 1:17-cv-00568-CMH-TCB Document 76 Filed 06/26/18 Page 1 of 1 PageID# 1241

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
Walton Campbell

)
)
)
)
)
)
)
)
)
)
)

Plaintiff,
v.
Mark Esper
Secretary of the Army
Defendant.

Civil Action No. 1:17-cv-568 (CMH-TCB)

JUDGMENT
Pursuant to the order of this Court entered on June 22, 2018 and in accordance with
Federal Rules of Civil Procedure 58, JUDGMENT is hereby entered in favor of the defendant
Mark Esper, Secretary of the Army and against the Plaintiff, Walton Campbell.

FERNANDO GALINDO, CLERK OF COURT
By:

/s/
Anitra Chastine
Deputy Clerk

Dated: June 26, 2018
Alexandria, Virginia

App. 32

Case 1:17-cv-00568-CMH-TCB Document 72 Filed 06/18/18 Page 1 of 1 PageID# 1230

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division

WALTON CAMPBELL ,
Plaintiff,

)
)
)
)

)
)

) Civil Action No . 1:17-cv- 00568

v.
MARK ESPER,
Secretary of the Army
Defendant.

)
)
)
)
)
)
)

ORDER

THIS MATTER comes before the Court on Pla i ntiff ' s Motion to
Alter or Amend this Cou rt ' s Apr il 16, 2018 Order . The Court is
of the opinion that its previous Order was correct for the
reasons stated . Accordingly , it is hereby
ORDERED that Plaintiff's Motion to Alter or Amend Judgment
is DENIED .

CLAUDE M. HILTON
UNITED STATES DISTR I CT JUDGE
Al exandria , Virginia
June l}l_ , 2018

App. 33

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 1 of 9 PageID# 1178

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
)

WALTON CAMPBELL ,

)

)
)

Plaintiff ,

)
)

v.

) Civi l Action No . l : 17 - cv-00568

)
)

MARK ESPER,
Secretary of the Army

)
)

)

Defe ndant .

)

)

Memorandum Opinion

THIS MATTER comes

before

the Court on

Defendan t ' s

Motion

for Summary Judgment .
This suit arises out of the 852 -day unpaid suspension that
Plaintiff

Walton

Campbell ,

s uspension ,

was

Engineer 's

Engineer

"ERDC" ) .
as a
Center
the

TEC

because

Research

scientist

(the " TEC" )
laboratory
the

information ,

years - old

at

placed on by h is employer,

Beginning in 2004 ,

physical

57

TEC

at

and

of

the Army Corps
Center

the
of
(the

Plaintiff was employed by the ERDC
the

ERDC ' s

is

designated

works

almost

was

time

Development

Topographic Engineering

laboratory in Alexandria ,

?laintiff

the

as

a

restricted

exclusively

required

to

Virginia.

with

maintain

a

Because

area ,

classif i ed
Top

Secret

clearance and access to Sensitive Compartmented Information .

App. 34

and

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 2 of 9 PageID# 1179

Beginn ing i n Februar y 200 5,
Mr .

Harwig ,

began

to

recei ve

Pla intiff ' s

coworkers ,

Plaintiff ' s

behavior .

Ms .
On

Mr .

Harwig

one

behavior

t roubling

Ke nnan

and

instance

whom Plaintiff alleges to b e
to

Pla in ti ff 's dir ect supervisor ,
r e ports

Ms.
th e

from

Hubbard ,
t wo

whi c h

"sounded

to

Mr .

of

regarding

women ,

l ess t ha n 40 - years - old ,

two

both

of

described

Harwig

like

sta lk ing . " When Plaintiff 's a c cess to a particular part of the
TEC fac ilit y was remo ved a nd hi s interact i ons with t he t wo women
mi nimized

f ol lowi ng

supe r visor

t hi s

a nd o t he r s

cowo rkers .

Mr .

Pl aint iff

about the coworkers '

Harwi g

ul t ima t e l y

complaine d

to

his

professional ism a nd

concluded

the

a g a inst

allega t ions

severa l

making

stabi lit y ,

ment a l

report ,

t ha t

Plaintiff ' s

a llegations were unfounded .
Following this ,
around Plaintiff ,

Ms.

Kennan

rep o rt ed t hat

she

felt

unsafe

and that " Plai nt iff had previously commented

that he was a person who soug ht r e ve nge ,

kn e w how to make bombs ,

and that he had put chemica l s

in a

f ormer coworker ' s drink to

g i ve

Ms.

Ke nna n

that

person

diarrhea . "

also

alleged

that

Plai n tiff had attempted to fol low h er home.
Plaintiff

was

pla c e d

a nd i n for med th at he
and

Ms.

Hubbard .

Ha r wig that he fel t
to

t heir apparent

under

i nvestiga ti on

should avoi d al l

Pl aint iff

alleges

f or

mi sconduct ,

contact wi th Ms .
t ha t

he

reported

Kennan
to

Mr .

t hreatened by Ms . Kennan and Ms . Hubbard d ue
fals e

accu sations
2

App. 35

aga i ns t

him ,

and

that

he

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 3 of 9 PageID# 1180

feared for his safety around Ms .

Kenna n beca u se she had stated

on multiple occasions that she was "a former Marine ,
and a

good shot . "

According to Plaintiff ,

Mr .

a marksman

Harwig dismissed

Plaintiff ' s concerns without investigation .
Soon after this ,

Plaintiff was detained and interviewed by

Fort Bel voir Police for allegedly viola t ing a
that Ms .

Kennan had taken out against him .

restraining order
The officers

found

th at Plaintiff was wearing a recording device with a microphone
wired through his shirt sleeve , and he was a lso in possession of
a

capabi lit i es .
which

he

with

video

Plaintiff was then int ervi ewed by the FBI ,

d uring

admitted

a nd

recorder

voice

digital

to wearing

the mic rop h one

r ecord conversations with his coworkers ,
prior occasion

he

p ho ne

camera

had attempte d

to

in

an

attempt

to

and admitted that on a

reco rd a

conversation

with

his supervisors .
Following
materials

was

preliminary
suspension,
review ,

these

suspended .

decision
without

but

events ,

offered

Plaintiff ' s

TEC

to

Director

place

pay ,

Mr .

the
an

19 ,

between

2005 ,

attorney ,
device

Plainr.iff ,

Plaintiff did

into

a

not

restricted

3

App. 36

that
on

two

classified

of

At a

his
to

a

security

rebut

the

meeting on May

and

he

made

administrative

opportunity

Burkhardt,

dispute

facili ty

on

outcome

allegations being made against him first .

to

Burkhardt

Plaintiff

pending

Plaintiff

access

wore

previous

Plaintiff's
a

recording
occasions ,

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 4 of 9 PageID# 1181

possessed numerous

recording devices

in a

restricted facility ,

or that he commented about having the ability to make bombs or
about

how

meeting ,

he

was

a

person

who

took

revenge .

At

that

same

Plaintiff ' s attorney warned Mr . Burkhardt that the Army

could face an EEO action if Plaintiff was suspended without pay .
After the May 1 9 meet i ng , Mr. Burkhardt officially dec i ded
to

suspend

security
paid,

Plaintiff

clearance ,

duty

without

pay

d e termining

status

would

be

pending

that

adjudication

retaining

detrimental

to

of

Plaintiff

national

his
in

a

security

inte rests . Mr . Burkhardt made th is dec ision after speaking with
Plaintiff ' s

colleagues

regar ding

the

situation

and

reviewing

documents pertinent to the allegations . Plaintiff remained on an

from

was

clearance was

restored on September 26 ,

Plaintiff

found

was

pending ,

May

investigation

not

defending himself in a
also

filed

a

formal

guilty of

9,

Off ice

of

2014 .

EEO

complaint

In the

stalking

d u ring

inte rim,

charges

this

his

after

Plaint i ff

time,

which

decision finding no discrimination on

Plaint iff appealed

Federal

2007 .

jury trial in Fairfax County .

ultimately res ulted in a
March

the

until

2005 ,

27 ,

th e

while

days

852

for

suspension

unpaid

indefinite ,

Operations ,

the decision

which

affirmed

to

the

the

EEOC ' s

decision

on

December 2 , 2016 .
Plaintiff
Defendant

filed

engaged

in

suit on

February 28 ,

unlawful

age
4

App. 37

and

2017 ,

sex

alleging

that

discrimination

in

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 5 of 9 PageID# 1182

violation

of

Title

Di s c r imination
Plaintiff

in

on

work

co ns ider

and

him

Civil
Act

Ri ght s

( the

rat her

during

the

Ac t

and

"ADEA" )
tha n

by

the

placing

providing

a djudica tion

Age

paici

of

his

He also alleged r etalia tion in violation of

the

ADEA due

investigate

di s crimination

the

suspension

for

security c l earance .
and

of

Employment

u n paid

unclassified

Title VII

VI I

that

to

Defendant 's allege d

Pla i n tif f ' s

Plaintiff

made

claims
before

of
he

refusal

a ge
was

and

placed

to
se x
on

inde finite suspension without pa y .
Title VII provides that " [a]ll pe rsonn el act ions " affecting
fe de ral

e mp loyees

like

Plaintiff "sha ll be ma de fr ee

discrimi nat i on b ased o n

se x ."

Fu rth ermore ,

th at

the

ADEA

p rovides

a f fecti ng emp l oyee s "who are a t
e x e c utive

agencies

42

U. S . C .

20 00e-1 6 (a ) .

p ersonnel

action s"

least 40 years of ag e

in

shall

" [a] 11

§

from a ny

be

made

fre e

f r om

any

discr i minati o n ba s ed on age ." 2 9 U.S . C . § 633a(a) . Unde r e ithe r
statute ,

where a plaintiff does not present

di scrimination ,
Douglas
Gre e n ,
mu s t

evide nce of

he must prove a vio lat ion t h r ough t he McDonnell

burden - shifting
411 U. S . 7 92

first

direct

framework .

McDonnel l

Douglas

( 197 3) . Under t hi s frame work ,

establish a

prima

facie

case

Corp .

v.

t he plaintiff

of di scr imination

or

ret a liation . Foster v . Univ . of Md . Eastern Shor e, 787 F . 3d 243 ,
250

(4th Cir .

produce

a

2015) . The burde n then s hift s to th e employer to
legitimate ,

non - discriminatory
5

App. 38

re ason

for

the

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 6 of 9 PageID# 1183

decision .

Id .

employer ' s

Finally ,

stated

the

plaintiff

reason

is

must

merely

establish

a

pretext .

that

the

Reeves

v.

Sanderson Plumbing Prods ., Inc ., 530 U. S. 133 , 142 (2000) .
Here ,

Plaintiff

cannot

establish

either age or sex discrimination .
case of discrimination ,
member

of

employment
plaintiff
legitimate
outside

a

was

at

the

performing

at

the

and

plaintiff's

See Coleman v .

time

a

he

suffered

of the

level

(4)

case

facie

of

To demonstrate a prima facie

(2)

class,

expectations ,

of

favorably .

(3)

prima

a plaintiff must show that

protected

action ,

a

he is a

an

adverse

adverse action

that

met

similarly

protected

( 1)

his

employer ' s

situated

class

were

t he

employees

treated

Ma ryland Court of Appeals ,

62 6

more
F . 3d

187 , 190 (4th Cir . 2010) .
Although "plaintiffs are not required as a matter of law to
point

to

a

similarly

situated

discrimination claim ," where a
to establish his prima

facie

comparator

to

succeed

on

a

plaintiff relies on comparators
claim,

those

comparators must be

" similar in all relevant respects," including " evidence that the
employees dealt with the
same

conduct

circumstances
employer ' s

without
that

same superviso r"
such

would

and " engaged i n the
or

differ e ntiating

disting uish

their

mitigating

conduct

treatment of them for it . " Haywood v .

Locke ,

or
387

the
F.

App ' x 355 , 359 (4th Cir . 2010).
Plaintiff

attempts

identify

to
6

App. 39

similarly

situated

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 7 of 9 PageID# 1184

comparators

by

pointing

clearances had not ye t
revo ked ,
that

di d

out

th at

" all

bee n approved,

other

employees

whose

or had been suspended or

had remai ned i n pa id duty status and assigned duties
not

require

a

security

clearance . "

However ,

of

the

seventeen other ERDC employees who lost or we re denied access to
classified info rmation ,

none are similarly situated .

decisio n maker i n Pl aintiff ' s case

(Mr .

Burkhardt)

decis ion ma ker in any of the other cases .
o the r

se venteen

info rma tion

employees

suspended

for

had
even

their
remotely

none of the

to

similar

the

was not the

Second ,

access

First ,

classified

reasons ,

and

thu s d id not engage in the "same conduct " as Plaintiff .
Furthermore ,

facie

claim

if

Plaintiff

disparate

and

Plaintiff

could

treatment ,

cannot

establish

Defendant

reasons

non - discriminatory

legitimate ,
decision ,

of

even

demonstrate

has

that

prima

provided
suspension

the

for

a

those

reasons

were pretextual . Mr . Burkhardt explained in his decision letter
tha t

Plaintiff

was

retaining

Plaintiff

nationa l

security

placed
in

on

paid ,

administrative

duty

interests

due

status
to

the

leave

posed

a

multiple

because

danger

to

concerns

regarding Plaintiff ' s alleged behavior . These justifications are
supported by the evidence , and there is no evidence to show that
they

are

merely

pre textual .

Thus ,

Plaintiff ' s

discrimination

claim fails as a matter of law .
Plaintiff ' s

retaliation

claim also
7

App. 40

fails

as

a

matter

of

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 8 of 9 PageID# 1185

law .

Once

again ,

framework,

u nder

him,

and

Douglas

burden-shifting

establish a prima facie case of

Plaintiff must show that:

protected activity,

agains t

McDonnell

Plaintiff must firs t

retaliation. To do so,
in a

the

(3)

( 2)

Defe ndant

there

was

a

( 1)

he engaged

took an adverse action

causal

link

betwee n

the

protected activity and t he adverse action. E.E.O.C. v. Navy Fed.
Credi t

Union ,

causation,

a

reprisal was
Univ.

424

p laintiff

405-06

claiming

(4th Cir .

2005).

r etaliation

must

To

prove

show

that

the "but for" cause of the personnel action.

of Tex.

(2013)

F.3d 397,

Sw .

Med.

Ctr .

v.

Nassar,

133 S .

Ct.

2517,

See
2528

(applying "but for" standard of causation fo r reta liat ion

cla im under Title VII ); Gross v. FBL Fin . Servs ., Inc., 557 U.S.
167 , 176-77

(2009)

(applying same standard for retalia tion claim

under t he ADEA) .
Plaintiff cannot prove a prima

facie

case of

retaliation

because he cannot establish that "but fo r" a r e tal iatory motive,
he

would

not

have

been

suspended

without

pay.

Plaintiff's

alleged protected activity was his complaint at the May 19, 2005
meeting that he was subjected to disparate treatment and that he
would

bring

Plaintiff
Howeve r ,

in

an

EEO

a

paid

prior

to

action

if

Mr .

position

this

Burkhardt

pe rforming

meeting,

Mr.

did

not

r e tain

non-classified

Burkhardt

had

work .

already

pre limina rily determined that he was going to suspend Plaintiff
without

pay

unless

Plaintiff

satisfactorily

8

App. 41

rebutted

t he

Case 1:17-cv-00568-CMH-TCB Document 65 Filed 04/16/18 Page 9 of 9 PageID# 1186

allegations made against him . Plaintiff d i d not do so when given
the

opportunity .

decision

to

protected

Thus ,

suspend

activity ,

Mr .

Burkhardt

Plaintiff
and

so

befo r e

Plaintiff

ha d

a lread y

Pla in tiff
cannot

made

the

engaged

s how

that

in
his

protected activity was the " but - for u cause of his suspension .
Furthermore ,

as discussed supra ,

and

non-discriminatory

l egitima te ,
justifications

for

the

Defendant has put forward
non - retaliatory

suspens i on deci sio n which are

supported

by the evidence , and Plaintiff ha s not p r oduced evidence to show
th at those justifications are pretext ual . Therefore ,

Pla intiff ' s

retalia tion claim fails as a matter of law .
For th e fo regoing reasons ,
is

entitled

to

summar y

this Court finds t hat Defendant

judgment.

An

appropriate

order

sha ll

issue.

L6;,<~ ~ .- y / - ~

CLAUDE M. HI LTON
UNITED STATES DISTRICT JUDGE
Alexandria , Virginia
April
2018

!fo---,

9

App. 42

Case 1:17-cv-00568-CMH-TCB Document 66 Filed 04/16/18 Page 1 of 1 PageID# 1187

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Alexandria Division
WALTON CAMPBELL ,
Plaintiff ,
Civil Action No . l : 17 - cv-00 5 68

v.
MARK ES PER,
Secretary of the Army
Defendant .

ORDER
I n accordance with the accompanyi n g Memorandum Opi n ion , it
is h ereby
ORDERED t h at Defendant's Mo ti o n for Summary J udgment is
GRANTED , a n d this case is d i smissed .

Ceo,L<~ hz - # ~

CLAUDE M. HI LTON
UN IT ED STATES DI STRI CT JUDGE
Alexandria , Virginia
April __/_42_ , 20 18

App. 43

Case 1:17-cv-00568-CMH-TCB Document 41 Filed 09/18/17 Page 1 of 1 PageID# 428

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Ale xandria Division
)

WALTON CAMPBELL ,

)
)

Plain ti ff,

)

)
)

) Civil Action No . 1 : 17 - cv-00 56 8

v.

)
)

ROBERT M. SPEER,

)
)

Defendant.

)
)

ORDER

THIS MATT ER comes b efore the Court on Defe ndant ' s Motio n to
Dismiss for Lack of J u risdiction and Motion for J udgment o n t he
Plead ings .

With

regard

to

Counts

I

and

II

of

the

Amended

Complaint , the Court is of the opin i on that Plaintiff h as s tated
claims upon which recovery may be h ad . With regard to Count III ,
the Court i s of th e opinion that Plainti ff has not e xhaus t ed his
admi nistra ti ve r emedies. Accordingly , it is hereby
ORDERED that Plaintiff ' s Motion to Dismiss is DENIED as to
Counts I

and II and GRANTED a s

to Count III ,

and Count III is

dismissed without prejudice .

~~,~~

Al exandria , Virgini a
September .l!d..__, 2017

CLAUDE M. HILTON
UNITED STATES DISTRICT JUDGE

App. 44

USCA4 Appeal: 18-1890

Doc: 49

Filed: 05/04/2020

Pg: 1 of 1

FILED: May 4, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-1890
(1:17-cv-00568-CMH-TCB)
___________________
WALTON CAMPBELL
Plaintiff - Appellant
v.
RYAN D. MCCARTHY, Secretary of the Army
Defendant - Appellee
___________________
ORDER
___________________
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge King, Judge Agee, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor, Clerk

App. 45

EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
WASHINGTON FIELD OFFICE
131 M Street, N.E., Suite 4NW02F
Washington, D.C. 20507

Walton B. Campbell,
Complainant,
V.

John McHugh,
Secretary,
Department Of Army,
Agency.

------------------

) EEOC No. 570-2006-00375X
) Agency No. ACEERDC05JUL0922
)
)
)
)
)
)
)
)
)
)
Date: March 19, 2014

ORDER ENTERING JUDGMENT

For the reasons set forth in the enclosed Decision judgment in the above-captioned matter
is hereby entered. A Notice to the Parties explaining their appeal rights is attached to the
Decision.
For timeliness purposes it shall be presumed that the parties received the foregoing
Decision within five (5) business days after the date they were sent via first class mail.

It is so ORDERED.

App. 46

To:
Walton B. Campbell
6036 Richmond Highway
#211
Alexandria, VA 22303
June D.W. Kalijarvi, Esq.
Kalij arvi, Chuzi & Newman, PC
1901 L Street, NW, Ste. 610
WDC 20036
Timothy Felker, Esq.
Servicing Labor Counsel
U.S. Army Engineer Research & Development Center
CEERD-OC-A, Bldg. 2592
7701 Telegraph Road
Alexandria, VA 22315-3864
Linda S. Wilkinson, EEO Mgr.
ERDC-Army Corps of Engineers
Waterway Experiment Station
3 909 Halls Ferry Road
Vicksburg, MS 39180-6199

App. 47

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION

Washington Field Office
131 M Street, N.E., Suite 04NW
Washington, D.C. 20507

Walton B. Campbell,
Complainant,

) EEOC No. 570-2006-00375X
) Agency No. ACEERDC05JUL0922
)
)
)
)
)
)
)
)
)
)
Date: March 19, 2014

V.

John McHugh,
Secretary,
Department Of Army,
Agency.

DECISION

This Decision is issued pursuant to 29 C.F.R. § 1614.109(g) (2013). This office issued an
Acknowledgment Order on June 27, 2006. The Agency filed its Motion for Summary Judgment
on November 2, 20006 (Agency Motion). Complainant filed a Response to the Agency's Motion
on December 4, 2006. (Complainant's Motion). The Agency submitted its Reply to
Complainant's Motion on December 18, 2006. (Agency Reply). Complainant submitted
Complainant's Supplemental Clarification on January 2, 2007. (Complainant's Clarification).
The Agency submitted its Response to Complainant's Clarification on January 9, 2007 (Agency
Response). On September 19, 2007, this Judge issued a decision without a hearing in favor of
the Agency.
Complainant timely filed an appeal with the EEOC's Office of Federal Operations (OFO)
arguing that there were genuine issues of fact in dispute regarding the Agency's reasons for
suspending him which were material to whether or not the suspension was discriminatory (or
retaliatory). OFO agreed with Complainant's position and on May 14, 2010, issued a Decision
reversing the AJ's decision (OFO Remand) without a hearing and the Agency's final order, and
remanding the matter to the Washington Field Office Hearings Unit for the holding of a hearing.
A hearing was held before this Administrative Judge on December 3, 4, and 5, 2012.
Eleven witnesses testified, including two called by Complainant, and nine called by both parties.
One witness, R. Paul Harwig, the former Division Director of the Operations Division at the
Agency had retired by the time of the hearing and failed to appear although called by both
parties. His deposition was introduced pursuant to F. R. Civ. P. 32(a). CE Complainant's Exhibit
(CE) 33. At the conclusion of the hearing the AJ directed the parties to file Closing Briefs on the
-1-

App. 48

substantive issue of discrimination and retaliation and liability, and on the issue of the relevance
of the Defense Office of Hearings and Appeals (DOHA) Recommended Decision and the
Personnel Security Appeals Board (PSAB) decision reinstating Complainant's clearance. The AJ
bifurcated the liability phase of the hearing and the damages phase. On January 13, 2014, an
Order for Damages Evidence was sent to the parties. 1

ISSUE
The issue is whether the Agency discriminated against Complainant because of his of sex
(male), age (57, D.O.B: 6/30/47) and/or retaliation/reprisal in violation of Title VII of the Civil
Rights Act of 1964 (Title VII), 42 USC § 2000e-16, and the Age Discrimination in Employment
Act (ADEA), 29 USC 633a when on May 27, 2005, Complainant was indefinitely suspended
without pay pending determination of his secret security clearance.2
Report of Investigation (ROI) at C-2.

FACTUAL BACKGROUND
The Complainant is Dr. Walton Campbell. The Agency is the Department of the Army,
Army Corps of Engineers, Engineer Research and Development Center (ERDC), Topographic
Engineering Center (TEC), Operations Division. Complainant began his employment with the
Agency on July 27, 2004, as a DB-1301-04 (GS-14 equivalent) Physical Scientist assigned to the
Engineer Research and Development Center (ERDC), Topographic Engineering Center (TEC),
Operations Division (Agency). HT at 47-48.
After Complainant entered on duty at the Agency it assigned him to the Information
Services Branch, Source Acquisition Team (SAT) within the Operations Division, TEC, ERDC.
Mary Pat Santoro (female) was the Branch Chief and Theresa Rasmussen (female) was the Team
Leader. HT at 20. The other members of the SAT were two younger white females, Tish Kennan
and Alana Hubbard, Marty Downing (male), and Loretta Williams (black female). HT at 51-52.
Complainant, Ms. Kennan, Ms. Hubbard and Mr. Downing were all assigned to the SAT doing
similar work although Ms. Kennan, Ms. Hubbard and Mr. Downing had TS/SCI clearances and
worked in the Agency's SCIF to which Complainant was not allowed access. HT at 51-52;
368-370; 414-415, 418; ROI FFC Tr. at 67-68. The Division Chief of the Operations Division
was R. Paul Harwig (male, age: 48, D.O.B.: 9/1/57); the Director of the TEC was Robert

1

That Order indicated that I believed Complainant to be the prevailing party in this case and required the
parties to submit motions regarding the appropriate damages for this case. However, after a careful and arduous
review of the hearings transcript, all of the evidence therein and all of the hearings record, I find that determination
to have been premature. As such, the Agency need not reply.
2

There is also an issue regarding the admissibility, relevance and governance ofDOHA's Recommended
Decision (CE 35) and the PSAB Decision (CE 36) restoring Complainant's security clearance (TS/SCI), which was
originally raised by Complainant in his Prehearing brief and reasserted in his Post Hearing brief. This issue will be
addressed in the Analysis section of this Decision.

-2-

App. 49

Burkhardt (male, age: 57, D.O.B.: 10/26/48); and the Commanding Officer of the ERDC was
Colonel James Rowan. ROI Exhibit (Ex.) F-1 at 57; 3 HT at 253.
Personnel employed by the Agency in the Operations Division, TEC, ERDC are required
to have security clearances which are called "Top Secret/Sensitive Compartmented Information
(TS/SCI)." ROI Ex. F-15 at 128. Such personnel are subject to the provisions of Army Regulation (AR) 380-67 "Personnel Security Program." ROI Ex. F-15. When new personnel entered on
duty in the Operations Division and TEC who did not have an appropriate clearance, the Agency
applied for them to be granted a TS/SCI clearance. HT at 415; HT at 55-56; CE 33 at 18. In the
interim the new employees were assigned unclassified duties to work on in an unclassifred work
space. Id. Employees of the Operations Division with TS/SCI clearances worked in a separate
restricted facility called a SCIF (Secure Compartmentalized Intelligence Facility). HT at 370.
From July 27, 2004, until February 9, 2005, Complainant was assigned unclassified duties, that is, duties which did not require a security clearance, pending the Agency issuing him a
TS/SCI security clearance, and he worked in an unclassified work space that did not require a
clearance. HT at 48-49; 216; 369; ROI FFC Tr. at 17-18, 32. In September, 2004, Complainant
received an interim Secret clearance; however, he continued to perform unclassified duties which
did not require a clearance and he continued to work in an unclassified space. HT at 48-50;
214-215.
On February 9, 2005, Complainant was granted a TS/SCI clearance. AE 1. Enclosures
(Encl.) 2,3. At that point Complainant was aqowed access to the SCIF and Ms. Hubbard began to
train Complainant in the SCIF. HT at 368-370; 418. On February 22, 2005, Complainant was
transferred to the Current Operations Team, Terrain Analysis Branch, within the Operations
Division, TEC, ERDC. HT at 19; 67-68. Charles Lopez was the Branch Chief of the Terrain
Analysis Branch and Jeffrey Popp was the Team Leader of the Current Operations Team. Id.
After Complainant was transferred to Mr. Lopez's Branch his assignments and duties did not
require access to classified information. ROI Ex. F-8 at 84-85.
Between July 27, 2004, and March 7, 2005, Complainant's supervisors did not witness
any performance or conduct by Complainant which caused them any concerns nor did they
contemporaneously document any concerns and/or consider Complainant a threat to national
security. HT at 30-32; 199, 210-211, 216,217; 416-417, 421. Complainant's relationships with
his coworkers and superiors were collegial and cordial and no one expressed any concerns about
his conduct in the workplace. HT at 53-54, 118. All his supervisors in both branches and on both
teams observed Complainant to be a good, professional, thorough and efficient worker ("a great

3

The reference to ROI page numbers refers to the handwritten page numbers at the bottom center of the
pages in the ROI. The reference to ROI Fact Finding Conference Transcript (ROI FFC Tr.) page numbers refers to
the printed page numbers at the top right comer of the printed transcript. CE refers to Complainant's Exhibits. AE
refers to Agency's Exhibits.

-3-

App. 50

worker") who treated his supervisors and co-workers professionally and with respect. ROI PFC
Tr. at 194; HT at 27, 30-3; 419.
From July 27, 2004, until February 25, 2005, Complainant regularly would have lunch
with several of his co-workers on the SAT, including the two younger females on the Source
Acquisition Team, Tish Kennan and Alana Hubbard, as well as Marty Downing. HT at 53. On
several occasions Ms. Kennan would remark during these gatherings that she was a former
Marine, a good marksman and that she knew how to shoot. HT at 59-61; 207. Occasionally
during this period (July 27, 2004, - February 25, 2005) Ms. Hubbard and Ms. Kennan discussed
with each other, Mr. Downing and their supervisors that they would prefer not to have
Complainant accompany them to lunch but they did not want to tell him so for fear of hurting his
feelings. HT at 398-399; 418; AE 1 Encls. 10, 16.
They also alleged Complainant followed Ms. Kennan around the work site. HT at
113-116; 212-213; 406. At no time during this time period did Ms. Kennan nor Ms. Hubbard
advise anyone that they were afraid of Complainant or feared for their safety and no one observed
Complainant behaving in a threatening manner toward anyone or behaving in a manner which
caused anyone concern. HT at 30; 199, 210-211; 401-402; 416-417; ROI PFC Tr. at 138. Neither
Ms. Kennan nor Ms. Hubbard ever told Complainant that they did not want him to socialize with
them or that they were afraid of him; that he was sexually harassing, bothering/distracting them,
interfering with their working or that he was inappropriately staring at Ms. Kennan. HT at 57-58.
Complainant was transferred within the Operations Division from Ms. Santoro's branch
and Ms. Rasmussen's team to Mr. Lopez's branch and Mr. Popp's team effective February 22,
2005. AE 21. After his transfer to Mr. Popp's team and Mr. Lopez's branch Complainant was
assigned unclassified duties and he worked in unclassified space "search[ing] the open literature
for information on population densities of Iranian cities." HT at 67-68; 19-20.
On February 25, 2005, Complainant went to the SCIF in which Ms. Kerman and Ms.
Hubbard were working and watched the program on which they were working. HT at 70-73.
Shortly before Complainant, Ms. Hubbard and Ms. Kennan left the SCIF to go to lunch, Mr.
Harwig, Division Director, Operations Division, opened the door to the SCIF and noticed
Complainant observing Ms. Kennan and Ms. Hubbard work. Id. at 373-374. Mr. Harwig asked
Complainant what he was doing in the SCIF and Complainant responded "observing." Id. Mr.
Harwig responded "Oh" and left. Id. Ms. Hubbard, Ms. Kennan and Complainant then went to
lunch at a public restaurant. Id. at 74-75.
The two younger women apparently went to the EEO office later that day and then told
Mr. Harwig that Complainant had been "distracting" them and made them feel "uncomfortable."
On February 25, 2005, Mr. Harwig had Complainant's access to the SCIF removed. CE 1. After
February 25, 2005, Complainant had no further interaction with either Ms. Kennan or Ms.
Hubbard. HT at 75-76.

-4-

App. 51

Ms. Kennan and Ms. Hubbard also met contemporaneously with Mr. Popp and told him
Complainant was "interfering" with their work and/or "bothering" or "distracting" them. HT at
22-25, 41. Mr. Popp told them he would speak to Complainant regarding their concerns - which
he did. Id. at 23. Neither Ms. Kennan nor Ms. Hubbard told Mr. Popp that they were in fear of
physical harm from Complainant nor did they claim he was sexually harassing one or both of
them. Id. at 25. Neither Ms. Kennan nor Ms. Hubbard told Mr. Popp that Complainant touched
them or said anything inappropriate to them or that he was too physically close to them, just that
Complainant was interfering with their work. Id. at 41. Ms. Kennan and Ms. Hubbard indicated
to Mr. Popp that they were concerned about their abilities to do their jobs. Id. at 32-33.
On February 28, 2005, Mr. Harwig directed Complainant's Team Leader, Mr. Popp, to
direct Complainant not to distract or interact with either Ms. Kennan or Ms. Hubbard and to
advise Complainant that his access to the SCIF had been removed. CEs 1, 2; HT at 26; AE 21.
On March 1, 2005, Complainant's TS/SCI clearance was suspended by Mr. Harwig and he
continued to be assigned unclassified duties. HT at 21.
On March 7, 2005, the Complainant responded to his supervisors when he sent an e-mail
to his TEC chain of command, the TEC Legal Office, and TEC Security, entitled,
"Whistleblowing on aberrant staff behavior," denying any misconduct and making allegations
against Ms. Hubbard and Ms. Kennan that they were mentally unstable and unprofessional. AE 1
at 11-1 7. One of his allegations was that Tish Kennan was suffering from "malignant uterine
cancer and a hysterectomy" and "being a single parent and having to commute every day across
the Wilson Bridge." Id. at 16. Complainant alleged that these things, as well as some of the
aforementioned comments at lunch gatherings made Ms. Hubbard and Ms. Kennan potential
security risks. Id. at 11- 17; CE 3. According to Complainant, his security concerns arose from
Ms. Kennan's and Ms. Hubbard's alleged loud and public derogatory comments and expressions
of contempt for their supervisors. Id.; HT at 77-80; ROI FFC Tr. at 69-70.
On March 8, 2005, Mr. Harwig directed Complainant's Branch Chief, Mr. Lopez, to
counsel Complainant concerning sexual harassment. ROI FFC Tr. at 60-61, 70-71; ROI Ex. F 14.
Also on March 8, 2005, Mr. Harwig interviewed Ms. Santoro, Ms. Rasmussen and Mr. Downing
concerning Complainant's assertions concerning Ms. Kennan and Ms. Hubbard. CE 4. On March
9, 2005, Mr. Harwig interviewed Ms. Kennan and Ms. Hubbard concerning Complainant's
assertions. CE 4; HT at 380-381. After all of the aforementioned consultations, Mr. Harwig
concluded that Complainant's allegations against Ms. Kennan and Ms. Hubbard were without
merit and need not be further investigated. CEs 5, 7. After Ms. Kerman and Ms. Hubbard learned
on March 9, 2005, about Complainant's March 7, 2005, memorandum raising security concerns
about them, they then told their supervisors they felt threatened by Complainant. HT at 379-3 80.
On March 10, 2005, Mr. Harwig formally suspended Complainant's access to the Agency's
secure facility (SCIF), advised Complainant he was being investigated for misconduct (re his
alleged workplace behaviors) and again ordered Complainant not to interact with Ms. Kennan or
Ms. Hubbard. CEs 4, 5; AE 21.

-5-

App. 52

On March 11, 2005, Mr. Harwig and other Agency managers met with Complainant in
Room 506 of the Cude Building concerning Ms. Kennan's allegations that Complainant had been
"stalking" her and had followed her on her route home at the end of the day two days earlier,
March 9, 2011. CE 7; HT at 94. Mr. Harwig indicated to Complainant that the allegations were
viewed as a potential workplace violence issue and were considered serious. Id. Mr. Harwig
asked Complainant about Ms. Kennan's allegation that he had stalked and/or followed her.
Complainant denied the allegation and asserted that he in turn felt threatened by the two women.
He advised Mr. Harwig that at the time that Kennan alleged that he had followed her, he had
been at the gym with a co-worker (Laura Mulholland) and then had driven home. Mr. Harwig
indicated that he thought there was a discrepancy in Complainant's statement regarding his
address and instructed Mr. Lopez to ask Complainant what his current address was. Id.
Shortly after that meeting Mr. Lopez requested that Complainant provide them with his
home address and telephone number. HT at 85-89. Mr. Lopez gave Complainant a form to
complete with the requested information. ROI FFC Tr. at 184, 195. In his response Complainant
provided the Agency his personal cell phone number and the address to which he was having his
mail sent while he moved his place ofresidence. Id. Ms. Kennan on March 11, 2005, signed a
Fairfax County arrest warrant accusing Complainant of stalking her two days earlier. Id. Mr.
Harwig also asked Ms. Santoro, Ms. Rasmussen, Mr. Downing, Ms. Hubbard and Ms. Kennan to
prepare statements about "incidents" involving Complainant. Id. at 14-15, 46-52.
After Complainant was apprised of Ms. Kennan's and Ms. Hubbard's allegations and after
Mr. Harwig told Complainant that he was being investigated for misconduct, Complainant
indicated that he brought a recording device to his unclassified work area. HT at 90-92; ROI FFC
Tr. at 36-38, 42-43. On March 10, 11 and 14, 2005, Complainant unsuccessfully attempted to
record conversations with his supervisors and/or co-workers. 4 ROI FFC Tr. at 37-38; HT at
322-323.
On March 14, 2005, Complainant was confronted as he arrived at his unclassified work
station, arrested and placed in handcuffs by Agency security personnel based on the warrant
sworn out by Ms. Kennan. ROI Ex, F-8; CE 8. At the time of his arrest it was discovered that he
had a recording device, a cell phone with photographic capability, and a "jogger's FM radio
receiver." Id. After his arrest Complainant was interrogated by two FBI agents who determined
that although they believed Complainant committed a security/procedural violation, he had not
compromised any classified information despite having the recording device and the cell phone
on his person and the FBI would therefore not conduct any further investigation. ROI Ex. F8 at
86-87; CE 8.

4

The events at issue here occurred in and around a building on the Agency's premises next to Fort Belvoir,
Virginia, designated as the Cude Building (Building 2592). A "Notice" is posted outside the Cude Building which
states "Visitors" are "subject to inspection for firearms, explosives and dangerous weapons." ROI Ex. F-12 at 100. A
sign outside Room 506 (an unclassified space) in the Cude Building states that: "Photographing, making notes,
drawings, maps, or graphic representations of this area or its activities is prohibited." ROI Ex. F-11 at 97.

-6-

App. 53

On March 14, 2005, the Agency formally removed Complainant's access to classified information. However, he continued to be assigned duties which did not require a security clearance. ROI Ex. F-8 at 84; HT at 21; 67-68. The Agency continued to assign Complainant
unclassified duties to perform from March 14, 2005, until April 27, 2005, when he was placed on
paid administrative leave until May 27, 2005, when he was placed on indefinite suspension
without pay. Id. at 3. Complainant's supervisors confirmed that between March 14, 2005, and
May 27, 2005, "[complainant's] current duties did not require for him to have access to classified
information" and that he was performing his duties in an exemplary manner, proactively and
thoroughly. Id.; ROI Ex. F-8; ROI FFC Tr. at 193-194.
On March 15, 2005, the County of Fairfax, Virginia charged the Complainant with
"Stalking." AE 2 at 100. That information was a matter of public record and was considered
reportable derogatory information under AR 380-67, paragraph 2-200. ROI at 77, 88; 119-200.
Mr. Burkhardt was aware of this information and under the aforementioned guidance was
allowed to consider it when making his determination to suspend Complainant. Id. Complainant
was subsequently convicted by a Judge on the charge of stalking on June 27, 2005. CE 27 at
225-226. However, Complainant was later found not guilty of the same charge by a jury on
October 19, 2005. CE 29 at 228. All references to this charge were ultimately ordered expunged
from all official records.
On April 27, 2005, the Agency issued Complainant a Notice of Proposed Suspension
(indefinite suspension without pay) pending adjudication of his security clearance. Complainant
and his then-attorney presented an oral reply to the proposed indefinite suspension to the
deciding official, Robert Burkhardt, on May 19, 2005. ROI at 70-72. In that oral reply
Complainant raised the issue that he was being discriminated against with respect to the proposal
to indefinitely suspend him without pay instead of assigning him unclassified duties and/or
placing him in a position which did not require a security clearance. 5 Id. at 71-72. Complainant
emphasized that he believed he was being treated differently from his two young female
co-workers, Ms. Kennan and Ms. Hubbard. On May 27, 2005, the Agency issued a decision
placing Complainant on indefinite suspension without pay, specifically citing in its decision letter
Complainant's allegations that he was being discriminated against, and stating that the Agency
did not believe his EEO claims. ROI Exhibit F-5 at 71-72.
On November 16, 2005, Complainant advised Mr. Harwig and Mr. Lopez of the October
19, 2005, decision finding him not guilty of stalking. However, the Agency decided not to allow
him to return to work at that time pending a final determination regarding his security clearance.
Complainant remained on indefinite suspension without pay until the Agency restored his
clearance effective September 26, 2007, after the DOD Office of Hearings and Appeals (DOHA)
determined that Complainant's security clearance should be restored. The Department of the
5

This oral reply to the Agency's Notice of Proposed Suspension in which he raised the issue of
discriminatory disparate treatment is the basis of Complainant's allegation(s) of reprisal.

-7-

App. 54

Army concurred and restored Complainant's clearance. HT at 119; CE 35, CE 36.
ANALYSIS
Absent direct evidence of discrimination, the complainant in a Title VII case must carry
the initial burden under the statute of establishing a prima facie case of discrimination. The
burden of establishing a prima facie case is not onerous. To establish a prima facie case of
disparate treatment, a Complainant may demonstrate that he/she was treated less favorably than a
similarly situated employee outside his/her protected group. Furnco Constr. Corp. v. Waters,
438 U.S. 567 (1978). Absent comparative data, Complainant may also establish aprimafacie
case by setting forth sufficient evidence to create an inference of discrimination. Texas Dep't of
Cmty. Affairs v. Burdine, 450 U.S. 248,256 (1981), n. 6; McDonnell Douglas Corp. v. Green,
411 U.S. 792, 802-03 (1973).
If Complainant establishes a prima facie case of discrimination, the burden then is on the
Agency to articulate a legitimate, nondiscriminatory reason for its challenged actions. Burdine,
450 U.S. at 252-54; McDonnell Douglas Corp. 411 U.S. at 802. If the Agency does so, the
primafacie inference drops from the case. St. Mary's Honor Center v. Hicks, 509 U.S. 502, 507,
510-11 (1993). Complainant then has to prove by a preponderance of the evidence that the
proffered explanation is a pretext for unlawful discrimination. Hicks, 509 U.S. at 511; Burdine,
450 U.S. at 252-53; McDonnell Douglas, 411 U.S. at 804. Complainant always retains the
ultimate burden of persuading the trier of fact that the Agency unlawfully discriminated against
him/her. Hicks, 509 U.S. at 511; United States Postal Service Bd. of Governors v. Aikens, 460
U.S. 711, 715 (1983).
The McDonnell Douglas burden-shifting framework applies in reprisal cases. See
Hochstadt v. Worcester Foundation for Experimental Biology, Inc., 425 F.Supp. 318 (D. Mass.
1976), aff'd, 545 F.2d 222 (1st Cir. 1976); McKenna v. Weinberger, 729 F.2d 783 (D.C. Cir.
1984); Downing v. US.P.S., EEOC Appeal No. 01822326 (September 19, 1983). Accordingly, a
reprisal complainant must first establish a prima facie case by a preponderance of the evidence
by showing that (1) the complainant engaged in protected activity; (2) the employer was aware of
the protected activity; (3) the complainant was subsequently subjected to adverse treatment; and
(4) the adverse action followed the protected activity within such a period of time that a
retaliatory motivation may be inferred. See Downing v. US.P.S., EEOC Appeal No. 01822326
(September 19, 1983). Thereafter, the standard McDonnell Douglas burden-shifting framework
requires the Agency to articulate a legitimate, non-discriminatory reason for its actions, which
reason the complainant is then required to show is a pretext for unlawful discrimination by the
Agency. See Burdine, 450 U.S. at 253; McDonnell Douglas, 411 U.S. at 804; Hicks, 509 U.S. at
507-08.
DOHA and PSAB Decisions
In a decision dated September 5, 2007, an Administrative Judge of the Defense Office of
Hearings and Appeals (DOHA) issued a "Recommended Decision" (DOHA Recommendation)
-8-

App. 55

finding that it was consistent with the national interest for complainant's security clearance to be
restored to him. CE 35. The Agency Personnel Security Appeals Board (PSAB) then issued a
final determination accepting and ratifying the Administrative Judge's decision. CE 36.
On October 29, 2012, in his Prehearing Brief and again in his Closing Brief of February
28, 2013, Complainant argued that these decisions should not only be included in the hearings
record, but should also be established as findings of fact as either admissions against interest by a
party opponent pursuant to Rule 80l(d)(2) of the Federal Rules of Evidence (FRE) and/or should
collaterally estop the Agency from challenging them and the EEOC should adopt them as facts in
this proceeding. On November 13, 2012, the Agency submitted its Motion in Opposition
(Opposition Motion) to the arguments made in Complainant Prehearing Brief.
I find the Agency's arguments regarding this issue the more persuasive ones. In this case
I must deny Complainant's motion because it is well established that the EEOC has no
jurisdiction to review this or any security clearance decision of the Department of Defense.
Department of Navy v. Egan, 484 U.S. 518, (Feb. 23, 1988). Complainant is petitioning the
EEOC not only to review the security clearance decision, but to apply that decision in his own
proceeding.
A long line of precedent limits the EEOC's review of cases involving denial (or
revocation) of security clearance. Sifjlett v. National Security Agency, 01910403. 2914/C 10
(1991). However, while the EEOC is not permitted to review the merits of a security clearance
decision, it can review such decisions to determine whether the security considerations were
applied in a non-discriminatory manner. Id., Chat/in v. Department of the Navy, EEOC Request
No. 05900188 (June 1, 1990).
This case concerns a matter of national security. The U.S. Supreme Court has
"recognized the Government's 'compelling interest' in withholding national security
information from unauthorized persons in the course of executive business." Egan, 484 U.S. at
527. The Court also found: "for 'reasons ... too obvious to call for enlarged discussion, [citation
omitted] the protection of classified information must be committed to the broad discretion of the
agency responsible, and this must include broad discretion to determine who has access to it.
Certainly, it is not reasonably possible for an outside nonexpert body to review the substance of
such judgment and to decide whether the agency should have been able to make that necessary
affirmative prediction with confidence." Egan, 484 U.S. at 529.
Additionally, Complainant's motion should be denied because OFO remanded the
subject complaint with the finding that neither the decision to review his security clearance nor
the outcome of the review is at issue here. (OFO Remand). Clearly the DOHA Recommendation
meets this standard of exclusion as an outcome determinative decision after a review of his
security clearance. The Agency correctly pointed out that Granting Complainant's motion would
essentially preclude the Agency from contending that Complainant was a security risk as its
articulated legitimate non-discriminatory reason for indefinitely suspending Complainant without
-9-

App. 56

pay pending security clearance review while using as the basis an Administrative Judge's
decision reviewing Complainant's security clearance. Complainant's request to have the DOHA
Recommendation established as findings of fact is therefore hereby Denied.
FINDINGS
Assuming arguendo that Complainant has met the standards for a prima facie case of
discrimination based on sex, age and reprisal, he has failed to demonstrate by a preponderance of
the evidence that the Agency's articulated nondiscriminatory reasons for not allowing him to
continue working while his security clearance was under review were a pretext for discrimination
on the aforementioned alleged bases in violation of Title VII of the Civil Rights Act of 1964
(Title VII), 42 USC § 2000e-16, and the Age Discrimination in Employment Act (ADEA), 29
USC 633a.
The hearing testimony corroborates the Agency's position that it had legitimate,
nondiscriminatory reasons for revoking his security clearance, e.g., Complainant had made
comments in social settings with coworkers regarding his knowledge of bomb making, he
entered a restricted area of the facility with a concealed recording device and attempted to (or
possibly in fact did make) audio recordings6, he failed to provide an accurate current address
when required to do so and he created through his behaviors a disturbance in the workplace
involving a potential for workplace violence.
Paul Harwig, Complainant's second line supervisor provided more specific articulations
of the aforementioned reasons in his recommendation memorandum to Mr. Burkhardt. He
indicated that Dr. Campbell had shown a history and pattern of behavior that indicated poor
judgment, unreliability and untrustworthiness. 7 He specifically, listed the following:
a. Violations of security regulations or practices whereby he brought recording
devices, both voice and image into a secure facility on multiple occasions.
b. Knowingly misrepresenting his current legal address to his supervisory chain of
command.

6

Complainant's argument at the hearing and the Fact Finding Conference in March of2006 that he only
"attempted" to make recordings is ultimately of no legal significance. ROI, FFC at 78-79. For national security
purposes, an "attempted" recording, versus a "successful" recording is a distinction without a difference. Either
scenario is sufficient to justify the Agency's determination that the Complainant was untrustworthy under AR 3 80-67,
Chapter 2-200 of which refers to "acts of omission or commission that indicate poor judgment, unreliability or
untrustworthiness." ROI at 119, chapter 2-200(i).
7

While not specifically cited in the recommendation memorandum, the incidents and circumstances
surrounding Complainant's alleged stalking behaviors, as well as his subsequent behavior(s) in response to those
allegations, clearly influenced managements perceptions and opinions regarding his judgement, reliability and
trustworthiness. They also comprise an important part of the events that occurred and ultimately lead to the
revocation of Complainant's access to classified materials and his security clearance.

-10-

App. 57

c. Acts of commission that indicate poor judgment, unreliability or
untrustworthiness where he has a history of making veiled threats about his
ability to make explosive devices.
d. Acts of commission that indicate poor judgment, unreliability or
untrustworthiness where he recorded a conversation with his supervisors. AE
1 at pg.I.
In order to prove that he is a victim of discrimination, Complainant had to provide
evidence to prove that Mr. Burkhardt did not believe the evidence that was presented to him
which led him to determine that Complainant was untrustworthy and therefore a threat to
national security. Complainant argues that security clearance procedures were not applied fairly
to him, but his argument fails because he failed to identify a comparator under applicable EEOC
precedent. Specifically, no other employee in the same work unit under the same management
officials had their security access suspended for engaging in the same or similar kind of behavior
as Complainant, e.g., wearing a wire in the TEC Building and no other employee ever admitted
to recording or attempting to record his supervisors on a prior occasion in the TEC Building.
Complainant has failed to provide any evidence showing any irregularity in the procedures used
to suspend his security access. Accordingly, Complainant has failed to provide evidence that
would indicate that the Agency's actions in suspending his security access were motivated by
discriminatory animus.

Responsible management officials reasonably believed that Complainant wore a
hidden recording device in a secure facility on multiple occasions.
The ERDC-V A-SOP, Physical Security, in place at the relevant timeframe of March
2005, establishes the policy that the ERDC Topographic Engineering Center has been designated
a restricted area. ROI at 287. The ERDC-VA-SOP, Physical Security, establishes that TEC work
areas are subject to inspection for security purposes. 8 ROI at 307.
Published Department of the Army security regulation AR 25-2 states that "privately
owned receiving, transmitting, recording, amplification and processing equipment is prohibited
from use within the confines of any area designated or excluded by the commander to be a ...
restricted area." ROI at 230, If 6-5(c). At the time of the Complainant's suspension, TEC had a
policy and a practice that prohibited cell phones with camera capability in the TEC Building. AE
5, at 3. The policy is dated 13 January 2003, and signed by Robert W. Burkhardt, it stated, "Cell
phones equipped with image capturing capability are not authorized within the facility." AE 5 at
3. A Report of the Military Police Criminal Investigation Command (CID) dated March 16,
2005 ("CID Report") confirms that Police found a "cellphone with camera capabilities for both

8

At the time of Complainant's arrest, there was a sign posted on the perimeter fence around the TEC
Building that said, "Restricted Area." HT at 232.

-11-

App. 58

still images and video" on the Complainant inside the TEC building on March 14, 2005. ROI at
84. 9
The CID Report documents that Fairfax County Police searched the Complainant inside
the TEC Building on March 14, 2005, and that Fairfax County Police Officers found in one of
Complainant's pants pockets "a micro cassette recorder with a microphone wired from the
recorder, through his shirt sleeve, to his wrist." ROI at 84. That same CID Report indicates that
the Police also found a "digital voice recorder" in the Complainant's possession. ROI at 84. The
CID Report also states that on March 14, 2005, FBI Special Agent ("SA") Hana played the tape
from the Complainant's tape recorder, and that after the preamble by Mr. Campbell, the next
recording is the voice of the Fairfax County police officers telling Mr. Campbell he was under
arrest. ROI at 86. The CID Report states that on March 14, 2005, SA Hana further told the CID
Agent that Mr. Campbell "stated he had recorded another conversation he had with his
supervisors." ROI at 86. The record reflects that not only did Complainant at the very least,
unsuccessfully attempt to record conversations with his supervisors and/or co-workers, he also
admitted to attempting to do so. HT at 90-92; ROI FFC Tr. at 36-38, 42-43; HT at 322-323.
At the hearing, Mr. Burkhardt testified credibly that Complainant did not deny that he had
worn a hidden recording device in a secure facility. HT at 289. I therefore find that the totality of
the evidence supports the Agency's articulation that it reasonably believed that Complainant
wore a hidden recording device on multiple occasions. This belief, established and supported by
the facts, clearly establishes the Agency's legitimate, non-discriminatory reason for revoking
Complainant's security clearance.
Responsible management officials reasonably believed that Complainant knowingly
misrepresented his current residence to his supervisor.

The Agency had evidence at the time of Mr. Burkhardt's decision to substantiate the
finding that Complainant misrepresented his current legal residence to his supervisor. On
February 9, 2005, the Complainant was read on to a TS/SCI Top Secret Sensitive
Compartmented Information security clearance. AE 1 at 3-7. By his signature, the Complainant
certified that he would report any change in current residence to the Special Security Officer
(SSO) TEC as soon as possible, but not later than 7 days after the change. AE 1 at 5.
Complainant's first line supervisor, Mr. Charles Lopez gave the Complainant the TAB
Employee Info Sheet to fill out when he became the Complainant's supervisor. FFC at 39, 184.
The TAB Employee Info Sheet contains an entry for "Home Address," followed by a colon and a
blank space. AE 3 at 1. The Complainant filled it out, but in the item entitled: "Home Address,"
instead of listing his current residence, he provided the address of a commercial mail facility. Id.
at 1; FFC at 38-39. A Memorandum For Record (MFR) dated March 14, 2005, signed by Mr.
9

Published Department of the Army security regulation AR 380-67 states that individuals must familiarize
themselves with pertinent security regulations that pertain to their assigned duties. [ROI at 143, Chap. 9-103(a)].

-12-

App. 59

Charles Lopez, states how he came to doubt the trustworthiness of the Complainant. AE 1 at 28.
In the MFR, Mr. Lopez documents that, "after claiming to reside in the vicinity of Huntington
Drive and Route 1 in Alexandria, I discovered that the address he had provided me, on two
occasions, placed his residence in the Kingstowne section of Fairfax County." Id at 28.
Mr. Harwig testified under oath at the Fact Finding Conference that he asked the
Complainant for his current legal address, and that the Complainant never provided it to him.
FFC at 127. Nothing in the record proves that the Complainant provided his legal residence to
the Agency prior to the decision to suspend him indefinitely. Accordingly, Complainant has
failed to meet his burden to prove by a preponderance of the evidence that the Agency acted with
discriminatory animus.
Responsible management officials reasonably believed that Complainant created a
disturbance in the workplace involving coworkers.
The record contains documentation and testimony that supports Mr. Burkhardt's belief
and determination that Complainant created a disturbance in the workplace. Complainant
admitted that Mr. Harwig observed him in the Sensitive Compartmented Information Facility,
specifically, the workspace of Ms. Kennan and Ms. Hubbard, after he had been transferred out of
their workgroup. HT at 71-72. Thus Complainant corroborated Mr. Harwig's Memorandum For
Record (MFR) dated February 28, 2005, stating that Mr. Harwig had observed the Complainant
on February 25th in the 1000 area of the Sensitive Compartmented Information Facility (SCIF),
which is the Source Acquisition Team (SAT) Room. AE 1, at 9; CE 33 at 48.
At the time of the decision in May 2005, Mr. Burkhardt had access to the following
evidence which supported his determination that Complainant created a disturbance:
Mr. Harwig's MFR dated February 28, 2005, also states that Ms. Kennan "made reference
to instances that sounded to me like stalking: He [Complainant] had looked up her ex-husband
on the internet and gotten information on him; He [Complainant] also admitted to Ms. Kerman
that he had driven through her neighborhood looking for her house." AE 1 at 9. The MFR states
that "Both Alana and Tish revealed many instances where his behavior had made them
uncomfortable." Id. at 9. The MFR indicates that Mr. Harwig sought advice from TEC Security
Office, and in response to their advice, Mr. Harwig removed the Complainant's access to the
1000 area where Ms. Kerman and Ms. Hubbard worked. Id. at 9.
The MFR states that Mr Harwig asked Mr. Jeff Popp, Team Leader for the Complainant's
team, to talk with the Complainant and document it. AE 1 at 9. The MFR states that Mr. Harwig
asked Mr. Popp to inform the Complainant of three things: 1. That his badge access to the 1000
was removed and that he was not to go into that area; 2. That he was not to distract Ms. Kennan
or Ms. Hubbard; and 3. That he should minimize his contact with Ms. Hubbard and Ms. Kennan.

-13-

App. 60

Id. On February 28, 2005, Mr. Popp carried out Mr. Harwig's instructions and sent an e-mail to
the Complainant and his chain of command. Id. at 10.
On March 7, 2005, the Complainant sent an e-mail to his TEC chain of command, the
TEC Legal Office, and TEC Security, entitled, "Whistleblowing on aberrant staff behavior," in
which he proceeded to make allegations against co-workers Alana Hubbard and Tish Kennan that
they were mentally unstable and unprofessional. AE 1 at 11-17. One of his allegations was that
Tish Kennan was suffering from "malignant uterine cancer and a hysterectomy" and "being a
single parent and having to commute every day across the Wilson Bridge." Id. at 16.
Complainant alleged that these things made Ms. Hubbard and Ms. Kennan potential security
risks. Id. at 11-17. Ms. Theresa Rasmussen, the SAT Team Leader, indicated in her testimony
about Complainant's email of March 7, 2005, that the contents were of such a personal nature
that it caused her to realize that what she had heard about his instability and/or vindictiveness
might in fact be true. HT at 410-411.
Mr. Burkhardt indicated in his decision to indefinitely suspend Complainant's security
clearance that Complainant did not deny or dispute the reasons stated in the Notice of Proposed
Suspension during his oral reply. ROI at 70. Mr. Burkhardt also testified credibly at the hearing
that Complainant gave no mitigating circumstances at that same oral reply. HT. at 289. It was
therefore reasonable for Mr. Burkhardt to rely on the information above to determine that
Complainant had created a disturbance in the workplace involving his co-workers and use it as a
contributing factor in his decision to revoke his security clearance.
I therefore find that the aforementioned evidence supports the Agency's articulation that
it reasonably believed that Complainant created a disturbance in the workplace with his
behaviors. This belief clearly establishes another of the Agency's legitimate, non-discriminatory
reason(s) for deciding to revoke Complainant's security clearance.
Responsible management officials reasonably believed that Complainant discussed
explosives with his coworkers.
The record reflects that Complainant admitted both at the hearing and during the March
11, 2005, meeting with Burkhardt and Agency management that he had not only discussed his
knowledge of explosives with coworkers during off site gatherings, but in fact had also made
them. CE 7; HT at 62-64, 94. Once again, the record shows that Complainant offered no
mitigating circumstances for his conduct at his opportunity to reply to Mr. Burkhardt's Notice of
Proposed Suspension. ROI at 70; HT at 289. Accordingly, the record supports the reasonableness
of Mr. Burkhardt's determination.
The gravamen of Complainant's arguments regarding evidence of discrimination, from
this Judge's perspective, focused on two or perhaps three areas of the Agency's actions. The first
relates to what Complainant apparently perceives as the Agency's disparate treatment of him in
comparison to Ms. Hubbard and Ms. Kennan during the period prior to the suspension of his
-14-

App. 61

security clearance. The second relates to the Agency's decision to place him on indefinite
suspension without pay pending adjudication of his security clearance. The third area of potential
discriminatory Agency action(s) was it's decision not to assign Complainant unclassified duties
to perform during the adjudication of his security clearance. See Complainant's Closing Brief
(Complainant's Brief). At the heart of Complainant's arguments regarding these issues is his
contention that Ms. Hubbard and Ms. Kennan's contentions regarding his behavior toward him
were false and essentially that management knew or should have known the contentions were
false. Id. at 1-3. I find that the record does not support Complainant's arguments.
Agency's Disparate Treatment of Complainant re Hubbard and Kennan.
Complainant's basic contention is that Ms. Hubbard and Ms. Kennan either were treated
differently than he was regarding comments made outside of the office and/or that those alleged
comments were not investigated in the same manner as his were. Complainant's Brief at 2-3.
Complainant argues that security clearance procedures were not applied fairly to him, but his
argument fails because he failed to identify them as valid comparators under applicable EEOC
precedent. By the accepted legal standard, these two younger female coworkers, Kennan and
Hubbard are hot valid comparators for purposes of reviewing security investigations in that they
neither made comments regarding making explosives nor wore a hidden recording device in a
secured area in the workplace. Additionally, the record reflects that Agency officials did in fact
investigate Complainant's allegations regarding Hubbard and Kennan in a similar manner to the
way the allegations against him were investigated, i.e., consulting with their managers and
coworkers, and found no evidence of wrong doing or inappropriate behavior at that time.
On March 7, 2005, the Complainant sent an e-mail to his TEC chain of command, the
TEC Legal Office, and TEC Security, entitled, "Whistleblowing on aberrant staff behavior," in
which he proceeded made allegations against co-workers Alana Hubbard and Tish Kerman that
they were mentally unstable and unprofessional. AE 1 at 11-17. One of his allegations was that
Tish Kerman was suffering from cancer and a hysterectomy. Id. at 16. Complainant alleged that
these things made Ms. Hubbard and Ms. Kerman potential security risks. Id. at 11-17.
On March 81h and 91\ 2005, Paul Harwig investigated the matters raised by the
Complainant in his e-mail of March 7, 2005. AE 1 at 20. He individually interviewed Alana
Hubbard and Tish Kennan. He asked each if they were under any stress themselves. Id. He also
interviewed Mary Pat Santoro (Branch Chief); Theresa Rasmussen (Team Leader), and Marty
Downing (co-worker), asking whether the person interviewed had any reason to suspect that Mrs.
Hubbard or Ms. Kerman showed any behavior, signs of stress, or personal situations that would
indicate that they might be a security risk. Id. In each interview, the person was in disbelief that
Mr. Harwig, would question the emotional stability or reliability of the two women. Id. On
March 10, 2005, Mr. Harwig reported the results of his investigation to the ERDC Security
Office in accordance with AR 380-67 chapter 9-103(b)(5). Id.

-15-

App. 62

Based on the totality of the record before me I find that the record fails to support
Complainant's contention that he was treated differently than Hubbard and Kennan so as to
support an inference of discriminatory disparate treatment. I also find that, at the time, Burkhardt
had a reasonable, good faith basis for believing Complainant's managers and coworkers and
therefore in making his decision that their testimony did not support Complainant's allegations
against Hubbard and Kennan.
Agency's decision to place Complainant on indefinite suspension without pay
pending adjudication of bis security clearance revocation.
A significant section of Complainant's Brief focused on his contention that he was the
victim of disparate treatment when the Agency suspended him without pay pending adjudication
of his security clearance revocation. Complainant focused on the 19 employees who had their
security clearances suspended but were assigned unclassified duties pending final adjudication of
their clearances. Complainant further focused on language that these employees had not
committed an overt act (bringing recording equipment onto a secure facility); were not
untrustworthy; and/or their character and loyalty were held in high esteem while Complainant's
was not. Complainant's Brief at 30-37.
While I agree that these issues could be relevant to this case, I believe the appropriate
standard under EEO law, as indicated in the previous section, is that the comparators must have
engaged in the same conduct under the same management officials. Kuracina v. US. Postal
Service, Appeal No. 01984991, 2001 EEOPUB LEXIS 6998, (Sep. 20, 2001). A review of the
hearings record indicates that none of the 19 employees in question brought recording equipment
onto a secure facility, nor did they attempt or admit to attempting to make recordings while
within a secure facility- both of which Complainant in fact did. Complainant's Brief at 30-37;
Agency Brief at 2-8; HT at 295-311. Specifically, no other employee in the work unit under the
same management officials had their security access suspended for wearing a wire in the TEC
Building and no other employee ever admitted to recording (or attempting to record) his
supervisors on a prior occasion in the TEC Building.
In making his decision, Mr. Burkhardt had access to a document provided by the Security
Office which covered the history of all 19 ERDC employees that had lost their security access.
ROI at 71; AE 12. Under applicable EEOC precedent, none of those 19 employees are
comparators. Only one employee on the list (number 3) had the same management officials as the
responsible decision makers in this case. Id.; Agency Brief at 6. Employee No. 3, (female, age
49) had the identical security clearance status of TS/SCI as Complainant, but the reasons
surrounding the revocation and suspension were not similar in that this employee's clearance was
suspended for questionable judgment and reliability due to personal behavior. Her supervisor
gave her a written reprimand and arranged for her to meet with an EAP counselor, however, she
did not keep the appointment. She was also ultimately terminated by management, unlike
Complainant. AE 12 at 2; CE 26 at 2. There were four other employees on the list who had
clearance status of TS/SCI, which is the same as Complainant's, specifically, individuals 13; 14;
-16-

App. 63

16; and 17, but all of the security incidents for those employees occurred before Mt. Burkhardt
became the Director on October 9, 2001. ROI, FFC at 83, AE 12.
Burkhardt credibly testified extensively and in detail, that based on his review of the
record, he made the determination that, unlike Complainant, none of the ERDC employees took
any overt action that could have compromised classified information. HT at 295-311. Burkhardt
testified at the hearing about the difference between Complainant and the others indicating none
of the comparator employees had issues regarding classified material potentially leaving the
facility and that both managers and coworkers provided supportive input regarding these
employees as to their trustworthiness. Id He indicated, however, that there was no supportive
input from management and/or coworkers regarding Complainant's behavior and/or
trustworthiness. Id
I therefore find that Complainant has failed to meet the applicable burden of proof, e.g.,
that of proving, by a preponderance of the evidence, that the legitimate reason proffered by the
Agency for suspending his security clearance indefinitely (bringing recording equipment onto a
secure facility for the purpose of making clandestine recordings) was a pretext for discrimination.
Agency's decision not to assign Complainant unclassified duties to perform during
the adjudication of his security clearance.
Finally, Complainant alleges that the Agency's failure to assign Complainant unclassified
duties to perform during the adjudication of his security clearance is indicative of discriminatory
animus on its part. The totality of the record fails to support Complainant in this regard. The
record reflects that the Agency in fact did explore the possibility of retaining Complainant by
assigning him to an interim position with unclassified duties within the Agency, but found that
no such position(s) were then available.
The record reflects that the Agency determined there were no vacant positions at ERDC
TEC or the other ERDC Office in Alexandria that did not require a secret clearance. At the
hearing, Human Resources Specialist Mr. James Klein testified that he conducted a search both
locally with the appropriate on site personnel, as well as contacting his peers in the Vicksburg,
Hanover and Champaign, Illinois sites. HT at 432-435. On May 19, 2005, Klein sent an e-mail
to Ms. Patsy Abbott of the ERDC Deputy Director's Office in which he requested assistance in
placing the Complainant in a position located in Alexandria at the Deputy's Office which would
not require a security clearance. AE 10. Mr. Klein informed the TEC Deputy Director Mr.
Greczy that there were no vacant positions available at the TEC location that did not require at
least a secret security clearance. AE 11.
On May 20, 2005, Mr. Harwig made an inquiry of Ms. Santoro, Ms. Rasmussen, and Mr.
Downing and determined that Complainant's duties on the SAT required access to classified
rooms 50-80 percent of the time. [AE No. 8] That information was provided to Mr. Burkhardt
and he considered it in the decision to suspend the Complainant. ROI at 70. Burkhardt therefore
-17-

App. 64

determined that there were no positions available for the Complainant to be reassigned to at
ERDC in Alexandria, Virginia. HT at 293. 10
I therefore find that Complainant has failed to meet his burden of proving that the
legitimate reason proffered by the Agency for suspending his security clearance indefinitely and
not providing him with an interim position working with classified materials was a pretext for
discrimination.
CONCLUSION

The record and the hearing testimony support the conclusion that the Agency has
articulated legitimate, non-discriminatory reasons for its action. Complainant has failed to rebut
the Agency's articulated reasons and failed to provide evidence that he is a victim of
discrimination based on his sex, age and/or reprisal. Complainant has not provided evidence
from which a fact finder could reasonably conclude that he was a victim of intentional
discrimination. The record as a whole supports the Agency's articulated facts. Complainant has
not provided evidence sufficient to show that management did not subjectively believe the
following: Complainant wore a hidden recording device in a secure facility on multiple
occasions; he covertly recorded (or attempted to record) conversation(s) with his supervisor; he
failed to give his current legal residence; he created a disturbance in the workplace whereby he
boasted to coworkers that he was a person who knew how to make bombs and was charged with
stalking a coworker. Ultimately, Complainant simply failed to persuade this Judge that the
Agency's actions amounted to intentional discrimination.
For the reasons set forth above, I find that the Complainant did not prove by preponderant
evidence that he was discriminated against. Accordingly, I enter judgment in favor of the
Agency.

1

°Contemporaneous documents also support the Agency's legitimate non-discriminatory articulations
regarding this issue. On May 25, 2005, Colonel Rowan sent an e-mail to Mr. Burkhardt stating that he was aware
that there were no open positions that the Complainant could work in that did not require a security clearance. AE 6
at 1-2.

-18-

App. 65

NOTICE
This is a decision by an Equal Employment Opportunity Commission Administrative
Judge issued pursuant to 29 C.F.R. § 1614.109(b), 109(g) or 109(I). With the exception
detailed below, the complainant may not appeal to the Commission directly from this
decision. EEOC regulations require the Agency to take final action on the complaint by issuing
a final order notifying the complainant whether or not the Agency will fully implement this
decision within forty (40) calendar days of receipt of the hearing file and this decision. The
complainant may appeal to the Commission within thirty (30) calendar days ofreceipt of the
Agency's final order. The complainant may file an appeal whether the Agency decides to fully
implement this decision or not.
The Agency's final order shall also contain notice of the complainant's right to appeal to
the Commission, the right to file a civil action in federal district court, the name of the proper
defendant in any such lawsuit and the applicable time limits for such appeal or lawsuit. If the
final order does not fully implement this decision, the Agency must also simultaneously file an
appeal to the Commission in accordance with 29 C.F.R. § 1614.403, and append a copy of the
appeal to the final order. A copy of EEOC Form 573 must be attached. A copy of the final order
shall also be provided by the Agency to the Administrative Judge.
If the Agency has not issued its final order within forty (40) calendar days of its receipt of

the hearing file and this decision, the complainant may file an appeal to the Commission directly
from this decision. In this event, a copy of the Administrative Judge's decision should be
attached to the appeal. The complainant should furnish a copy of the appeal to the Agency at the
same time it is filed with the Commission, and should certify to the Commission the date and
method by which such service was made on the Agency.

All appeals to the Commission must be filed by mail, personal delivery or facsimile to the
following address:
Director
Office of Federal Operations
Equal Employment Opportunity Commission
131 M Street, NE, 5th Flr.
Washington, D.C. 20507
Facsimile (202) 663-7022
Facsimile transmissions over 10 pages will not be accepted.

-19-

App. 66

COMPLIANCE WITH AN AGENCY FINAL ACTION
An Agency's final action that has not been the subject of an appeal to the Commission or
civil action is binding on the Agency. See 29 C.F.R. § 1614.504. If the complainant believes
that the Agency has failed to comply with the terms of its final action, the complainant shall
notify the Agency's EEO Director, in writing, of the alleged noncompliance within thirty (30)
calendar days of when the complainant knew or should have known of the alleged
noncompliance. The Agency shall resolve the matter and respond to the complainant in writing.
If the complainant is not satisfied with the Agency's attempt to resolve the matter, the
complainant may appeal to the Commission for a determination of whether the Agency has
complied with the terms of its final action. The complainant may file such an appeal within
thirty (30) calendar days of receipt of the Agency's determination or, in the event that the Agency
fails to respond, at least thirty-five (35) calendar days after complainant has served the Agency
with the allegations of noncompliance. A copy of the appeal must be served on the Agency, and
the Agency may submit a response to the Commission within thirty (30) calendar days of
receiving the notice of appeal.

To:
Walton B. Campbell
6036 Richmond Highway
#211
Alexandria, VA 22303
June D.W. Kalijarvi, Esq.
Kalijarvi, Chuzi & Newman, PC
1901 L Street, NW, Ste. 610
WDC 20036
Timothy Felker, Esq.
Servicing Labor Counsel
U.S. Army Engineer Research & Development Center
CEERD-OC-A, Bldg. 2592
7701 Telegraph Road
Alexandria, VA 22315-3864
Linda S. Wilkinson, EEO Mgr.
ERDC-Army Corps of Engineers
Waterway Experiment Station
3909 Halls Ferry Road
Vicksburg, MS 39180-6199
-20-

App. 67

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
WASHINGTON, D.C. FIELD OFFICE
131 M Street, NE, Suite ON4W
Washington, D.C. 20507
Walton B. Campbell,
Complainant,
v.

Pete Geren, Secretary,
Department of the Army,
Agency.

) EEOC No. 570-2006-00375X
) Agency No. ARCEERDC08JUL09922
)
)
)
)
)
)
)
Date: January 13, 2014
ORDER FOR DAMAGES EVIDENCE

Complainant is the prevailing party on the following issue(s):

On August 4, 2005, complainant filed an EEO complaint alleging that he was
discriminated against on the bases of sex (male), age (57) and reprisal when on May 27,
2005, he was indefinitely suspended without pay pending a determination of his secret
security clearance.
Accordingly, Complainant is ORDERED to provide the undersigned with his/her written
claim for damages that were caused by this violation, along with supporting evidence, on or
before January 31, 2014. 1 The Agency will have until February 17, 2014, to provide a response to
Complainant's request for damages. If either party wishes to have a hearing on the issue of
damages, their submission shall so state and provide a basis for this request.
After the submissions have been reviewed, it will be determined if this matter requires a
hearing to address damages, at which time a date will be set.

If, after review of the submissions, an additional hearing to address damages is not
required, the undersigned will issue a full written decision including the order for damages.
The parties are advised that this matter may be settled until the date the final
decision is issued.

In light of Complainant's multiple representative(s) and the complexity of the litigation in this case, I
am amenable to a request for additional time from the parties to respond to this Order if they find such time
is necessary.
1

-1-

App. 68

ORDER FOR STATEMENT OF ATTORNEY'S FEES
The Complainant in this matter is a prevailing party and therefore may be entitled to an
award of attorney's fees and costs. Attorney's fees are only available in actions brought pursuant
to Title VII of the Civil Rights Act of 1964, as amended, and the Rehabilitation act of 1973, as
amended. 29 C.F.R. § 1614.501(e).
The Complainant is ordered to submit a verified statement of fees and costs accompanied
by an affidavit executed by the attorney of record. The method by which attorney fees are
calculated is known as the "lodestar," in which the number of hours reasonably expended are
multiplied by a reasonable hourly rate.
The statement of attorney's fees and costs must be accompanied by an affidavit executed
by the attorney of record itemizing the attorney's charges for legal services. A verified statement
of fees and costs shall include the following:
1. A list of services rendered itemized by date, number of hours, detailed summary of the
task, rate, and attorney's name;
2. Documentary evidence ofreasonableness of hours, such as contemporaneous time
records, billing records, or a reasonably accurate substantial reconstruction of time records;
3. Documentary evidence of reasonableness of rate, such as an affidavit stating that the
requested rate is the attorney's normal billing rate, a detailed affidavit of another attorney in the
community familiar with prevailing community rates for attorneys of comparable experience and
expertise, a resume, a list of cases handled, or a list of comparable cases where a similar rate was
accepted; and
4. Documentation of costs including, but not limited to, such documentation as receipts,
bills, invoices, telephone bills, certified/express mail receipt numbers, per page photo copying
rate, and the number of pages photocopied.
The statement of Attorney's fees and costs shall be filed by January 31, 2014. The Agency
may respond to the statement of attorney's fees and costs by February 17, 2014. If the Agency
disputes the Complainant's verified statement of attorney's fees and/or costs, then the Agency
shall file detailed documentation, as previously noted above, in support of its contentions.
Any verified statement of attorney's fees and/or costs and any response filed by the
Agency thereto shall comply with the governing regulations, including, but not limited to the
pertinent regulations set forth at 29 C.F.R. § 1614.501 (e). The parties should also consult
Chapter 11 of EEOC Management Directive.

-2-

App. 69

Failure to comply with any of the Orders in this case or failure to attend any scheduled
event may lead to sanctions including the possible dismissal of the captioned complaint(s). See
29 C.F.R. §§ 1614.107(a)(7); 109(b); 109(0(3).

It is so ORDERED.

Varice Ted Henry
Varice Ted Henry
Administrative Judge
Telephone: (202) 419-0717
Facsimile:
(202) 419-0740
cc:

June D.W. Kalijarvi, Esq.
Kalijarvi, Chuzi & Newman, PC
1901 L Street, NW, Ste. 610
WDC20036
202-331-9260
866-452-5789 FAX
jkalijarvi@kcnlaw.com
Timothy Felker, Esq.
Servicing Labor Counsel
U.S. Army Engineer Research & Development Center
CEERD-OC-A, Bldg. 2592
7701 Telegraph Road
Alexandria, VA 22315-3864
703-428-8124
703-428-8154
timothy.l.felker@usace.army.mil

-3-

App. 70

•

U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
Office of Federal Operations
P.O. B-,x 77960
Washington, DC 20013
Walton B. Campbell,
Complainant,
v.

John M. McHugh,
Secretary,
Department of the Army,
Agency.

fB) IE C IE I WI lefm

lfl1

law Office of Ga,y M. Gilbert
and Associates

Appeal No. 0120080478
Hearing No. 570-2006-00375X

Agency No. ARCEERDC05JUL09922
DECISION
On October 31, 2007, complainant filed an appeal from the agency's October 4, 2007 fmal
order concerning his equal employment opportunity (EEO) complaint alleging employment
discrimination in violation of Title VII of the Civil Rights Act of 1964 (Title VII), as amended,
42 U.S.C. § 2000e et seq., and the Age Discrimination in Employment Act of 1967 (ADEA),
as amended, 29 U.S.C. § 621 et seq. The appeal is deemed timely and is accepted for de novo
review, pursuant to 29 C.F.R. § 1614.405(a). For the following reasons, the Commission
REVERSES the agency' s final order.

ISSUE PRESENTED
Whether the EEOC Administrative Judge (AJ) erred in finding that there were no genuine
issues of material fact and/or credibility which required resolution at a hearing.
BACKGROUND
At the time of events giving rise to this complaint, complainant worked as a Physical Scientist
at the Army Corps of Engineers, Engineer Research and Development Center (ERDC),
Topographic Engineering Center (TEC) in Alexandria, Virginia. On August 4, 2005,
complainant filed an EEO complaint alleging that he was discriminated against on the bases of

•

ATTACHMENT #2
App. 71

l!l/

MAY l 8 2010

·'-----

l

2

0120080478

sex (male) and age (57) when, on May 27, 2005, he was indefinitely suspended without pay
pending a determination of his secret security clearance .1
At the conclusion of the investigation, complainant was provided with a copy of the. report of
investigation and notice of his right to request a hearing before an EEOC Administrative Judge
(AJ). Complainant timely requested a hearing. Over complainant's objections, the AJ
assigned to the case granted the agency •s November 2, 2006 motion for a decision without a
hearing ( "Motion") and issued a decision without a hearing on September 19. 2007, in favor
of the agency.
AJDecision
At the outset, the AJ agreed with the agency ' s assertion that complainant failed to establish a

prima facie case of sex or age-based discrimination. Specifically, the AJ found that
complainant did not show that others, not in his protected group, were treated differently under
similar circumstances. The AJ noted that complainant identified two younger female coworkers who reported him to management as a potential security risk approximately 10 days
after complainant reported them as security risks. The AJ noted that complainant came under
scrutiny for wearing a hidden recording device at the workplace. recording his supervisors,
failing to provide management with his home address (]egal residence), and creating a
"disturbance" in the workplace. The AJ found that complainant provided no evidence
showing that either of the alleged comparators engaged in similar activities.
The AJ further found that the agency proffered reasonable and legitimate non-discriminatory
reasons for its actions. According to the AJ, the agency produced evidence that it acted
properly under national security laws and regulations in suspending complainant 's access to
classified information and in subsequently suspending him indefinitely without pay.

The AJ then found that complainant did not provide preponderant evidence from which a fact
finder could reasonably conclude that he was the victim of intentional discrimination. The Al
found that the record as a whole supported the agency's articulated facts, ·and complainant did

not provide evidence of the state of mind of the responsible managerial officials sufficient to
show that they did not subjectively believe that the allegations against complainant could be
true (e.g. that complainant wore a hidden recording device in a secure facility on m11ltiple
occasions; that he failed to give his current legal residence; and that he created a disturbance in
the workplace). The AJ then found no discrimination. The agency subsequently issued a final
order adopting the AJ ' s fmding that complainant failed to prove that he was subjected to
discrimination as alleged.
1

Neither the decision to review his security clearance nor the outcome of the review is at
issue here. Complainant ' s claim is that the agency discriminated against him by not allowing
him to continue working while his security clearance was under review.

App. 72

3

0120080478

CONTENTIONS ON APPEAL
On appeal, complainant, through counsel, contends that there are genuine issues of fact in
dispute regarding the agency ' s reasons for suspending him which are clearly material to
whether or not the suspension was discriminatory. Specifically, complainant notes the
following: on March 14, 2005, he was fonnally debriefed about his Top Secret/SCI clearances
and his access to classified infonnation was withdrawn. Management proposed his indefinite
suspension on April 27, 2005, and the agency issued a decision letter suspending him on May
27, 2005. Complainant, however, points out that between March 14 and May 27, he was
performing work even though he no longer had a security clearance. Complainant 's
supervisor reported that "[complainant's] current duties did not require for him to have
access to classified information." Complainant's Team Leader testified that during this
period, "(complainant] was doing the things I gave him to do and he was getting theiµ done on
time." On March 21, 2005, complainant's Supervisor notified Security that, "There_ is no
restriction on his [ complainant 's] use of the unclassified network." Complainant contends
that, as of March 21, 2005, his management was fully aware that he was perfonning his
assigned tasks without access to any classified materials. Complainant contends that this
evidence clearly disputes, and if found credible, rebuts the agency ' s articulated reasons for
suspending complainant without pay.
Complainant also contends that the agency treated him less favorably than his two younger
female co-workers (Cl_ and C2). Specifically. complainant contends that the agency treated Cl
and C2 differently with regard to how they reacted and investigated the allegations of
untrustworthiness and security violations by them and by_ complainant respectively and, as
such, is liable for the resultant damages. 2 Complainant contends that the agency is not relieved
from liability merely because Cl and C2 's access to classified infonnation and security
clearances was not removed.
In response to the appeal, the agency contends that the AJ properly found that complainant did
not establish a prima facie case of discrimination or provide evidence that the agency 's
reasons were pretextual. The agency also asserts that the AJ properly found that there were no
genuine issues of material fact in dispute or that any credibility determinations· were required.
In addition, the agency asserts that, based on the uncontradicted evidence in the record, the~e
is no support for complainant 's argument that a finder of fact could conclude that his
"security clearance suspension" did not require suspending his employment. Therefore, the
agency asks the Commission to affinn its final order.

Complainant alleged that one of the younger females stated to him in normal conversations
that she was an ex-Marine, was a good marksman and knew how to shoot. Complainant
indicated that he feared her because of these statements. ROI, Ex. F-8.
2

App. 73

4

0120080478

ANALYSIS AND FINDINGS
At the outset, we note that, as this is an appeal from a FAD issued without a hearing, pursuant
to 29 C.F.R. § 1614.llO(b), the agency's decision is subject to de novo review by the
Commission. 29 C.F.R. § 1614.405(a). The Commission's regulations allow an AJ to issue a
decision without a hearing when he or she fmds that there is no genuine issue of material fact.
29 C.F.R. § 1614.109(g). This regulation is patterned after the summary judgment procedure
set forth in Rule 56 of the Federal Rules of Civil Procedure. The U.S. Supreme Court has
held that summary judgment is appropriate where a court determines that, given the substantive
legal and evidentiary standards that apply to the case, there exists no genuine issue of material
fact. Anderson v. liberty Lobby, Inc., 477 U.S. 242, 255 (1986). In ruling on a motion for
summary judgment, a court 's function is not to weigh the evidence but rather to determine
whether there are genuine issues for trial. Id. at 249. The evidence of the non-moving party
must be believed at the summary judgment stage and all justifiable inferences must be drawn in
the non-moving party ' s favor. Id. at 255. An issue of fact is "genuine" if the evidence is
such that a reasonable fact finder could find in favor of the non-moving party. Celotex v.
Catrett, 477 U.S. 317, 322-23 (1986); Oliver v. Digital Equip. ·Corp., 846 F.2d 103, 105 (1st
Cir. 1988). A fact is "material" if it has the potential to affect the outcome of the case. If a
case can only be resolved by weighing conflicting evidence, issuing a decision without holding
a hearing is not appropriate. In the context of an administrative proceeding, an AJ may
properly consider issuing a decision without holding a hearing only upon a determination that
the record has been adequately developed for summary disposition. See Petty v. Department of
Defense, EEOC Appeal No. 01A24206 (July 11, 2003).
The courts have been clear that summary judgment is not to be used as a "trial by affidavit."
Redmand v. Warrener, 516 F.2d 766, 768 (1st Cir. 1975). The Commission bas noted that

when a party submits an affidavit and credibility is at issue, "there is a need for strident crossexamination and summary judgment on such evidence is improper." Pedersen v. Department
of Justice, EEOC Request No. 05940339 (February 24, 1995). "Truncation of this process,
while material facts are still in dispute and the credibility of witnesses is still ripe for
challenge, improperly deprives complainant of a full and fair investigation of her claims." Mi
S. Bang v. United States Postal Service, EEOC Appeal No. 01961575 (March 26, 1998); see
also Peavley v. United States Postal Service, EEOC Request No. 05950628 (October 31,
·1996); Chronister v. United States Postal Service, EEOC Request No. 05940578 {April 23.
1995). The hearing process is intended to be an extension of the investigative process.
designed to "ensure that the parties have a fair and reasonable opportunity to explain and
supplement the record and to examine and cross-examine witnesses." See EEOC Management
Directive (MD) 110, November 9, 1999, Chapter 6, page 6-1; see also 29 C.F.R. §
1614.109(d) and (e).
Next, we note that the Commission has issued decisions affuming the dismissal of complaints
contesting the deci$ion to revoke or deny a security clearance, finding that such claims fail to
state a claim pursuant to 29 C.F.R. § 1614.107(a)(l). See. e.g., Rezaee v. Department of the

App. 74

5

0120080478

Air Force, EEOC Appeal No. 01A60451 (April 25, 2006); Carr v. Department of the Army,
EEOC Appeal No; 01A44011 (November 4, 2004). However, the Commission has reviewed
whether the grant, denial, or revocation of a security clearance was carried out in a
discriminatory manner. Id.; Dodson v. Department of Defense, EEOC Appeal No. 01954101
(June 13, 1997) (the Commission found discrimination where a manager sought to have an
employee's clearance revoked in retaliation for filing EEO complaints); Schroeder v.
Department of Defense (Defense Mapping Agency), EEOC Request No. 05930248 (April 14,
1994). As previously noted, the instant case concerns complainant's challenge to the decision
to suspend hlm indefinitely without pay, instead of continuing to provide bim with work that
was not classified, while awaiting a determination on his security clearance. The issue clearly
states a viable claim that can be properly adjudicated within the EEO complaints process.
Complainant claims there were unclassified duties he could have performed, and that he had in
fact been pennitted to do them for a period of time, but management chose not to allow that
anymore because of discrimination. The agency denies that such work was available for
complainant, and/or even if it were available, denies that it had the obligation to provide
complainant with such work, noting that "[u]nder the circumstances. [complainant's]
retention in duty status would be detrimental to national security interests." May 27, 2005
·oecision Notice. We note, however, the testimony of complainant 's Supervisor and Team
Leader that complainant 's current duties did not require him to have access to classified
infonnation; he was doing the things he was given and performing his duties in a timely
manner; and that there were no restrictions on his use of the unclassified network.
Because, at the summary judgment stage, complainant's evidence must be believed and all
justifiable inferences drawn in his favor, we find that judgment as a matter of law should not
have been granted in this case as the record contains genuine issues for trial. There is clearly a
genuine material issue of fact in dispute concerning why management decided that complainant
needed to be suspended without pay after he had been allowed to continue working between
March 14, 2005 (when he was formally debriefed and his clearances and access to classmed
information was withdrawn), and May 27, 2005 (when the agency issued a decision letter
suspending him).

Complainant asserts that the decision to place him on suspension without pay was
discretionary, as the agency did not have a policy that an individual must be suspended if his or
her security clearance was suspended. Complainant contends that in fact, the opposite was true
- no employee had ever been indefinitely suspended without pay due to a suspended or revoked
security clearance. The agency 's response to this is that no prior employee had ever been
found to have committed any "overt act," as complainant was found to have done (i.e., by
bringing recording equipment onto secured property). In any event, there is clearly a need for
a credibility determination as to whether complainant 's case was in fact, as different as
management claims, from the cases of others whose security clearance came under review in
the past.

App. 75

6

0120080478

Finally, we note that the May 27, 2005 Decision letter indicates that a reason complainant was
being suspended was that he "created a disturbance in the workplace involving coworkers.
Specifically, you boasted to. co-workers that you were a person who sought revenge and knew
how to make bombs.,. Complainant denies that he ever made such statements and asserts that
none of his coworkers testified that they ever heard him threaten or attempt to take revenge on
anybody or threaten or attempt to blow anybody up with any bombs. He also notes that his
Supervisor "is not credible because his official documentary accounts and sworn testimony
regarding what he was told by [the younger female co-workers] during their single meeting on
February 25, 2005, has materially and repeatedly changed. He also questions why he would
have been permitted to continue working at all if he had truly made bomb-related threats or
comments.
The hearing process is intended to be an extension of the investigative process. and is designed
to ensure that the parties have "a fair and reasonable opportunity to explain and supplement
the. record and, in appropriate instances, to examine and cross-examine witnesses." See Equal
Employment Opportunity Management Directive for 29 C.F.R. Part 1614 (EEO MD-i10), 7-1
(November 9, 1999); see also 29 C.l~.R. § 1614.109(e). "Truncation of this process. while
material facts are still in dispute and the credibility of witnesses is still ripe for challenge,
improperly deprives complainant of a full and fair investigation of her claims." Mi S. Bang v.
United States Postal Service, EEOC Appeal No. 01961575 (March 26, 1998). See also
Peavley v. United States Postal Service, EEOC Request No. 05950628 (October 31, 1996);
· Chronister v. United States Postal Service, EEOC Request No. 05940578 (April 25. 1995). In
summary. there are simply too many unresolved issues which require an assessment of the
credibility of the parties. and the reason for complainant 's suspension.

CONCLUSION
In this case, issuance of a decision without a hearing was not warranted under 29 C.F.R.
§ 1614.109(g). The Commission REVERSES the agency's final order and REMANDS the
matter for a hearing in accordance with this decision and the ORDER below.

ORDER
The agency shall submit to the Hearings Unit of the Washington Field Office the request for a
hearing within fifteen (15) calendar days of the date this decision becomes final. The agency is
directed to submit a copy of the complaint file to the EEOC Hearings Unit within fifteen (15)
calendar days of the date this decision becomes final. The agency shall provide written
notification to the Compliance Officer at the address set forth below that the complaint file has
been transmitted to the Hearings Unit. Thereafter, the Administrative Judge shall issue a
decision on the complaint in accordance with 29 C.F.R. § 1614.109 and the agency shall issue
a final action in accordance with 29 C.F.R. § 1614.110.

App. 76

7

0120080478

IMPLEMENTATION OF THE COMMISSION'S DECISION (1{0501)
Compliance with the Commission's corrective action is mandatory. The agency shall submit
its compliance report within thirty {30) calendar days of the completion of all ordered
corrective action. The report shall be submitted to the Compliance Officer, Office of Federal
Operations, Equal Employment Opportunity Commission, P.O. Box 19848, Washington, D.C.
20036. The agency's report must contain supportpig documentation, and the agency must send
a copy of all submissions to the complainant. If the agency does not comply with the
Commission's order, the complainant may petition the Commission for enforcement of the
order. 29 G.F.R. § 1614.503(a}. The complainant also has the right to file a civil action to
enforce compliance with the Commission's order prior to or following an administrative
petition for enforcement. See 29 C.F.R. §§ 1614.407, 1614.408, and 29 C.F.R. §
1614.503(g). Alternatively, the complainant has the right to file a civil action on the
underlying complaint in accordance with the paragraph below entitled "Right to File A Civil
Action." 29 C.F.R. §§ 1614.407 and 1614.408. A civil action for enforcement or a civil
action on the underlying complaint is subject to the deadline stated in 42 U.S.C. 2000e-16(c)
(1994 & Supp. IV 1999). If the complainant files a civil action, the administrative processing
of the complaint, including any petition for enforcement, will be terminated. See 29 C.F.R.
§ 1614.409.
STATEMENT OF RIGHTS - ON APPEAL
RECONSIDERATION (M1208)
The Commission may, in its discretion, reconsider the decision in this case if the complainant
or the· agency submits a written request containing arguments or evidence which tend to
establish that:
1.
2.

The appellate decision involved a clearly erroneous interpretation of material
fact or law; or
The appellate decision will have a substantial impact on the policies, practices,
or operations of the agency.

Requests to reconsider, with supporting statement or brief, must be filed with the Office of
Federal Operations (OFO) within thirty (30) calendar days of receipt of this decision or
within twenty (20) calendar. days of receipt of another party • s timely request for
reconsideration. See 29 C.F.R. § 1614.405; Equal Employment Opportunity Management
Directive for 29 C.F.R. Part 1614 (EEO MD-110), 9-18 (November 9, 1999). All requests
and arguments must be submitted to the Director. Office of Federal Operations, F.qual
Employment Opportunity Commission, P.O. Box 77960, Washington, DC 20013. In the
absence of a legible postmark, the request to reconsider shall be deemed timely filed if it is
received by mail within five days of the expiration of the applicable filing period. See 29

App. 77

8

0120080478

C.F.R. § 1614.604. The request or opposition must also include proof of service on the other
party.

Failure to file within the time period will result in dismissal of your request for reconsideration
as untimely, unless extenuating circumstances prevented the timely filing of the request. Any
supporting documentation must be submitted with your request for reconsideration. The
Commission will consider requests for reconsider~tion filed after the deadline only in very

limited circumstances. See 29 C.F.R. § 1614.604(c).

COMPLAINANT'S RIGHT TO FILE A CIVIL ACTION (R0408)
This is a decision requiring the agency to continue its administrative processing of your
complaint. However, if you wish to file a civil action, you have the right to file such action in
an appropriate· United States District Court within ninety (90) calendar days from the date
that you receive this decision. In the alternative, you may file a civil action after one
hundred and eighty (180) calendar days of the date you filed your complaint with the
agency, or filed your appeal with the Commission. If you file a civil action, you must name as
the defendant in the complaint the person who is the· official agency head or department head,
identifying that person by his or her full name and official title. Failure to do so may result in
the dismissal of your case in court.
"Agency" or "department" means the national
organization, and not the local office, facility or department in which you work. Filing a civil
action will terminate the administrative processing of your complaint.

RIGHT TO REQUEST COUNSEL (Z1008)
If you decide to file a civil action, and if you do not have or cannot afford the services of an
attomey, you may request from the Court that the Court appoint an attorney to represent you
and that the Court also pennit you to file the action without payment of fees, costs, or other
security. See Title Vil of the Civil Rights Act of 1964, as amended, 42 U.S.C. § 2000e et
seq.; the Rehabilitation Act of 1973, as amended, 29 U.S.C. §§ 791, 794(c). The grant or
denial of the request is within the sole discretion of the Court. Filing a request for an

App. 78

9

0120080478

attorney with the Court does not extend your time in which to file a civil action. Both the
request and the civil action must be filed within the time limits as stated in the paragraph above
( "Right to File A Civil Action").

FOR THE COMMISSION:

Carlton M. Hadden, Director

.Office of.Feqeral Operations

MAY 1__ 4 2010
Date

App. 79

10

0120080478

CERTIFICATE OF MAILING
For timeliness purposes, the Commission will presume that this decision was received
within five (S) calendar days after it was mailed. I certify tluJt this decision was mailed to

the following recipients on the date below:
Walton B. Campbell
9901 Stoneybrook Dr

Kensington, MD 20895
Gary M. Gilbert, Esq.

8401 Colesville Rd #315
Silver Spring. MD 20910

Spurgeon A. Moore, Director
EEO Compliance & Complaints Review
Department of the Anny

1901 South Bell Street
Crystal Mall 4, Suite 109B
Arlington. VA 22202-4508

MAY 1 4 2010
Date

Equal Opportullity Assistant

App. 80

P
ag
e1o
f1
Don
te Newman
F
rom
:

DocuManage
rPowe
red b
yFa
x2Ma
i
l[
repo
r
ts@
rep
ly
.
fax2ma
i
l
.com
]

Sen
t
:

Monday
, Augus
t22
,2011 3
:14PM

To
:

Don
te Newman

Sub
jec
t
: Wa
l
ton Campbe
l
l

I

MA
IL2FAX DETA
ILED DEL
IVERYREPORT

!sen
tBy Use
r

11Don
teNewman
1162722150
I
IF2M
/9351986917
4

En
te
red Fax2Ma
i
l
Sys
tem

108
/2215
:05

!A
t
ten
t
ion
!JobNumbe
r

!Repo
r
tGene
ra
ted
!Sub
jec
t
!PageCoun
t

-- --

1108
/2215
:14
!
!Wa
l
tonCampbe
l
l
1124(
in
c
lud
ingco
ve
rshee
t
)

SUMMARY
I
I
S
e
n
t
:
1
E
r
ro
rs
: 0 11 Cance
l
led
: 0I
I
II
ITotal:1 Ii

IDestination

l
lstatus IIDate

12025640356

I
ISENT

8
/
2
2
/
2
0
1
1

!108122

App
.81

l
lr
ime
!!15:11

I
~~ , ~~
II

11

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 2 of 13 PageID# 351
DEPARTMENT OF DEFENSE

DEFENSE LEGAL SER\1CES JGEi','CY

DEF.£NSE OFFICE.OF HEARINGS AND APPEALS
WASUINGTON HEARING OFFICE
1•osr (lfl'1CE BOX 3<r27
AAUl'>'CTON, VlffCINU 2~03;19!.S
f.tX (i03) 696 -1831

DATE:

Security Clearance
Granted by·PSAB

)
)

Jn re:

)

CAMPBELL, Walton Bayne

)
)
)
)
.)

SEP O5 2007

USA-C No. 07 -07 329

_________________

Appellant in Personal Appearance

.. . • -:

.

RECOMMENDED DECISION OFADMINISTRATIVE JUDGE
MARK \V., HARVEY
.

APPEAJUNG FOR APPELLANT
Da,•id P. Price, Esquire

SYNOPSIS
Appellant had three ~Jleged security violations, and several other alleged
transgressions listed on his statement of reasons. The U.S. Army Central Personn.e1
Security Clearance FaciHty (USA, CCF) informed Appellant that. the transgressio.ns
alleged under the p~rsonal conduct guideline did not co~s titute a security concern.
The evidence did not establish t_hat Appellani violated any s ecurity rules or
regulations. I recommend that the. Department of the . Army Personnel Security
Appeals Board overturn the Jetter revoking his eligibility for access to SCI
information and his access to classified 1nformatio.n.
HISTORY OF CASE

l

On December I J, 2005, the U.S . .Army Central Personnel Securi.t y Clearance
Facility (USA CCF) issued Appellant a LeHer of Intent (LOJ) to Revoke Sensi.tive

il

!

fOROFFICIAL USE ONLY

Wlwt, ii..-cdlc,cd,>.;, .i.,nm,ca, ......... ~ .. i..

I
!
l

EXEMPT FIIOM MAl'<D.i,~01\\' PISCLOSI/Rf."°*' .... fOI.\

£,nr.r,Gon 6 IPJ"td

App. 82

!

Complainant's
Exhibit 35

II
!

I

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 3 of 13 PageID# 352

Compartmented Informalion (SCJ) Access Eligibi]ity and Security Clearance. i. The
LOI detailed reasons why the USA CCF could not make a preliminary affirmative
finding that it is clearly consistent with the interests of national security to grant or
continue Appellant's security clearance and eligibility for SCI access. Specifically,
the LOI forwarded a Statement of Reasons (SOR) setting forth security concerns
arising from Appellant's personal conduct and security violations.
On March 9,' 2006, Appellant responded in writing to the LOI, providing
information on the SOR allegations. The USA CCF issued a letter revoking his
eligibility for access to SCI information and his access to classified information
(LOR) on September 27, 2006. The LOR indicated his personal conduct and the
security violations remained a security concern. On October 10, 2006, he requested .a
personal appearance before an administrative judge from the Defense Office of
Hearings· and Appeals (DOHA). 2 On October 13, 2006; Lieutenant Colonel Ralph,
Deputy Commander, USA CCF, informed Appellant's counsel that all SOR
allegations were mitigated except for the three security violations (pages of
documents admitted (pg.) 41-43). Nevertheless, this decision will briefly address all
SOR allegations, as some provide background information, explaining Appellant's
motive for tape recording a conversation in the workplace.
·,

On June 8, 2007, DOHA received the case, and assigned it to me. Appe!lant's
lawyer requested a delay until July 6, 2007. A notice of personal appearance was
issued on June 13, 2007. The personal appearance was held on July 6, 2007. DOHA
received the record of the hearing (R.) on July l 8, 2007. Appe11ant provided
documentation pertaining to the security concerns, and I admitted 44 pages of
documents into the record.

1 The LOI was issued under Department of Defense (DoO) Direc:tive 5200.2-R, January
1987, Personnel Security Program, as amend.ed and modified (Regulation), Army Regulation 38067, September 9; 1988, Department of the Army Personnel Security Program Regulation, as
amended by Memorandum, DAMf-CH, February 19, 1999, Subject: Personnel Security, and·
Memorandum, IACF-AD, December 13, 2005, Subject: Intent to Revoke Sensitive Compartmented
Information (SCI) Access EligibHity and Security Clearance.
2Authority and criteria for the personal .appearance arises from Executive Order [2968,
Access to Cfossifiecf Information, dated August 4, 1995, as implemented hy the Regulation,
Department of Defense Directive 5220.6, Defensre Industrial Persotinel Security Clearance Re1•iew
Program (Directive), dated January 2, 1992; as amended, modi:fied and revised, as well as the
references cited in note 1, supra.

On August 30, 2006, the Under Secretary of Deftnse (Intelligence) published a
memorandum directing application of revised Adjudicative Guideline to all adjudications and. other
determinations made under the Directive and tbe Regulation in which the. SOR. was issued on or
after SeptemlJer I. 2006. The revised Adjudicative Guidelines (AG} do !!Q1 apply to this case
because the SOR was issued prior to September I, 2006.
FOR OFFICIAL USE ONLV

-vihan u:i,recfaaed thirdDamrat cos.rains inronnatloa
EXEMPr FllOM MANDATOllY DISCLOSURE i1Nic,-1be FOIA
·

·

Eumpiion 5 applico

App. 83

2

ID 353
f13Page
/17 Page4o
/21
led07
i
-6 F
t35
-CM-TCB Documen
-00568
-cv
:17
Case1

App
.84

ID#354
f13Page
/17 Page5o
/21
led07
i
-6 F
t35
-TCB Documen
-CMH
-00568
-cv
:17
Case1

App
.85

ID#355
f13Page
/17 Page6o
/21
led07
i
-6 F
t35
-TCB Documen
-CMH
-00568
-cv
:17
Case1

App
.86

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 7 of 13 PageID# 356

making complaints and filing grievances at NR L. His allegations were made in good
faith, and are based in fact. The re.cord evidence does not establish that he violated a
rule.
SOR

,r Lg

(stalking}'

From July 2004 until approximately February 2005, Appellant frequently went
to lunch with several employees of the Operations Division, Engineering Rese11rch
and Development Center (ERDC), including Ms. Kennon and Ms. Hubbard (R. 3435; 53-54; 58-61; File at 57). In February 2005, Appellant moved into the same
division where Ms. Kennon and Ms. Hubbard worked (R. 35). On February 25, 2005,
Mr. Harwig a senior employee at ERDC, noticed Appellant "sitting too close'' to Ms.
Kennon and Ms. Hubbard and looking over their shoulders at a workstation they
were using (File at 164). Later that day, Mr. Harwig questioned them about their
relationships with Appellant Id. Ms. Kennon said Appellant looked up her exhusband on the internet, and drove through her neighborhood looking for her house.
Jd. Ms. Hubbard said she felt uncomfortable around Appellant. 10 Id. ·
On February 28, 2005, Appellant was invited to go to the customary lunch
with Ms. Kennon and Ms. Hubbard (R. 61-62). Appellant was not informed that Ms.
Kennon and Ms. Hubbard did not want to have lunch with him until he was
counseled about his relationship with them on February 28, 2005 (R. 133-134; pg.
33-34). Later, on February 28, 2005, Appellant's supervisor sent him an e-mail
stating he was dist.racting the female employees on February 25, 2005. In the e-mail
he directed Appellant to stay out of the office areas where Ms. Ken.non and Ms.
Hubbard worked, and to minimize his contact with them (R. 62-63; File at 165; pg.
16, 19). Appellant was very upset about the email, and considered it an official
document alleging improper conduct (R. 64-65).
On March 7, 2005, Appellant sent a lengthy e-m.ail to eight of his supervisors
denying any misconduct and making a variety of allegations against Ms. Kennon and
Ms. Hubbard (R. 65-67; pg. l 7A-l 7G; File at 166-172). Some of his allegations
raised security concerns, and/or alleged Ms. Kennon and/or Ms. Hubbard displayed
organizational disloyalty by making. derogatory comments about the Anny and their
9

See note 4, supra.

10 Appellant used the internet to allef!lpl to locate a co-worker to call about extending his
leave. while he was in Mexico, and happened to find a link to Ms. Kcnnan•s former husQand while
surfing the internet (R. 78-8 l; File at 58). Appellant denied the allegation that he wa, driving
around Ms. Ken.non ·s neighborhood looking for her residence (R. 82). He drove to his old
neighborhood (where he lived for I 7 y~ars) to visit old neighbor$. His former residence w~s in the
same town where Ms. Kennan's resid'ence was Jocated. He mentioned ai the lunches that he found
her former husband's phone number on the internet, and went to Ms. Kennon's town, adding to her
concerns that he Was stalking her. AppeHant a'lso gave lVIs. Kennon inexpensive, unsolicited gifts
of. ear plugs, a battery cleaner, a book and candy (File at 1i6).
FOR OfflCJAL USE ONLY

Wbeii ~e,hh$40'CW!lffll n , ~ infumwro.1

EXEMPT FitOM MAf,ID.\TOltY DISCLOSURE~ !ht fOIA
.
~pt!OQ.hppli,::1;

App. 87

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 8 of 13 PageID# 357

supervisors at a public restaurant {R. 61-62). On March &, 2007, Appellant was
counseled about sexual harassment 11 without being provided any factual description
of his alleged harassing behavior (R. 68). Appellant subsequently learned that Ms.
Kennon said he often looked at her breasts and told her once she "Jook[ed] like
trouble;" however, Appellant said her description was a misquote (R. 113-116). The
reaction of Appellant's supervisors to his lengthy e-mail of March 7, 2005, was
negative, as they questioned his judgment and stability {pg. 33-34).
On March 9, 2007, after work, Appellant went . to the gym with Laura
Mulholland, an ERDC employee (R. 71; File at 59). After working out for about an
hour, he drove his normal route home via Telegraph Road, to Huntington, to Route
One, and then to his apartment in Alexandria (R. 71-72; File at 59). Ms. Kennon
usually drives home via Telegraph Road, to Huntington, and then Route One to the
Beltway {R. 74}. On March 9, 2007, Ms. Kennon left her office, and on her way
home, she noticed Appellant in his vehicle as she drove through an intersection (File
at 176). She turned around, and returned to the office to report him for following her
(File at 59, 176).
On March 10, 2007, Mr. Harwig told Appellant he was under investigation for
misconduct, to avoid contact with Ms. Kennon and Ms. Hubbard, and he suspended
Appellant's access
the $KIF (R. 69; pg. 18). On March 11, 2007, Appellant
attended a meeting chaired by Mr. H arwig and attended by Jaw enforcement and
security representatives, and he was accused of stalking Ms. Kennan by following
her home on March 9, 2007 (R. 70-71).

to

On March 11, 2007, at about 4:00 p.rn., Ms. Kennon signed a Fairfax County
arrest warrant accusing Appellant of stalking her (R. 73).
Mr. Harwig responded to Appellant's allegations by asking Ms. Kennon and
Ms. Hubbard and their supervisors whether Ms. Kennon and/or Ms. Hubbard were
under stress or were unreliable (File at 175; pg. 20). Apparently Mr. Harwig did not
confront them with Appellant's specific allegations. Id. The supervisor determined
Appellant's allegations were unfounded, and no further investigation was warranted.
Id.
On March 11, 2005, Mr. Harwig interviewed Appellant about the allegations.
(File at 177-178). Appellant said he we·nt to the gym to work out. Id. After working
out he drove home. Id. His route ho111e is similar to Ms. Kennan's. Id. He did not
see her, or knowingly follow her (File at 178).
On Oeto.ber 19, 2005, Appellant was found not guilty of stalking (File at 60).

11

The SOR did not allege Appellant committed sexual harassment. Thus, sexual harassment
cannot be used as a basis to deny his security clearance.
FOR OFFICIAL USE ONLY

~wi:-c&~i:idlh.ii.~Gmair.J!D(l)l'll'W1,;n

EXEMM' FROM W.NO.IITORY OlSCLOSURE oo6cr !lie fOlA
E.t,m,p.i,;n, 6 Jippiid,

App. 88

1

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 9 of 13 PageID# 358

SOR ,i,i 1.g and l.h (security violation)
On March I 0, 2005, Appellant brought a tape recording device to his office
because he wanted to record Ms. Kennon and/or counseling sessions with his
supervisors (R. 84-88; File at 60). He believed Mr. Harwig and Ms. Kennon had a
special relationship (R. 85-86). He thought the recording would settle any
subsequent disputes about what was said (R. 84-88). He routinely carried a
photography capable cell phone, although he did not use that capability (R. I 06; File
at 60). He attempted to record Mr. Harwig's counseling session on March 10, 2007;
however, the device did not record the conversation for technical reasons (R. 88,
102-103; File at 60-61). He did not attempt to tape record the more intensive
counseling session with Mr. Harwig on March 11, 2005 (R. 102-103). I:Iis cell phone
did not contain any photographs, and his recording devices did not contain any other
recordings of persons who did not consent to the recording prior to March 14, 2005
(R. 98-99; pg. 26).
On March I 4, 2005, Appellant turned on the recording device in the parking
lot and brought the recording device to his office area where he was arrested for
stalking. The recording device captured the arresting officers telling Appellant he
was under arrest (R. 90-91; File at 61 ). The officer. who searched him, found a
digital tape recorder, connected to a microphone, as well as two recording devices
on Appellant's person (File at 136). Appellant's also had a cell phone with a
photographic capability on his person (File at 60). Appellant denied that he
possessed these devices in any rooms where the devices were prohibited (R. 130131; File at 61 ).
SOR ,r~ l.g and 1.h allege Appellant brought these devices into a restricted
area of a secure facility. He then recorded a conversation with his supervisor. The
Command Security Manager, stated in an e-mail dated September 21, 2006, that
Appellant admitted bringing a recording device into Room 506 of the Cude
Building 12 and recording a conversation with his supervisor. She stated Room 506 in
the Cude Building is a restricted area. She provided a copy of a Restricted sign. 13 It
includes the warning:

Photographing, making notes, drawings, maps, or graphic
representations of this area or its activities is prohibited unless
specifically authorized by the commanding officer. - Any such
material found in the possession of unauthorized personnel will be
confiscated.
12
The Cude Building is Building 2592. See h1tp://www.dodtechmatch.com/DOD/Lab/
ViewLab.aspx?id-20225 .

13
Appellant explained the sign she referenced was at the Guard desk, al Room 112-B,
Building 2592 (R. 39-41). See pages 6 and 7 (sign & floor plan showing location of Room 112-B).

FOR OFFICIAL USE ONLY

When 111\ftdactcd 1his ibrumcnt eoruaiiu inronnailon
EXEMPT FROM MANDATORY DISCLOSURE. und~ 1he fOIA
Eumpi:ion 6 ..ppJiQ

App. 89

8

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 10 of 13 PageID# 359

The sign does not preclude possession of photography or recording devices.
The sign provides a general prohibition against collection of information pertaining
to the physical security of.an area, and against collection of classified information
about other activities through making notes. For example, employees can certainly
make notes as necessary of non-classified duties or purposes, but· they are not
permitted to make notes about the physical layout, security conditions or activities.
Another sign applying only to "VISITORS" prohibits, "cameras . . . cellular
telephones [, and] recorders." Appellant is an employee, not a visitor, and the
visitor prohibition does not apply to him.
Appellant provided an exterior building photograph showing the locations of
Building 2592 and 2592A (pg. 4). Essentially Building 2592 is a less restricted
building in front of Building 2592A, which is a SKIF (R. 39-40). The Notice
described above is posted at the Guard Desk in front of Building 2592.
There is a policy memorandum and standard operating procedure, which
restrict or prohibit devices in particular rooms of Building 2592. ERDC Standard
Operating Procedure (SOP) 190-13-1 prohibits recording devices and photographic
devices in Building 2592A (pg. 8), and a small number of rooms in Building 2592
(pg. 8; R. 43 ). The rooms with restrictions are marked in yellow on the floor plan for
Building 2592 (pg. I 0). Restricted Area signs (pg. 9) are posted on doors of
particular rooms in Building 2592 (R. 44-45; pg. 8-10). See SOP, page 3; pg. 8).
Room 460 of Building 2592 is Mr. Harwig's office, and Room 442 is Appellant's
office/cubical (R. 52; pg. 2, 11 ). These key locations are highlighted in yellow, and
Room 460 is located in the ring closest to the center of the building (pg. 11). Room
442 is located directly across the hallway from Room 460 (pg. 11). Ms. Kennan's
office is about 20 feet from Appellant's cubical.
A policy memorandum dated January 13, 2003, authorizes possession of cell
phones and other personal electronic devices (PED) in Building 2592,. but restricts
their possession in areas where classified information is being discussed (R. 56; pg.
12-15). 14 The Security Office is supposed to determine when the policy memorandum
applies (pg. 14). Ten ERDC personnel signed the front of the policy memorandum
indicating they were aware !Jf the PED policy; however, Appellant did not sign the
document (R. 56). Appellant said the PED policy was not part of his in-processing
packet, and he did not see the PED policy until the middle of 2006 (R. 56-57).
Appellant believed the persons signing the PED policy were guards (R. 57}.
Appellant provided his route to his office and Mr. Harwig's office when
carrying the PEDs (R. 92-95; pg. I 0). The most direct route does not enter any areas
where the possession of PEDs is prohibited (R. 94-95).
14

Tbis is of course a reasonable restriction. Someone might have a conversation of a cell
phone and inadvertently pick up a classffied conversation, resulting in a security violation.
FOR OFFICIAL USE ONLY

When unredaelccl 1hh d«umenl cont,-ira information
EXEMPT FROM MI.NDA1"0R.Y DISCLOSURE \lllda 1he FOIA
Ext!!lplinn, .1pp1ies

App. 90

9

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 11 of 13 PageID# 360

"[I]n Virginia it is not a criminal offense for a person to record a conversation
where the person is a party to the communication or one of the parties to the
communication has given prior consent ·10 the recording. Va. Code § 19.2-62(8)(2).
In other words, in Virginia, there is no criminal prohibition against recording a
telephone conversation provided one of the parties to the conversatidn has consented
to the recording." United States v. Smallwood, 365 F.Supp.2d 689, 697-698 (E.D.
Va. 2005). After Army Regulation 600-20, paragraph 5-21 was rescinded in 1984,
tape recording of conversations without consent of all parties was no longer
prohibited by non-law enforcement 15 personnel. See Clark, Wes, Electronic
Surveillance and Related Investigative Techniques, 128 Mil.L.Rev. 155, 188-189 and
n. 107 (Spring 1990). I was unable to locate any regulation or rule that Appellant
violated when he tape recorded the officer arresting him, or when he attempted to
tape record his supervisor's counseling session.
SOR~ 1.h (misrepresenting his address, and comments about making bombs) 16

Appellant misrepresented his current legal address to his supervisory chain of
command. SOR ,r I .h. His supervisor thought he lived in Kingstown rather than in
Huntington Towers (File at 178). Appellant explained that the information about his
address was accurate because he was in transition from ,an apartment to a house (File
at 62-63).
SOR ,r l.h alleges Appellant made a veiled threat about his ability to make
explosive devices (R. 83; File at 178). On March 11, 2005, Appellant told his
supervisor that the explosives referred to were common high school projects (File at
63, 177). Appellant provided a detailed rebuttal to this allegation with references to
supporting statements (File at 63-65).
CONCLUSIONS

As set forth in the regulation, every recommended personnel security decision
must be a fair and impartial overall common sense decision based on all available
evidence, both favorable and unfavorable. The decision must be arrived at by
applying the standard that the grant or continuance of a security clearance or access
to classified information is clearly within the interests of national security. Upon
consideration of all the facts in evidence, and after application of all appropriate
. IS Army Regulation 190-53, Military Police .Jnterception of Wire and Oral Communicalions
for Law EnforcemenJ Purposes {November 3, 1986) includes an approval process for law
enforcement tape recording with consent of one party. However, this regulatlon in paragraph 1-)
and l-2a is made applicable to law enforcement activities and is not general1y applicable to
personnel such as Appellant.
'
16

See note 4 supra.
9

FOR OFFICIAL USE ONLY

Whcti 11rndacl~thisdot1Jme,iit tol'llaill.S inromwio11
EXEMPT FROM MANDAiORY DISCLOSURE lll1der r~ FOIA
f•cmplion 6 applies

App. 91

10

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 12 of 13 PageID# 361

legal precepts, factors, and conditions, including those described briefly above, I
conclude the following with respect to the allegations set forth in the SOR:
Security Violations
Under Guideline K, the Department of Defense is concerned that
noncompliance "with security regulations raises doubt about an individual's
trustworthiness, willingness, and ability to safeguard classified information."
There are two security violations disqualifying conditions (SV DC). SY DC
and 2 respectively provide, "unauthorized disclosure of. classified information," and
"violations that are deliberate or multiple or due to negligence." The evidence does
not establish Appellant disclosed classified information, and/or violation of security
rules.
Any of four security violations mitigating conditions (SV MC) could
potentially mitigate security concerns. For SV MCs 1-3 to be applic.able, the
security violation must be inadvertent, isolated or infrequent, or due to improper or
inadequate training. For SV MC 4 to apply, Applicant must demonstrate a positive
attitude towards the discharge of security responsibilities. Assuming he violated a
security rule, SV MCs 1-4 all apply. Appellant is a stickler for following the rules,
and is very conscientious about following security rules. He is a devoted employee
who is trustworthy' and serious about security. He has a positive attitude towards
security and has taken demonstrative and positive steps in discharging his security
responsibilities.
Personal Conduct

Personal Conduct is always a security concern because it asks whether a
person's past conduct justifies confidence the person can be trusted to properly
safeguard classified information. Personal conduct involving questionable judgment,
untrustworthiness, unreliability, lack of candor, dishonesty, or unwillingness to
comply with rules and regulations could indicate that the person may not properly
safeguard classified information.
I considered all Personal Conduct Disqualifying Conditions (PC DC), and PC
DC 5 is potentially applicable, "a pattern of dishonesty or rules violations." As
indicated previously, the record evidence did not establish violation of any rules.
I have considered all Personal Conduct Mitigating Conditions (PC MC), and
PC MC 1, "The information was un~ubstantiated or not pertinent to a determination
of judgment, trustworthiness, or reliability," applies.
In all adjudications, the protection of our national security is the paramount
concern. The objective of the security clearance process is the fair-minded,
FOR OFrtCIAL USE ONLY

WheQ unm!zeted this document eo111IUIS info1matiOt1
EXEMPT FROM MANDATORY DISCLOSURE under tlit FOIA.
E,,=p1iat16,ppl~

App. 92

11

Case 1:17-cv-00568-CMH-TCB Document 35-6 Filed 07/21/17 Page 13 of 13 PageID# 362

..
commonsense assessment of a person's life to make an affirmative determination
that the person is eligible for a security clearance. Indeed the adjudicative process is
a careful weighing of a number of variables in considering the "whole person"
concept. It recognizes that we should view a person by the totality of his or her acts,
omissions, motivations and various other variables. Each case must be adjudged on
its own merits, taking into consideration all relevant circumstances, and applying
sound judgment, mature thinking, and careful analysis.
I have also considered the following specific factors: the nature and
seriousness of the conduct and surrounding circumstances, to include knowledgeable
participation; the frequency and recency of the conduct; the individual's age and
maturity at the time of the conduct; the voluntariness of participation; the presence
or absence of rehabilitation and other pertinent behavioral changes; the motivation
for the conduct; the potential for pressure, coercion, exploitation, or duress; and the
likelihood of continuation or recurrence of the conduct.
Having considered the "whole person" concept in evaluating Appellant's risk
and vulnerability in protecting our national interests, I find Appellant has refuted the
allegations of security violations. Even if he failed to refute the allegations, he
successfully mitigated the security concerns raised by the alleged security violations
and personal conduct security concerns. I am persuaded by the totality of the
evidence in this case that it is clearly consistent With the interests of national
security to grant Appellant a security clearance.
FORMAL FINDINGS

SECURITY VIOLATIONS:
PERSONAL CONDUCT:

For Appellant
For Appellant

RECOMMENDED DECISION

In reaching my decision, I have considered the entire record and have applied
the appropriate AGs contained in DoD Regulation 5200.2, as amended. Since the
protection of the national security is the paramount consideration, the final decision
in each case is arrived at by applying the standard that doubt concerning personnel
being considered for access to classified information will be resolved in favor of
national security. In light of all of the information in this case, it is clearly
consistent with the interests of national security to overturn the letter revoking his
eligibility for access to SCI information and his access to classified, information.

~0-~
Mark W. Har;'.:~~
Administrative Judge
0

0

FOR OFFICIAL USE ONLV

When unredlcled this do:umcnl contains in/orma1lon
EXEMPT FROM MANDATORY DJSCLOSURE wider 1hc FOIA
£u:111p1ioo 6 applies

App. 93

12

App. 94

App. 95

App. 96

App. 97

App. 98

App. 99

App. 100

App. 101

App. 102

App. 103

§2302

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

`
`
(8
) O
f the tota
l number o
ff
ina
l agency act
ions
renderedinsuchf
isca
lyearinvo
lv
ingaf
ind
ingo
fd
is
cr
im
inat
ionÐ
`
`
(A
)the numberandpercentageinvo
lv
ingaf
ind
ing o
fd
iscr
im
inat
ion based on each o
ftherespec
t
ivebaseso
fa
l
legedd
iscr
im
inat
ion
,and
`
`
(B
)o
fthe numberspec
i
f
ied undersubparagraph
(A
)for each o
ftherespect
ive bases o
fa
l
leged d
is
cr
im
inat
ionÐ
`
`
(
i
)the number and percentagethat wereren
dered w
ithout a hear
ing be
fore an adm
in
istrat
ive
judge o
f the Equa
l Emp
loyment Opportun
ity
Comm
iss
ion
,and
`
`
(
i
i
)the number and percentagethat wereren
dered a
fter a hear
ing be
fore an adm
in
istrat
ive
judge o
f the Equa
l Emp
loyment Opportun
ity
Comm
iss
ion
.
`
`
(9
) O
f the tota
l number o
ff
ina
l agency act
ions
renderedinsuchf
isca
lyearinvo
lv
ingaf
ind
ingo
fd
is
cr
im
inat
ionÐ
`
`
(A
)the numberandpercentageinvo
lv
ingaf
ind
ingo
fd
iscr
im
inat
ioninconnect
ion w
itheacho
fthe
respect
iveissueso
fa
l
legedd
iscr
im
inat
ion
,and
`
`
(B
)o
fthe numberspec
i
f
ied undersubparagraph
(A
)foreach o
ftherespect
iveissues o
fa
l
leged d
is
cr
im
inat
ionÐ
`
`
(
i
)the number and percentagethat wereren
dered w
ithout a hear
ing be
fore an adm
in
istrat
ive
judge o
f the Equa
l Emp
loyment Opportun
ity
Comm
iss
ion
,and
`
`
(
i
i
)the number and percentagethat wereren
dered a
fter a hear
ing be
fore an adm
in
istrat
ive
judge o
f the Equa
l Emp
loyment Opportun
ity
Comm
iss
ion
.
`
`
(10
)
(A
)O
fthetota
l number o
fcomp
la
ints pend
ing
insuchf
isca
l year(as descr
ibedinthe parenthet
ica
l
matterin paragraph(
6
)
)
,the numberthat weref
irst
f
i
led be
forethestart o
fthethencurrentf
isca
l year
.
`
`
(B
)W
ithrespecttothosepend
ingcomp
la
intsthat
weref
irstf
i
led be
fore the start o
f the then current
f
isca
lyearÐ
`
`
(
i
) the number o
f ind
iv
idua
ls who f
i
led those
comp
la
ints
,and
`
`
(
i
i
)the numbero
fthosecomp
la
ints wh
ichareat
thevar
iousstepso
fthecomp
la
intprocess
.
`
`
(C
)O
fthetota
l number o
f comp
la
ints pend
ingin
such f
isca
l year (as descr
ibed in the parenthet
ica
l
matterin paragraph(
6
)
)
, the tota
l number o
f com
p
la
ints w
ithrespectto wh
ichtheagencyv
io
latedthe
requ
irementso
fsect
ion1
614
.10
6
(e
)
(2
)o
ft
it
le29o
fthe
Code o
f Federa
l Regu
lat
ions(asin e
f
fect on Ju
ly1
,
2000
, and amendedfrom t
ime to t
ime
) byfa
i
l
ing to
conduct w
ith
in 180 days o
f thef
i
l
ing o
f such com
p
la
intsanimpart
ia
landappropr
iateinvest
igat
iono
f
suchcomp
la
ints
.
IM
ING ANDOTHER REQU
IREMENTS.Ð
`
`
(c
)T
`
`
(1
)C
URRENT YEAR DATA.ÐDa
ta posted under th
is
sect
ionforthethencurrentf
isca
l yearsha
l
linc
lude
bothÐ
`
`
(A
) inter
im year
-to
-date data
, updated quar
ter
ly
,and
`
`
(B
)f
ina
lyear
-enddata
.
`
`
(2
)D
ATA FOR PR
IOR YEARS.ÐTh
e data posted by a
Federa
l agency under th
is sect
ionfor af
isca
l year
(bothinter
im andf
ina
l
)sha
l
linc
lude
,for eachitem
under subsect
ion (b
)
, such agency
's correspond
ing
year
-enddataforeacho
fthe5immed
iate
lypreced
ing
f
isca
l years(or
,i
f not ava
i
lab
lefor a
l
l5f
isca
l years
,
for however many o
f those 5f
isca
l yearsfor wh
ich
dataareava
i
lab
le
)
.
`
`SEC
.302
. DATA TO BE POSTED BY THE EQUAL EM
PLOYMENT OPPORTUN
ITY COMM
ISS
ION
.
N GENERAL.ÐTh
e Equa
l Emp
loyment Oppor
`
`
(a
)I
tun
ity Comm
iss
ionsha
l
lpostonitspub
l
ic Webs
ite
,in
the t
ime
,form
, and manner prescr
ibed under sect
ion
303for purposes o
f th
is sect
ion
, summary stat
ist
ica
l
datare
lat
ingtoÐ
`
`
(1
) hear
ings requested be
fore an adm
in
istrat
ive
judge o
fthe Comm
iss
ion on comp
la
ints descr
ibedin
sect
ion301
,and

Page174

`
`
(2
) appea
lsf
i
led w
ith the Comm
iss
ionfromf
ina
l
agency act
ions on comp
la
ints descr
ibed in sect
ion
301
.
PEC
IF
IC REQU
IREMENTS.ÐTh
e data posted under
`
`
(b
)S
th
issect
ionsha
l
l
,w
ithrespecttothe hear
ingsandap
pea
lsdescr
ibedinsubsect
ion(a
)
,inc
ludesummarysta
t
ist
ica
l data correspond
ing to that descr
ibedin para
graphs(1
) through(10
)o
f sect
ion 301
(b
)
, and sha
l
l be
sub
jecttothesamet
im
ing and otherrequ
irements as
setforthinsect
ion301
(c
)
.
OORD
INAT
ION.ÐTh
edatarequ
iredunderth
issec
`
`
(c
)C
t
ionsha
l
lbeinadd
it
iontothedatathe Comm
iss
ionis
requ
iredtopostundersect
ion301asanemp
loy
ing Fed
era
lagency
.
`
`SEC
.303
. RULES
.
`
`The Equa
l Emp
loyment Opportun
ity Comm
iss
ion
sha
l
lissueanyru
les necessarytocarryoutth
ist
it
le
.
'
'
[For abo
l
it
ion o
f Imm
igrat
ion and Natura
l
izat
ion
Serv
ice
,trans
fero
ffunct
ions
,andtreatmento
fre
lated
re
ferences
,see noteset out undersect
ion1551 o
fT
it
le
8
,A
l
iensand Nat
iona
l
ity
.
]
[Fortrans
fero
fauthor
it
ies
,funct
ions
,personne
l
,and
assetso
fthe Bureauo
fA
lcoho
l
, Tobaccoand F
irearms
,
inc
lud
ingthere
latedfunct
ions o
fthe Secretary o
fthe
Treasury
, to the Department o
f Just
ice
, see sect
ion
531
(c
) o
f T
it
le 6
, Domest
ic Secur
ity
, and sect
ion
599A
(c
)
(1
)o
f T
it
le 28
, Jud
ic
iary and Jud
ic
ia
l Proce
dure
.
]
[Memorandumo
f Pres
idento
fthe Un
ited States
,Ju
ly
8
,2003
,68 F
.R
.45155
, de
legatedto D
irector o
fO
f
f
ice o
f
Personne
l Management author
ity o
f Pres
ident under
sect
ion204
(a
)o
f Pub
l
ic Law107±174
,setoutabove
.
]

§2302
. Proh
ib
i
tedpersonne
lprac
t
ices
(a
)
(1
) Forthepurposeo
fth
ist
it
le
,`
`proh
ib
ited
personne
l pract
ice
'
' means any act
ion descr
ibed
insubsect
ion(b
)
.
(2
) Forthepurposeo
fth
issect
ionÐ
(A
)`
`personne
lact
ion
'
' meansÐ
(
i
)anappo
intment
;
(
i
i
)apromot
ion
;
(
i
i
i
)anact
ionunderchapter75o
fth
ist
it
le
orotherd
isc
ip
l
inaryorcorrect
iveact
ion
;
(
iv
)adeta
i
l
,trans
fer
,orreass
ignment
;
(v
)are
instatement
;
(v
i
)arestorat
ion
;
(v
i
i
)areemp
loyment
;
(v
i
i
i
) a per
formance eva
luat
ion under
chapter43o
fth
ist
it
le
;
(
ix
)adec
is
ionconcern
ingpay
,bene
f
its
,or
awards
, orconcern
ingeducat
ion ortra
in
ing
i
ftheeducat
ion ortra
in
ing mayreasonab
ly
beexpectedtoleadto an appo
intment
, pro
mot
ion
, per
formance eva
luat
ion
, or other
act
iondescr
ibedinth
issubparagraph
;
(x
) a dec
is
ionto order psych
iatr
ictest
ing
orexam
inat
ion
;and
(x
i
)anyothers
ign
i
f
icantchangeindut
ies
,
respons
ib
i
l
it
ies
,or work
ingcond
it
ions
;
w
ith respect to an emp
loyeein
, or app
l
icant
for
,acoveredpos
it
ioninanagency
,andinthe
case o
f an a
l
leged proh
ib
ited personne
l prac
t
ice descr
ibed in subsect
ion (b
)
(8
)
, an em
p
loyee or app
l
icantforemp
loymentin a Gov
ernmentcorporat
ionasde
f
inedinsect
ion9101
o
ft
it
le31
;
(B
)`
`covered pos
it
ion
'
' means
,w
ith respect
to any personne
l act
ion
, any pos
it
ionin the
compet
it
ive serv
ice
, a career appo
intee pos
i
t
ioninthe Sen
ior Execut
ive Serv
ice
,orapos
i
t
ioninthe exceptedserv
ice
, but does notin
c
lude any pos
it
ion wh
ichis
, pr
iortothe per
sonne
lact
ionÐ

App
.104

Page175

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

(
i
) exceptedfrom the compet
it
ive serv
ice
because o
fitscon
f
ident
ia
l
, po
l
icy
-determ
in
ing
, po
l
icy
-mak
ing
, or po
l
icy
-advocat
ing
character
;or
(
i
i
)exc
ludedfromthecoverageo
fth
issec
t
ion bythe Pres
ident based on a determ
ina
t
ion by the Pres
ident thatitis necessary
and warranted bycond
it
ions o
f good adm
in
istrat
ion
;and
(C
)`
`agency
'
' means an Execut
ive agency
andthe Government Pr
int
ing O
f
f
ice
, but does
notinc
ludeÐ
(
i
) a Government corporat
ion
, except in
the case o
f an a
l
leged proh
ib
ited personne
l
pract
icedescr
ibedundersubsect
ion(b
)
(8
)
;
(
i
i
) the Federa
l Bureau o
f Invest
igat
ion
,
the Centra
lInte
l
l
igence Agency
,the De
fense
Inte
l
l
igence Agency
, the Nat
iona
l Geo
spat
ia
l
Inte
l
l
igence Agency
, the Nat
iona
l
Secur
ity Agency
, and
, as determ
ined bythe
Pres
ident
, any Execut
ive agency or un
it
thereo
fthepr
inc
ipa
lfunct
iono
f wh
ichisthe
conduct o
ffore
igninte
l
l
igence or counter
inte
l
l
igenceact
iv
it
ies
;or
(
i
i
i
) the Government Accountab
i
l
ity O
f
f
ice
.
(b
) Any emp
loyee who has author
itytotake
,
d
irect others to take
, recommend
, or approve
any personne
l act
ion
,sha
l
l not
,w
ithrespectto
suchauthor
ityÐ
(1
)d
iscr
im
inatefororaga
instanyemp
loyee
orapp
l
icantforemp
loymentÐ
(A
) on the bas
is o
f race
, co
lor
, re
l
ig
ion
,
sex
, or nat
iona
l or
ig
in
, as proh
ib
ited under
sect
ion717o
fthe C
iv
i
lR
ights Acto
f19
64(42
U
.S
.C
.2000e±1
6
)
;
(B
)onthebas
iso
fage
,asproh
ib
ited under
sect
ions12and15o
fthe Age D
iscr
im
inat
ion
in Emp
loyment Act o
f 19
67 (29 U
.S
.C
. 631
,
633a
)
;
(C
)onthebas
iso
fsex
,asproh
ib
ited under
sect
ion6
(d
)o
fthe Fa
ir Labor Standards Act
o
f1938(29 U
.S
.C
.20
6
(d
)
)
;
(D
)onthebas
iso
f hand
icapp
ingcond
it
ion
,
as proh
ib
ited undersect
ion501 o
fthe Reha
b
i
l
itat
ion Acto
f1973(29 U
.S
.C
.791
)
;or
(E
)onthebas
iso
f mar
ita
lstatusorpo
l
it
i
ca
la
f
f
i
l
iat
ion
, as proh
ib
ited under anylaw
,
ru
le
,orregu
lat
ion
;
(2
) so
l
ic
it or cons
ider any recommendat
ion
orstatement
, ora
l or wr
itten
,w
ithrespectto
anyind
iv
idua
l who requests oris under con
s
iderat
ion for any personne
l act
ion un
less
such recommendat
ion or statement is based
on the persona
l know
ledge or records o
f the
personfurn
ish
ingitandcons
istso
fÐ
(A
) an eva
luat
ion o
f the work per
form
ance
, ab
i
l
ity
, apt
itude
, or genera
l qua
l
i
f
ica
t
ionso
fsuchind
iv
idua
l
;or
(B
)aneva
luat
iono
fthecharacter
,loya
lty
,
orsu
itab
i
l
ityo
fsuchind
iv
idua
l
;
(3
)coercethepo
l
it
ica
lact
iv
ityo
fanyperson
(
inc
lud
ingthe prov
id
ing o
f any po
l
it
ica
l con
tr
ibut
ion or serv
ice
)
, or take any act
ion
aga
instanyemp
loyeeorapp
l
icantforemp
loy
mentasarepr
isa
lforthere
fusa
lo
fanyperson
toengageinsuchpo
l
it
ica
lact
iv
ity
;
(4
) dece
ive or w
i
l
l
fu
l
ly obstruct any person
w
ithrespecttosuchperson
'sr
ighttocompete
foremp
loyment
;

§2302

(5
)in
f
luence any person to w
ithdrawfrom
compet
it
ionforanypos
it
ionforthepurposeo
f
improv
ing or in
jur
ing the prospects o
f any
otherpersonforemp
loyment
;
(
6
) grant any pre
ference or advantage not
author
ized bylaw
,ru
le
, orregu
lat
ionto any
emp
loyee or app
l
icant for emp
loyment (
in
c
lud
ing de
f
in
ingthescope or manner o
f com
pet
it
ion ortherequ
irementsfor any pos
it
ion
)
for the purpose o
fimprov
ing orin
jur
ing the
prospectso
fanypart
icu
larpersonforemp
loy
ment
;
(7
) appo
int
, emp
loy
, promote
, advance
, or
advocatefor appo
intment
, emp
loyment
, pro
mot
ion
,oradvancement
,inortoac
iv
i
l
ianpo
s
it
ion anyind
iv
idua
l whois are
lat
ive(as de
f
inedinsect
ion3110
(a
)
(3
)o
fth
ist
it
le
)o
fsuch
emp
loyeei
fsuch pos
it
ionisinthe agencyin
wh
ichsuchemp
loyeeisserv
ingasapub
l
ico
f
f
ic
ia
l(as de
f
inedin sect
ion 3110
(a
)
(2
)o
f th
is
t
it
le
) or over wh
ich such emp
loyee exerc
ises
jur
isd
ict
ionorcontro
lassuchano
f
f
ic
ia
l
;
(8
)take orfa
i
ltotake
, orthreatentotake
orfa
i
ltotake
,apersonne
lact
ion w
ithrespect
to anyemp
loyee or app
l
icantforemp
loyment
becauseo
fÐ
(A
) any d
isc
losure o
f in
format
ion by an
emp
loyee or app
l
icant wh
ich the emp
loyee
or app
l
icantreasonab
ly be
l
ievesev
idencesÐ
(
i
)av
io
lat
iono
fanylaw
,ru
le
,orregu
la
t
ion
,or
(
i
i
) gross m
ismanagement
, a gross waste
o
ffunds
, an abuse o
f author
ity
, or asub
stant
ia
l and spec
i
f
ic danger to pub
l
ic
hea
lthorsa
fety
,
i
fsuch d
isc
losureis notspec
i
f
ica
l
ly proh
ib
ited bylaw andi
f suchin
format
ionis not
spec
i
f
ica
l
ly requ
ired by Execut
ive order to
be keptsecretintheinteresto
f nat
iona
lde
fenseortheconducto
ffore
igna
f
fa
irs
;or
(B
) any d
isc
losuretothe Spec
ia
l Counse
l
,
ortotheInspector Genera
lo
f an agency or
anotheremp
loyee des
ignated bythe head o
f
theagencytorece
ivesuchd
isc
losures
,o
fin
format
ion wh
ichthe emp
loyee or app
l
icant
reasonab
lybe
l
ievesev
idencesÐ
(
i
)av
io
lat
iono
fanylaw
,ru
le
,orregu
la
t
ion
,or
(
i
i
) gross m
ismanagement
, a gross waste
o
ffunds
, an abuse o
f author
ity
, or asub
stant
ia
l and spec
i
f
ic danger to pub
l
ic
hea
lthorsa
fety
;
(9
)take orfa
i
ltotake
, orthreatentotake
orfa
i
l to take
, any personne
l act
ion aga
inst
anyemp
loyeeorapp
l
icantforemp
loymentbe
causeo
fÐ
(A
)the exerc
ise o
f any appea
l
, comp
la
int
,
or gr
ievancer
ight granted by anylaw
,ru
le
,
orregu
lat
ion
;
(B
)test
i
fy
ingfororotherw
iselaw
fu
l
lyas
s
ist
ing anyind
iv
idua
lintheexerc
ise o
f any
r
ightre
ferredtoinsubparagraph(A
)
;
(C
)cooperat
ing w
ithord
isc
los
ingin
forma
t
iontotheInspector Genera
lo
f an agency
,
or the Spec
ia
l Counse
l
,in accordance w
ith
app
l
icab
leprov
is
ionso
flaw
;or
(D
) for1 re
fus
ing to obey an order that
wou
ld requ
ire the ind
iv
idua
l to v
io
late a
law
;
1S
oinor
ig
ina
l
. The word`
`
for
'
'probab
lyshou
ldnotappear
.

App
.105

§2302

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

(10
) d
iscr
im
inate for or aga
inst any em
p
loyee or app
l
icant for emp
loyment on the
bas
is o
f conduct wh
ich does not adverse
ly a
f
fecttheper
formanceo
ftheemp
loyeeorapp
l
i
cantortheper
formanceo
fothers
;exceptthat
noth
ing in th
is paragraph sha
l
l proh
ib
it an
agencyfromtak
inginto accountin determ
in
ingsu
itab
i
l
ityorf
itnessanyconv
ict
iono
fthe
emp
loyeeorapp
l
icantforanycr
ime underthe
lawso
fany State
,o
fthe D
istr
icto
f Co
lumb
ia
,
oro
fthe Un
ited States
;
(11
)
(A
) know
ing
ly take
, recommend
, or ap
prove any personne
l act
ion i
f the tak
ing o
f
such act
ion wou
ld v
io
late a veterans
' pre
f
erencerequ
irement
;or
(B
) know
ing
lyfa
i
l to take
, recommend
, or
approve any personne
l act
ioni
fthefa
i
lureto
take such act
ion wou
ld v
io
late a veterans
'
pre
ferencerequ
irement
;or
(12
)take orfa
i
ltotake any other personne
l
act
ioni
fthetak
ing o
f orfa
i
luretotakesuch
act
ion v
io
lates any law
, ru
le
, or regu
lat
ion
imp
lement
ing
, or d
irect
ly concern
ing
, the
mer
it system pr
inc
ip
les conta
inedin sect
ion
2301o
fth
ist
it
le
.
Th
is subsect
ion sha
l
l not be construed to au
thor
izethe w
ithho
ld
ingo
fin
format
ionfromthe
Congress orthetak
ing o
f any personne
l act
ion
aga
inst an emp
loyee who d
isc
losesin
format
ion
tothe Congress
.
(c
) The head o
f each agency sha
l
l be respon
s
ib
leforthe prevent
ion o
f proh
ib
ited personne
l
pract
ices
,forthe comp
l
iance w
ith and en
force
ment o
f app
l
icab
lec
iv
i
lserv
icelaws
,ru
les
, and
regu
lat
ions
,andotheraspectso
fpersonne
l man
agement
,andforensur
ing(
inconsu
ltat
ion w
ith
the O
f
f
ice o
f Spec
ia
l Counse
l
)that agency em
p
loyees arein
formed o
fther
ights andremed
ies
ava
i
lab
letothem underth
is chapter and chap
ter12 o
fth
ist
it
le
. Anyind
iv
idua
lto whomthe
head o
f an agency de
legates author
ityfor per
sonne
l management
, orfor any aspect thereo
f
,
sha
l
l bes
im
i
lar
lyrespons
ib
le w
ith
inthel
im
its
o
fthede
legat
ion
.
(d
) Th
issect
ionsha
l
l not be construedto ex
t
ingu
ish orlessen any e
f
fort to ach
ieve equa
l
emp
loyment opportun
ity through a
f
f
irmat
ive
act
ion or anyr
ight orremedy ava
i
lab
leto any
emp
loyee or app
l
icant for emp
loyment in the
c
iv
i
lserv
iceunderÐ
(1
)sect
ion717o
fthe C
iv
i
lR
ights Acto
f19
64
(42 U
.S
.C
.2000e±1
6
)
,proh
ib
it
ingd
iscr
im
inat
ion
onthebas
iso
frace
,co
lor
,re
l
ig
ion
,sex
,or na
t
iona
lor
ig
in
;
(2
)sect
ions12 and15 o
fthe Age D
iscr
im
ina
t
ionin Emp
loyment Act o
f19
67(29 U
.S
.C
.631
,
633a
)
, proh
ib
it
ing d
iscr
im
inat
ion onthe bas
is
o
fage
;
(3
) under sect
ion 6
(d
) o
f the Fa
ir Labor
Standards Acto
f1938(29 U
.S
.C
.20
6
(d
)
)
,proh
ib
it
ingd
iscr
im
inat
iononthebas
iso
fsex
;
(4
) sect
ion 501 o
f the Rehab
i
l
itat
ion Act o
f
1973(29 U
.S
.C
.791
)
, proh
ib
it
ing d
iscr
im
inat
ion
onthebas
iso
fhand
icapp
ingcond
it
ion
;or
(5
)theprov
is
ionso
fanylaw
,ru
le
,orregu
la
t
ionproh
ib
it
ingd
iscr
im
inat
iononthebas
iso
f
mar
ita
lstatusorpo
l
it
ica
la
f
f
i
l
iat
ion
.
(e
)
(1
) Forthepurposeo
fth
issect
ion
,theterm
`
`veterans
' pre
ference requ
irement
'
' means any
o
fthefo
l
low
ingprov
is
ionso
flaw
:

Page17
6

(A
) Sect
ions2108
,3305
(b
)
,3309
,3310
,3311
,3312
,
3313
, 3314
, 3315
, 331
6
, 3317
(b
)
, 3318
, 3320
, 3351
,
3352
, 33
63
, 3501
, 3502
(b
)
, 3504
, and 4303
(e
) and
(w
ithrespectto a pre
ference e
l
ig
ib
lere
ferred
to in sect
ion 7511
(a
)
(1
)
(B
)
) subchapter I
Io
f
chapter75andsect
ion7701
.
(B
) Sect
ions943
(c
)
(2
)and1784
(c
)o
ft
it
le10
.
(C
) Sect
ion1308
(b
)o
fthe A
laska Nat
iona
lIn
terest Lands Conservat
ion Act
.
(D
) Sect
ion301
(c
)o
fthe Fore
ign Serv
ice Act
o
f1980
.
2 7
(E
) Sect
ions 10
6
(
f
)
,
281
(e
)
, and 7802
(5
)2 o
f
t
it
le38
.
(F
) Sect
ion1005
(a
)o
ft
it
le39
.
(G
) Any other prov
is
ion o
flawthatthe D
i
rector o
fthe O
f
f
ice o
f Personne
l Management
des
ignatesinregu
lat
ions as be
ing a veterans
'
pre
ference requ
irement for the purposes o
f
th
issubsect
ion
.
(H
) Any regu
lat
ion prescr
ibed under sub
sect
ion(b
)or(c
)o
fsect
ion1302andanyother
regu
lat
ionthatimp
lementsaprov
is
iono
flaw
re
ferred toin any o
f the preced
ing subpara
graphs
.
(2
) Notw
ithstand
ing any other prov
is
ion o
f
th
is t
it
le
, no author
ity to order correct
ive ac
t
ionsha
l
lbeava
i
lab
leinconnect
ion w
ithapro
h
ib
ited personne
l pract
ice descr
ibed in sub
sect
ion(b
)
(11
)
. Noth
ingin th
is paragraph sha
l
l
becons
ideredtoa
f
fectanyauthor
ity undersec
t
ion1215(re
lat
ingtod
isc
ip
l
inaryact
ion
)
.
(Added Pub
.L
. 95±454
,t
it
le I
, §101
(a
)
, Oct
. 13
,
1978
, 92 Stat
. 1114
; amended Pub
.L
. 101±12
,§4
,
Apr
.10
,1989
,103 Stat
.32
; Pub
.L
.101±474
,§5
(d
)
,
Oct
.30
,1990
,104 Stat
.1099
; Pub
.L
.102±378
,§2
(5
)
,
Oct
.2
,1992
,10
6 Stat
.134
6
; Pub
.L
.103±94
,§8
(c
)
,
Oct
.6
,1993
,107 Stat
.1007
; Pub
.L
.103±359
,t
it
le
V
,§501
(c
)
, Oct
. 14
, 1994
, 108 Stat
. 3429
; Pub
.L
.
103±424
,§5
, Oct
.29
,1994
,108 Stat
.43
63
; Pub
.L
.
104±197
,t
it
le I
I
I
, §315
(b
)
(2
)
, Sept
.1
6
, 199
6
, 110
Stat
. 241
6
, Pub
. L
. 104±201
, d
iv
. A
,t
it
le X
I
,
§1122
(a
)
(1
)
,t
it
le XV
I
,§1
615
(b
)
, Sept
.23
,199
6
,110
Stat
.2
687
,2741
; Pub
.L
.105±339
,§6
(a
)
,(b
)
,(c
)
(2
)
,
Oct
.31
,1998
,112 Stat
.3187
,3188
; Pub
.L
.108±271
,
§8
(b
)
, Ju
ly7
,2004
,118 Stat
.814
; Pub
.L
.110±417
,
[d
iv
. A
]
,t
it
le IX
, §931
(a
)
(1
)
, Oct
. 14
, 2008
, 122
Stat
.4575
.
)
REFERENCES IN TEXT
Sect
ion1308
(b
)o
fthe A
laska Nat
iona
lInterest Lands
Conservat
ion Act
, re
ferred to in subsec
. (e
)
(1
)
(C
)
, is
c
lass
i
f
iedtosect
ion3198
(b
)o
fT
it
le1
6
, Conservat
ion
.
Sect
ion301
(c
)o
fthe Fore
ign Serv
ice Act o
f1980
,re
ferred to in subsec
. (e
)
(1
)
(D
)
, is c
lass
i
f
ied to sect
ion
3941
(c
)o
fT
it
le22
, Fore
ign Re
lat
ionsandIntercourse
.
Sect
ion 10
6
(
f
) o
ft
it
le 38
, re
ferred to in subsec
.
(e
)
(1
)
(E
)
, was enactedsubsequenttothe enactment o
f
subsec
.(e
)o
fth
issect
ion
.
Sect
ion 7802
(5
) o
ft
it
le 38
, re
ferred to in subsec
.
(e
)
(1
)
(E
)
, wasredes
ignatedsect
ion7802
(e
)o
ft
it
le38 by
Pub
.L
.108±170
,t
it
leI
I
I
,§304
(b
)
(3
)
, Dec
.6
,2003
,117 Stat
.
2059
.
AMENDMENTS
2008ÐSubsec
.(a
)
(2
)
(C
)
(
i
i
)
. Pub
.L
.110±417subst
ituted
`
`Nat
iona
l Geospat
ia
l
Inte
l
l
igence Agency
'
' for `
`Na
t
iona
lImageryand Mapp
ing Agency
'
'
.
2004ÐSubsec
.(a
)
(2
)
(C
)
(
i
i
i
)
. Pub
.L
.108±271subst
ituted
`
`Government Accountab
i
l
ity O
f
f
ice
'
'for`
`Genera
l Ac
count
ing O
f
f
ice
'
'
.
2S
ee Re
ferencesin Textnotebe
low
.

App
.106

Page177

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

1998ÐSubsec
.(a
)
(1
)
. Pub
.L
.105±339
,§6
(c
)
(2
)
, amended
par
.(1
)genera
l
ly
. Pr
iortoamendment
,par
.(1
)readas
fo
l
lows
:`
`For purposes o
fth
ist
it
le
,`proh
ib
ited person
ne
lpract
ice
' meansthefo
l
low
ing
:
`
`
(A
) Any act
ion descr
ibedinsubsect
ion(b
)o
fth
is
sect
ion
.
`
`
(B
) Anyact
ionorfa
i
luretoactthatisdes
ignated
as a proh
ib
ited personne
l act
ion under sect
ion
1599c
(a
)o
ft
it
le10
.
'
'
Subsec
.(b
)
(10
) to(12
)
. Pub
.L
. 105±339
,§6
(a
)
, struck
out`
`or
'
'atendo
fpar
.(10
)
,addedpar
.(11
)
,andredes
ig
natedformerpar
.(11
)as(12
)
.
Subsec
.(e
)
. Pub
.L
.105±339
,§6
(b
)
,addedsubsec
.(e
)
.
199
6ÐSubsec
.(a
)
(1
)
. Pub
.L
.104±201
,§1
615
(b
)
,amended
par
.(1
)genera
l
ly
. Pr
iortoamendment
,par
.(1
)readas
fo
l
lows
:`
`Forthe purpose o
fth
ist
it
le
,`proh
ib
ited per
sonne
l pract
ice
' means any act
ion descr
ibed in sub
sect
ion(b
)o
fth
issect
ion
.
'
'
Subsec
.(a
)
(2
)
(C
)
(
i
i
)
. Pub
.L
. 104±201
,§1122
(a
)
(1
)
, sub
st
ituted`
`Nat
iona
lImagery and Mapp
ing Agency
'
'for
`
`Centra
lImagery O
f
f
ice
'
'
.
Subsec
.(b
)
(2
)
. Pub
.L
.104±197amendedpar
.(2
)gener
a
l
ly
. Pr
iortoamendment
,par
.(2
)readasfo
l
lows
:`
`so
l
ic
it or cons
ider any recommendat
ion or statement
,
ora
l or wr
itten
,w
ithrespectto anyind
iv
idua
l whore
quests oris under cons
iderat
ionfor any personne
l ac
t
ionexceptasprov
idedundersect
ion3303
(
f
)
;
'
'
.
1994ÐSubsec
. (a
)
(2
)
(A
)
. Pub
. L
. 103±424
, §5
(a
)
(3
)
, in
conc
lud
ingprov
is
ions
,insertedbe
foresem
ico
lon`
`
, and
inthecase o
f an a
l
leged proh
ib
ited personne
l pract
ice
descr
ibedinsubsect
ion(b
)
(8
)
,anemp
loyeeorapp
l
icant
for emp
loymentin a Government corporat
ion as de
f
inedinsect
ion9101o
ft
it
le31
'
'
.
Subsec
.(a
)
(2
)
(A
)
(x
)
,(x
i
)
. Pub
.L
.103±424
,§5
(a
)
(1
)
,(2
)
,
added c
ls
.(x
) and(x
i
) and struck outformer c
l
.(x
)
wh
ichreadasfo
l
lows
:`
`anyothers
ign
i
f
icantchangein
dut
iesorrespons
ib
i
l
it
ies wh
ichisincons
istent w
iththe
emp
loyee
'ssa
laryorgradeleve
l
;
'
'
.
Subsec
.(a
)
(2
)
(B
)
. Pub
.L
.103±424
,§5
(b
)
, amendedsub
par
. (B
) genera
l
ly
. Pr
ior to amendment
, subpar
. (B
)
readasfo
l
lows
:`
`
`coveredpos
it
ion
' meansanypos
it
ion
inthecompet
it
iveserv
ice
, acareer appo
intee pos
it
ion
inthe Sen
ior Execut
ive Serv
ice
,orapos
it
ionintheex
ceptedserv
ice
,butdoesnotinc
ludeÐ
`
`
(
i
)apos
it
ion wh
ichisexceptedfromthecompet
i
t
iveserv
ice because o
fits con
f
ident
ia
l
, po
l
icy
-deter
m
in
ing
, po
l
icy
-mak
ing
, or po
l
icy
-advocat
ing char
acter
;or
`
`
(
i
i
) any pos
it
ion exc
luded from the coverage o
f
th
issect
ion bythe Pres
ident based on a determ
ina
t
ion by the Pres
ident thatitis necessary and war
rantedbycond
it
ionso
fgoodadm
in
istrat
ion
.
'
'
Subsec
.(a
)
(2
)
(C
)
(
i
)
. Pub
.L
.103±424
,§5
(c
)
,insertedbe
foresem
ico
lon`
`
,exceptinthecase o
f an a
l
leged pro
h
ib
ited personne
l pract
ice descr
ibed under subsect
ion
(b
)
(8
)
'
'
.
Subsec
.(a
)
(2
)
(C
)
(
i
i
)
. Pub
.L
.103±359inserted`
`the Cen
tra
lImagery O
f
f
ice
,
'
'a
fter`
`De
fenseInte
l
l
igence Agen
cy
,
'
'
.
Subsec
.(c
)
. Pub
.L
.103±424
,§5
(d
)
,inserted be
fore pe
r
iodatendo
ff
irstsentence`
`
, andforensur
ing(
incon
su
ltat
ion w
iththe O
f
f
iceo
f Spec
ia
l Counse
l
)thatagen
cy emp
loyees arein
formed o
fther
ights andremed
ies
ava
i
lab
letothem underth
ischapter andchapter12 o
f
th
ist
it
le
'
'
.
1993ÐSubsec
.(b
)
(2
)
. Pub
.L
. 103±94 amended par
.(2
)
genera
l
ly
. Pr
iortoamendment
,par
.(2
)readasfo
l
lows
:
`
`so
l
ic
itorcons
ideranyrecommendat
ionorstatement
,
ora
l or wr
itten
,w
ithrespectto anyind
iv
idua
l whore
quests oris under cons
iderat
ionfor any personne
l ac
t
ionun
lesssuchrecommendat
ionorstatementisbased
onthepersona
l know
ledgeorrecordso
fthepersonfur
n
ish
ingitandcons
istso
fÐ
`
`
(A
) an eva
luat
ion o
fthe work per
formance
, ab
i
l
ity
, apt
itude
, or genera
l qua
l
i
f
icat
ions o
fsuchind
i
v
idua
l
;or
`
`
(B
) an eva
luat
ion o
f the character
, loya
lty
, or
su
itab
i
l
ityo
fsuchind
iv
idua
l
;
'
'
.
1992ÐSubsec
. (b
)
(8
)
(B
)
. Pub
. L
. 102±378 subst
ituted
`
`Spec
ia
l Counse
l
'
'for`
`Spec
ia
l Counse
lo
f the Mer
it
Systems Protect
ion Board
'
'
.

§2302

1990ÐSubsec
. (a
)
(2
)
(C
)
. Pub
. L
. 101±474 struck out
`
`
,the Adm
in
istrat
ive O
f
f
ice o
f the Un
ited States
Courts
,
'
'a
fter`
`meansan Execut
iveagency
'
'
.
1989ÐSubsec
.(b
)
(8
)
. Pub
.L
.101±12
,§4
(a
)
,inintroduc
toryprov
is
ioninserted`
`
, orthreatentotakeorfa
i
lto
take
,
'
'a
fter`
`
fa
i
lto
'
' andsubst
ituted`
`because o
f
'
'for
`
`asarepr
isa
lfor
'
'
,insubpar
.(A
)subst
ituted`
`anyd
is
c
losure
'
'for`
`a d
isc
losure
'
'
,insubpar
.(A
)
(
i
i
)inserted
`
`gross
'
' be
fore`
`m
ismanagement
'
'
,in subpar
.(B
) sub
st
ituted`
`any d
isc
losure
'
' for`
`a d
isc
losure
'
'
, and in
subpar
. (B
)
(
i
i
) inserted `
`gross
'
' be
fore `
`m
ismanage
ment
'
'
.
Subsec
.(b
)
(9
)
. Pub
.L
.101±12
,§4
(b
)
, amended par
.(9
)
genera
l
ly
. Pr
iortoamendment
,par
.(9
)readasfo
l
lows
:
`
`take orfa
i
ltotake any personne
l act
ion aga
inst any
emp
loyeeorapp
l
icantforemp
loymentasarepr
isa
lfor
the exerc
ise o
f any appea
lr
ight granted by anylaw
,
ru
le
,orregu
lat
ion
;
'
'
.
6A
MENDMENTS
EFFECTIVE DATE OF 199
Amendmentbysect
ion1122
(a
)
(1
)o
f Pub
.L
.104±201e
f
fect
ive Oct
.1
,199
6
,seesect
ion1124 o
f Pub
.L
.104±201
,
set out as a note undersect
ion193 o
fT
it
le10
, Armed
Forces
.
Sect
ion315
(c
)o
f Pub
.L
.104±197 prov
idedthat
:`
`Th
is
sect
ion[amend
ingth
issect
ion andsect
ion3303 o
fth
is
t
it
le
]sha
l
ltakee
f
fect30daysa
fterthedateo
ftheen
actmento
fth
is Act[Sept
.1
6
,199
6
]
.
'
'
MENDMENT; S
AV
INGS
EFFECTIVE DATE OF 1993 A
PROVISION

Amendment by Pub
.L
.103±94e
f
fect
ive120 days a
fter
Oct
.6
,1993
, but nottore
lease or ext
ingu
ish any pen
a
lty
, for
fe
iture
, or l
iab
i
l
ity incurred under amended
prov
is
ion
, wh
ichisto betreated asrema
in
inginforce
for purpose o
fsusta
in
ing any proper proceed
ing or ac
t
ionfor en
forcement o
fthat pena
lty
,for
fe
iture
, orl
i
ab
i
l
ity
,and noprov
is
iono
f Pub
.L
.103±94toa
f
fectany
proceed
ings w
ithrespectto wh
ichcharges weref
i
ledon
or be
fore120 days a
fter Oct
.6
,1993
,w
ith ordersto be
issuedinsuchproceed
ingsandappea
lstakenthere
from
asi
f Pub
.L
.103±94 had notbeenenacted
,seesect
ion12
o
f Pub
.L
.103±94
,set out as an E
f
fect
ive Date
; Sav
ings
Prov
is
ionnoteundersect
ion7321o
fth
ist
it
le
.
MENDMENT
EFFECTIVE DATE OF 1989 A

Amendmentby Pub
.L
.101±12e
f
fect
ive90daysfo
l
low
ing Apr
.10
,1989
,seesect
ion11o
f Pub
.L
.101±12
,setout
asanoteundersect
ion1201o
fth
ist
it
le
.
SAVINGS PROVISION
Pub
.L
.105±339
,§6
(d
)
, Oct
.31
,1998
,112 Stat
.3188
,pro
v
ided that
:`
`Th
is sect
ion[amend
ing th
is sect
ion and
repea
l
ingsect
ion1599co
fT
it
le10
, Armed Forces
]sha
l
l
betreated asi
fit had never beenenactedfor purposes
o
fanypersonne
lact
ion(w
ith
inthe mean
ingo
fsect
ion
2302 o
ft
it
le5
, Un
ited States Code
) preced
ingthe date
o
fenactmento
fth
is Act[Oct
.31
,1998
]
.
'
'
ISCR
IM
INAT
ION
FEDERAL BENEFITS AND NON-D

Memorandumo
f Pres
idento
fthe Un
ited States
, June
17
,2009
,74 F
.R
.29393
,prov
ided
:
Memorandum for the Heads o
f Execut
ive Depart
mentsand Agenc
ies
M
i
l
l
ions o
f hard
-work
ing
, ded
icated
, and patr
iot
ic
pub
l
ic servants are emp
loyed by the Federa
l Govern
ment as part o
f the c
iv
i
l
ian work
force
, and many o
f
thesedevoted Amer
icans havesame
-sexdomest
icpart
ners
. Lead
ingcompan
iesinthe pr
ivatesector arefree
toprov
idetosame
-sexdomest
icpartnersthesameben
e
f
itstheyprov
ideto marr
iedpeop
leo
ftheoppos
itesex
.
Execut
ive departments and agenc
ies
, however
, may
on
ly prov
ide bene
f
its onthat bas
isi
fthey havelega
l
author
izat
ion to do so
. My Adm
in
istrat
ionis not au
thor
izedby Federa
llawtoextendanumbero
fava
i
lab
le
Federa
l bene
f
its to the same
-sex partners o
f Federa
l
emp
loyees
. W
ith
inex
ist
inglaw
, however
, my Adm
in
is
trat
ion
,in consu
ltat
ion w
ith the Secretary o
f State
,
who oversees our Fore
ign Serv
ice emp
loyees
, and the

App
.107

§2302

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

D
irector o
f the O
f
f
ice o
f Personne
l Management
, who
oversees human resource management for our c
iv
i
l
serv
iceemp
loyees
, hasident
i
f
ied areasin wh
ichstatu
tory author
ity ex
ists to ach
ieve greater equa
l
ityfor
the Federa
l work
force through extens
ion to same
-sex
domest
ic partners o
f bene
f
its current
ly ava
i
lab
le to
marr
iedpeop
leo
ftheoppos
itesex
. Extend
ingava
i
lab
le
bene
f
its w
i
l
l he
lp the Federa
l Government compete
w
iththe pr
ivatesectortorecru
it andreta
inthe best
andthebr
ightestemp
loyees
.
Iherebyrequestthefo
l
low
ing
:
. Ex
ten
s
ion o
f Iden
t
i
f
ied Bene
f
i
t
s. The Sec
SECTION 1
retaryo
f Stateandthe D
irectoro
fthe O
f
f
iceo
f Person
ne
l Managementsha
l
l
,inconsu
ltat
ion w
iththe Depart
ment o
f Just
ice
,extendthe bene
f
itsthey haverespec
t
ive
lyident
i
f
ied to qua
l
i
f
ied same
-sex domest
ic part
ners o
f Federa
l emp
loyees where do
ing so can be
ach
ievedandiscons
istent w
ith Federa
llaw
.
.Rev
iew o
f Gove
rnmen
tw
ide Bene
f
i
t
s. The heads
SEC.2
o
fa
l
l other execut
ive departments and agenc
ies
, in
consu
ltat
ion w
iththe O
f
f
iceo
f Personne
l Management
,
sha
l
lconductarev
iewo
fthebene
f
itsprov
idedbythe
ir
respect
ivedepartmentsandagenc
iestodeterm
ine what
author
itythey haveto extendsuch bene
f
itstosame
sex domest
ic partners o
f Federa
l emp
loyees
. The re
su
lts o
fth
isrev
iewsha
l
l bereported w
ith
in90 daysto
the D
irector o
f the O
f
f
ice o
f Personne
l Management
,
who
,in consu
ltat
ion w
iththe Department o
f Just
ice
,
sha
l
lrecommendto me any add
it
iona
l measuresthat
can betaken
, cons
istent w
ith ex
ist
inglaw
,to prov
ide
bene
f
itstothesame
-sex domest
ic partners o
f Federa
l
Governmentemp
loyees
.
.P
romo
t
ing Comp
l
iance w
i
th Ex
i
s
t
ing Law Requ
i
r
SEC.3
ing Fede
ra
l Wo
rkp
lace
stobe F
reeo
fD
i
sc
r
im
ina
t
ion Ba
sed
on Non
-Me
r
i
t Fac
to
r
s. The O
f
f
ice o
f Personne
l Manage
mentsha
l
lissue gu
idance w
ith
in90 daysto a
l
lexecu
t
ive departments and agenc
ies regard
ing comp
l
iance
w
ith
, and imp
lementat
ion o
f
, the c
iv
i
l serv
ice laws
,
ru
les
, and regu
lat
ions
, inc
lud
ing 5 U
.S
.C
. 2302
(b
)
(10
)
,
wh
ich makeit un
law
fu
l to d
iscr
im
inate aga
inst Fed
era
l emp
loyees or app
l
icantsfor Federa
l emp
loyment
onthe bas
is o
ffactors notre
latedtojob per
formance
.
.Gene
ra
lP
rov
i
s
ion
s.(a
) Noth
inginth
is memo
SEC.4
randum sha
l
l be construed toimpa
ir or otherw
ise a
f
fect
:
(
i
) Author
ity granted bylaw or Execut
ive Orderto
anagency
,ortheheadthereo
f
;or
(
i
i
) Funct
ions o
fthe D
irector o
fthe O
f
f
ice o
f Man
agement and Budgetre
lat
ingto budgetary
, adm
in
is
trat
ive
,orleg
is
lat
iveproposa
ls
.
(b
) Th
is memorandumsha
l
l beimp
lementedcons
ist
ent w
ith app
l
icab
lelaw andsub
jecttothe ava
i
lab
i
l
ity
o
fappropr
iat
ions
.
(c
) Th
is memorandumis notintended to
, and does
not
, create anyr
ight or bene
f
it
,substant
ive or proce
dura
l
, en
forceab
le at law or in equ
ity by any party
aga
instthe Un
ited States
,itsdepartments
,agenc
ies
,or
ent
it
ies
,itso
f
f
icers
,emp
loyees
,oragents
,oranyother
person
.
.Pub
l
ica
t
ion. The D
irector o
fthe O
f
f
ice o
f Per
SEC.5
sonne
l Managementis hereby author
ized and d
irected
topub
l
ishth
is memoranduminthe Federa
l Reg
ister
.
BARACK OBAMA.
EXTENSION OF BENEFITS TO SAME-S
EX DOMEST
IC
PARTNERS OF FEDERAL EMPLOYEES
Memorandumo
f Pres
idento
fthe Un
ited States
, June
2
,2010
,75 F
.R
.32247
,prov
ided
:
Memorandum for the Heads o
f Execut
ive Depart
mentsand Agenc
ies
Forfar toolong
, many o
f our Government
's hard
work
ing
, ded
icated LGBT emp
loyees have been den
ied
equa
l accesstothe bas
icr
ights and bene
f
itsthe
irco
l
leaguesen
joy
. Th
is k
ind o
fsystem
icinequa
l
ity under
m
inesthe hea
lth
, we
l
l
-be
ing
, andsecur
ity notjust o
f
our Federa
l work
force
, but a
lso o
f the
irfam
i
l
ies and
commun
it
ies
. Thatis why
,last June
,I d
irected the
heads o
f execut
ive departments and agenc
ies (agen
c
ies
)
,inconsu
ltat
ion w
iththe O
f
f
iceo
f Personne
l Man
-

Page178

agement(OPM
)
, to conduct a thorough rev
iew o
f the
bene
f
itstheyprov
ideandtoident
i
fyanythatcou
ldbe
extended to LGBT emp
loyees and the
ir partners and
fam
i
l
ies
. A
lthough leg
is
lat
ive act
ion is necessary to
prov
idefu
l
l equa
l
ityto LGBT Federa
l emp
loyees
,the
agenc
ies haveident
i
f
ied a number o
f bene
f
itsthatcan
be extended under ex
ist
inglaw
. OPM
,in consu
ltat
ion
w
iththe Department o
f Just
ice
, has prov
ided me w
ith
areportrecommend
ingthat a
l
lo
ftheident
i
f
ied bene
f
itsbeextended
.
Accord
ing
ly
,Iherebyd
irectthefo
l
low
ing
:
.Immed
ia
te Ac
t
ion
s To Ex
tend Bene
f
i
t
s
. Agen
SECTION 1
c
ies shou
ld immed
iate
ly take the fo
l
low
ing act
ions
,
cons
istent w
ith ex
ist
inglaw
,in orderto extend bene
f
itstothesame
-sex domest
ic partners o
f Federa
l em
p
loyees
,and
, whereapp
l
icab
le
,tothech
i
ldreno
fsame
sexdomest
icpartnerso
f Federa
lemp
loyees
:
(a
) The D
irector o
f OPMshou
ldtake appropr
iate ac
t
ionto
:
(
i
)c
lar
i
fy that the ch
i
ldren o
f emp
loyees
' same
-sex
domest
ic partnersfa
l
lw
ith
inthe de
f
in
it
ion o
f`
`ch
i
ld
'
'
forpurposeso
f Federa
lch
i
ld
-caresubs
id
ies
,and
, where
appropr
iate
,forch
i
ld
-careserv
ices
;
(
i
i
)c
lar
i
fythat
,for purposes o
f emp
loyee ass
istance
programs
, same
-sex domest
ic partners and the
ir ch
i
l
drenqua
l
i
fyas`
`
fam
i
ly members
'
'
;
(
i
i
i
)issueaproposedru
lethat wou
ldc
lar
i
fythatem
p
loyees
'same
-sexdomest
icpartnersqua
l
i
fyas`
`
fam
i
ly
members
'
' for purposes o
f noncompet
it
ive appo
int
ments made pursuantto Execut
ive Order12721 o
f Ju
ly
30
,1990
;
(
iv
)issueaproposedru
lethat wou
ldadda Federa
lre
t
iree
'ssame
-sexdomest
icpartnertothel
isto
find
iv
id
ua
lspresumedto haveaninsurab
leinterestintheem
p
loyeepursuantto5 U
.S
.C
.8339
(k
)
(1
)
,8420
;
(v
)c
lar
i
fythat underappropr
iatec
ircumstances
,em
p
loyees
'same
-sexdomest
icpartnersandthe
irch
i
ldren
qua
l
i
fy as dependentsfor purposes o
f evacuat
ion pay
ments madeunder5 U
.S
.C
.5522±5523
; Fo
l
io
:1
632[s
ic
]
(v
i
) amendits gu
idance onimp
lement
ing Pres
ident
C
l
inton
's Apr
i
l11
,1997
, memorandumtoheadso
fexecu
t
ive departments and agenc
ies on`
`Expanded Fam
i
ly
and Med
ica
l Leave Po
l
ic
ies
'
' to spec
i
fy that the 24
hours o
f unpa
idleave made ava
i
lab
le to Federa
l em
p
loyeesin connect
ion w
ith(
i
)schoo
l and ear
ly ch
i
ld
hoodeducat
iona
lact
iv
it
ies
;(
i
i
)rout
inefam
i
ly med
ica
l
purposes
; and (
i
i
i
)e
lder
ly re
lat
ives
' hea
lth or care
needs
, maybe usedto meetthe needso
fanemp
loyee
's
same
-sex domest
ic partner or the same
-sex domest
ic
partner
'sch
i
ldren
;and
(v
i
i
)c
lar
i
fythatemp
loyees
'same
-sex domest
ic part
ners qua
l
i
fy as dependentsfor purposes o
f ca
lcu
lat
ing
theextraa
l
lowancepayab
le under5 U
.S
.C
.5942atoas
s
istemp
loyeesstat
ionedon JohnstonIs
land
,sub
jectto
anyl
im
itat
ionsapp
l
icab
letospouses
.
(b
) The Adm
in
istrator o
f Genera
l Serv
ices shou
ld
take appropr
iate act
ion to amend the de
f
in
it
ions o
f
`
`
immed
iatefam
i
ly
'
' and`
`dependent
'
' appear
inginthe
Federa
l Trave
l Regu
lat
ions
, 41 C
.F
.R
. Chs
. 300±304
, to
inc
ludesame
-sex domest
ic partners andthe
irch
i
ldren
,
sothatemp
loyeesandthe
irdomest
icpartnersandch
i
l
drencan obta
inthefu
l
l bene
f
its ava
i
lab
le under app
l
i
cab
lelaw
,inc
lud
ingcerta
intrave
l
,re
locat
ion
,andsub
s
istencepayments
.
(c
)A
l
l agenc
ies o
f
fer
ing any o
fthe bene
f
itsspec
i
f
ied
by OPMinimp
lement
ing gu
idance undersect
ion3 o
f
th
is memorandum
,inc
lud
ingcred
it un
ion membersh
ip
,
accesstof
itnessfac
i
l
it
ies
, and accessto p
lann
ing and
counse
l
ingserv
ices
,shou
ldtake a
l
l appropr
iate act
ion
toprov
idethesameleve
lo
fbene
f
itsthatisprov
idedto
emp
loyees
' spouses and the
ir ch
i
ldren to emp
loyees
'
same
-sexdomest
icpartnersandthe
irch
i
ldren
.
(d
)A
l
lagenc
ies w
ithauthor
itytoprov
idebene
f
itsto
emp
loyees outs
ide o
f the context o
ft
it
le 5
, Un
ited
States Codeshou
ldtake a
l
l appropr
iate act
ionstoen
sure that the bene
f
its be
ing prov
ided to emp
loyees
'
spouses andthe
ir ch
i
ldren are a
lso be
ing prov
ided
, at
anequ
iva
lentleve
l whereverperm
ittedbylaw
,tothe
ir
emp
loyees
'same
-sex domest
ic partners andthe
ir ch
i
l
dren
.

App
.108

Page179

T
ITLE5ÐGOVERNMENT ORGAN
IZAT
ION AND EMPLOYEES

SEC.2
.Con
t
inu
ing Ob
l
iga
t
ion To P
rov
ide New Bene
f
i
t
s.
Inthefuture
,a
l
lagenc
iesthatprov
ide newbene
f
itsto
the spouses o
f Federa
l emp
loyees and the
ir ch
i
ldren
shou
ld
, to the extent perm
itted bylaw
,a
lso prov
ide
them to the same
-sex domest
ic partners o
f the
ir em
p
loyees and those same
-sex domest
ic partners
' ch
i
l
dren
. Th
is sect
ion app
l
ies to appropr
iated and nonap
propr
iatedfundinstrumenta
l
it
ieso
fsuchagenc
ies
.
.Mon
i
to
r
ingand Gu
idance. The D
irectoro
f OPM
SEC.3
sha
l
l mon
itorcomp
l
iance w
ithth
is memorandum
, and
mayinstruct agenc
iesto prov
idethe D
irector w
ithre
ports onthestatus o
fthe
ir comp
l
iance
, and prescr
ibe
theform Fo
l
io
:1
633[s
ic
] and manner o
fsuchreports
.
The D
irector o
f OPMsha
l
la
lsoissue gu
idanceto en
surecons
istentandappropr
iateimp
lementat
ion
.
.Repo
r
t
ing. By Apr
i
l1
,2011
,andannua
l
lythere
SEC.4
a
fter
,the D
irector o
f OPMsha
l
l prov
idethe Pres
ident
w
ith areport onthe progress o
fthe agenc
iesinimp
le
ment
ingth
is memorandum unt
i
lsucht
ime as a
l
lrec
ommendat
ionshavebeenappropr
iate
lyimp
lemented
.
. Gene
ra
l P
rov
i
s
ion
s. (a
) Except as express
ly
SEC. 5
stated here
in
, noth
ingin th
is memorandum sha
l
l be
construedtoimpa
irorotherw
isea
f
fect
:
(
i
)author
itygrantedbylawor Execut
ive Ordertoan
agency
,ortheheadthereo
f
;or
(
i
i
)funct
ionso
fthe D
irectoro
fthe O
f
f
iceo
f Manage
ment and Budget re
lat
ing to budgetary
, adm
in
istra
t
ive
,orleg
is
lat
iveproposa
ls
.
(b
) Th
is memorandumsha
l
l beimp
lementedcons
ist
ent w
ith app
l
icab
lelaw andsub
jecttothe ava
i
lab
i
l
ity
o
fappropr
iat
ions
.
(c
) Th
is memorandumis notintended to
, and does
not
, create anyr
ight or bene
f
it
,substant
ive or proce
dura
l
, en
forceab
le at law or in equ
ity by any party
aga
instthe Un
ited States
,itsdepartments
,agenc
ies
,or
ent
it
ies
,itso
f
f
icers
,emp
loyees
,oragents
,oranyother
person
.
.Pub
l
ica
t
ion. The D
irectoro
f OPMisherebyau
SEC.6
thor
ized and d
irectedto pub
l
ishth
is memorandumin
the Federa
l Reg
ister
.
BARACK OBAMA.

§2303
. Proh
ib
i
tedpersonne
lprac
t
icesinthe Fed
era
l Bureauo
fInves
t
iga
t
ion
(a
) Anyemp
loyeeo
fthe Federa
l Bureauo
fIn
vest
igat
ion who has author
ity to take
,d
irect
otherstotake
,recommend
, or approve any per
sonne
lact
ion
,sha
l
lnot
,w
ithrespecttosuchau
thor
ity
,take orfa
i
ltotake a personne
l act
ion
w
ithrespecttoanyemp
loyeeo
fthe Bureauasa
repr
isa
lfor a d
isc
losure o
fin
format
ion by the
emp
loyee to the Attorney Genera
l(or an em
p
loyee des
ignated by the Attorney Genera
lfor
such purpose
) wh
ichthe emp
loyee or app
l
icant
reasonab
lybe
l
ievesev
idencesÐ
(1
)av
io
lat
ion o
f anylaw
, ru
le
, or regu
la
t
ion
,or
(2
) m
ismanagement
, a gross waste o
ffunds
,
an abuse o
f author
ity
, or a substant
ia
l and
spec
i
f
icdangertopub
l
ichea
lthorsa
fety
.
For the purpose o
f th
is subsect
ion
,`
`personne
l
act
ion
'
' means any act
ion descr
ibedin c
lauses
(
i
) through (x
)o
f sect
ion 2302
(a
)
(2
)
(A
)o
f th
is
t
it
le w
ith respect to an emp
loyeein
, or app
l
i
cantfor
, a pos
it
ioninthe Bureau(otherthan a
pos
it
ion o
f a con
f
ident
ia
l
, po
l
icy
-determ
in
ing
,
po
l
icymak
ing
,orpo
l
icy
-advocat
ingcharacter
)
.
(b
) The Attorney Genera
lsha
l
lprescr
iberegu
lat
ions to ensure that such a personne
l act
ion
sha
l
l not be taken aga
inst an emp
loyee o
f the
Bureau as arepr
isa
lfor any d
isc
losure o
fin
for
mat
ion descr
ibedin subsect
ion(a
)o
f th
is sec
t
ion
.
(c
) The Pres
identsha
l
lprov
idefortheen
force
mento
fth
issect
ionina mannercons
istent w
ith

§2304

app
l
icab
leprov
is
ionso
fsect
ions1214and1221o
f
th
ist
it
le
.
(Added Pub
.L
. 95±454
,t
it
le I
, §101
(a
)
, Oct
. 13
,
1978
, 92 Stat
. 1117
; amended Pub
. L
. 101±12
,
§9
(a
)
(1
)
, Apr
.10
,1989
,103 Stat
.34
.
)
AMENDMENTS
1989ÐSubsec
.(c
)
. Pub
.L
.101±12subst
ituted`
`app
l
ica
b
leprov
is
ionso
fsect
ions1214and1221
'
'for`
`theprov
i
s
ionso
fsect
ion120
6
'
'
.
MENDMENT
EFFECTIVE DATE OF 1989 A

Amendmentby Pub
.L
.101±12e
f
fect
ive90daysfo
l
low
ing Apr
.10
,1989
,seesect
ion11o
f Pub
.L
.101±12
,setout
asanoteundersect
ion1201o
fth
ist
it
le
.
I EMDELEGATION OF RESPONSIBILITIES CONCERNING FB
PLOYEES UNDER THE CIV
IL SERV
ICE REFORM ACT OF
1978
Memorandumo
f Pres
idento
fthe Un
ited States
, Apr
.
14
,1997
,62 F
.R
.23123
,prov
ided
:
Memorandumforthe Attorney Genera
l
By the author
ity vestedin me by the Const
itut
ion
andlaws o
f the Un
ited States o
f Amer
ica
,inc
lud
ing
sect
ion301o
ft
it
le3
, Un
ited States Code
,I herebyde
le
gatetothe Attorney Genera
lthefunct
ionsconcern
ing
emp
loyeeso
fthe Federa
l Bureauo
fInvest
igat
ionvest
edinthe Pres
identbysect
ion101
(a
)o
fthe C
iv
i
l Serv
ice
Re
form Act o
f1978(Pub
l
ic Law95±454
)
, as amended by
the Wh
ist
leb
lower Protect
ion Act o
f1989(Pub
l
ic Law
101±12
)
, andcod
i
f
ied atsect
ion2303
(c
)o
ft
it
le5
, Un
ited
States Code
,andd
irectthe Attorney Genera
ltoestab
l
ish appropr
iate processes w
ith
in the Department o
f
Just
ice to carry out thesefunct
ions
. Notlater than
March1 o
f each year
,the Attorney Genera
lsha
l
l pro
v
ideareporttothe Pres
identstat
ingthenumbero
fa
l
legat
ions o
frepr
isa
lrece
ived dur
ingthe preced
ingca
l
endar year
,the d
ispos
it
ion o
feach a
l
legat
ionreso
lved
dur
ingthe preced
ingca
lendar year
, andthe number o
f
unreso
lveda
l
legat
ionspend
ingaso
ftheendo
ftheca
l
endaryear
.
A
l
lo
fthefunct
ions vestedinthe Pres
ident bysec
t
ion2303
(c
)o
ft
it
le5
, Un
ited States Code
,andde
legated
tothe Attorney Genera
l
, mayberede
legated
,asappro
pr
iate
,prov
idedthatsuchfunct
ions may notberede
le
gatedtothe Federa
l Bureauo
fInvest
igat
ion
.
You are author
ized and d
irected to pub
l
ish th
is
memoranduminthe Federa
l Reg
ister
.
. CLINTON.
WILLIAMJ

§2304
. Respons
ib
i
l
i
ty o
f the Governmen
t Ac
coun
tab
i
l
i
ty O
f
f
ice
I
f requested by e
ither House o
f the Congress
(oranycomm
itteethereo
f
)
,ori
fcons
iderednec
essary bythe Comptro
l
ler Genera
l
,the Govern
ment Accountab
i
l
ity O
f
f
icesha
l
lconductaud
its
andrev
iewstoassurecomp
l
iance w
iththelaws
,
ru
les
,andregu
lat
ionsgovern
ingemp
loymentin
the execut
ive branch and in the compet
it
ive
serv
ice and to assess the e
f
fect
iveness and
soundnesso
f Federa
lpersonne
l management
.
(Added Pub
.L
. 95±454
,t
it
le I
, §101
(a
)
, Oct
. 13
,
1978
,92 Stat
.1118
;amended Pub
.L
.102±378
,§2
(
6
)
,
Oct
.2
,1992
,10
6 Stat
.134
6
; Pub
.L
.104±
6
6
,t
it
leI
I
,
§2181
(e
)
, Dec
. 21
, 1995
, 109 Stat
. 732
; Pub
. L
.
108±271
,§8
(b
)
,Ju
ly7
,2004
,118 Stat
.814
.
)
AMENDMENTS
2004ÐPub
. L
. 108±271 subst
ituted `
`Government Ac
countab
i
l
ity O
f
f
ice
'
'for`
`Genera
l Account
ing O
f
f
ice
'
'in
sect
ioncatch
l
ineandtext
.
1995ÐPub
.L
.104±
6
6struckoutsubsec
.(a
)des
ignat
ion
be
fore`
`
I
f requested by
'
' and struck out subsec
. (b
)
wh
ichread asfo
l
lows
:`
`The Genera
l Account
ing O
f
f
ice

App
.109

NATIONAL SECURITY ACT OF 1947
NATIONAL SECURITY ACT OF 1947
[Public Law 235; 61 STAT. 496; July 26, 1947]
AN ACT To promote the national security by providing for a Secretary of
Defense; for a National Military Establishment; for a Department of the Army, a
Department of the Navy, and a Department of the Air Force; and for the
coordination of the activities of the National Military Establishment with other
departments and agencies of the Government concerned with the national
security.
Be it enacted by the Senate and House of Representatives of the United States of
America in Congress assembled,
SHORT TITLE
That this Act may be cited as the “National Security Act of 1947”.
TABLE OF CONTENTS
SEC. 2.
SEC. 3.

Declaration of Policy.
Definitions.
TITLE I—COORDINATION FOR NATIONAL SECURITY

SEC. 101.
SEC. 101A.
SEC. 102.
SEC. 102A.
SEC. 103.
SEC. 103A.
SEC. 103B.
SEC. 103C.
SEC. 103D.
SEC. 103E.
SEC. 103F.
SEC. 103G.
SEC. 103H.
SEC. 103I.
SEC. 103J.
SEC. 104.

National Security Council.
Joint Intelligence Community Council.
Director of National Intelligence.
Responsibilities and authorities of the Director of National
Intelligence.
Office of the Director of National Intelligence.
Deputy Directors of National Intelligence.
National Intelligence Council.
General Counsel.
Civil Liberties Protection Officer.
Director of Science and Technology.
Director of the National Counterintelligence and Security Center.
Chief Information Officer.
Inspector General of the Intelligence Community.
Chief Financial Officer of the Intelligence Community.
Functional Managers for the intelligence community [sic].
Central Intelligence Agency.

26
App. 110

NATIONAL SECURITY ACT OF 1947
SEC. 104A.
SEC. 104B.
SEC. 105.
SEC. 105A.
SEC. 105B.
SEC. 106.
SEC. 106A.
SEC. 108.
SEC. 108A.
SEC. 109.
SEC. 110.
SEC. 112.
SEC. 113.
SEC. 113A.
SEC. 113B.
SEC. 114.
SEC. 115.
SEC. 116.
SEC. 117.
SEC. 118.
SEC. 119.
SEC. 119A.
SEC. 119B.
SEC. 119C.
SEC. 120.

Director of the Central Intelligence Agency.
Deputy Director of the Central Intelligence Agency.
Responsibilities of the Secretary of Defense pertaining to the
National Intelligence Program.
Assistance to United States law enforcement agencies.
Disclosure of foreign intelligence acquired in criminal
investigations; notice of criminal investigations of foreign
intelligence sources.
Appointment of officials responsible for intelligence-related
activities.
Director of the National Reconnaissance Office.
Annual National Security Strategy Report.
National intelligence strategy.
Software licensing.
National mission of National Geospatial-Intelligence Agency.
Restrictions on intelligence sharing with the United Nations.
Detail of intelligence community personnel—intelligence
community assignment program.
Non-reimbursable detail of other personnel.
Special pay authority for science, technology, engineering, or
mathematics positions.
Annual report on hiring and retention of minority employees.
Limitation on establishment or operation of diplomatic intelligence
support centers.
Travel on any common carrier for certain intelligence collection
personnel.
POW/MIA analytic capability.
Annual report on financial intelligence on terrorist assets.
National Counterterrorism Center.
National Counter Proliferation Center.
National intelligence centers.
Foreign Malign Influence Response Center.
Climate Security Advisory Council.
TITLE II—THE DEPARTMENT OF DEFENSE

SEC. 201.
SEC. 205.
SEC. 206.
SEC. 207.

Applicable Laws.
Department of the Army.
Department of the Navy.
Department of the Air Force.

27
App. 111

NATIONAL SECURITY ACT OF 1947
TITLE III—MISCELLANEOUS
SEC. 301.
SEC. 302.

National Security Agency voluntary separation.
Authority of Federal Bureau of Investigation to award personal
services contracts.
Advisory committees and personnel.
Reporting of certain employment activities by former intelligence
officers and employees.
Authorization for appropriations.
Definitions.
Separability.
Effective date.
Succession to the Presidency.
Repealing and saving provisions.

SEC. 303.
SEC. 304.
SEC. 307.
SEC. 308.
SEC. 309.
SEC. 310.
SEC. 311.
SEC. 312.

TITLE V—ACCOUNTABILITY FOR INTELLIGENCE ACTIVITIES
SEC. 501.
SEC. 502.
SEC. 503.
SEC. 504.
SEC. 505.
SEC. 506.
SEC. 506A.
SEC. 506B.
SEC. 506C.
SEC. 506D.
SEC. 506E.
SEC. 506F.
SEC. 506G.
SEC. 506H.
SEC. 506I.
SEC. 507.
SEC. 508.

General congressional oversight provisions.
Reporting of intelligence activities other than covert actions.
Presidential approval and reporting of covert actions.
Funding of intelligence activities.
Notice to Congress of certain transfers of defense articles and
defense services.
Specificity of National Intelligence Program budget amounts for
counterterrorism, counterproliferation, counternarcotics, and
counterintelligence.
Budget treatment of costs of acquisition of major systems by the
intelligence community.
Annual personnel level assessments for the intelligence
community.
Vulnerability assessments of major systems.
Intelligence community business system transformation.
Reports on the acquisition of major systems.
Critical cost growth in major systems.
Future budget projections.
Reports on security clearances.
Summary of intelligence relating to terrorist recidivism of
detainees held at United States Naval Station, Guantanamo Bay,
Cuba.
Dates for submittal of various annual and semiannual reports to the
congressional intelligence committees.
Certification of compliance with oversight requirements.

28
App. 112

NATIONAL SECURITY ACT OF 1947
SEC. 509.
SEC. 510.
SEC. 511.
SEC. 512.

Auditability of certain elements of the intelligence community.
Significant interpretations of law concerning intelligence activities.
Annual report on violations of law or executive order.
Briefings and notifications on counterintelligence activities of the
Federal Bureau of Investigation.

TITLE VI—PROTECTION OF CERTAIN NATIONAL SECURITY INFORMATION
SEC. 601.
SEC. 602.
SEC. 603.
SEC. 604.
SEC. 605.

Protection of identities of certain United States undercover
intelligence officers, agents, informants, and sources.
Defenses and exceptions.
Extraterritorial jurisdiction.
Providing information to Congress.
Definitions.
TITLE VII—PROTECTION OF OPERATIONAL FILES

SEC. 701.
SEC. 702.
SEC. 703.
SEC. 704.
SEC. 705.
SEC. 706.

Operational files of the Central Intelligence Agency.
Operational files of the National Geospatial-Intelligence Agency.
Operational files of the National Reconnaissance Office.
Operational files of the National Security Agency.
Operational files of the Defense Intelligence Agency.
Protection of certain files of the Office of the Director of National
Intelligence.
TITLE VIII—ACCESS TO CLASSIFIED INFORMATION

SEC. 801.
SEC. 802.
SEC. 803.
SEC. 804.
SEC. 805.

Procedures.
Requests by authorized investigative agencies.
Security Executive Agent.
Exceptions.
Definitions.
TITLE IX—APPLICATION OF SANCTIONS LAWS TO
INTELLIGENCE ACTIVITIES

SEC. 901.
SEC. 902.
SEC. 903.
SEC. 904.

Stay of sanctions.
Extension of stay.
Reports.
Laws subject to stay.

29
App. 113

NATIONAL SECURITY ACT OF 1947
TITLE X—EDUCATION IN SUPPORT OF NATIONAL INTELLIGENCE
SUBTITLE A—SCIENCE AND TECHNOLOGY
SEC. 1001.
SEC. 1002.

Scholarships and work-study for pursuit of graduate degrees in
science and technology.
Framework for cross-disciplinary education and training.
SUBTITLE B—FOREIGN LANGUAGES PROGRAM

SEC. 1011.
SEC. 1012.
SEC. 1013.
SEC. 1014.
SEC. 1015.

Program on advancement of foreign languages critical to the
intelligence community.
Education partnerships.
Voluntary services.
Regulations.
Definitions.
SUBTITLE C—ADDITIONAL EDUCATION PROVISIONS

SEC. 1021.
SEC. 1022.
SEC. 1023.
SEC. 1024.

Assignment of intelligence community personnel as language
students.
Program on recruitment and training.
Educational scholarship program.
Intelligence officer training program.
TITLE XI—OTHER PROVISIONS

SEC. 1101.
SEC. 1102.
SEC. 1103.
SEC. 1104.
SEC. 1105.
SEC. 1106.
SEC. 1107.
SEC. 1108.

Applicability to United States intelligence activities of Federal
laws implementing international treaties and agreements.
Counterintelligence initiatives.
Misuse of the Office of the Director of National Intelligence name,
initials, or seal.
Prohibited personnel practices in the Intelligence Community.
Semiannual reports on investigations of unauthorized disclosures
of classified information.
Inspector General external review panel.
Annual reports on influence operations and campaigns in the
United States by the Communist Party of China.
Annual reports on influence operations and campaigns in the
United States by the Russian Federation.

30
App. 114

NATIONAL SECURITY ACT OF 1947
DECLARATION OF POLICY
SEC. 2. [50 U.S.C. § 3002]
In enacting this legislation, it is the intent of Congress to provide a
comprehensive program for the future security of the United States; to provide
for the establishment of integrated policies and procedures for the departments,
agencies, and functions of the Government relating to the national security; to
provide a Department of Defense, including the three military Departments of the
Army, the Navy (including naval aviation and the United States Marine Corps),
and the Air Force under the direction, authority, and control of the Secretary of
Defense; to provide that each military department shall be separately organized
under its own Secretary and shall function under the direction, authority, and
control of the Secretary of Defense; to provide for their unified direction under
civilian control of the Secretary of Defense but not to merge these departments or
services; to provide for the establishment of unified or specified combatant
commands, and a clear and direct line of command to such commands; to
eliminate unnecessary duplication in the Department of Defense, and particularly
in the field of research and engineering by vesting its overall direction and
control in the Secretary of Defense; to provide more effective, efficient, and
economical administration in the Department of Defense; to provide for the
unified strategic direction of the combatant forces, or their operation under
unified command, and for their integration into an efficient team of land, naval,
and air forces but not to establish a single Chief of Staff over the armed forces
nor an overall armed forces general staff.
DEFINITIONS
SEC. 3. [50 U.S.C. § 3003]
As used in this Act:
(1) The term “intelligence” includes foreign intelligence and counterintelligence.
(2) The term “foreign intelligence” means information relating to the capabilities,
intentions, or activities of foreign governments or elements thereof, foreign
organizations, or foreign persons, or international terrorist activities.
(3) The term “counterintelligence” means information gathered, and activities
conducted, to protect against espionage, other intelligence activities, sabotage, or
assassinations conducted by or on behalf of foreign governments or elements
thereof, foreign organizations, or foreign persons, or international terrorist
activities.
(4) The term “intelligence community” includes the following:
(A) The Office of the Director of National Intelligence.
(B) The Central Intelligence Agency.
(C) The National Security Agency.

31
App. 115

NATIONAL SECURITY ACT OF 1947
(D) The Defense Intelligence Agency.
(E) The National Geospatial-Intelligence Agency.
(F) The National Reconnaissance Office.
(G) Other offices within the Department of Defense for the collection of
specialized national intelligence through reconnaissance programs.
(H) The intelligence elements of the Army, the Navy, the Air Force, the
Marine Corps, the Coast Guard, the Federal Bureau of Investigation, the
Drug Enforcement Administration, and the Department of Energy.
(I) The Bureau of Intelligence and Research of the Department of State.
(J) The Office of Intelligence and Analysis of the Department of the
Treasury.
(K) The Office of Intelligence and Analysis of the Department of
Homeland Security.
(L) Such other elements of any department or agency as may be
designated by the President, or designated jointly by the Director of
National Intelligence and the head of the department or agency
concerned, as an element of the intelligence community.
(5) The terms “national intelligence” and “intelligence related to national
security” refer to all intelligence, regardless of the source from which derived
and including information gathered within or outside the United States, that—
(A) pertains, as determined consistent with any guidance issued by the
President, to more than one United States Government agency; and
(B) that involves—
(i) threats to the United States, its people, property, or interests;
(ii) the development, proliferation, or use of weapons of mass
destruction; or
(iii) any other matter bearing on United States national or
homeland security.
(6) The term “National Intelligence Program” refers to all programs, projects,
and activities of the intelligence community, as well as any other programs of the
intelligence community designated jointly by the Director of National
Intelligence and the head of a United States department or agency or by the
President. Such term does not include programs, projects, or activities of the
military departments to acquire intelligence solely for the planning and conduct
of tactical military operations by United States Armed Forces.
(7) The term “congressional intelligence committees” means—
(A) the Select Committee on Intelligence of the Senate; and
(B) the Permanent Select Committee on Intelligence of the House of
Representatives.

32
App. 116

DOD 52D0.2-R.

Cl)

DEPARTMENT OF DEFENSE

~ERSONNEC+:·SECURITY
~,c.·

,•

•

,

PROGRAM

ADMINISTRATIVE REISSUANCE INCORPORATING
THROUGH CHANGE 3, FEBRUARY 23, 1996

OFFICE OF THE DEPUTY UNDER SECRETARY OF DEFENSE
(POLICY)
'

~

: ·-·-;

1

App. 117

DoD 5200.2-R, January 1987

OFFICE OF THE UNDER SECRETARY OF DEFENSE
WASHINGTON. D.C. 20301

December 16, 1986

POLICY

FOREWORD

This "Personnel Security Program Regulation" is reiaaued under the authority of
DoD Directive 5200.2, "DoD Personnel Security Proaraa," December 20, 1979. It
contains expanded direction and procedures for implementina thoae references
cited in Chapter 1 and in Appendix A of this Regulation that pertain to acceptance and retention of DoD military, civilian, consultant and contractor peraonnel and of granting such persona acceaa to classified information or aaaignment
to a sensitive position. It also implements such recommendations from the
Defense Security Review Commission Report as pertains to personnel security
and approved by the Secretary of Defense.

DoD 5200.2-R, "Department of Defense Personnel Security Program," December 1979,
is hereby canceled as of December 31, 1986. The effective date of this
Regulation is January 1, 1987.
The provisions of this Regulation apply to the Office of the Secretary of
Defense (OSD) and activities supported administratively by OSD, the Military
Departments, the Organization of the Joint Chiefs of Staff (OJCS), the Unified
and Specified Commands, and the Defense Agencies.
This Regulation is mandatory for use by all DoD Components. Heads of DoD
Components may issue supplementary instructions when necessary to provide for
internal administration of this Regulation within their respective components.
Forward communications, including recommended changes, regarding this Regulation
and copies of supplemental instructions issued, through appropriate channels to:
Deputy Under Secretary of Defense for Policy, Attention: Director Counterintelligence and Investigative Programs, Room JC-267, The Pentagon, Washington,
D.C. 20301-2200.
This Regulation is being published i~ Title 32, Code of Federal Regulations
(CFR). DoD Components may obtain copies of this Regulation through their own
publications channels. Federal Agencies and the public may obtain copies from
the U.S. Department of Commerce, National Technical Information Service, 5285
Port Royal Road, Springfield, VA 22161.

I) . Cu.,
/
~ Ald::::;,-;;t··

Deputy

2

App. 118

FOREWORD

DoD 5200.2-R, January 1987

TABLE OF CONTENTS
Page
FOREWORD

2

TABLE OF CONTENTS

3

REFERENCES

5

DEFINITIONS

8

CHAPTER 1 - GENERAL PROVISIONS
C1.1. - PURPOSE AND APPLICABILITY

13
13

CHAPTER 2 - POLICIES
C2.1. - STANDARDS FOR ACCESS TO CLASSIFIED INFORMATION
OR ASSIGNMENT TO SENSITIVE DUTIES
C2.2. - CRITERIA FOR APPLICATION OF SECURITY STANDARDS
C2.3. - TYPES AND SCOPE OF PERSONNEL SECURITY INVESTIGATIONS
C2.4. - AUTHORIZED PERSONNEL SECURITY INVESTIGATIVE AGENCIES
C2.5. - LIMITATIONS AND RESTRICTIONS

15
15

CHAPTER 3 - PERSONNEL SECURITY INVESTIGATIVE REQUIREMENTS
C3.1. - SENSITIVE POSITIONS
C3.2. - CIVILIAN EMPLOYMENT
C3.3. - MILITARY APPOINTMENT, ENLISTMENT, AND INDUCTION
C3.4. - SECURITY CLEARANCE
C3.5. - SPECIAL ACCESS PROGRAMS
C3.6. - CERTAIN POSITIONS NOT NECESSARILY REQUIRING ACCESS
TO CLASSIFIED INFORMATION
C3.7. - REINVESTIGATION
C3.8. - AUTHORITY TO WAIVE INVESTIGATIVE REQUIREMENTS

29
29
31
33
34
46
52

CHAPTER 4 - RECIPROCAL ACCEPTANCE OF PRIOR INVESTIGATION AND
PERSONNEL SECURITY DETERMINATIONS

60

CHAPTER 5 - REQUESTING PERSONNEL SECURITY INVESTIGATIONS

63

CHAPTER 6 - ADJUDICATION

66

CHAPTER 7 - ISSUING CLEARANCE AND GRANTING ACCESS

70

CHAPTER 8 - UNFAVORABLE ADMINISTRATIVE ACTIONS
C8.1. - REQUIREMENTS
C8.2. - PROCEDURES
C8.3. - REINSTATEMENT OF CIVILIAN EMPLOYEES

73
73
76
78

3

App. 119

15
18
22
26

56
59

TABLE OF CONTENTS

DoD 5200.2-R, January 1987

CHAPTER 9 - CONTINUING SECURITY
C9.1. - EVALUATING CONTINUED SECURITY ELEGIBILITY
C9.2. - SECURITY EDUCATION

80
80
82

CHAPTER 10 - SAFEGUARDING PERSONNEL SECURITY INVESTIGATIVE RECORDS

86

CHAPTER 11- PROGRAM MANAGEMENT

89

CHAPTER 12 - DEFENSE CLEARANCE AND INVESTIGATIONS INDEX (DCII)

92

APPENDICES
APPENDIX 1 - INVESTIGATIVE SCOPE

97

APPENDIX 2 - REQUEST PROCEDURES

111

APPENDIX 3 - TABLES FOR REQUESTING INVESTIGATIONS

117

APPENDIX 4 - REPORTING OF NONDEROGATORY CASES

124

APPENDIX 5 - DOD SECURITY CLEARANCE AND/OR SCI ACCESS
DETERMINATION AUTHORITIES

125

APPENDIX 6 - GUIDELINES FOR CONDUCTING PRE-NOMINATION
PERSONAL INTERVIEWS

129

APPENDIX 7 - (LEFT BLANK FOR FUTURE USE)

131

APPENDIX 8 - ADJUDICATIVE GUIDELINES FOR DETERMINING ELIGIBILITY
FOR ACCESS TO CLASSIFIED INFORMATION

132

APPENDIX 9 - OVERSEAS INVESTIGATIONS

153

APPENDIX 10 - ADP POSITION CATEGORIES AND CRITERIA
FOR DESIGNATING POSITIONS

162

APPENDIX 11 - SAMPLE NOTIFICATIONS FOR ADVERSE
PERSONNEL SECURITY DETERMINATIONS

164

APPENDIX 12 - STRUCTURE AND FUNCTIONING OF THE
PERSONNEL SECURITY APPEAL BOARD

183

APPENDIX 13 - CONDUCT OF A PERSONAL APPEARANCE BEFORE
AN ADMINISTRATIVE JUDGE (AJ)

185

4

App. 120

TABLE OF CONTENTS

DoD 5200.2-R, January 1987

REFERENCES
(a) DoD 5200.2-R, "DoD Personnel Security Program," January 1987, authorized by
DoD Directive 5200.2, May 6, 1992
(b) DoD 5220.22-R, "Industrial Security Regulation," authorized by DoD Directive
5220.22, December 8, 1980
(c) DoD Directive 5220.6, "Defense Industrial Personnel Security Clearance Review
Program," February 2, 1992
(d) Reference Not Used
(e) Public Law 88-290, "National Security Agency - Personnel Security Procedures,"
March 26, 1964 (78 STAT. 168)
(f) Public Law 86-36, "National Security Agency Officers and Employees," May 29,
1959 (73 Stat. 63)
(g) Executive Order 10450, "Security Requirements for Government Employment,"
April 27, 1953
(h) Executive Order 12333, "United States Intelligence Activities," December 4, 1981
(i) DoD Directive 5210.45, "Personnel Security in the National Security Agency," May
9,1964
(j) Executive Order 1295.8, "Classified National Security Information," April 17,1995
(k) Executive Order 11935, "Citizenship Requirements for Federal Employment,"
September 2, 1976
(l) Director of Central Intelligence Directive (DCID) No. 1/14, "Personnel Security
Standards and Procedures Governing Eligibility for Access to Sensitive
Compartmented Information (SCI)," January 22, 1992
(m) Section 552a of title 5, United States Code
(n) DoD Directive 5100.23, "Administrative Arrangements for the National Security
Agency, May 17, 1967
(o) Agreement Governing the Conduct of Defense Department Counterintelligence
Activities in Conjunction with the Federal Bureau of Investigation, April 5, 1979
(p) DoD Directive 5210.48, "DoD Polygraph Program," December 24, 1984
(q) DoD 5200.1-R, "Information Security Program Regulation," June 1986, authorized by
DoD Directive 5200.1, "DoD Information Security Program," June 7, 1982
(r) DoD Directive 5210.55, "Selection of DoD Military and Civilian Personnel and
Contractor Employees for Assignment to Presidential Support Activities," July 6,
1977
(s) DoD Directive 5210.42, "Nuclear Weapon Personnel Reliability Program (PRP),"
May 25, 1993

5

App. 121

REFERENCES

DoD 5200.2-R, January 1987

(t) DoD Directive 5200.8, "Security of Military Installations and Resources," April
25,1991
(u) DoD 1401.1-M, "Personnel Policy Manual for Nonappropriated Fund
Instrumentalities," January 1981, authorized by DoD Instruction 1401.1, November
15, 1985
(v) DoD 5030.49-R, "Customs Inspection," May 1977, authorized by DoD Directive
5030.49, January 6, 1984
(w) DoD Instruction 5210.25, "Assignment of American National Red Cross and United
Service Organizations, Inc., Employees to Duty with the Military Services," May 12,
1983
(x) DoD Directive 5210.46, "DoD Building Security for the National Capital Region,"
January 28, 1982
(y) DoD Directive 5210.65, "Chemical Agent Security Program," October 15, 1986
(z) DoD Directive 5210.2, "Access to and Dissemination of Restricted Data," January
12, 1978
(aa) DoD Directive 5400.7, "DoD Freedom of Information Act Program," May 13, 1988
(bb) DoD Directive 5400.11, "Department of Defense Privacy Program," June 9, 1982
(cc) 5 CFR, Part 732, "National Security Positions," January 1, 1995
(dd) Section 3571 of title 5, United States Code
(ee) Section 3 of Public Law 89-380, "Back Pay Act of 1966," March 30, 1966 (80 Stat.
94)
(ff) Executive Order 9835, "Prescribing Procedures for the Administration of an
Employee Loyalty Program in the Executive Branch of the Government," issued 1947
(superseded by Executive Order 10450)
(gg) Public Law 83-703, "Atomic Energy Actof 1954," as amended, August 30, 1954
(hh) DoD Directive 5105.42, "Defense Investigative Service," June 14, 1985
(ii) Defense Investigative Service 20-1-M, "Manual for Personnel Security
Investigations," January 1993
(jj) Memorandum of Understanding between the Director, White House Military Office
and the Special Assistant to the Secretary and Deputy Secretary of Defense, "White
House Clearances," July 30, 1980
(kk) USSAN Instruction 1-69, April 21, 1982 (Enclosure 2 to DoD Directive 5100.55,
"United States Security Authority for North Atlantic Treaty Organization Affairs,"
April 21, 1982
(ll) DoD Directive 5230.11, "Disclosure of Classified Military Information to Foreign
Governments and International Organizations," June 16, 1982
(mm) DoD Directive 5100.3, "Support of the Headquarters of Unified, Specified, and
Subordinate Joint Commands," November 1, 1988
(nn) Public Law 96-456, "Classified Information Procedures Act," October 15, 1980 (94
Stat. 2025)

6

App. 122

REFERENCES

DoD 5200.2-R, January 1987

(oo) DoD Directive 5142.1, "Assistant Secretary of Defense (Legislative Affairs)," July
2, 1982
(pp) Section 7532 of title 5, United States Code
(qq) DoD Directive O-5205.7, "Special Access Program (SAP) Policy," January 4, 1989
(rr) National Security Directive 63, "Single Scope Background Investigations," October
21, 1991

7

App. 123

REFERENCES

DoD 5200.2-R, January 1987

DL1. DEFINITIONS
DL1.1.1. Access. The ability and opportunity to obtain knowledge of classified
information. An individual, in fact, may have access to classified informaiton by being
in a place where such information is kept, if the security measures that are in force do
not prevent him from gaining knowledge of such information.
DL1.1.2. Adverse Action. A removal from employment, suspension from
employment of more than 14 days, reduction in grade, reduction in pay, or furlough of
30 days or less.
DL1.1.3. Background Investigation (BI). A personnel security investigation
consisting of both record reviews and interviews with sources of information as
prescribed in paragraph AP1.1.1.3., Appendix 1, this Regulation, covering the most
recent 5 years of an individual's life or since the 18th birthday, whichever is shorter,
provided that at least the last 2 years are covered and that no investigation will be
conducted prior to an individual's 16th birthday.
DL1.1.4. Classified Informaiton. Official information or material that requires
protection in the interests of national security and that is classified for such purpose by
appropriate classifying authority in accordance with the provisions of Executive Order
12356 (reference (j)).
DL1.1.5. Defense Central Security Index (DCSI). An automated sub-system of the
Defense Central Index of Investigations (DCII) designed to record the issuance, denial
or revocation of security clearances, access to classified information, or assignment to
a sensitive position by all DoD Components for military, civilian, and contractor
personnel. The DCSI will serve as the central DoD repository of security related
actions in order to assist DoD security officials in making sound clearance and access
determinations. The DCSI shall also serve to provide accurate and reliable statistical
data for senior DoD officials, Congressional committees, the General Accounting
Office and other authorized Federal requesters.
DL1.1.6. DoD Component. Includes the Office of the Secretary of Defense, the
Military Departments, the Chairman of the Joint Chiefs of Staff, the Combatant
Commands, the Office of the Inspector General of the Department of Defense, the
Defense Agencies, The DoD Field Activities, and all other organizational entities within
the Department of Defense (hereafter referred to collectively as "the DoD
Components").
DL1.1.7. Entrance National Agency Check (ENTNAC). A personnel security
8

App. 124

DEFINITIONS

DoD 5200.2-R, January 1987

investigation scoped and conducted in the same manner as a National Agency Check
(NAC) except that a technical fingerprint search of the files of the Federal Bureau of
Investigation is not conducted.
DL1.1.8. Head of DoD Component. The Secretary of Defense; the Secretaries of
the Military Departments; the Chairman, Joint Chiefs of Staff; and the Commanders of
the Combatant Commands; and the Directors of Defense Agencies.
DL1.1.9. Immigrant Alien. Any alien lawfully admitted into the United States
under an immigration visa for permanent residence.
DL1.1.10. Interim Security Clearance. A security clearance based on the
completion of minimum investigative requirements, which is granted on a temporary
basis, pending the completion of the full investigative requirements.
DL1.1.11. Limited Access Authorization. Authorization for access to
Confidential or Secret information granted to non-United States citizens and immigrant
aliens, which is limited to only that information necessary to the successful
accomplishment of their assigned duties and based on a background investigation scoped
for 10 years (paragraph AP1.1.1.3., Appendix 1).
DL1.1.12. Minor Derogatory Information. Information that, by itself, is not of
sufficient importance or magnitude to justify an unfavorable administrative action in a
personnel security determination.
DL1.1.13. National Agency Check (NAC). A personnel security investigation
consisting of a records review of certain national agencies as prescribed in paragraph
AP1.1.1.1., Appendix 1, this Regulation, including a technical fingerprint search of the
files of the Federal Bureau of Investigation (FBI).
DL1.1.14. National Agency Check Plus Written Inquiries (NACI). A personnel
security investigation conducted by the Office of Personnel Management, combining a
NAC and written inquiries to law enforcement agencies, former employers and
supervisors, references and schools.

9

App. 125

DEFINITIONS

DoD 5200.2-R, January 1987

DL1.1.15. DoD National Agency Check Plus Written Inquiries (DNACI). A
personnel security investigation conducted by the Defense Investigative Service (DIS)
for access to SECRET information consisting of a NAC, credit bureau check, and written
inquiries to current and former employers (see paragraph AP1.1.1.2., Appendix 1),
covering a 5-year scope.
DL1.1.16. National Security. National security means the national defense and
foreign relations of the United States.
DL1.1.17. Need-to-Know A determination made by a possessor of classified
information that a prospective recipient, in the interest of national security, has a
requirement for access to, knowledge, or possession of the classified information in
order to perform tasks or services essential to the fulfillment of an official United
States Government program. Knowledge, possession of, or access to, classified
information shall not be afforded to any individual solely by virtue of the individual's
office, position, or security clearance.
DL1.1.18. Periodic Reinvestigation (PR). An investigation conducted every 5
years for the purpose of updating a previously completed background or special
background investigation on persons occupying positions referred to in paragraphs C3.7.
through C3.7.10. The scope will consist of a personal interview, NAC, LACs, credit
bureau checks, employment records, employment references and developed character
references and will normally not exceed the most recent 5-year period.
DL1.1.19. Personnel Security Investigation (PSI). Any investigation required for
the purpose of determining the eligibility of DoD military and civilian personnel,
contractor employees, consultants, and other persons affiliated with the Department of
Defense, for access to classified information, acceptance or retention in the Armed
Forces, assignment or retention in sensitive duties, or other designated duties requiring
such investigation. PSIs include investigations of affiliations with subversive
organizations, suitability information, or hostage situations (see paragraph C2.4.3.)
conducted for the purpose of making personnel security determinations. They also
include investigations of allegations that arise subsequent to adjudicative action and
require resolution to determine an individual's current eligibility for access to classified
information or assignment or retention in a sensitive position.
DL1.1.20. Scope The time period to be covered and the sources of information to
be contacted during the prescribed course of a PSI.
DL1.1.21. Security Clearance. A determination that a person is eligible under the

10

App. 126

DEFINITIONS

DoD 5200.2-R, January 1987

standards of this Regulation for access to classified information.
DL1.1.22. Senior Officer of the Intelligence Community (SOIC). The DoD
Senior Officers of the Intelligence Community include: the Director, National
Security Agency/Central Security Service; Director, Defense Intelligence Agency;
Assistant Chief of Staff for Intelligence, U.S. Army; Assistant Chief of Staff for
Intelligence, U.S. Air Force; and the Director of Naval Intelligence, U.S. Navy.
DL1.1.23. Sensitive Position. Any position so designated within the Department
of Defense, the occupant of which could bring about, by virtue of the nature of the
position, a materially adverse effect on the national security. All civilian positions are
either critical-sensitive, noncritical-sensitive, or nonsensitive as described in paragraph
C3.1.1.
DL1.1.24. Significant Derogatory Information. Information that could, in itself,
justify an unfavorable administrative action, or prompt an adjudicator to seek additional
investigation or clarification.
DL1.1.25. Special Access Program. Any program imposing "need-to-know" or
access controls beyond those normally provided for access to Confidential, Secret, or
Top Secret information. Such a program may include, but not be limited to, special
clearance, adjudication, investigative requirements, material dissemination restrictions,
or special lists of persons determined to have a need-to-know.
DL1.1.26. Special Background Investigation (SBI). A personnel security
investigation consisting of all of the components of a BI plus certain additional
investigative requirements as prescribed in paragraph AP1.1.1.4., Appendix 1, this
Regulation. The period of investigation for an SBI is the last 15 years or since the 18th
birthday, whichever is shorter, provided that the last 2 full years are covered and that no
investigation will be conducted prior to an individual's 16th birthday.
DL1.1.27. Special Investigative Inquiry (SII). A supplemental personnel security
investigation of limited scope conducted to prove or disprove relevant allegations that
have arisen concerning a person and who, at the time of the allegation, holds a security
clearance or otherwise occupies a position that requires a personnel security
determination under the provision of this Regulation.

11

App. 127

DEFINITIONS

DoD 5200.2-R, January 1987

DL1.1.28. Service. Honorable active duty (including attendance at the military
academies), membership in ROTC Scholarship Program, Army and Air Force National
Guard, Military Reserve Force (including active status and ready reserve), civilian
employment in Government service, or civilian employment with a DoD contractor or
as a consultant involving access under the DoD Industrial Security Program. Continuity
of service is maintained with change from one status to another as long as there is no
single break in service greater than 12 months.
DL1.1.29. Unfavorable Administrative Action. Adverse action taken as the result
of personnel security determinations and unfavorable personnel security determinations
as defined in this Regulation.
DL1.1.30. Unfavorable Personnel Security Determination. A denial or revocation
of clearance for access to classified information; denial or revocation of access to
classified information; denial or revocation of a Special Access authorization (including
access to SCI); nonappointment to or nonselection for appointment to a sensitive
position; nonappointment to or nonselection for any other position requiring a
trustworthiness determination under this Regulation; reassignment to a position of
lesser sensitivity or to a nonsensitive position; and nonacceptance for or discharge from
the Armed Forces when any of the foregoing actions are based on derogatory
information of personnel security significance.
DL1.1.31. United States Citizen. (Native Born) - A person born in one of the 50
United States, Puerto Rico, Guam, American Samoa, Northern Mariana Islands, U.S.
Virgin Islands; or the Republic of Panama (former Panama Canal Zone) (if the father or
mother (or both) was or is, a citizen of the United States).

12

App. 128

DEFINITIONS

DoD 5200.2-R, January 1987

C1. CHAPTER 1
DEPARTMENT OF DEFENSE PERSONNEL SECURITY PROGRAM
GENERAL PROVISIONS
C1.1. PURPOSE AND APPLICABILITY
C1.1. Purpose
C1.1.1. To establish policies and procedures to ensure that acceptance and
retention of personnel in the Armed Forces, acceptance and retention of civilian
employees in the Department of Defense, and granting members of the Armed Forces,
DoD civilian employees, DoD contractors, and other affiliated persons access to
classified information are clearly consistent with the interests of national security.
C1.1.2. This Regulation:
C1.1.2.1. Establishes DoD personnel security policies and procedures;
C1.1.2.2. Sets forth the standards, critera, and guidelines upon which
personnel security determinations shall be based;
C1.1.2.3. Prescribes the kinds and scopes of personnel security
investigations required;
C1.1.2.4. Details the evaluation and adverse action procedures by which
personnel security determinations shall be made; and
C1.1.2.5. Assigns overall program management responsibilities.
C1.2. Applicability
C1.2.1. This Regulation implements the Department of Defense Personnel
Security Program and takes precedence over all other departmental issuances affecting
that program.
C1.2.2. All provisions of this Regulation apply to DoD civilian personnel,
members of the Armed Forces, excluding the Coast Guard in peacetime, contractor
personnel and other personnel who are affiliated with the Department of Defense
except that the unfavorable administrative action procedures pertaining to contractor
personnel requiring access to classified information are contained in DoD 5220.22-R

13

App. 129

CHAPTER 1

DoD 5200.2-R, January 1987

(reference (b)) and in DoD Directive 5220.6 (reference (c)).
C1.2.3. The policies and procedures THAT govern the National Security
Agency are prescribed by Public Laws 88-290 and 86-36, Executive Orders 10450 and
12333, DoD Directive 5210.45, Director of Central Intelligence Directive (DCID)
1/14 (references (e), (f), (g), (h), (i), and (l) respectively), and regulations of the
National Security Agency.
C1.2.4. Under combat conditions or other military exigencies, an authority in
paragraph AP6.1., Appendix 6, may waive such-provisions of this regulation as the
circumstances warrant.

14

App. 130

CHAPTER 1

DoD 5200.2-R, January 1987

C2. CHAPTER 2
POLICIES
C2.1. STANDARDS FOR ACCESS TO CLASSIFIED INFORMATION OR
ASSIGNMENT TO SENSITIVE DUTIES
C2.1.1. General. Only United States citizens shall be granted a personnel security
clearance, assigned to sensitive duties, or granted access to classified information
unless an authority designated in Appendix 6 has determined that, based on all available
information, there are compelling reasons in furtherance of the Department of Defense
mission, including, special expertise, to assign an individual who is not a citizen to
sensitive duties or grant a Limited Access Authorization to classified information.
Non-U.S. citizens may be employed in the competitive service in sensitive civilian
positions only when specifically approved by the Office of Personnel Management,
pursuant to E.O. 11935 (reference (k)). Exceptions to these requirements shall be
permitted only for compelling national security reasons.
C2.1.2. Clearance and Sensitive Position Standard. The personnel security
standard that must be applied to determine whether a person is eligible for access to
classified information or assignment to sensitive duties is whether, based on all
available information, the person's loyalty, reliability, and trustworthiness are such that
entrusting the person with classified information or assigning the person to sensitive
duties is clearly consistent with the interests of national security.
C2.1.3. Military Service Standard. The personnel security standard that must be
applied in determining whether a person is suitable under national security criteria for
appointment, enlistment, induction, or retention in the Armed Forces is that, based on all
available information, there is no reasonable basis for doubting the person's loyalty to
the Government of the United States.
C2.2. CRITERIA FOR APPLICATION OF SECURITY STANDARDS
C2.2.1. Criteria for Application of Security Standards. The ultimate decision in
applying either of the security standards set forth in paragraph C2.1.2. and C2.1.3.,
above, must be an overall common sense determination based upon all available facts.
The criteria for determining eligibility for a clearance under the security standard shall
include, but not be limited to the following:
C2.2.1.1. Commission of any act of sabotage, espionage, treason, terrorism,
15

App. 131

CHAPTER 2

DoD 5200.2-R, January 1987

anarchy, sedition, or attempts thereat or preparation therefor, or conspiring with or
aiding or abetting another to commit or attempt to commit any such act.
C2.2.1.2. Establishing or continuing a sympathetic association with a saboteur,
spy, traitor, seditionist, anarchist, terrorist, revolutionist, or with an espionage or other
secret agent or similar representative of a foreign nation whose interests may be
inimical to the interests of the United States, or with any person who advocates the use
of force or violence to overthrow the Government of the United States or to alter the
form of Government of the United States by unconstitutional means.
C2.2.1.3. Advocacy or use of force or violence to overthrow the Government
of the United States or to alter the form of Government of the United States by
unconstitutional means.
C2.2.1.4. Knowing membership with the specific intent of furthering the aims
of, or adherence to and active participation in any foreign or domestic organization,
association, movement, group or combination of persons (hereafter referred to as
organizations), which unlawfully advocates or practices the commission of acts of force
or violence to prevent others from exercising their rights under the Constitution or laws
of the United States or of any State or which seeks to overthrow the Government of the
United States or any State or subdivision thereof by unlawful means.
C2.2.1.5. Unauthorized disclosure to any person of classified information, or
of other information, disclosure of which is prohibited by Statute, Executive Order or
Regulation.
C2.2.1.6. Performing or attempting to perform one's duties, acceptance and
active maintenance of dual citizenship, or other acts conducted in a manner which serve
or which could be expected to serve the interests of another government in reference to
the interests of the United States.
C2.2.1.7. Disregard of public law, Statutes, Executive Orders or Regulations
including violation of security regulations or practices.
C2.2.1.8. Criminal or dishonest conduct.

16

App. 132

CHAPTER 2

DoD 5200.2-R, January 1987

C2.2.1.9. Acts of omission or commission that indicate poor judgment,
unreliability or untrustworthiness.
C2.2.1.10. Any behavior or illness, including any mental condition, which, in
the opinion of competent medical authority, may cause a defect in judgment or
reliability with due regard to the transient or continuing effect of the illness and the
medical findings in such case.
C2.2.1.11. Vulnerability to coercion, influence, or pressure that may cause
conduct contrary to the national interest. This may be:
C2.2.1.11.1. The presence of immediate family members or other
persons to whom the applicant is bonded by affection or obligation in a nation (or areas
under its domination) whose interests may be inimical to those of the United States; or
vulnerable.

C2.2.1.11.2. Any other circumstances that could cause the applicant to be

C2.2.1.12. Excessive indebtedness, recurring financial difficulties, or
unexplained affluence.
C2.2.1.13. Habitual or episodic use of intoxicants to excess.
C2.2.1.14. Illegal or improper use, possession, transfer, sale or addiction to
any controlled or psychoactive substance, narcotic, cannabis or other dangerous drug.
C2.2.1.15. Any knowing and willful falsification, cover up, concealment,
misrepresentation, or omission of a material fact from any written or oral statement,
document, form or other representation or device used by the Department of Defense
or any other Federal Agency.
C2.2.1.16. Failing or refusing to answer or-to-authorize others to answer
questions or provide information required by a congressional committee, court, or
agency in the course of an official inquiry whenever such answers or information
concern relevant and material matters pertinent to an evaluation of the individual's
trustworthiness, reliability, and judgment.
C2.2.1.17. Acts of sexual misconduct or perversion indicative of moral
turpitude, poor judgment, or lack of regard for the laws of society.

17

App. 133

CHAPTER 2

DoD 5200.2-R, January 1987

C2.3. TYPES AND SCOPE OF PERSONNEL SECURITY INVESTIGATIONS
C2.3.1. General. The types of personnel security investigations authorized below
vary in scope of investigative effort required to meet the purpose of the particular
investigation. No other types are authorized. The scope of a PSI may be neither raised
nor lowered without the approval of the Deputy Under Secretary of Defense for Policy.
C2.3.2. National Agency Check (NAC) Essentially, a NAC is a records check of
designated agencies of the Federal Government that maintain record systems containing
information relevant to making a personnel security determination. An ENTNAC is a
NAC (scope as outlined in paragraph AP1.1.1., Appendix 1) conducted on inductees and
first-term enlistees, but lacking a technical fingerprint search. A NAC is also an
integral part of each BI, SBI, and Periodic Reinvestigation (PR). Chapter 3 prescribes
when a NAC is required.
C2.3.3. National Agency Check plus Written Inquiries. The Office of Personnel
Management (OPM) conducts a NAC plus Written Inquiries (NACIs) on civilian
employees for all Departments and Agencies of the Federal Government, pursuant to
E.O. 10450 (reference (g)). NACIs are considered to meet the investigative
requirements of this Regulation for a nonsensitive or noncritical sensitive position
and/or up to a SECRET clearance and, in addition to the NAC, include coverage of law
enforcement agencies, former employers and supervisors, references, and schools
covering the last 5 years.
C2.3.4. DoD National Agency Check (DNCI) Plus Written Inquiries. DIS will
conduct a DNACI, consisting of the scope contained in paragraph AP1.1.1.1.2., Appendix
1, for DoD military and contractor personnel for access to SECRET information.
Chapter 3 prescribes when a DNACI is required.
C2.3.5. Background Investigation (BI). The BI is the principal type of investigation
conducted when an individual requires TOP SECRET clearance or is to be assigned to a
critical sensitive position. The BI normally covers a 5-year period and consists of a
subject interview, NAC, LACs, credit checks, developed character references (3),
employment records checks, employment references (3), and select scoping as required
to resolve unfavorable or questionable information. (See paragraph AP1.1.1.1.3.,
Appendix 1). Chapter 3 prescribes when a BI is required.
C2.3.6. Special Background Investigation (SBI)
C2.3.6.1. An SBI is essentially a BI providing additional coverage both in
18

App. 134

CHAPTER 2

DoD 5200.2-R, January 1987

period of time as well as sources of information, scoped in accordance with the
provisions of DCID 1/14 (reference (l)) but without the personal interview. While the
kind of coverage provided for by the SBI determines eligibility for access to SCI, the
Department of Defense has adopted this coverage for certain other Special Access
programs. Chapter 3 prescribes when an SBI is required.
C2.3.6.2. The OPM, FBI, Central Intelligence Agency (CIA), Secret Service,
and the Department of State conduct specially scoped BIs under the provisions of DCID
1/14. Any investigation conducted by one of the above-cited Agencies under DCID
1/14 standards is considered to meet the SBI investigative requirements of this
Regulation.
C2.3.6.3. The detailed scope of an SBI is set forth in paragraph AP1.1.1.1.4.,
Appendix 1.
C2.3.7. Special Investigative Inquiry (SII)
C2.3.7.1. A Special Investigative Inquiry is a personnel security investigation
conducted to prove or disprove allegations relating to the criteria outlined in paragraph
C2.2.1. of this Regulation, except current criminal activities (see paragraph C2.4.3.4.),
that have arisen concerning an individual upon whom a personnel security determination
has been previously made and who, at the time of the allegation, holds a security
clearance or otherwise occupies a position that requires a trustworthiness determination.
C2.3.7.2. Special Investigative Inquiries are scoped as necessary to address
the specific matters requiring resolution in the case concerned and generally consist of
record checks and/or interviews with potentially knowledgeable persons. An SII may
include an interview with the subject of the investigation when necessary to resolve
conflicting information and/or to provide an opportunity to refute or mitigate adverse
information.
C2.3.7.3. In those cases when there is a disagreement between Defense
Investigative Service (DIS) and the requester as to the appropriate scope of the
investigation, the matter may be referred to the Deputy Under Secretary of Defense for
Policy for resolution.
C2.3.8. Periodic Reinvestigation (PR). As referred to in paragraph C3.7.1. and
other national directives, certain categories of duties, clearance, and access require the
conduct of a PR every five years according to the scope outlined in paragraph
AP1.1.1.1.5., Appendix 1. The PR scope applies to military, civilian, contractor, and
foreign national personnel.

19

App. 135

CHAPTER 2

DoD 5200.2-R, January 1987

C2.3.9. Personal Interview. Investigative experience over the years has
demonstrated that, given normal circumstances, the subject of a personnel security
investigation is the best source of accurate and relevant information concerning the
matters under consideration. Further, restrictions imposed by the Privacy Act of 1974
(reference (m)) dictate that Federal investigative agencies collect information to the
greatest extent practicable directly from the subject when the information may result in
adverse determinations about an individual's rights, benefits, and privileges under
Federal programs. Accordingly, personal interviews are an integral part of the DoD
personnel security program and shall be conducted in accordance with the requirements
set forth in the following paragraphs of this section.
C2.3.9.1. BI/PR. A personal interview shall be conducted by a trained DIS
agent as part of each BI and PR.
C2.3.9.2. Resolving Adverse Information. A personal interview of the subject
shall be conducted by a DIS agent (or, when authorized, by investigative personnel of
other DoD investigative organizations designated in this Regulation to conduct
personnel security investigations), when necessary, as part of each Special Investigative
Inquiry, as well as during the course of initial or expanded investigations, to resolve or
clarify any information which may impugn the subject's moral character, threaten the
subject's future federal employment, raise the question of subject's security clearability,
or be otherwise stigmatizing.
C2.3.9.3. Hostage Situation. A personal interview shall be conducted by a DIS
agent (or, when authorized, by investigative personnel of other DoD investigative
organizations designated in this Regulation to conduct personnel security investigations)
in those instances in which an individual has immediate family members or other
persons bound by ties of affection or obligation who reside in a nation whose interests
are inimical to the interests of the United States. (See paragraph C2.4.4.)
C2.3.9.4. Applicants/Potential Nominees for DoD Military or Civilian
Positions Requiring Access to SCI or Other Positions Requiring SBI. A personal
interview of the individual concerned shall be conducted, to the extent feasible, as part
of the selection process for applicants/potential nominees for positions requiring
access to SCI or completion of an SBI. The interview shall be conducted by a designee
of the Component to which the applicant or potential nominee is assigned. Clerical
personnel are not authorized to conduct these interviews. Such interviews shall be
conducted utilizing-resources in the order of priority indicated below:
C2.3.9.4.1. Existing personnel security screening systems (e.g., Air Force

20

App. 136

CHAPTER 2

DoD 5200.2-R, January 1987

Assessment Screening Program, Naval Security Group Personnel Security Interview
Program, U.S. Army Personnel Security Screening Program); or
C2.3.9.4.2. Commander of the nominating organization or such official as
he or she has designated in writing (e.g., Deputy Commander, Executive Officer,
Security Officer, Security Manager, S-2, Counterintelligence Specialist, Personnel
Security Specialist, or Personnel Officer); or
C2.3.9.4.3. Agents of investigative agencies in direct support of the DoD
Component concerned.
C2.3.9.5. Administrative Procedures
C2.3.9.5.1. The personal interview required by paragraph C2.3.9.4., above,
shall be conducted in accordance with Appendix 6.
C2.3.9.5.2. For those investigations requested subsequent to the personal
interview requirements of paragraph C2.3.9.4., above, the following procedures apply:
C2.3.9.5.2.1. The DD Form 1879 (Request for Personnel Security
Investigation) shall be annotated under Item 20 (Remarks) with the statement, "Personal
Interview Conducted by (cite the duty assignment of the designated official (e.g.,
Commander, Security Officer, Personnel Security Specialist, etc.))" in all cases in which
an SBI is subsequently requested.
C2.3.9.5.2.2. Unfavorable information developed through the
personal interview required by paragraph C2.3.9.4., above, will be detailed in a written
report attached to the DD Form 1879 to include full identification of the interviewer.
Failure to provide such information may result in conduct of an incomplete investigation
by DIS.
C2.3.9.5.2.3. Whenever it is determined that it is not feasible to
conduct the personal interview required by paragraph C2.3.9.4., above, prior to
requesting the SBI, the DD Form 1879 shall be annotated under Item 20 citing the
reason for not conducting the interview.
C2.3.10. Expanded Investigation. If adverse or questionable information relevant
to a security determination is developed during the conduct of a personnel security
investigation, regardless of type, the investigation shall be expanded, consistent with the
restrictions in paragraph C2.5.5., to the extent necessary to substantiate or disprove the
adverse or questionable information.

21

App. 137

CHAPTER 2

DoD 5200.2-R, January 1987

C3.2.3. Noncritical-Sensitive Positions
C3.2.3.1. An NACI shall be requested and the NAC portion favorably
completed before a person is appointed to a noncritical-sensitive position (for
exceptions see paragraph C3.2.5.). An ENTNAC, NAC or DNACI conducted during
military or contractor employment may also be used for appointment provided a NACI
has been requested from OPM and there is no more than 12 months break in service
since completion of the investigation.
C3.2.3.2. Seasonal employees (including summer hires) normally do not
require access to classified information. For those requiring access to classified
information the appropriate investigation is required. The request for the NAC (or
NACI) should be submitted to DIS by entering "SH" (summer hire) in red letters
approximately one inch high on the DD Form 398-2, "Personnel Security Questionnaire
(National Agency Checklist)." Additionally, to ensure expedited processing by DIS,
summer hire requests should be assembled and forwarded to DIS in bundles, when
appropriate.
C3.2.4. Critical-Sensitive Positions. A BI shall be favorably completed prior to
appointment to critical-sensitive positions (for exceptions see paragraph C3.2.5.).
Certain critical-sensitive positions require a preappointment SBI in accordance with
section C3.5. of this chapter. Preappointment BIs and SBIs will be conducted by DIS.
C3.2.5. Exceptions
C3.2.5.1. Noncritical-sensitive. In an emergency, a noncritical-sensitive
position may be occupied pending the completion of the NACI if the head of the
requesting organization finds that the delay in appointment would be harmful to the
national security and such finding is reduced to writing and made part of the record. In
such instances, the position may be filled only after the NACI has been requested.
C3.2.5.2. Critical-sensitive. In an emergency, a critical-sensitive position may
be occupied pending completion of the BI (or SBI, as appropriate) if the head of the
requesting organization finds that the delay in appointment would be harmful to the
national security and such finding is reduced to writing and made a part of the record. In
such instances, the position may be filled only when the NAC portion of the BI (or SBI)
or a previous valid NACI, NAC or ENTNAC has been completed and favorably
adjudicated.

32

App. 138

CHAPTER 3

DoD 5200.2-R, January 1987

C3.2.6. Mobilization of DoD Civilian Retirees. The requirements contained in
paragraph C3.2.1. of this section, regarding the type of investigation required by position
sensitivity for DoD civilian retirees temporary appointment when the break in
employment is greater than 12 months, should either be expedited or waived for the
purposes of mobilizing selected reemployed annuitants under the provisions of Title 5,
United States Code, depending upon the degree of sensitivity of the position to which
assigned. Particular priority should be afforded to newly assigned personnel assigned to
the defense intelligence and security agencies with respect to granting security
clearances in an expeditious manner under paragraph C3.2.1. of this section.
C3.3. MILITARY APPOINTMENT, ENLISTMENT, AND INDUCTION
C3.3.1. General. The appointment, enlistment, and induction of each member of
the Armed Forces or their Reserve components shall be subject to the favorable
completion of a personnel security investigation. The types of investigation required
are set forth in this section.
C3.3.2. Entrance Investigation
C3.3.2.1. An ENTNAC shall be conducted on each enlisted member of the
Armed Forces at the time of initial entry into the service. A DNACI shall be conducted
on each commissioned officer, except as permitted by paragraph C3.3.4. of this section,
warrant officer, cadet, midshipman, and Reserve Officers Training Candidate, at the time
of appointment. A full NAC shall be conducted upon reentry of any of the above when
there has been a break in service greater than 12 months.
C3.3.2.2. If an officer or warrant officer candidate has been the subject of a
favorable NAC or ENTNAC and there has not been a break in service of more than 12
months, a new NAC is not authorized. This includes ROTC graduates who delay entry
onto active duty pending completion of their studies.
C3.3.2.3. All derogatory information revealed during the enlistment or
apppointment process that results in a moral waiver will be fully explained on a written
summary attached to the DD Form 398-2.
C3.3.3. Reserve Components and National Guard. Reserve component and
National Guard personnel not on active duty are subject to the investigative
requirements of this chapter.
C3.3.4. Exceptions for Certain Commissioned Officers of Reserve Components.
33

App. 139

CHAPTER 3

DoD 5200.2-R, January 1987

The requirements for entrance investigation shall be rigidly adhered to except as
follows. Healthcare professionals, chaplains, and attorneys may be commissioned in
the Reserve components prior to completion of a DNACI provided that:
C3.3.4.1. A DNACI is initiated at the time an application for a commission is
received; and
C3.3.4.2. The applying health professional, chaplain, or attorney agrees in
writing that, if the results of the investigation are unfavorable, he or she will be subject
to discharge if found to be ineligible to hold a commission. Under this exception,
commissions in Reserve Components other than the National Guard may be tendered to
immigrant alien health professionals, chaplains, and attorneys.
C3.3.5. Mobilization of Military Retirees. The requirements contained in
paragraph C3.3.2. of this section, regarding a full NAC upon reentry to active duty of any
officer or enlisted regular/reserve military retiree or Individual Ready Reserve who has
been separated from service for a period of greater than 12 months, should be waived
for the purposes of partial or full mobilization under provisions of Title 10, (Title 14,
pertaining to the U.S. Coast Guard as an element of the Navy) United States Code, to
include the period of prescribed service refresher training. Particular priority should
be afforded to military retirees mobilized and assigned to the defense intelligence and
security agencies communities.
C3.4. SECURITY CLEARANCE
C3.4.1. General
C3.4.1.1. The authorities designated in paragraph AP5.1., Appendix 5 are the
only authorities authorized to grant, deny or revoke DoD personnel security clearances.
The granting of such clearances shall be limited to only those persons who require
access to classified information for mission accomplishment.
C3.4.1.2. Military, DoD civilian, and contractor personnel who are employed
by or serving in a consultant capacity to the Department of Defense, may be considered
for access to classified information only when such access is required in connection
with official duties. Such individuals may be granted either a final or interim personnel
security clearance provided the investigative requirements set forth below are complied
with, and provided further that all available information has been adjudicated and a
finding made that such clearance would be clearly consistent with the interests of
national security.

34

App. 140

CHAPTER 3

DoD 5200.2-R, January 1987

C3.4.2. Investigative Requirements for Clearance
C3.4.2.1. Top Secret
C3.4.2.1.1. Final Clearance:
C3.4.2.1.1.1. BI.
contractors).

C3.4.2.1.1.2. Established billet per paragraph C3.1.5. (except
C3.4.2.1.2. Interim Clearance:
C3.4.2.1.2.1. Favorable NAC, ENTNAC, DNACI, or NACI completed.
C3.4.2.1.2.2. Favorable review of DD Form 398/SF-86/SF-171/DD

Form 49.

C3.4.2.1.2.3. BI or SBI has been initiated.
C3.4.2.1.2.4. Favorable review of local personnel, base/military
police, medical, and other security records as appropriate.
contractors).

C3.4.2.1.2.5. Established billet per paragraph C3.1.5. (except

C3.4.2.1.2.6. Provisions of paragraph C3.2.5. have been met
regarding civilian personnel.
C3.4.2.2. Secret
C3.4.2.2.1. Final Clearance:
C3.4.2.2.1.1. DNACI: Military (except first-term enlistees) and
contractor employees.
C3.4.2.2.1.2. NACI: Civilian employees.
C3.4.2.2.1.3. ENTNAC: First-term enlistees.
C3.4.2.2.2. Interim Clearance:

35

App. 141

CHAPTER 3

DoD 5200.2-R, January 1987

C3.4.2.2.2.1. When a valid need to access Secret information is
established, an interim Secret clearance may be issued in every case, provided that the
steps outlined in subparagraphs C3.4.2.2.2.2. through C3.4.2.2.2.5., below, have been
complied with.
Form 48.

C3.4.2.2.2.2. Favorable review of DD Form 398-2/SF-85/SF-171/DD
C3.4.2.2.2.3. NACI, DNACI, or ENTNAC initiated.

C3.4.2.2.2.4. Favorable review of local personnel, base military
police, medical, and security records as appropriate.
C3.4.2.2.2.5. Provisions of paragraph C3.2.5. have been complied
with regarding civilian personnel.
C3.4.2.2.3. Confidential
C3.4.2.2.3.1. Final Clearance:
C3.4.2.2.3.1.1. NAC or ENTNAC: Military and contractor
employees (except for Philippine national members of the United States Navy on whom
a BI shall be favorably completed).
C3.4.2.2.3.1.2. NACI: Civilian employees (except for summer
hires who may be granted a final clearance on the basis of a NAC).
C3.4.2.2.3.2. Interim Clearance
17 1/DD Form 48.

C3.4.2.2.3.2.1. Favorable review of DD Form 398-2/SF 85/SF
C3.4.2.2.3.2.2. NAC, ENTNAC or NACI initiated.

C3.4.2.2.3.2.3. Favorable review of local personnel, base
military police, medical, and security records as appropriate.
C3.4.2.2.3.2.4. Provisions of paragraph C3.2.5. have been
complied with regarding civilian personnel.
C3.4.2.2.4. Validity of Previously Granted Clearances: Clearances
granted under less stringent investigative requirements retain their validity; however, if a
36

App. 142

CHAPTER 3

DoD 5200.2-R, January 1987

C3.4.5. Restrictions on Issuance of Personnel Security Clearance. Personnel
security clearances must be kept to the absolute minimum necessary to meet mission
requirements.
Personnel security clearances shall normally not be issued:
C3.4.5.1. To persons in nonsensitive positions.
C3.4.5.2. To persons whose regular duties do not require authorized access to
classified information.
C3.4.5.3. For ease of movement of persons within a restricted, controlled, or
industrial area, whose duties do not require access to classified information.
C3.4.5.4. To persons who may only have inadvertent access to sensitive
information or areas, such as guards, emergency service personnel firemen, doctors,
nurses, police, ambulance drivers, or similar personnel.
C3.4.5.5. To persons working in shipyards whose duties do not require access
to classified information.
C3.4.5.6. To persons who can be prevented from accessing classified
information by being escorted by cleared personnel.
C3.4.5.7. To food service personnel, vendors and similar commercial sales or
service personnel whose duties do not require access to classified information.
C3.4.5.8. To maintenance or cleaning personnel who may only have
inadvertent access to classified information unless such access cannot be reasonably
prevented.
C3.4.5.9. To persons who perform maintenance on office equipment,
computers, typewriters, and similar equipment who can be denied classified access by
physical security measures.
C3.4.5.10. To perimeter security personnel who have no access to classified
information.
C3.4.5.11. To drivers, chauffeurs and food service personnel.
C3.4.6. Dual Citizenship. Persons claiming both United States and foreign

43

App. 143

CHAPTER 3

DoD 5200.2-R, January 1987

citizenship shall be processed: under paragraph C3.4.2., above, and adjudicated in
accordance with the "Foreign Preference" standard in Appendix 8.
C3.4.7. One-Time Access. Circumstances may arise where an urgent operational
or contractual exigency exists for cleared DoD personnel to have one-time or short
duration access to classified information at a higher level than is authorized by the
existing security clearance. In many instances, the processing time required to upgrade
the clearance would preclude timely access to the information. In such situations, and
only for compelling reasons in furtherance of the DoD mission, an authority referred to
in subparagraph C3.4.7.1., below, may grant higher level access on a temporary basis
subject to the terms and conditions prescribed below. This special authority may be
revoked for abuse, inadequate record keeping, or inadequate security oversight. These
procedures do not apply when circumstances exist which would permit the routine
processing of an individual for the higher level clearance. Procedures and conditions
for effecting emergency one-time access to the next higher classification level are as
follows:
C3.4.7.1. Authorization for such one-time access shall be granted by a flag or
general officer, a general court martial convening authority or equivalent Senior
Executive Service member, after coordination with appropriate security officials.
C3.4.7.2. The recipient of the one-time access authorization must be a U.S.
citizen, possess a current DoD security clearance, and the access required shall be
limited to classified information one level higher than the current clearance.
C3.4.7.3. Such access, once granted, shall be canceled promptly when no
longer required, at the conclusion of the authorized period of access, or upon
notification from the granting authority.
C3.4.7.4. The employee to be afforded the higher level access shall have been
continuously employed by a DoD Component or a cleared DoD contractor for the
preceding 24-month period. Higher level access is not authorized for part-tune
employees.
C3.4.7.5. Pertinent local records concerning the employee concerned shall be
reviewed with favorable results.
C3.4.7.6. Whenever possible, access shall be confined to a single instance or
at most, a few occasions. The approval for access shall automatically expire 30
calendar days from date access commenced. If the need for access is expected to
continue for a period in excess of 30 days, written approval of the granting authority is

44

App. 144

CHAPTER 3

DoD 5200.2-R, January 1987

required. At such time as it is determined that the need for access is expected to
extend beyond 90 days, the individual concerned shall be promptly processed for the
level of clearance required. When extended access has been approved, such access
shall be canceled at or before 90 days from original date of access.
C3.4.7.7. Access at the higher level shall be limited to information under the
control and custody of the authorizing official and shall be afforded under the general
supervision of a properly cleared employee. The employee charged with providing such
supervision shall be responsible for:
C3.4.7.7.1. Recording the higher-level information actually revealed,
C3.4.7.7.2. The date(s) such access is afforded, and
C3.4.7.7.3. The daily retrieval of the material accessed.
C3.4.7.8. Access at the next higher level shall not be authorized for
COMSEC, SCI, NATO, or foreign government information.
C3.4.7.9. The exercise of this provision shall be used sparingly and repeat use
within any 12 month period on behalf of the same individual is prohibited. The
approving authority shall maintain a record containing the following data with respect to
each such access approved:
access.

C3.4.7.9.1. The name, and SSN of the employee afforded higher level
C3.4.7.9.2. The level of access authorized.

C3.4.7.9.3. Justification for the access, to include an explanation of the
compelling reason to grant the higher level access and specifically how the DoD
mission would be furthered.
C3.4.7.9.4. An unclassified description of the specific information to
which access was authorized and the duration of access along with the date(s) access
was afforded.
C3.4.7.9.5. A listing of the local records reviewed and a statement that no
significant adverse information concerning the employee is known to exist.
C3.4.7.9.6. The approving authority's signature certifying C3.4.7.9.1.
through C3.4.7.9.5., above.

45

App. 145

CHAPTER 3

DoD 5200.2-R, January 1987

C6. CHAPTER 6
ADJUDICATION
C6.1. ADJUDICATION
C6.1.1. General
C6.1.1.1. The standard that must be met for clearance or assignment to
sensitive duties is that, based on all available information, the person's loyalty,
reliability, and trustworthiness are such that entrusting the person with classified
information or assigning the person to sensitive duties is clearly consistent with the
interests of national security.
C6.1.1.2. The principal objective of the DoD personnel security adjudicative
function, consequently, is to assure selection of persons for sensitive positions who
meet this standard. The adjudication process involves the effort to assess the
probability of future behavior, which could have an effect adverse to the national
security. Since few, if any, situations allow for positive, conclusive evidence of certain
future conduct, it is an attempt to judge whether the circumstances of a particular case,
taking into consideration prior experience with similar cases, reasonably suggest a
degree of probability of prejudicial behavior not consistent with the national security.
It is invariably a subjective determination, considering the past but necessarily
anticipating the future. Rarely is proof of trustworthiness and reliability or
untrustworthiness and unreliability beyond all reasonable doubt.
C6.1.1.3. Establishing relevancy is one of the key objectives of the personnel
security adjudicative process in evaluating investigative material. It involves neither the
judgment of criminal guilt nor the determination of general suitability for a given
position; rather, it is the assessment of a person's trustworthiness and fitness for a
responsibility that could, if abused, have unacceptable consequences for the national
security.
C6.1.1.4. While equity demands optimal uniformity in evaluating individual
cases, assuring fair and consistent assessment of circumstances from one situation to
the next, each case must be weighed on its own merits, taking into consideration all
relevant facts, and prior experience in similar cases. All information of record, both

65

App. 146

CHAPTER 6

DoD 5200.2-R, January 1987

favorable and unfavorable, must be considered and assessed in terms of accuracy,
completeness, relevance, seriousness,and overall significance. In all adjudications the
protection of the national security shall be the paramount determinant.
C6.1.2. Central Adjudication
C6.1.2.1. To ensure uniform application of the requirement of this Regulation
and to ensure that DoD personnel security determinations are effected consistent with
existing statutes and Executive orders, the Head of each Military Department and
Defense Agencies shall establish a single Central Adjudication Facility for his/her
component. The function of such facility shall be limited to evaluating personnel
security investigations and making personnel security determinations. The chief of each
Central Adjudication Facility shall have the authority to act on behalf of the Head of the
Component concerned with respect to personnel security determinations. All
information relevant to determining whether a person meets the appropriate personnel
security standard prescribed by this Regulation shall be reviewed and evaluated by
personnel security specialists specifically designated by the Head of the Component
concerned, or designee.
C6.1.2.2. In view of the significance each adjudicative decision can have on a
person's career and to ensure the maximum degree of fairness and equity in such
actions, a minimum level of review shall be required for all clearance/access
determinations related to the following categories of investigations:
C6.1.2.2.1. BI/SBI/PR/ENAC/SII:
C6.1.2.2.1.1. Favorable: Completely favorable investigations shall
be reviewed and approved by an adjudicative official in the civilian grade of GS-7/9 or
the military rank of O-3.
C6.1.2.2.1.2. Unfavorable: Investigations that are not completely
favorable shall undergo at least two levels of review by adjudicative officials, the second
of which must be at the civilian grade of GS-11/12 or the military rank of O-4. When
an unfavorable administrative action is contemplated under paragraph C8.2.2., the letter
of intent (LOI) to deny or revoke must be approved and signed by an adjudicative
official at the civilian grade of GS-13/14 or the military rank of O-5. A final
notification of unfavorable administrative action, subsequent to the issuance of the LOI,
must be approved and signed at the civilian grade of GS-14/15 or the military rank of
O-6.
C6.1.2.2.2. NACI/DNACI/NAC/ENTNAC:

66

App. 147

CHAPTER 6

DoD 5200.2-R, January 1987

C6.1.2.2.2.1. Favorable: A completely favorable investigation may
be finally adjudicated after one level of review provided that the decision making
authority is at the civilian grade of GS-5/7 or the military rank of O-2.
C6.1.2.2.2.2. Unfavorable: Investigations that are not completely
favorable must be reviewed by an adjudicative official in the civilian grade of GS-7/9 or
the military rank of O-3. When an unfavorable administrative action is contemplated
under paragraph C8.2.2., the letter of intent to deny/ revoke must be signed by an
adjudicative official at the civilian grade of GS-11/12 or the military rank of O-4. A
final notification of unfavorable administrative action subsequent to the issuance of the
LOI must be signed by an adjudicative official at the civilian grade of GS-13 or the
military rank of O-5 or above.
C6.1.2.2.3. Exceptions to the above policy may only be granted by the
Deputy Under Secretary of Defense for Policy.
C6.1.3. Evaluation of Personnel Security Information
C6.1.3.1. The criteria and adjudicative policy to be used in applying the
principles at paragraph C6.1.1., above, are set forth in paragraph C2.2.1. and Appendix 8
of this Regulation. The ultimate consideration in making a favorable personnel security
determination is whether such determination is clearly consistent with the interests of
national security and shall be an overall common sense evaluation based on all available
information. Such a determination shall include consideration of the following factors:
C6.1.3.1.1. The nature and seriousness of the conduct;
C6.1.3.1.2. The circumstances surrounding the conduct;
C6.1.3.1.3. The frequency and recency of the conduct;
C6.1.3.1.4. The age of the individual;
C6.1.3.1.5. The voluntariness of participation; and
C6.1.3.1.6. The absence or presence of rehabilitation.
C6.1.3.2. Detailed adjudication policy guidance to assist adjudicators in
determining whether a person is eligible for access to classified information or
assignment to sensitive duties is contained in Appendix 8. Adjudication policy for
access to SCI is contained in DCID 1/14.

67

App. 148

CHAPTER 6

DoD 5200.2-R, January 1987

C6.1.4. Adjudicative Record
C6.1.4.1. Each adjudicative determination, whether favorable or unfavorable,
shall be entered into the Defense Clearance and Investigations Index (DCII) on a daily
basis but in no case to exceed 5-working days from the date of determination.
C6.1.4..2. The rationale underlying each unfavorable personnel security
determination to include the appeal process, and each favorable personnel security
determination where the investigation or information upon which the determination was
made included significant derogatory information of the type set forth in paragraph
C2.2.1. and Appendix 8 of this Regulation shall be maintained in written or automated
form and is subject to the provisions of DoD Directives 5400.7 (reference (aa)) and
5400.11 (reference (bb)). This information shall be maintained for aminimum of 5
years from the date of determination.

68

App. 149

CHAPTER 6

DoD 5200.2-R, January 1987

C8. CHAPTER 8
UNFAVORABLE ADMINISTRATIVE ACTIONS
C8.1. REQUIREMENTS
C8.1.1. General. For purposes of this Regulation, an unfavorable administrative
action includes any adverse action which is taken as a result of a personnel security
determination, as defined at paragraph DL1.1.2., and any unfavorable personnel security
determination, as defined at paragraph DL1.1.29. This chapter is intended only to
provide guidance for the internal operation of the Department of Defense and is not
intended to, does not, and may not be relied upon, to create or enlarge the jurisdiction
or review authority of any court or administrative tribunal, including the Merit Systems
Protection Board.
C8.1.2. Referral for Action
C8.1.2.1. Whenever derogatory information related to the criteria and policy
set forth in paragraph C2.2.1. and Appendix 8 of this Regulation is developed or
otherwise becomes available to any DoD element, it shall be referred by the most
expeditious means to the commander or the security officer of the organization to
which the individual is assigned for duty. The commander or security officer of the
organization to which the subject of the information is assigned shall review the
information in terms of its security significance and completeness. If further
information is needed to confirm or disprove the allegations, additional investigation
should be requested. The commander of the duty organization shall insure that the
appropriate Central Adjudicative Facility (CAF) of the individual concerned is informed
promptly concerning (1) the derogatory information developed and (2) any actions taken
or anticipated with respect thereto. However, referral of derogatory information to the
commander or security officer shall in no way affect or limit the responsibility of the
CAF to continue to process the individual for denial or revocation of clearance or
access to classified information, in accordance with paragraph C8.2.2., below, if such
action is warranted and supportable by the criteria and policy contained in paragraph
C2.2.1. and Appendix 8. No unfavorable administrative action as defined in paragraphs
DL1.1.28. and DL1.1.29. may be taken by the organization to which the individual is
assigned for duty without affording the person the full range of protections contained in
paragraph C8.2.2., below, or, in the case of SCI, Annex B, DCID 1/14 (reference (l)).
C8.1.2.2. The Director DIS shall establish appropriate alternative means
whereby information with potentially serious security significance can be reported other
72

App. 150

CHAPTER 8

DoD 5200.2-R, January 1987

than through DoD command or industrial organization channels. Such access shall
include utilization of the DoD Inspector General "hotline" to receive such reports for
appropriate follow-up by DIS. DoD Components and industry will assist DIS in
publicizing the availability of appropriate reporting channels. Additionally, DoD
Components will augment the system when and where necessary. Heads of DoD
Components will be notified immediately to take action if appropriate.
C8.1.3. Suspension.
C8.1.3.1. The commander or head of the organization shall determine whether,
on the basis of all facts available upon receipt of the initial derogatory information, it is
in the interests of national security to continue subjects security status unchanged or to
take interim action to suspend subjects access to classified information or assignment
to sensitive duties (or other duties requiring a trustworthiness determination), if
information exists which raises serious questions as to the individual's ability or intent
to protect classified information or execute sensitive duties (or other duties requiring a
trustworthiness determination) until a final determination is made by the appropriate
authority designated in Appendix 5.
C8.1.3.2. Whenever a determination is made to suspend a security clearance
for access to classified information or assignment to sensitive duties (or other duties
requiring a trustworthiness determination), the individual concerned must be notified of
the determination in writing by the commander, or component CAF, to include a brief
statement of the reason(s) for the suspension action consistent with the interests of
national security.
C8.1.3.3. Component field elements must promptly report all suspension
actions to the appropriate CAF, but not later than 10 working days from the date of the
suspension action. The adjudicative authority will immediately update the DCII
Eligibility and Access fields to alert all users to the individual's changed status.
C8.1.3.4. Every effort shall be made to resolve suspension cases as
expeditiously as circumstances permit suspension cases exceeding 180 days shall be
closely monitored and managed by the DoD Component concerned until finally
resolved. Suspension cases pending in excess of 12 months will be reported to the
DASD (I&S) for review and appropriate action.
C8.1.3.5. A final security clearance eligibility determination shall be made for
all suspension actions and the determination entered in the DCII. If, however, the
individual under suspension leaves the jurisdiction of the Department of Defense and no
longer requires a clearance (or trustworthiness determination), entry of the "Z" Code

73

App. 151

CHAPTER 8

DoD 5200.2-R, January 1987

(adjudication action incomplete due to loss of jurisdiction) in the clearance eligibility
field is appropriate. In no case shall a "suspension" code (Code Y) remain a permanent
record in the DCII
C8.1.3.6. A clearance or access entry in the DCII shall not be suspended or
downgaded based solely on the fact that a periodic reinvestigation was not conducted
precisely within the 5-year time period for TOP SECRET/SCI or within the period
prevailing for SECRET clearances under departmental policy. While every effort
should be made to ensure that PRs are conducted within the prescribed timeframe,
agencies must be flexible in their administration of this aspect of the personnel security
program so as not to undermine the ability of the Department of Defense to accomplish
its mission.
C8.1.4. Final Unfavorable Administrative Actions. The authority to make
personnel security determinations that will result in an unfavorable administrative action
is limited to those authorities designated in Appendix 5, except that the authority to
terminate the employment of a civilian employee of a Military Department or Defense
Agency is vested solely in the head of the DoD Component concerned and in such other
statutory official as may be designated. Action to terminate civilian employees of the
Office of the Secretary of Defense and DoD Components, on the basis of criteria listed
in paragraph C2.2.1., C2.2.1.1. through C2.2.1.6., shall be coordinated with the of the
Assistant Secretary of Defense for Command, Control, Communications and
Intelligence OASD(C3I) prior to final action by the Head of the DoD Component. DoD
civilian employees or members of the Armed Forces shall not be removed from
employment or separated from the Service under provisions of this regulation if
removal or separation can be effected under OPM regulations or administrative
(nonsecurity) regulations of the Military Departments. However, actions contemplated
in this regard shall not affect or limit the responsibility of the CAF to continue to
process the individual for clearance, access to classified information, or assignment to
a sensitive position if warranted and supportable by the criteria and standards contained
in this Regulation.

74

App. 152

CHAPTER 8

DoD 5200.2-R, January 1987

C8.2. PROCEDURES
C8.2.1. General. No final unfavorable personnel security clearance or access
determination shall be made on a Armed Forces, an employee of the Department of
Defense, a consultant to the Department of Defense, or any other person affiliated with
the Department of Defense without granting the individual concerned the procedural
benefits set forth in C8.2.2., below, when such determination results in an unfavorable
administrative action (see paragraph C8.1.1.). As an exception, DoD contractor
personnel shall be afforded the procedures contained in DoD Directive 5220.6
(reference (c)) and Red Cross/United Service Organizations employees shall be
afforded the procedures prescribed by DoD Directive 5210.25 (reference (w)).
Procedures for to SAPs may differ from the procedures in this Regulation as authorized
in E.O. 12968 and as approved by the Secretary of Defense or Deputy Secretary of
Defense.
C8.2.2. Unfavorable Administrative Action Procedures. Except as provided for
below, no unfavorable administrative action shall be taken under the authority of this
Regulation unless the individual concerned has been:
C8.2.2.1. Provided a written statement of the reasons (SOR) as to why the
unfavorable administrative action is being taken in accordance with the example at
Appendix 11, which includes sample letters and enclosures. The SOR shall be as
comprehensive and detailed as the protection of sources afforded confidentiality under
provisions of the Privacy Act of 1974 (reference (m)) and national security permit.
The statement will contain, 1) a summary of the security concerns and supporting
adverse information, 2) instructions for responding to the SOR and 3) copies of the
relevant security guidelines from Appendix 8. In addition, the CAF will provide within
30 calendar days, upon request of the individual, copies of releasable records of the
personnel security investigation (the CAF must retain copies of the file for at least 90
days to ensure the ready availability of the material for the subject). If the CAF is
unable to provide requested documents for reasons beyond their control, then the name
and address of the Agency (Agencies) to which the individual may write to obtain a copy
of the records will be provided.
C8.2.2.1.1. The head of the local organization of the individual receiving
an SOR shall designate a point of contact (POC) to serve as a liaison between the CAF
and the individual. The duties of the POC will include, but not necessarily be limited
to, delivering the SOR, having the individual acknowledge receipt of the SOR;
determining whether the individual intends to respond within the time specified;
ensuring that the individual understands the consequences of the proposed action as well
as the to respond in a timely fashion; explaining how to obtain time extensions, procure
75

App. 153

CHAPTER 8

DoD 5200.2-R, January 1987

copies of investigative records, and the procedures for responding to the SOR; and
ensuring that the individual understands that he or she can obtain legal counsel or other
assistance at his or her own expense.
C8.2.2.2. Afforded an opportunity to reply in writing to the CAF within 30
calendar days from the date to submit a timely response will result in forfeiture of all
future appeal rights with regard to the unfavorable administrative action. Exceptions to
this policy may only be circumstances where the individual's failure to respond to the
SOR was due to factors beyond his or her control. The CAF must be notified of the
individual's intent to respond, via the POC, within 10-calendar days of receipt of the
SOR. An extension of up to 30-calendar days may be granted by the employing
organization following submission of a written request from the individual. Additional
extensions may only be granted by the CAF. Responses to the CAF must be forwarded
through the head of the employing organization.
C8.2.2.3. Provided a written response by the CAF to any submission under
subparagraph C8.2.2.2., above. stating the final reason(s) for the unfavorable
administrative action, which shall be as specific as privacy and national security
considerations permit and in accordance with the example of a letter of denial (IOD)
and its enclosures at Appendix 11. Such response shall be as prompt as individual
circumstances permit, not to exceed 60-calendar days from the date of receipt of the
response submitted under subparagraph C8.2.2.2., above, provided no additional
investigative action is necessary. If a final response cannot be completed within the
time frame allowed, the individual must be notified in writing of this fact, the reasons
therefor, and the date a final response is expected, which shall not normally exceed a
total of 90 days from the date of receipt of the response under subparagraph C8.2.2.2.
C8.2.2.4. Afforded an opportunity to appeal an LOD, issued pursuant to
paragraph C8.2.2.3., above to the DoD Component Personnel Security Appeals Board
(PSAB). The PSAB shall consist of a minimum of three members and function in
accordance with Appendix 12. If a decision is made to appeal the LOD, the individual
may do so by one of the following methods:
C8.2.2.4.1. Appeal Without a Personal Appearance: Advise the PSAB
within 10-calendar days of receipt of the LOD, of the intent to appeal. Within
40-calendar days of receipt of the LOD, write to the appropriate PSAB stating reasons
why the LOD should be overturned and providing any additional, relevant information
that may have a bearing on the final decision by the PSAB;
C8.2.2.4.2. Appeal With a Personal Appearance: Advise the Defense
Office of Hearings and Appeals (DOHA) within 10-calendar days of receipt of the LOD
76

App. 154

CHAPTER 8

DoD 5200.2-R, January 1987

that a personal appearance before a DOHA Administrative Judge (AJ) is desired in order
to provide additional, relevant information, which may have a bearing on the final
decision by the PSAB. DOHA will promptly schedule a personal appearance and will
provide a recommendation to the PSAB generally within 60 days of receipt of the
requesting the personal appearance. Procedures governing the conduct of the personal
appearance before a DOHA AJ are contained at Appendix 13.
C8.2.2.5. Provided a final written decision by the PSAB, including a rationale,
to any submission under subparagraph C8.2.2.4., above, stating the final disposition of
the appeal. This will nominally be accomplished within 60-calendar days of receipt of
the written appeal from the individual if no personal appearance was requested, or within
30-calendar days from receipt of the AJ's recommendation if a personal appearance was
requested.
C8.2.3. Due Process Review. The due process and appeal procedures will be
reviewed one year after implementation. The above procedures will become effective
no later than 120 days after the date of this change.
C8.2.4. Exceptions to Policy. Notwithstanding paragraph C8.2.2., above or any
other provision of this Regulation, nothing in this Regulation shall be deemed to limit
or affect the responsibility and powers of the Secretary of Defense to find that a person
is unsuitable for entrance or retention in the Armed Forces, or is ineligible for a
security clearance or assignment to sensitive duties, if the national security so requires,
pursuant to Section 7532, Title 5, United States Code (reference (pp)). Such authority
may not be delegated and may be exercised only when it is determined that the
procedures prescribed in paragraph C8.2.2., above, are not appropriate. Such
determination shall be conclusive.
C8.3. REINSTATEMENT OF CIVILIAN EMPLOYEES
C8.3.1. General. Any person whose civilian employment in the Department of
Defense is terminated under the provisions of this Regulation shall not be reinstated or
restored to duty or reemployed in the Departmentof Defense unless the Secretary of
Defense, or the Head of a DoD Component, finds that such reinstatement, restoration,
or reemployment is clearly consistent with the interests of national security. Such a
finding shall be made part of the personnel security record.
C8.3.2. Reinstatement Benefits. A DoD civilian employee whose employment has
been suspended or terminated under the provisions of this Regulation and who is
reinstated or restored to duty under the provisions of Section 3571 of Title 5, U.S.

77

App. 155

CHAPTER 8

DoD 5200.2-R, January 1987

Code (reference (dd)) is entitled to benefits as provided for by Section 3 of Public Law
89-380 (reference (ee)).

78

App. 156

CHAPTER 8

DoD 5200.2-R, January 1987

AP5. APPENDIX 5
DoD SECURITY CLEARANCE AND/OR SCI ACCESS DETERMINATION AUTHORITIES
AP5.1. OFFICIALS AUTHORIZED TO GRANT, DENY, OR REVOKE PERSONNEL
SECURITY CLEARANCES (TOP SECRET, SECRET, AND CONFIDENTIAL)
AP5.1.1. Secretary of Defense and/or single designee.
AP5.1.2. Secretary of the Army and/or single designee. 1
AP5.1.3. Secretary of the Navy and/or single designee. 1
AP5.1.4. Secretary of the Air Force and/or single designee. 1
AP5.1.5. Chairman of the Joint Chiefs of Staff and/or single designee.
AP5.1.6. Director, Washington Headquarters Services, and/or single designee.
AP5.1.7. Director, National Security Agency, and/or single designee. 1, 2
AP5.1.8. Director, Defense Intelligence Agency, and/or single designee. 1
AP5.1.9. Deputy General Counsel, Legal Counsel, OGC, and/or single designee
(for contractors under the Defense Industrial Security Program (DISP))
AP5.1.10. Director, Defense Investigative Service, and/or single designee, (may
grant security clearances only for contractor personnel under the DISP)

1 Authority to grant, deny or revoke access to SCI is a function of the Senior Officials of the Intelligence Community
(SOIC), or their designated representative, as identified in E.O. 12333 (reference (h)) and Director of Central Intelligence
Directive (DCID) 1/14 (reference (l)). The authority for making SCI access determinations may also be the same official
making security clearance determinations.
2 Reference to the Director, NSA or single designee is not intended to infringe upon the authorities or responsibilities
contained in DoD Directive 5210.45, "Personnel Security in the National Security Agency," reference (i).

125

App. 157

APPENDIX 5

DoD 5200.2-R, January 1987

AP5.2. OFFICIALS AUTHORIZED TO GRANT, DENY, OR REVOKE LAA
Officials listed in subsection AP5.1.1. through AP5.1.10., above, and the Commanders
of the Combatant Commands, or their single designee, (must be at general officer, flag
rank or civilian equivalent).
AP5.3. OFFICIALS AUTHORIZED TO CERTIFY PERSONNEL UNDER THEIR
JURISDICTION FOR ACCESS TO CRITICAL NUCLEAR WEAPON DESIGN
INFORMATION
See enclosure to DoD Directive 5210.2 (reference (z)).
AP5.4. OFFICIAL AUTHORIZED TO APPROVE PERSONNEL FOR ASSIGNMENT TO
PRESIDENTIAL SUPPORT ACTIVITIES
The Executive Secretary to the Secretary of Defense and the Deputy Secretary of
Defense, or designee.
AP5.5. OFFICIALS AUTHORIZED TO GRANT ACCESS TO SIOP-ESI
AP5.5.1. Director of Strategic Target Planning
AP5.5.2. Director, Joint Staff.
AP5.5.3. Chief of Staff, U.S. Army.
AP5.5.4. Chief of Naval Operations.
AP5.5.5. Chief of Staff, U.S. Air Force.
AP5.5.6. Commandant of the Marine Corps.
AP5.5.7. Commanders of the Combatant Commands.
AP5.5.8. The authority may be further delegated in writing by the officials in
subsections AP5.5.1. through AP5.5.7. to the applicable subordinates.

126

App. 158

APPENDIX 5

DoD 5200.2-R, January 1987

AP5.6. FINAL DETERMINATIONS
Three member PSAB shall be formed under the auspices of the following officials to
render final determinations when an unfavorable personnel security determination is
appealed under paragraph C8.2.2.4. of this Regulation.
AP5.6.1. Secretary of the Army.
AP5.6.2. Secretary of the Air Force.
AP5.6.3. Secretary of the Navy.
AP5.6.4. Chairman of the Joint Chiefs of Staff.
AP5.6.5. Director, NSA.
AP5.6.6. Director, DIA.
AP5.6.7. Director, WHS.
AP5.6.8. General Counsel, Department of Defense (contractors only).
AP5.7. OFFICIALS AUTHORIZED TO SUSPEND ACCESS TO CLASSIFIED
INFORMATION
AP5.7.1. Security Clearances
AP5.7.1.1. Contractor Personnel. The Director, Counterintelligence and
Security Programs; ODASD(I&S); OASD(C3I); and the Deputy General Counsel (Legal
Counsel), Office of General Counsel, OSD.
AP5.7.1.2. Military and/or Civilian Personnel. Commander and/or Agency
head, Head of the Component, or adjudicative authority.
AP5.7.2. SCI. Cognizant SOICs, or their designees.

127

App. 159

APPENDIX 5

DoD 5200.2-R, January 1987

AP5.8. OFFICIALS AUTHORIZED TO ISSUE INTERIM CLEARANCES
AP5.8.1. Interim TOP SECRET clearances may be issued by the officials listed in
section AP5.1., above. That may be further delegated on determination by the Head of
the Agency.
AP5.8.2. Interim SECRET and/or CONFIDENTIAL clearances may be issued by the
officials listed in section AP5.1., above, as well as by organizational commanders.
AP5.9. OFFICIALS AUTHORIZED TO DESIGNATE NONAPPROPRIATED FUND
POSITIONS OF TRUST
The Heads of the DoD Components, or their designees.

128

App. 160

APPENDIX 5

App. 161

App. 162

Executive Order 10450--Security requirements for Government employment
Source: The provisions of Executive Order 10450 of Apr. 27, 1953, appear at 18 FR 2489, 3
CFR, 1949-1953 Comp., p. 936, unless otherwise noted.
WHEREAS the interests of the national security require that all persons privileged to be
employed in the departments and agencies of the Government, shall be reliable, trustworthy, of
good conduct and character, and of complete and unswerving loyalty to the United States; and
WHEREAS the American tradition that all persons should receive fair, impartial, and equitable
treatment at the hands of the Government requires that all persons seeking the privilege of
employment or privileged to be employed in the departments and agencies of the Government be
adjudged by mutually consistent and no less than minimum standards and procedures among the
departments and agencies governing the employment and retention in employment of persons in
the Federal service:
NOW, THEREFORE, by virtue of the authority vested in me by the Constitution and statutes of
the United States, including section 1753 of the Revised Statutes of the United States (5 U.S.C.
631); the Civil Service Act of 1883 (22 Stat. 403; 5 U.S.C. 632, et seq.); section 9A of the act of
August 2, 1939, 53 Stat. 1148 (5 U.S.C. 118j); and the act of August 26, 1950, 64 Stat. 476 (5
U.S.C. 22-1, et seq.), and as President of the United States, and deeming such action necessary in
the best interests of the national security, it is hereby ordered as follows:
Section 1. In addition to the departments and agencies specified in the said act of August 26,
1950, and Executive Order No. 10237 of April 26, 1951, the provisions of that act shall apply to
all other departments and agencies of the Government.1
Sec. 2. The head of each department and agency of the Government shall be responsible for
establishing and maintaining within his department or agency an effective program to insure that
the employment and retention in employment of any civilian officer or employee within the
department or agency is clearly consistent with the interests of the national security.
Sec. 3. (a) The appointment of each civilian officer or employee in any department or agency of
the Government shall be made subject to investigation. The scope of the investigation shall be
determined in the first instance according to the degree of adverse effect the occupant of the
position sought to be filled could bring about, by virtue of the nature of the position, on the
national security, but in no event shall the investigation include less than a national agency check
(including a check of the fingerprint files of the Federal Bureau of Investigation), and written
inquiries to appropriate local law-enforcement agencies, former employers and supervisors,
references, and schools attended by the person under investigation: Provided, that upon request
of the head of the department or agency concerned, the Office of Personnel Management may, in
its discretion, authorize such less investigation as may meet the requirements of the national
security with respect to per-diem, intermittent, temporary, or seasonal employees, or aliens
employed outside the United States. Should there develop at any stage of investigation
information indicating that the employment of any such person may not be clearly consistent
with the interests of the national security, there shall be conducted with respect to such person a

App. 163

full field investigation, or such less investigation as shall be sufficient to enable the head of the
department or agency concerned to determine whether retention of such person is clearly
consistent with the interests of the national security.
(b) The head of any department or agency shall designate, or cause to be designated, any position
within his department or agency the occupant of which could bring about, by virtue of the nature
of the position, a material adverse effect on the national security as a sensitive position. Any
position so designated shall be filled or occupied only by a person with respect to whom a full
field investigation has been conducted: Provided, that a person occupying a sensitive position at
the time it is designated as such may continue to occupy such position pending the completion of
a full field investigation, subject to the other provisions of this order: And provided further, that
in case of emergency a sensitive position may be filled for a limited period by a person with
respect to whom a full field pre-appointment investigation has not been completed if the head of
the department or agency concerned finds that such action is necessary in the national interest,
which finding shall be made a part of the records of such department or agency.
[Sec. 3 amended by EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978 Comp., p. 264]
Sec. 4. The head of each department and agency shall review, or cause to be reviewed, the cases
of all civilian officers and employees with respect to whom there has been conducted a full field
investigation under Executive Order No. 9835 of March 21, 1947, and, after such further
investigation as may be appropriate, shall re-adjudicate, or cause to be re-adjudicated, in
accordance with the said act of August 26, 1950, such of those cases as have not been
adjudicated under a security standard commensurate with that established under this order.
Sec. 5. Whenever there is developed or received by any department or agency information
indicating that the retention in employment of any officer or employee of the Government may
not be clearly consistent with the interests of the national security, such information shall be
forwarded to the head of the employing department or agency or his representative, who, after
such investigation as may be appropriate, shall review, or cause to be reviewed, and, where
necessary, re-adjudicate, or cause to be re-adjudicated, in accordance with the said act of August
26, 1950, the case of such officer or employee.
Sec. 6. Should there develop at any stage of investigation information indicating that the
employment of any officer or employee of the Government may not be clearly consistent with
the interests of the national security, the head of the department or agency concerned or his
representative shall immediately suspend the employment of the person involved if he deems
such suspension necessary in the interests of the national security and, following such
investigation and review as he deems necessary, the head of the department or agency concerned
shall terminate the employment of such suspended officer or employee whenever he shall
determine such termination necessary or advisable in the interests of the national security, in
accordance with the said act of August 26, 1950.
Sec. 7. Any person whose employment is suspended or terminated under the authority granted to
heads of departments and agencies by or in accordance with the said act of August 26, 1950, or
pursuant to the said Executive Order No. 9835 or any other security or loyalty program relating
to officers or employees of the Government, shall not be reinstated or restored to duty or

App. 164

reemployed in the same department or agency and shall not be reemployed in any other
department or agency, unless the head of the department or agency concerned finds that such
reinstatement, restoration, or reemployment is clearly consistent with the interests of the national
security, which finding shall be made a part of the records of such department or agency:
Provided, that no person whose employment has been terminated under such authority thereafter
may be employed by any other department or agency except after a determination by the Office
of Personnel Management that such person is eligible for such employment.
[Sec. 7 amended by EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978 Comp., p. 264]
Sec. 8. (a) The investigations conducted pursuant to this order shall be designed to develop
information as to whether the employment or retention in employment in the Federal service of
the person being investigated is clearly consistent with the interests of the national security. Such
information shall relate, but shall not be limited, to the following:
(1) Depending on the relation of the Government employment to the national security:
(i) Any behavior, activities, or associations which tend to show that the individual is not
reliable or trustworthy.
(ii) Any deliberate misrepresentations, falsifications, or omissions of material facts.
(iii) Any criminal, infamous, dishonest, immoral, or notoriously disgraceful conduct,
habitual use of intoxicants to excess, drug addiction, sexual perversion.
(iv) Any illness, including any mental condition, of a nature which in the opinion of
competent medical authority may cause significant defect in the judgment or reliability of
the employee, with due regard to the transient or continuing effect of the illness and the
medical findings in such case.
(v) Any facts which furnish reason to believe that the individual may be subjected to
coercion, influence, or pressure which may cause him to act contrary to the best interests
of the national security.
(2) Commission of any act of sabotage, espionage, treason, or sedition, or attempts
thereat or preparation therefore, or conspiring with, or aiding or abetting, another to
commit or attempt to commit any act of sabotage, espionage, treason, or sedition.
(3) Establishing or continuing a sympathetic association with a saboteur, spy, traitor,
seditionist, anarchist, or revolutionist, or with an espionage or other secret agent or
representative of a foreign nation, or any representative of a foreign nation whose
interests may be inimical to the interests of the United States, or with any person who
advocates the use of force or violence to overthrow the government of the United States
or the alteration of the form of government of the United States by unconstitutional
means.
(4) Advocacy of use of force or violence to overthrow the government of the United
States, or of the alteration of the form of government of the United States by
unconstitutional means.
(5) Knowing membership with the specific intent of furthering the aims of, or adherence
to and active participation in, any foreign or domestic organization, association,
movement, group, or combination of persons (hereinafter referred to as organizations)
which unlawfully advocates or practices the commission of acts of force or violence to
prevent others from exercising their rights under the Constitution or laws of the United

App. 165

States or of any State, or which seeks to overthrow the Government of the United States
or any State or subdivision thereof by unlawful means.
(6) Intentional, unauthorized disclosure to any person of security information, or of other
information disclosure of which is prohibited by law, or willful violation or disregard of
security regulations.
(7) Performing or attempting to perform his duties, or otherwise acting, so as to serve the
interests of another government in preference to the interests of the United States.
(8) Refusal by the individual, upon the ground of constitutional privilege against selfincrimination, to testify before a congressional committee regarding charges of his
alleged disloyalty or other misconduct.
(b) The investigation of persons entering or employed in the competitive service shall primarily
be the responsibility of the Office of Personnel Management, except in cases in which the head
of a department or agency assumes that responsibility pursuant to law or by agreement with the
Office. The Office shall furnish a full investigative report to the department or agency concerned.
(c) The investigation of persons (including consultants, however employed), entering
employment of, or employed by, the Government other than in the competitive service shall
primarily be the responsibility of the employing department or agency. Departments and
agencies without investigative facilities may use the investigative facilities of the Office of
Personnel Management, and other departments and agencies may use such facilities under
agreement with the Office.
(d) There shall be referred promptly to the Federal Bureau of Investigation all investigations
being conducted by any other agencies which develop information indicating that an individual
may have been subjected to coercion, influence, or pressure to act contrary to the interests of the
national security, or information relating to any of the matters described in subdivisions (2)
through (8) of subsection (a) of this section. In cases so referred to it, the Federal Bureau of
Investigation shall make a full field investigation.
[Sec. 8 amended by EO 10491 of Oct. 13, 1953, 18 FR 6583, 3 CFR, 1949-1953 Comp., p. 973;
EO 10531 of May 27, 1954, 19 FR 3069, 3 CFR, 1954-1958 Comp., p. 193; EO 10548 of Aug.
2, 1954, 19 FR 4871, 3 CFR, 1954-1958 Comp., p. 200; EO 11785 of June 4, 1974, 39 FR
20053, 3 CFR, 1971-1975 Comp., p. 874; EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978
Comp., p. 264]
Sec. 9. (a) There shall be established and maintained in the Office of Personnel Management a
security-investigations index covering all persons as to whom security investigations have been
conducted by any department or agency of the Government under this order. The central index
established and maintained by the Office under Executive Order No. 9835 of March 21, 1947,
shall be made a part of the security-investigations index. The security-investigations index shall
contain the name of each person investigated, adequate identifying information concerning each
such person, and a reference to each department and agency which has conducted an
investigation concerning the person involved or has suspended or terminated the employment of
such person under the authority granted to heads of departments and agencies by or in
accordance with the said act of August 26, 1950.
(b) The heads of all departments and agencies shall furnish promptly to the Office of Personnel
Management information appropriate for the establishment and maintenance of the securityinvestigations index.

App. 166

(c) The reports and other investigative material and information developed by investigations
conducted pursuant to any statute, order, or program described in section 7 of this order shall
remain the property of the investigative agencies conducting the investigations, but may, subject
to considerations of the national security, be retained by the department or agency concerned.
Such reports and other investigative material and information shall be maintained in confidence,
and no access shall be given thereto except, with the consent of the investigative agency
concerned, to other departments and agencies conducting security programs under the authority
granted by or in accordance with the said act of August 26, 1950, as may be required for the
efficient conduct of Government business.
[Sec. 9 amended by EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978 Comp., p. 264]
Sec. 10. Nothing in this order shall be construed as eliminating or modifying in any way the
requirement for any investigation or any determination as to security which may be required by
law.
Sec. 11. On and after the effective date of this order the Loyalty Review Board established by
Executive Order No. 9835 of March 21, 1947, shall not accept agency findings for review, upon
appeal or otherwise. Appeals pending before the Loyalty Review Board on such date shall be
heard to final determination in accordance with the provisions of the said Executive Order No.
9835, as amended. Agency determinations favorable to the officer or employee concerned
pending before the Loyalty Review Board on such date shall be acted upon by such Board, and
whenever the Board is not in agreement with such favorable determination the case shall be
remanded to the department or agency concerned for determination in accordance with the
standards and procedures established pursuant to this order. Cases pending before the regional
loyalty boards of the Office of Personnel Management on which hearings have not been initiated
on such date shall be referred to the department or agency concerned. Cases being heard by
regional loyalty boards on such date shall be heard to conclusion and the determination of the
board shall be forwarded to the head of the department or agency concerned: Provided, that if no
specific department or agency is involved, the case shall be dismissed without prejudice to the
applicant. Investigations pending in the Federal Bureau of Investigation or the Office of
Personnel Management on such date shall be completed, and the reports thereon shall be made to
the appropriate department or agency.
[Sec. 11 amended by EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978 Comp., p. 264]
Sec. 12. Executive Order No. 9835 of March 21, 1947, as amended, is hereby revoked.
[Sec. 12 amended by EO 11785 of June 4, 1974, 39 FR 20053, 3 CFR, 1971-1975 Comp., p.
874]
Sec. 13. The Attorney General is requested to render to the heads of departments and agencies
such advice as may be requisite to enable them to establish and maintain an appropriate
employee-security program.

App. 167

Sec. 14. (a) The Office of Personnel Management, with the continuing advice and collaboration
of representatives of such departments and agencies as the National Security Council may
designate, shall make a continuing study of the manner in which this order is being implemented
by the departments and agencies of the Government for the purpose of determining:
(1) Deficiencies in the department and agency security programs established under this
order which are inconsistent with the interests of, or directly or indirectly weaken, the
national security.
(2) Tendencies in such programs to deny to individual employees fair, impartial, and
equitable treatment at the hands of the Government, or rights under the Constitution and
laws of the United States or this order.
Information affecting any department or agency developed or received during the course of such
continuing study shall be furnished immediately to the head of the department or agency
concerned. The Office of Personnel Management shall report to the National Security Council, at
least semiannually, on the results of such study, shall recommend means to correct any such
deficiencies or tendencies, and shall inform the National Security Council immediately of any
deficiency which is deemed to be of major importance.
(b) All departments and agencies of the Government are directed to cooperate with the Office of
Personnel Management to facilitate the accomplishment of the responsibilities assigned to it by
subsection (a) of this section.
(c) To assist the Office of Personnel Management in discharging its responsibilities under this
order, the head of each department and agency shall, as soon as possible and in no event later
than ninety days after receipt of the final investigative report on a civilian officer or employee
subject to a full field investigation under the provisions of this order, advise the Office as to the
action taken with respect to such officer or employee. The information furnished by the heads of
departments and agencies pursuant to this section shall be included in the reports which the
Office of Personnel Management is required to submit to the National Security Council in
accordance with subsection (a) of this section. Such reports shall set forth any deficiencies on the
part of the heads of departments and agencies in taking timely action under this order, and shall
mention specifically any instances of noncompliance with this subsection.
[Sec. 14 amended by EO 10550 of Aug. 5, 1954, 19 FR 4981, 3 CFR, 1954-1958 Comp., p. 200;
EO 12107 of Dec. 28, 1978, 44 FR 1055, 3 CFR, 1978 Comp., p. 264]
Sec. 15. This order shall become effective thirty days after the date hereof.

1

Editorial note: In Cole v. Young, 76 S.Ct. 861 (1955), section 1 of Executive Order 10450 was
held to be invalid if applied to every department and agency.

App. 168

App. 169

f
e
d
ea
le
g
i
s
t

Monda
Augus
t7 1 5

PatI

T e Pes
iden
t
ecu
t
ive de 12 68 Access
to
C
lass
i
f
iedIn
fo ma
t
ion
Pes
iden
t
ia
l De
te m
ina
t
ion o
. 5 32 o
f
u
l 28 1 5
Pes
iden
t
ia
l De
te m
ina
t
ion o
. 5 33 o
f
u
l 31 1 5

App
.170

40243

40245
Fede
ra
l Reg
i
s
te
r
Vo
l
. 60
, No
. 151

P
res
iden
t
ia
l Documen
ts

Monday
, Augu
s
t7
, 1995

T
i
t
le 3

Execu
t
ive O
rde
r12968o
f Augu
s
t2
,1995

The P
re
s
iden
t

Acce
s
sto C
la
s
s
i
f
iedIn
fo
rma
t
ion
The na
t
iona
lin
te
re
s
trequ
i
re
stha
t ce
r
ta
inin
fo
rma
t
ion be ma
in
ta
inedin
con
f
idenceth
roughasy
s
temo
fc
la
s
s
i
f
ica
t
ionino
rde
rtop
ro
tec
tou
rc
i
t
izen
s
,
ou
r democ
ra
t
icin
s
t
i
tu
t
ion
s
, and ou
r pa
r
t
ic
ipa
t
ion w
i
th
inthe commun
i
ty
o
f na
t
ion
s
. The unau
tho
r
ized d
i
sc
lo
su
re o
fin
fo
rma
t
ion c
la
s
s
i
f
iedinthe
na
t
iona
lin
te
re
s
tcancau
sei
r
repa
rab
le damagetothe na
t
iona
lsecu
r
i
tyand
lo
s
so
fhumanl
i
fe
.
Secu
r
i
ty po
l
ic
ie
s de
s
ignedto p
ro
tec
tc
la
s
s
i
f
iedin
fo
rma
t
ion mu
s
t en
su
re
con
s
i
s
ten
t
,co
s
te
f
fec
t
ive
,ande
f
f
ic
ien
tp
ro
tec
t
iono
fou
r Na
t
ionsc
la
s
s
i
f
ied
in
fo
rma
t
ion
, wh
i
lep
rov
id
ingfa
i
randequ
i
tab
let
rea
tmen
ttotho
se Ame
r
ican
s
upon whom were
lytogua
rdou
rna
t
iona
lsecu
r
i
ty
.
Th
i
so
rde
re
s
tab
l
i
she
s a un
i
fo
rm Fede
ra
l pe
r
sonne
l secu
r
i
ty p
rog
ramfo
r
emp
loyee
s who w
i
l
lbecon
s
ide
redfo
rin
i
t
ia
lo
rcon
t
inuedacce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
ion
.
NOW
, THEREFORE
, bythe au
tho
r
i
ty ve
s
tedin me a
sP
re
s
iden
t bythe
Con
s
t
i
tu
t
ion andthelaw
so
fthe Un
i
ted S
ta
te
so
f Ame
r
ica
,i
ti
s he
reby
o
rde
reda
sfo
l
low
s
:
PART 1 DEF
IN
IT
IONS
, ACCESS TO CLASS
IF
IED INFORMAT
ION
,F
I
NANC
IAL D
ISCLOSURE
, AND OTHERITEMS
Sec
t
ion1
.1
.De
f
in
i
t
ion
s
. Fo
rthepu
rpo
se
so
fth
i
so
rde
r
:(a
) Agency mean
s
any Execu
t
iveagency
, a
s de
f
inedin 5 U
.S
.C
. 105
,the m
i
l
i
ta
ry depa
r
t
men
t
s
,a
sde
f
inedin5 U
.S
.C
.102
,andanyo
the
ren
t
i
ty w
i
th
intheexecu
t
ive
b
ranchtha
tcome
sin
tothe po
s
se
s
s
ion o
fc
la
s
s
i
f
iedin
fo
rma
t
ion
,inc
lud
ing
the De
fen
seIn
te
l
l
igence Agency
, Na
t
iona
lSecu
r
i
ty Agency
,andthe Na
t
iona
l
Reconna
i
s
sance O
f
f
ice
.
(b
) App
l
ican
t mean
sape
r
sono
the
rthananemp
loyee whoha
srece
ived
anau
tho
r
izedcond
i
t
iona
lo
f
fe
ro
femp
loymen
tfo
ra po
s
i
t
iontha
trequ
i
re
s
acce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
.
(c
) Au
tho
r
izedinve
s
t
iga
t
ive agency mean
s an agency au
tho
r
ized by
lawo
rregu
la
t
iontoconduc
tacoun
te
r
in
te
l
l
igenceinve
s
t
iga
t
iono
rinve
s
t
iga
t
ion o
f pe
r
son
s who a
re p
ropo
sedfo
r acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ionto
a
sce
r
ta
in whe
the
rsuchpe
r
son
ssa
t
i
s
fythec
r
i
te
r
iafo
rob
ta
in
ingandre
ta
in
ing
acce
s
stosuchin
fo
rma
t
ion
.
(d
) C
la
s
s
i
f
iedin
fo
rma
t
ion mean
sin
fo
rma
t
iontha
t ha
sbeen de
te
rm
ined
pu
r
suan
tto Execu
t
ive O
rde
r No
. 12958
,o
ranysucce
s
so
ro
rde
r
, Execu
t
ive
O
rde
r No
. 12951
,o
r any succe
s
so
ro
rde
r
,o
rthe A
tom
ic Ene
rgy Ac
to
f
1954(42 U
.S
.C
.2011
)
,torequ
i
rep
ro
tec
t
ionaga
in
s
tunau
tho
r
izedd
i
sc
lo
su
re
.
(e
) Emp
loyee mean
sa pe
r
son
,o
the
rthanthe P
re
s
iden
tand V
ice P
re
s
i
den
t
,emp
loyed by
, de
ta
i
led o
ra
s
s
ignedto
,anagency
,inc
lud
ing membe
r
s
o
fthe A
rmed Fo
rce
s
; an expe
r
to
r con
su
l
tan
tto an agency
; anindu
s
t
r
ia
l
o
rcomme
rc
ia
lcon
t
rac
to
r
,l
icen
see
,ce
r
t
i
f
ica
teho
lde
r
,o
rg
ran
teeo
fanagency
,
inc
lud
ing a
l
l subcon
t
rac
to
r
s
; a pe
r
sona
l se
rv
ice
s con
t
rac
to
r
;o
r any o
the
r
ca
tego
ry o
f pe
r
son whoac
t
sfo
ro
r on beha
l
fo
fanagencya
s de
te
rm
ined
bytheapp
rop
r
ia
teagencyhead
.
(
f
) Fo
re
ign powe
r and agen
to
f afo
re
ign powe
r havethe mean
ing
p
rov
idedin50 U
.S
.C
.1801
.

App
.171

40246

Fede
ra
l Reg
i
s
te
r

Vo
l
. 60
, No
. 151

Monday
, Augu
s
t7
, 1995

P
re
s
iden
t
ia
l Documen
t
s

(g
) Needfo
racce
s
s mean
sa de
te
rm
ina
t
iontha
tanemp
loyeerequ
i
re
s
acce
s
sto a pa
r
t
icu
la
rleve
lo
fc
la
s
s
i
f
iedin
fo
rma
t
ionin o
rde
rto pe
r
fo
rm
o
ra
s
s
i
s
tinalaw
fu
landau
tho
r
izedgove
rnmen
ta
lfunc
t
ion
.
(h
) Need
to
-know mean
sade
te
rm
ina
t
ion madebyanau
tho
r
izedho
lde
r
o
fc
la
s
s
i
f
iedin
fo
rma
t
iontha
ta p
ro
spec
t
iverec
ip
ien
trequ
i
re
sacce
s
stospe
c
i
f
ic c
la
s
s
i
f
iedin
fo
rma
t
ionin o
rde
rto pe
r
fo
rm o
ra
s
s
i
s
tin alaw
fu
l and
au
tho
r
izedgove
rnmen
ta
lfunc
t
ion
.
(
i
) Ove
r
sea
s Secu
r
i
ty Po
l
icy Boa
rd mean
sthe Boa
rde
s
tab
l
i
shedbythe
P
re
s
iden
ttocon
s
ide
r
, deve
lop
,coo
rd
ina
teand p
romo
te po
l
ic
ie
s
,s
tanda
rd
s
andag
reemen
t
sonove
r
sea
ssecu
r
i
tyope
ra
t
ion
s
,p
rog
ram
sand p
ro
jec
t
stha
t
a
f
fec
ta
l
l Un
i
ted S
ta
te
s Gove
rnmen
tagenc
ie
s unde
rtheau
tho
r
i
tyo
fa Ch
ie
f
o
fM
i
s
s
ion
.
(
j
) Secu
r
i
ty Po
l
icy Boa
rd mean
sthe Boa
rde
s
tab
l
i
shedbythe P
re
s
iden
t
tocon
s
ide
r
,coo
rd
ina
te
,andrecommend po
l
icy d
i
rec
t
ive
sfo
rU
.S
.secu
r
i
ty
po
l
ic
ie
s
,p
rocedu
re
s
,andp
rac
t
ice
s
.
(k
) Spec
ia
l acce
s
sp
rog
ram ha
sthe mean
ing p
rov
idedinsec
t
ion 4
.1
o
fExecu
t
ive O
rde
r No
.12958
,o
ranysucce
s
so
ro
rde
r
.
Sec
.1
.2
.Acce
s
sto C
la
s
s
i
f
iedIn
fo
rma
t
ion
. (a
) Noemp
loyeesha
l
lbeg
ran
ted
acce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion un
le
s
stha
temp
loyee ha
s been de
te
rm
ined
tobee
l
ig
ib
leinacco
rdance w
i
thth
i
so
rde
randto po
s
se
s
sa need
to
-know
.
(b
) Agency head
ssha
l
l bere
spon
s
ib
lefo
re
s
tab
l
i
sh
ing and ma
in
ta
in
ing
ane
f
fec
t
ive p
rog
ramtoen
su
retha
tacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionbyeach
emp
loyeei
sc
lea
r
ly con
s
i
s
ten
tw
i
ththein
te
re
s
t
so
fthe na
t
iona
lsecu
r
i
ty
.
(c
)Emp
loyee
ssha
l
lno
tbeg
ran
tedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionun
le
s
s
they
:
(1
) have been de
te
rm
inedto be e
l
ig
ib
lefo
r acce
s
s unde
rsec
t
ion 3
.1 o
f
th
i
so
rde
r byagency head
so
r de
s
igna
ted o
f
f
ic
ia
l
s ba
sed uponafavo
rab
le
ad
jud
ica
t
iono
fanapp
rop
r
ia
teinve
s
t
iga
t
iono
ftheemp
loyeesbackg
round
;
(2
)haveademon
s
t
ra
tedneed
to
-know
;and
(3
)haves
ignedanapp
rovednond
i
sc
lo
su
reag
reemen
t
.
(d
) A
l
l emp
loyee
s sha
l
l be sub
jec
ttoinve
s
t
iga
t
ion by an app
rop
r
ia
te
gove
rnmen
tau
tho
r
i
typ
r
io
rtobe
ingg
ran
tedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
and a
t anyt
ime du
r
ingthe pe
r
iod o
f acce
s
sto a
sce
r
ta
in whe
the
rthey
con
t
inueto mee
ttherequ
i
remen
t
sfo
racce
s
s
.
(e
)
(1
)A
l
lemp
loyee
sg
ran
tedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
l bere
qu
i
reda
sacond
i
t
ion o
fsuchacce
s
sto p
rov
idetotheemp
loy
ingagency
w
r
i
t
ten con
sen
t pe
rm
i
t
t
ing acce
s
s by an au
tho
r
izedinve
s
t
iga
t
ive agency
,
fo
r sucht
ime a
s acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ioni
s ma
in
ta
ined andfo
r
ape
r
iodo
f3yea
r
sthe
rea
f
te
r
,to
:
(A
)re
levan
tf
inanc
ia
lreco
rd
stha
ta
re ma
in
ta
inedbyaf
inanc
ia
lin
s
t
i
tu
t
ion
a
s de
f
inedin 31 U
.S
.C
. 5312
(a
)o
r by a ho
ld
ing company a
s de
f
inedin
sec
t
ion 1101
(6
)o
fthe R
igh
tto F
inanc
ia
lP
r
ivacy Ac
to
f 1978(12 U
.S
.C
.
3401
)
;
(B
) con
sume
rrepo
r
t
s pe
r
ta
in
ingtothe emp
loyee unde
rthe Fa
i
rC
red
i
t
Repo
r
t
ing Ac
t(15 U
.S
.C
.1681a
)
;and
(C
)reco
rd
s ma
in
ta
ined by comme
rc
ia
l en
t
i
t
ie
sw
i
th
inthe Un
i
ted S
ta
te
s
pe
r
ta
in
ingtoanyt
rave
lbytheemp
loyeeou
t
s
idethe Un
i
tedS
ta
te
s
.
(2
)In
fo
rma
t
ion may bereque
s
ted pu
r
suan
tto emp
loyee con
sen
t unde
r
th
i
ssec
t
ion whe
re
:
(A
)the
rea
rerea
sonab
leg
round
stobe
l
ieve
,ba
sedonc
red
ib
lein
fo
rma
t
ion
,
tha
ttheemp
loyee o
rfo
rme
remp
loyeei
s
,o
r may be
,d
i
sc
lo
s
ingc
la
s
s
i
f
ied
in
fo
rma
t
ionin an unau
tho
r
ized manne
rto afo
re
ign powe
ro
r agen
to
f
afo
re
ignpowe
r
;
(B
)in
fo
rma
t
iontheemp
loy
ingagency deem
sc
red
ib
leind
ica
te
stheem
p
loyee o
rfo
rme
remp
loyee ha
sincu
r
redexce
s
s
iveindeb
tedne
s
so
r ha
sac
-

App
.172

Fede
ra
l Reg
i
s
te
r / Vo
l
. 60
, No
. 151/ Monday
, Augu
s
t7
, 1995/ P
re
s
iden
t
ia
l Documen
t
s

40247

qu
i
redaleve
lo
fa
f
f
luencetha
tcanno
t beexp
la
ined by o
the
rin
fo
rma
t
ion
;
o
r
(C
)c
i
rcum
s
tance
sind
ica
tethe emp
loyee o
rfo
rme
r emp
loyee hadthe
capab
i
l
i
tyandoppo
r
tun
i
tyto d
i
sc
lo
sec
la
s
s
i
f
iedin
fo
rma
t
iontha
ti
sknown
to have beenlo
s
to
r comp
rom
i
sedto afo
re
ign powe
ro
r an agen
to
fa
fo
re
ignpowe
r
.
(3
) No
th
inginth
i
s sec
t
ion sha
l
l be con
s
t
ruedto a
f
fec
tthe au
tho
r
i
ty
o
f aninve
s
t
iga
t
ing agencyto ob
ta
inin
fo
rma
t
ion pu
r
suan
ttothe R
igh
tto
F
inanc
ia
lP
r
ivacy Ac
t
,theFa
i
rC
red
i
t Repo
r
t
ing Ac
to
ranyo
the
rapp
l
icab
le
law
.
Sec
.1
.3
.F
inanc
ia
lD
i
sc
lo
su
re
.(a
) No
tla
te
rthan180day
sa
f
te
rthee
f
fec
t
ive
da
teo
fth
i
so
rde
r
,theheado
feachagencytha
to
r
ig
ina
te
s
,hand
le
s
,t
ran
sm
i
t
s
,
o
rpo
s
se
s
se
sc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
lde
s
igna
teeachemp
loyee
,bypo
s
i
t
ion
o
rca
tego
ry whe
re po
s
s
ib
le
, who ha
saregu
la
r needfo
racce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
iontha
t
,inthed
i
sc
re
t
iono
ftheagencyhead
, wou
ldrevea
l
:
(1
)theiden
t
i
ty o
fcove
r
tagen
t
sa
s de
f
inedintheIn
te
l
l
igenceIden
t
i
t
ie
s
P
ro
tec
t
ion Ac
to
f1982(50 U
.S
.C
.421
)
;
(2
)techn
ica
lo
rspec
ia
l
izedna
t
iona
lin
te
l
l
igenceco
l
lec
t
ionandp
roce
s
s
ing
sy
s
tem
stha
t
,i
fd
i
sc
lo
sedinan unau
tho
r
ized manne
r
, wou
ldsub
s
tan
t
ia
l
ly
nega
teo
rimpa
i
rthee
f
fec
t
ivene
s
so
fthesy
s
tem
;
(3
)thede
ta
i
l
so
f
:
(A
)thena
tu
re
,con
ten
t
s
,a
lgo
r
i
thm
,p
repa
ra
t
ion
,o
ru
seo
fanycode
,c
iphe
r
,
o
rc
ryp
tog
raph
icsy
s
temo
r
;
(B
)the de
s
ign
, con
s
t
ruc
t
ion
,func
t
ion
ing
, ma
in
tenance
,o
rrepa
i
ro
f any
c
ryp
tog
raph
icequ
ipmen
t
;bu
t no
tinc
lud
ingin
fo
rma
t
ionconce
rn
ingthe u
se
o
fc
ryp
tog
raph
icequ
ipmen
tandse
rv
ice
s
;
(4
)pa
r
t
icu
la
r
lysen
s
i
t
ivespec
ia
lacce
s
sp
rog
ram
s
,thed
i
sc
lo
su
reo
f wh
ich
wou
ldsub
s
tan
t
ia
l
ly nega
te o
rimpa
i
rthe e
f
fec
t
ivene
s
so
fthein
fo
rma
t
ion
o
rac
t
iv
i
tyinvo
lved
;o
r
(5
)e
spec
ia
l
lysen
s
i
t
ive nuc
lea
r weapon
s de
s
ignin
fo
rma
t
ion(bu
ton
lyfo
r
tho
se po
s
i
t
ion
stha
t havebeence
r
t
i
f
ieda
sbe
ingo
fa h
igh deg
reeo
fimpo
r
tance o
rsen
s
i
t
iv
i
ty
,a
s de
sc
r
ibedinsec
t
ion 145
(
f
)o
fthe A
tom
ic Ene
rgy
Ac
to
f1954
,a
samended
)
.
(b
) Anemp
loyee mayno
tbeg
ran
tedacce
s
s
,o
rho
ldapo
s
i
t
ionde
s
igna
ted
a
srequ
i
r
ing acce
s
s
,toin
fo
rma
t
ion de
sc
r
ibedinsub
sec
t
ion(a
) un
le
s
s
,a
s
acond
i
t
iono
facce
s
stosuchin
fo
rma
t
ion
,theemp
loyee
:
(1
)f
i
le
sw
i
ththeheado
ftheagencyaf
inanc
ia
ld
i
sc
lo
su
rerepo
r
t
,inc
lud
ing
in
fo
rma
t
ion w
i
thre
spec
ttothespou
seand dependen
tch
i
ld
reno
ftheem
p
loyee
,a
spa
r
to
fa
l
lbackg
roundinve
s
t
iga
t
ion
so
rre
inve
s
t
iga
t
ion
s
;
(2
)i
ssub
jec
ttoannua
lf
inanc
ia
ld
i
sc
lo
su
rerequ
i
remen
t
s
,i
fse
lec
ted by
theagencyhead
;and
(3
)f
i
le
s re
levan
tin
fo
rma
t
ion conce
rn
ingfo
re
ignt
rave
l
,a
s de
te
rm
ined
bytheSecu
r
i
tyPo
l
icyBoa
rd
.
(c
) No
tla
te
rthan 180 day
sa
f
te
rthe e
f
fec
t
ive da
te o
fth
i
so
rde
r
,the
Secu
r
i
ty Po
l
icy Boa
rdsha
l
l deve
lop p
rocedu
re
sfo
rtheimp
lemen
ta
t
ion o
f
th
i
ssec
t
ion
,inc
lud
ingas
tanda
rdf
inanc
ia
ld
i
sc
lo
su
refo
rmfo
ru
sebyemp
loy
ee
s unde
rsub
sec
t
ion(b
)o
fth
i
ssec
t
ion
, and agency head
ssha
l
liden
t
i
fy
ce
r
ta
inemp
loyee
s
,bypo
s
i
t
iono
rca
tego
ry
, whoa
resub
jec
ttoannua
lf
inan
c
ia
ld
i
sc
lo
su
re
.
s pa
r
to
fa
l
l
Sec
.1
.4
.U
se o
f Au
toma
ted F
inanc
ia
l Reco
rd Da
ta Ba
se
s
.A
inve
s
t
iga
t
ion
sandre
inve
s
t
iga
t
ion
s de
sc
r
ibedinsec
t
ion1
.2
(d
)o
fth
i
so
rde
r
,
agenc
ie
s mayreque
s
tthe Depa
r
tmen
to
fthe T
rea
su
ry
, unde
rte
rm
s and
cond
i
t
ion
sp
re
sc
r
ibedbytheSec
re
ta
ryo
fthe T
rea
su
ry
,tosea
rchau
toma
ted
da
taba
se
scon
s
i
s
t
ingo
frepo
r
t
so
fcu
r
rencyt
ran
sac
t
ion
sbyf
inanc
ia
lin
s
t
i
tu
t
ion
s
,in
te
rna
t
iona
lt
ran
spo
r
ta
t
iono
fcu
r
rencyo
r mone
ta
ryin
s
t
rumen
t
s
,fo
r
e
ignbankandf
inanc
ia
laccoun
t
s
,t
ran
sac
t
ion
sunde
r$10
,000tha
ta
rerepo
r
ted
a
spo
s
s
ib
le moneylaunde
r
ingv
io
la
t
ion
s
,andreco
rd
so
ffo
re
ignt
rave
l
.

App
.173

40248

Fedea
l eg
i
s
te

o
l
. 60

o
. 151

Monda

Augu
s
t7 1 5

Pe
s
iden
t
ia
l Documen
t
s

ec
.1
.5
. mp
loee duca
t
ion and A
s
s
i
s
tance
. T e ead o
f eac agenc
ta
t gan
t
s acce
s
sto c
la
s
s
i
f
iedin
fo ma
t
ion s a
l
le
s
tal
i
s a pogamfo
emp
loee
s i
t acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ionto
: a educa
teemp
loee
s
a ou
tind
iv
idua
le
spon
s
ii
l
i
t
ie
sundeti
sode and
in
fo memp
loee
sa ou
tgu
idanceanda
s
s
i
s
tanceava
i
laleconcen
ing
i
s
sue
st a
t ma a
f
fec
tt e
i e
l
ig
ii
l
i
t fo acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ion
inc
lud
ingsouce
so
fa
s
s
i
s
tancefo emp
loee
s o ave ue
s
t
ion
so concen
s
a ou
tf
inanc
ia
l ma
t
tes men
ta
l ea
l
t o sus
tancea u
se
.
PA T2 ACC

I IB
IIT P IC A D P

CD

ec
.2
.1
.l
ig
ii
l
i
t De
te m
ina
t
ion
s
. a De
te m
ina
t
ion
so
fe
l
ig
ii
l
i
t fo acce
s
s
to c
la
s
s
i
f
iedin
fo ma
t
ions a
l
l e a
sed on ci
teia e
s
tal
i
s ed unde ti
s
ode. uc de
te m
ina
t
ion
saesepaa
tefomsu
i
tai
l
i
t de
te m
ina
t
ion
s i
t
e
spec
ttot e iingo e
ten
t
iono
fpeson
sfo emp
lo men
t t egoven
men
to an o
t e pesonne
lac
t
ion
s
.
T e nume o
f emp
loee
st a
t eac agenc de
te m
ine
s ae e
l
ig
ile
fo acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ions a
l
l e ep
ttot e m
in
imum e u
ied
fot econduc
to
fagenc func
t
ion
s
.
1 l
ig
ii
l
i
t fo acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ions a
l
l no
t e e ue
s
ted
o gan
tedso
le
l tope m
i
ten
t to o ea
seo
f movemen
t i
tin con
to
l
led
aea
s ent eemp
loee a
s no needfo acce
s
sandacce
s
stoc
la
s
s
i
f
ied
in
fo ma
t
ion ma ea
sonal e peven
ted
.
ee c
icum
s
tance
sind
ica
te
emp
loee
s ma einadveten
t
l e po
sedto c
la
s
s
i
f
iedin
fo ma
t
ionint e
couse o
ft e
i du
t
ie
s agenc
ie
s ae au
t oiedto gan
t o den int e
i
d
i
sce
t
ion fac
i
l
i
t acce
s
sappova
l
stosuc emp
loee
s a
sedonanappo
pia
televe
lo
finve
s
t
iga
t
iona
sde
te m
ined eac agenc.
2 cep
tinagenc
ie
s eee
l
ig
ii
l
i
t fo acce
s
si
sa manda
to cond
i
t
ion
o
f emp
lo men
te
l
ig
ii
l
i
t fo acce
s
sto c
la
s
s
i
f
iedin
fo ma
t
ion s a
l
l on
l
e e ue
s
tedo gan
ted a
sedonademon
s
ta
tedfoe
seealeneedfo acce
s
s
.
e ue
s
t
ingo appov
inge
l
ig
ii
l
i
t inece
s
so
fac
tua
leu
iemen
t
si
spoii
ted
.
3 l
ig
ii
l
i
t fo acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ion ma egan
ted ee
t eei
s atempoa needfo acce
s
s suc a
s one
t
ime pat
ic
ipa
t
ionin
ac
la
s
s
i
f
ied poec
t pov
idedt einve
s
t
iga
t
ives
tandad
se
s
tal
i
s ed unde
ti
s ode ave een sa
t
i
s
f
ied
.In suc ca
se
s af
ied da
te o even
tfo
ep
ia
t
ions a
l
l eiden
t
i
f
iedandacce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ions a
l
l e
l
im
i
tedtoin
fo ma
t
ion e
la
tedtot epat
icu
la poec
to a
s
s
ignmen
t
.
4 Acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ions a
l
l ete m
ina
ted enanemp
loee
nolonge a
saneedfo acce
s
s
.
ec
.2
.2
. eve
lo
f Acce
s
s Appova
l
. a T eleve
la
t ic anacce
s
sappova
l
i
s gan
tedfo an emp
loee s a
l
l el
im
i
ted and e
la
te d
iec
t
l tot e
leve
lo
fc
la
s
s
i
f
iedin
fo ma
t
ionfo
ic t eei
saneedfo acce
s
s
.l
ig
ii
l
i
t
fo acce
s
sto a ig e leve
lo
fc
la
s
s
i
f
iedin
fo ma
t
ioninc
lude
se
l
ig
ii
l
i
t
fo acce
s
stoin
fo ma
t
ionc
la
s
s
i
f
ieda
talo eleve
l
.
Acce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ion e
la
t
ingtoaspec
ia
lacce
s
s pogam
sa
l
l e gan
tedin accodance i
t pocedue
se
s
tal
i
s ed
t e ead
o
ft eagenc t a
tcea
tedt e pogamo fo pogam
s peta
in
ingtoin
te
l
l
igenceac
t
iv
i
t
ie
sinc
lud
ingspec
ia
lac
t
iv
i
t
ie
s u
tno
tinc
lud
ing m
i
l
i
ta opea
t
iona
ls
ta
teg
ic andtac
t
ica
lpogam
s o in
te
l
l
igencesouce
sand me
t od
s
teD
iec
to o
f Cen
ta
lIn
te
l
l
igence
. Tot eeten
tpo
s
s
ileandcon
s
i
s
ten
t
i
t t e na
t
iona
lsecui
t in
tee
s
t
so
ft e n
i
ted ta
te
s suc pocedue
s
sa
l
l econ
s
i
s
ten
t i
t t es
tandad
sand pocedue
se
s
tal
i
s ed
and
undeti
sode.
loee
o a
s
ec
.2
.3 Tempoa Acce
s
sto H
ig e eve
l
s
. a An emp
een de
te m
inedto e e
l
ig
ilefo acce
s
sto c
la
s
s
i
f
iedin
fo ma
t
ion a
sed
onfavoaleadud
ica
t
iono
facomp
le
tedinve
s
t
iga
t
ion ma egan
tedtem
poa acce
s
sto a ig e leve
l
ee secui
t pesonne
l au
t oied
t e agenc eadto mae acce
s
se
l
ig
ii
l
i
t de
te m
ina
t
ion
sf
indt a
tsuc
acce
s
s
:

App
.174

Fede
ra
l Reg
i
s
te
r

Vo
l
. 60
, No
. 151

Monday
, Augu
s
t7
, 1995

P
re
s
iden
t
ia
l Documen
t
s

40249

(1
)i
snece
s
sa
ryto mee
tope
ra
t
iona
lo
rcon
t
rac
tua
lex
igenc
ie
sno
texpec
ted
tobeo
farecu
r
r
ingna
tu
re
;
(2
)w
i
l
lno
texceed180day
s
;and
(3
)i
sl
im
i
tedtospec
i
f
ic
,iden
t
i
f
iab
lein
fo
rma
t
iontha
ti
s madethesubec
t
o
fa w
r
i
t
tenacce
s
sreco
rd
.
(b
) he
retheacce
s
sg
ran
tedunde
rsub
sec
t
ion(a
)o
fth
i
ssec
t
ioninvo
lve
s
ano
the
ragencysc
la
s
s
i
f
iedin
fo
rma
t
ion
,tha
tagency mu
s
tconcu
rbe
fo
reac
ce
s
stoi
t
sin
fo
rma
t
ioni
sg
ran
ted
.
Sec
.2
.4
. Rec
ip
roca
l Accep
tance o
f Acce
s
sE
l
ig
ib
i
l
i
ty De
te
rm
ina
t
ion
s.(a
)
Excep
t whenanagency ha
ssub
s
tan
t
ia
lin
fo
rma
t
ionind
ica
t
ingtha
tanem
p
loyee mayno
tsa
t
i
s
fythes
tanda
rd
sinsec
t
ion3
.1o
fth
i
so
rde
r
,backg
round
inve
s
t
i
-ga
t
ion
s and e
l
ig
ib
i
l
i
ty de
te
rm
ina
t
ion
s conduc
ted unde
rth
i
so
rde
r
sha
l
lbe mu
tua
l
lyandrec
ip
roca
l
lyaccep
tedbya
l
lagenc
ie
s
.
(b
) Excep
t whe
rethe
rei
ssub
s
tan
t
ia
lin
fo
rma
t
ionind
ica
t
ingtha
ttheem
p
loyee mayno
tsa
t
i
s
fythes
tanda
rd
sinsec
t
ion3
.1o
fth
i
so
rde
r
,anemp
loyee
w
i
thex
i
s
t
ingacce
s
stoaspec
ia
lacce
s
sp
rog
ramsha
l
lno
tbeden
iede
l
ig
ib
i
l
i
ty
fo
r acce
s
sto ano
the
rspec
ia
l acce
s
sp
rog
ram a
tthesamesen
s
i
t
iv
i
tyleve
l
a
s de
te
rm
ined pe
r
sona
l
ly bythe agency head o
r depu
ty agency head
,o
r
have an ex
i
s
t
ing acce
s
se
l
ig
ib
i
l
i
tyreadud
ica
ted
,solong a
sthe emp
loyee
ha
saneedfo
racce
s
stothein
fo
rma
t
ioninvo
lved
.
(c
) Th
i
ssec
t
ionsha
l
l no
tp
rec
ludeagency head
sf
rome
s
tab
l
i
sh
ingadd
i
t
iona
l
, bu
t no
t dup
l
ica
t
ive
,inve
s
t
iga
t
ive o
r adud
ica
t
ive p
rocedu
re
sfo
ra
spec
ia
l acce
s
sp
rog
ram o
rfo
r cand
ida
te
sfo
r de
ta
i
lo
ra
s
s
ignmen
ttothe
i
r
agenc
ie
s
, whe
resuch p
rocedu
re
sa
rerequ
i
redinexcep
t
iona
lc
i
rcum
s
tance
s
top
ro
tec
tthena
t
iona
lsecu
r
i
ty
.
(d
) he
retempo
ra
ry e
l
ig
ib
i
l
i
tyfo
r acce
s
si
sg
ran
ted unde
rsec
t
ion
s2
.3
o
r3
.3 o
fth
i
so
rde
ro
r whe
rethe de
te
rm
ina
t
ion o
fe
l
ig
ib
i
l
i
tyfo
r acce
s
s
i
s cond
i
t
iona
l
,thefac
to
fsuchtempo
ra
ry o
r cond
i
t
iona
l acce
s
ssha
l
l be
conveyedtoanyo
the
ragencytha
tcon
s
ide
r
sa
f
fo
rd
ingtheemp
loyeeacce
s
s
toi
t
sin
fo
rma
t
ion
.
Sec
.2
.5
. Spec
i
f
ic Acce
s
s Requ
i
remen
t
. (a
) Emp
loyee
s who havebeen de
te
r
m
inedto be e
l
ig
ib
lefo
r acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ion sha
l
l be g
iven
acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ion on
ly whe
rethe
rei
s a need
to
-knowtha
t
in
fo
rma
t
ion
.
(b
)I
ti
sthere
spon
s
ib
i
l
i
ty o
f emp
loyee
s who a
re au
tho
r
ized ho
lde
r
so
f
c
la
s
s
i
f
iedin
fo
rma
t
ionto ve
r
i
fytha
ta p
ro
spec
t
iverec
ip
ien
tse
l
ig
ib
i
l
i
tyfo
r
acce
s
s ha
s been g
ran
ted by an au
tho
r
ized agency o
f
f
ic
ia
l andto en
su
re
tha
ta need
to
-knowex
i
s
t
sp
r
io
rtoa
l
low
ingsuchacce
s
s
,andtocha
l
lenge
reque
s
t
sfo
racce
s
stha
tdono
tappea
r we
l
l
founded
.
Sec
.2
.6
.Acce
s
sby Non
-Un
i
tedS
ta
te
sC
i
t
izen
s
. (a
) he
rethe
rea
recompe
l
l
ingrea
son
sinfu
r
the
ranceo
fanagency m
i
s
s
ion
,imm
ig
ran
ta
l
ienandfo
re
ign
na
t
iona
lemp
loyee
s who po
s
se
s
saspec
ia
lexpe
r
t
i
se may
,inthe d
i
sc
re
t
ion
o
ftheagency
, beg
ran
tedl
im
i
tedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion on
lyfo
r
spec
i
f
ic p
rog
ram
s
,p
roec
t
s
, con
t
rac
t
s
,l
icen
se
s
, ce
r
t
i
f
ica
te
s
,o
rg
ran
t
sfo
r
wh
ichthe
rei
s a needfo
r acce
s
s
. Suchind
iv
idua
l
s sha
l
l no
t be e
l
ig
ib
le
fo
r acce
s
sto any g
rea
te
rleve
lo
fc
la
s
s
i
f
iedin
fo
rma
t
ionthanthe Un
i
ted
S
ta
te
s Gove
rn
-men
t ha
s de
te
rm
ined may bere
lea
sab
letothe coun
t
ry o
f
wh
ichthesubec
ti
s cu
r
ren
t
ly a c
i
t
izen
, andsuchl
im
i
ted acce
s
s may be
app
rovedon
lyi
fthep
r
io
r10yea
r
so
fthesubec
tsl
i
fecanbeapp
rop
r
ia
te
ly
inve
s
t
iga
ted
.I
fthe
rea
reany doub
t
sconce
rn
ingg
ran
t
ingacce
s
s
,add
i
t
iona
l
law
fu
linve
s
t
iga
t
ivep
rocedu
re
ssha
l
lbefu
l
lypu
r
sued
.
(b
)Excep
t
ion
stothe
serequ
i
remen
t
s maybepe
rm
i
t
tedon
lybytheagency
head o
rthe sen
io
r agency o
f
f
ic
ia
l de
s
igna
ted unde
r sec
t
ion 6
.1 o
fth
i
s
o
rde
rtofu
r
the
rsub
s
tan
t
ia
lna
t
iona
lsecu
r
i
tyin
te
re
s
t
s
.
PART3 ACCESS EL
IG
IB
IL
ITY STANDARDS
) No emp
loyeesha
l
l be deemedto be e
l
ig
ib
lefo
r
Sec
.3
.1
.S
tanda
rd
s
. (a
acce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion me
re
lybyrea
sono
f Fede
ra
lse
rv
iceo
rcon
-

App
.175

40250

Fede
ra
l Reg
i
s
te
r

Vo
l
. 60
, No
. 151

Monday
, Augu
s
t7
, 1995

P
re
s
iden
t
ia
l Documen
t
s

t
rac
t
ing
,l
icen
see
, ce
r
t
i
f
ica
te ho
lde
r
,o
rg
ran
tee s
ta
tu
s
,o
ra
s a ma
t
te
ro
f
r
igh
to
rp
r
iv
i
lege
,o
ra
s are
su
l
to
f any pa
r
t
icu
la
rt
i
t
le
,rank
, po
s
i
t
ion
,o
r
a
f
f
i
l
ia
t
ion
.
(b
) Excep
ta
sp
rov
idedinsec
t
ion
s2
.6 and 3
.3 o
fth
i
so
rde
r
,e
l
ig
ib
i
l
i
ty
fo
racce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
lbeg
ran
tedon
lytoemp
loyee
s who
a
re Un
i
ted S
ta
te
sc
i
t
izen
sfo
r whomanapp
rop
r
ia
teinve
s
t
iga
t
ion ha
s been
comp
le
tedand who
se pe
r
sona
land p
ro
fe
s
s
iona
lh
i
s
to
rya
f
f
i
rma
t
ive
lyind
i
ca
te
sloya
l
tytothe Un
i
ted S
ta
te
s
,s
t
reng
th o
f cha
rac
te
r
,t
ru
s
two
r
th
ine
s
s
,
hone
s
ty
,re
l
iab
i
l
i
ty
,d
i
sc
re
t
ion
, and soundjudgmen
t
,a
s we
l
la
sf
reedom
f
romcon
f
l
ic
t
inga
l
leg
iance
sand po
ten
t
ia
lfo
rcoe
rc
ion
,and w
i
l
l
ingne
s
sand
ab
i
l
i
tytoab
ide byregu
la
t
ion
sgove
rn
ingthe u
se
, hand
l
ing
,and p
ro
tec
t
ion
o
fc
la
s
s
i
f
iedin
fo
rma
t
ion
. A de
te
rm
ina
t
ion o
fe
l
ig
ib
i
l
i
tyfo
racce
s
stosuch
in
fo
rma
t
ioni
sad
i
sc
re
t
iona
rysecu
r
i
tydec
i
s
ionba
sedonjudgmen
t
sbyapp
ro
p
r
ia
te
lyt
ra
inedad
jud
ica
t
ivepe
r
sonne
l
.E
l
ig
ib
i
l
i
tysha
l
lbeg
ran
tedon
ly whe
re
fac
t
sandc
i
rcum
s
tance
sind
ica
teacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ioni
sc
lea
r
ly
con
s
i
s
ten
t w
i
ththe na
t
iona
l secu
r
i
tyin
te
re
s
t
so
fthe Un
i
ted S
ta
te
s
, and
anydoub
tsha
l
lbere
so
lvedinfavo
ro
fthena
t
iona
lsecu
r
i
ty
.
(c
) The Un
i
ted S
ta
te
s Gove
rnmen
t doe
s no
td
i
sc
r
im
ina
te onthe ba
s
i
s
o
frace
,co
lo
r
,re
l
ig
ion
,sex
, na
t
iona
lo
r
ig
in
,d
i
sab
i
l
i
ty
,o
rsexua
lo
r
ien
ta
t
ion
ing
ran
t
ingacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
.
(d
)In de
te
rm
in
ing e
l
ig
ib
i
l
i
tyfo
r acce
s
s unde
rth
i
so
rde
r
, agenc
ie
s may
inve
s
t
iga
te and con
s
ide
r any ma
t
te
rtha
tre
la
te
stothe de
te
rm
ina
t
ion o
f
whe
the
racce
s
si
sc
lea
r
lycon
s
i
s
ten
tw
i
ththein
te
re
s
t
so
f na
t
iona
lsecu
r
i
ty
.
Noin
fe
renceconce
rn
ingthes
tanda
rd
sinth
i
ssec
t
ion maybera
i
sedso
le
ly
ontheba
s
i
so
fthesexua
lo
r
ien
ta
t
iono
ftheemp
loyee
.
(e
) No nega
t
ivein
fe
rence conce
rn
ingthes
tanda
rd
sinth
i
ssec
t
ion may
bera
i
sedso
le
lyontheba
s
i
so
f men
ta
l hea
l
thcoun
se
l
ing
. Suchcoun
se
l
ing
canbeapo
s
i
t
ivefac
to
rine
l
ig
ib
i
l
i
tyde
te
rm
ina
t
ion
s
. Howeve
r
, men
ta
lhea
l
th
coun
se
l
ing
, whe
rere
levan
ttothead
jud
ica
t
iono
facce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
, mayju
s
t
i
fyfu
r
the
rinqu
i
ryto de
te
rm
ine whe
the
rthe s
tanda
rd
so
f
sub
sec
t
ion(b
)o
fth
i
ssec
t
iona
resa
t
i
s
f
ied
,and men
ta
lhea
l
th maybecon
s
id
e
red whe
rei
td
i
rec
t
lyre
la
te
stotho
ses
tanda
rd
s
.
(
f
) No
tla
te
rthan 180 day
sa
f
te
rthe e
f
fec
t
ive da
te o
fth
i
so
rde
r
,the
Secu
r
i
tyPo
l
icyBoa
rdsha
l
ldeve
lopacommonse
to
fad
jud
ica
t
ivegu
ide
l
ine
s
fo
r de
te
rm
in
ing e
l
ig
ib
i
l
i
tyfo
r acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ion
,inc
lud
ing
acce
s
stospec
ia
lacce
s
sp
rog
ram
s
.
Sec
.3
.2
. Ba
s
i
sfo
rE
l
ig
ib
i
l
i
ty App
rova
l
. (a
)E
l
ig
ib
i
l
i
ty de
te
rm
ina
t
ion
sfo
r
acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
l be ba
sed onin
fo
rma
t
ion conce
rn
ing
theapp
l
ican
to
remp
loyeetha
ti
sacqu
i
redth
roughtheinve
s
t
iga
t
ioncon
duc
ted pu
r
suan
ttoth
i
so
rde
ro
ro
the
rw
i
se ava
i
lab
leto secu
r
i
ty o
f
f
ic
ia
l
s
andsha
l
l be made pa
r
to
fthe app
l
ican
ts o
r emp
loyeessecu
r
i
tyreco
rd
.
App
l
ican
t
so
remp
loyee
ssha
l
l berequ
i
redto p
rov
idere
levan
tin
fo
rma
t
ion
pe
r
ta
in
ingtothe
i
r backg
round and cha
rac
te
rfo
ru
seininve
s
t
iga
t
ing and
ad
jud
ica
t
ingthe
i
re
l
ig
ib
i
l
i
tyfo
racce
s
s
.
(b
) No
tla
te
rthan 180 day
sa
f
te
rthe e
f
fec
t
ive da
te o
fth
i
so
rde
r
,the
Secu
r
i
tyPo
l
icy Boa
rdsha
l
ldeve
lopacommonse
to
finve
s
t
iga
t
ives
tanda
rd
s
fo
r backg
roundinve
s
t
iga
t
ion
sfo
r acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ion
. The
se
s
tanda
rd
s mayva
ryfo
rtheva
r
iou
sleve
l
so
facce
s
s
.
(c
) No
th
inginth
i
so
rde
r sha
l
lp
roh
ib
i
t an agencyf
rom u
t
i
l
iz
ing any
law
fu
linve
s
t
iga
t
ive p
rocedu
reinadd
i
t
iontotheinve
s
t
iga
t
iverequ
i
remen
t
s
se
tfo
r
thinth
i
so
rde
r andi
t
simp
lemen
t
ingregu
la
t
ion
store
so
lvei
s
sue
s
tha
t may a
r
i
se du
r
ing the cou
r
se o
f a backg
round inve
s
t
iga
t
ion o
r
re
inve
s
t
iga
t
ion
.
)In excep
t
iona
lc
i
rcum
s
tance
s whe
re
Sec
.3
.3
. Spec
ia
lC
i
rcum
s
tance
s
. (a
o
f
f
ic
ia
lfunc
t
ion
s mu
s
tbepe
r
fo
rmedp
r
io
rtothecomp
le
t
iono
ftheinve
s
t
iga
t
iveandad
jud
ica
t
ion p
roce
s
s
,tempo
ra
rye
l
ig
ib
i
l
i
tyfo
racce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
ion may beg
ran
tedtoanemp
loyee wh
i
lethein
i
t
ia
linve
s
t
iga
t
ion
i
sunde
rway
. Whensuche
l
ig
ib
i
l
i
tyi
sg
ran
ted
,thein
i
t
ia
linve
s
t
iga
t
ionsha
l
l
beexped
i
ted
.

App
.176

Fede
ra
l Reg
i
s
te
r

Vo
l
. 60
, No
. 151

Monday
, Augu
s
t7
, 1995

P
re
s
iden
t
ia
l Documen
t
s

40251

(1
) Tempo
ra
ry e
l
ig
ib
i
l
i
tyfo
r acce
s
s unde
rth
i
s sec
t
ion sha
l
linc
lude a
ju
s
t
i
f
ica
t
ion
, andthe emp
loyee mu
s
t be no
t
i
f
iedin w
r
i
t
ingtha
tfu
r
the
r
acce
s
si
sexp
re
s
s
lycond
i
t
ionedonthefavo
rab
lecomp
le
t
iono
ftheinve
s
t
iga
t
ion andi
s
suance o
f an acce
s
se
l
ig
ib
i
l
i
ty app
rova
l
. Acce
s
sw
i
l
l beimme
d
ia
te
lyte
rm
ina
ted
,a
long w
i
thanya
s
s
ignmen
trequ
i
r
inganacce
s
se
l
ig
ib
i
l
i
ty
app
rova
l
,i
fsuchapp
rova
li
sno
tg
ran
ted
.
(2
)Tempo
ra
rye
l
ig
ib
i
l
i
tyfo
racce
s
s maybeg
ran
tedon
lybysecu
r
i
type
r
son
ne
lau
tho
r
izedbytheagencyheadto makeacce
s
se
l
ig
ib
i
l
i
tyde
te
rm
ina
t
ion
s
andsha
l
l be ba
sed on m
in
imuminve
s
t
iga
t
ives
tanda
rd
s deve
loped bythe
Secu
r
i
ty Po
l
icy Boa
rd no
tla
te
rthan 180 day
sa
f
te
rthe e
f
fec
t
ive da
te o
f
th
i
so
rde
r
.
(3
) Tempo
ra
ry e
l
ig
ib
i
l
i
tyfo
r acce
s
s may be g
ran
ted on
lyto pa
r
t
icu
la
r
,
iden
t
i
f
iedca
tego
r
ie
so
fc
la
s
s
i
f
iedin
fo
rma
t
ionnece
s
sa
rytope
r
fo
rmthelaw
fu
l
and au
tho
r
izedfunc
t
ion
stha
ta
rethe ba
s
i
sfo
rthe g
ran
t
ing o
ftempo
ra
ry
acce
s
s
.
(b
) No
th
inginsub
sec
t
ion(a
)sha
l
lbecon
s
t
rueda
sa
l
te
r
ingtheau
tho
r
i
ty
o
fanagency headto wa
iverequ
i
remen
t
sfo
rg
ran
t
ingacce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
ionpu
r
suan
ttos
ta
tu
to
ryau
tho
r
i
ty
.
(c
) Whe
reacce
s
sha
sbeente
rm
ina
tedunde
rsec
t
ion2
.1
(b
)
(4
)o
fth
i
so
rde
r
and a new needfo
r acce
s
sa
r
i
se
s
, acce
s
se
l
ig
ib
i
l
i
ty uptothesameleve
l
sha
l
lbereapp
roved w
i
thou
tfu
r
the
rinve
s
t
iga
t
iona
stoemp
loyee
s who we
re
de
te
rm
inedtobee
l
ig
ib
leba
sedonafavo
rab
lead
jud
ica
t
iono
faninve
s
t
iga
t
ion
comp
le
ted w
i
th
inthep
r
io
r5yea
r
s
,p
rov
idedtheyhaverema
inedemp
loyed
bythesameemp
loye
rdu
r
ingthepe
r
iodinque
s
t
ion
,theemp
loyeece
r
t
i
f
ie
s
in w
r
i
t
ingtha
tthe
reha
sbeennochangeinthere
levan
tin
fo
rma
t
ionp
rov
ided
bythe emp
loyeefo
rthela
s
t backg
roundinve
s
t
iga
t
ion
, andthe
rei
s no
in
fo
rma
t
iontha
t wou
ldtendtoind
ica
tetheemp
loyee maynolonge
rsa
t
i
s
fy
thes
tanda
rd
se
s
tab
l
i
shedbyth
i
so
rde
rfo
racce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
.
(d
) Acce
s
se
l
ig
ib
i
l
i
tysha
l
lbereapp
rovedfo
rind
iv
idua
l
s who we
rede
te
r
m
inedto bee
l
ig
ib
le ba
sed onafavo
rab
lead
jud
ica
t
ion o
faninve
s
t
iga
t
ion
comp
le
ted w
i
th
inthep
r
io
r5yea
r
sand whohavebeenre
t
i
redo
ro
the
rw
i
se
sepa
ra
tedf
rom Un
i
ted S
ta
te
s Gove
rnmen
t emp
loymen
tfo
r no
t mo
rethan
2yea
r
s
;p
rov
idedthe
rei
snoind
ica
t
iontheind
iv
idua
l maynolonge
rsa
t
i
s
fy
the s
tanda
rd
so
fth
i
so
rde
r
,theind
iv
idua
l ce
r
t
i
f
ie
sin w
r
i
t
ingtha
tthe
re
ha
sbeen nochangeinthere
levan
tin
fo
rma
t
ion p
rov
idedbytheind
iv
idua
l
fo
rthela
s
tbackg
roundinve
s
t
iga
t
ion
,andanapp
rop
r
ia
tereco
rdcheckrevea
l
s
noun
favo
rab
lein
fo
rma
t
ion
.
Sec
.3
.4
.Re
inve
s
t
iga
t
ionRequ
i
remen
t
s
.(a
)Becau
sec
i
rcum
s
tance
sandcha
rac
te
r
i
s
t
ic
s maychange d
rama
t
ica
l
lyove
rt
imeandthe
rebya
l
te
rthee
l
ig
ib
i
l
i
ty
o
femp
loyee
sfo
rcon
t
inuedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
,re
inve
s
t
iga
t
ion
s
sha
l
lbeconduc
ted w
i
ththesamep
r
io
r
i
tyandca
rea
sin
i
t
ia
linve
s
t
iga
t
ion
s
.
(b
) Emp
loyee
s whoa
ree
l
ig
ib
lefo
racce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
l
bethesub
jec
to
f pe
r
iod
icre
inve
s
t
iga
t
ion
sand maya
l
so bere
inve
s
t
iga
ted
i
f
,a
t anyt
ime
,the
rei
srea
sonto be
l
ievetha
tthey may nolonge
r mee
t
thes
tanda
rd
sfo
racce
s
se
s
tab
l
i
shedinth
i
so
rde
r
.
(c
) No
tla
te
rthan 180 day
sa
f
te
rthe e
f
fec
t
ive da
te o
fth
i
so
rde
r
,the
Secu
r
i
ty Po
l
icy Boa
rdsha
l
l deve
lopacommonse
to
fre
inve
s
t
iga
t
ives
tand
a
rd
s
,inc
lud
ingthef
requencyo
fre
inve
s
t
iga
t
ion
s
.
PART4 INVEST
IGAT
IONS FOR FORE
IGN GOVERNMENTS
ie
stha
tconduc
tbackg
roundinve
s
t
iga
t
ion
s
,inc
lud
ing
Sec
.4
.Au
tho
r
i
ty
. Agenc
theFede
ra
l Bu
reauo
fInve
s
t
iga
t
ionandthe Depa
r
tmen
to
fS
ta
te
,a
reau
tho
r
izedtoconduc
tpe
r
sonne
lsecu
r
i
tyinve
s
t
iga
t
ion
sinthe Un
i
tedS
ta
te
s when
reque
s
ted by afo
re
ign gove
rnmen
ta
s pa
r
to
fi
t
s own pe
r
sonne
lsecu
r
i
ty
p
rog
ramand w
i
ththecon
sen
to
ftheind
iv
idua
l
.

App
.177

0252

Fedea
l eg
i
s
te / o
l
. 60

o
. 151/ Monda

PA T5

I

Augu
s
t 7 1 5/ Pe
s
iden
t
ia
l Documen
t
s

F ACC

DT

M
I AT
I

ec
.5
.1
.De
te m
ina
t
ion
so
f eedfo Acce
s
s
. Ade
te m
ina
t
ionunde sec
t
ion
2
.1
o
fti
s ode t a
t an emp
loee doe
s no
t ave o nolonge a
s
a needfo acce
s
si
sa d
i
sce
t
iona de
te m
ina
t
ionands a
l
l econc
lu
s
ive
.
ec
.5
.2
. ev
ie Poceed
ing
sfo Den
ia
l
s o evoca
t
ion
so
f l
ig
ii
l
i
t fo
Acce
s
s
. a App
l
ican
t
s and emp
loee
s
o ae de
te m
inedto no
t mee
t
tes
tandad
sfo acce
s
sto c
la
s
s
i
f
iedin
fo ma
t
ion e
s
tal
i
s edin sec
t
ion
3
.1o
fti
sode s a
l
le
:
1 pov
ideda
scompe en
s
iveand de
ta
i
leda i
t
tene p
lana
t
iono
ft e
a
s
i
sfo t a
t conc
lu
s
ion a
st e na
t
iona
lsecui
t in
tee
s
t
so
ft e n
i
ted
ta
te
sando
t e app
l
icalela pe m
i
t
2 pov
ided i
tin30das upon e ue
s
tandtot eeten
tt edocumen
t
s
ou
ld e pov
idedi
f e ue
s
ted unde t e Feedom o
fIn
fo ma
t
ion Ac
t
5 ..C
.552 o t e Pivac Ac
t 3 ..C
.552a a
sapp
l
icale an docu
men
t
s ecod
s and epot
s upon ic a den
ia
l o evoca
t
ioni
s a
sed
3in
fo medo
ft e
i igtto e epe
sen
ted coun
se
lo o
t e epe
sen
ta
t
ivea
tt e
i o ne pen
se to e ue
s
tan documen
t
s ecod
s and epot
s
a
sde
sciedinsec
t
ion5
.2a 2 upon ic aden
ia
lo evoca
t
ioni
s a
sed
andto e ue
s
tt e en
t
ieinve
s
t
iga
t
ivef
i
le a
s pe m
i
t
ted
t e na
t
iona
l
secui
t and o
t e app
l
icalela
ic i
f e ue
s
ted s a
l
l e pomp
t
l
pov
idedpiotot et
imese
tfo a i
t
ten ep
l
pov
ideda ea
sonaleoppotun
i
t to ep
l in i
t
ingto andto e ue
s
t
a ev
ie o
ft ede
te m
ina
t
ion
5 pov
ided i
t
ten no
t
ice o
fand ea
son
sfo t e e
su
l
t
so
ft e ev
ie
t eiden
t
i
t o
ft e dec
id
ing au
t oi
t and i
t
ten no
t
ice o
ft e igtto
appea
l
6 pov
idedan oppotun
i
t toappea
lin i
t
ingtoa ig leve
l pane
l
appo
in
ted t eagenc ead
ic s a
l
l ecompi
sed o
fa
tlea
s
tt ee
memes t o o
f
oms a
l
l ese
lec
tedfom ou
t
s
idet esecui
t f
ie
ld
.
Dec
i
s
ion
so
ft e pane
ls a
l
l ein i
t
ing andf
ina
l ecep
ta
s pov
ided
insusec
t
ion o
fti
ssec
t
ion and
7 pov
idedanoppotun
i
t toappea pesona
l
l andto pe
sen
te
levan
t
documen
t
s ma
teia
l
s andin
fo ma
t
iona
tsome po
in
tint e poce
s
s e
foe
an adud
ica
t
ive o o
t e au
t oi
t o
t e t ant einve
s
t
iga
t
ing en
t
i
t a
s
de
te m
ined t eagenc ead
.A i
t
tensumma o ecod
ing o
fsuc
appeaance s a
l
l e made pat o
ft e app
l
ican
ts o emp
loees secui
t
ecod un
le
s
ssuc appeaanceoccusint e pe
senceo
ft eappea
l
s pane
l
de
sciedinsusec
t
ion a 6 o
fti
ssec
t
ion
.
o
tinginti
ssec
t
ions a
l
l poii
tanagenc eadfom pesona
l
l
eec
i
s
ingt e appea
l au
t oi
t in susec
t
ion a 6 o
fti
s sec
t
ion a
sed
upon ecommenda
t
ion
sfomanappea
l
s pane
l
.Insuc ca
se t e dec
i
s
ion
o
ft eagenc eads a
l
l ef
ina
l
.
c Agenc ead
ss a
l
l pomu
lga
te egu
la
t
ion
stoimp
lemen
tti
ssec
t
ion
and a
tt e
i so
led
i
sce
t
ionanda
se
souce
sandna
t
iona
lsecui
t con
s
idea
t
ion
s pe m
i
t ma pov
ide add
i
t
iona
l ev
ie poceed
ing
s e ondt o
se
eu
ied
susec
t
ion a o
fti
s sec
t
ion
. Ti
s sec
t
ion doe
s no
t eu
ie
add
i
t
iona
l poceed
ing
s o eve andcea
te
s no pocedua
l o sus
tan
t
ive
igt
s
.
d
ent e ead o
fanagenc o pinc
ipa
l depu
t pesona
l
l cet
i
f
ie
s
ta
t a pocedue se
tfot inti
s sec
t
ion canno
t e made ava
i
lalein
a pat
icu
la ca
se i
t ou
t damag
ingt e na
t
iona
l secui
t in
tee
s
t
so
ft e
n
i
ted ta
te
s
evea
l
ingc
la
s
s
i
f
iedin
fo ma
t
ion t e pat
icu
la pocedue
sa
l
lno
t e madeava
i
lale
.Ti
scet
i
f
ica
t
ions a
l
l econc
lu
s
ive
.
e Ti
ssec
t
ions a
l
l no
t e deemedtol
im
i
to a
f
fec
tt e e
spon
s
ii
l
i
t
and po e o
f an agenc ead pusuan
tto an la o o
te
ecu
t
ive
ode to den o te m
ina
teacce
s
stoc
la
s
s
i
f
iedin
fo ma
t
ionint ein
tee
s
t
s

App
.178

Fede
ra
l Reg
i
s
te
r / Vo
l
. 60
, No
. 151/ Monday
, Augu
s
t7
, 1995/ P
re
s
iden
t
ia
l Documen
t
s

40253

o
f na
t
iona
l secu
r
i
ty
. The powe
r andre
spon
s
ib
i
l
i
tyto deny o
rte
rm
ina
te
acce
s
sto c
la
s
s
i
f
iedin
fo
rma
t
ion pu
r
suan
tto anylaw o
ro
the
r Execu
t
ive
o
rde
r may be exe
rc
i
sed on
ly whe
rethe agency head de
te
rm
ine
stha
tthe
p
rocedu
re
sp
re
sc
r
ibedinsub
sec
t
ion(a
)o
fth
i
ssec
t
ioncanno
t beinvoked
in a manne
rtha
ti
s con
s
i
s
ten
tw
i
th na
t
iona
lsecu
r
i
ty
. Th
i
s de
te
rm
ina
t
ion
sha
l
lbeconc
lu
s
ive
.
(
f
)
(1
) Th
i
ssec
t
ionsha
l
lno
tbedeemedtol
im
i
to
ra
f
fec
tthere
spon
s
ib
i
l
i
ty
and powe
ro
f an agency headto make de
te
rm
ina
t
ion
so
f su
i
tab
i
l
i
tyfo
r
emp
loymen
t
.
(2
) No
th
inginth
i
ssec
t
ionsha
l
lrequ
i
retha
tanagencyp
rov
idethep
roce
du
re
sp
re
sc
r
ibedin sub
sec
t
ion(a
)o
fth
i
s sec
t
ionto an app
l
ican
t whe
re
a cond
i
t
iona
lo
f
fe
ro
f emp
loymen
ti
sw
i
thd
rawnfo
rrea
son
so
fsu
i
tab
i
l
i
ty
o
rany o
the
rrea
son o
the
rthan den
ia
lo
fe
l
ig
ib
i
l
i
tyfo
racce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
ion
.
(3
) Asu
i
tab
i
l
i
tyde
te
rm
ina
t
ionsha
l
lno
tbeu
sedfo
rthepu
rpo
seo
fdeny
ing
an app
l
ican
to
r emp
loyeetherev
iew p
roceed
ing
so
fth
i
s sec
t
ion whe
re
the
re ha
s beena den
ia
lo
rrevoca
t
ion o
fe
l
ig
ib
i
l
i
tyfo
racce
s
stoc
la
s
s
i
f
ied
in
fo
rma
t
ion
.
PART6—
IMPLEMENTAT
ION
Sec
.6
.1
.AgencyImp
lemen
t
ing Re
spon
s
ib
i
l
i
t
ie
s
. Head
so
fagenc
ie
stha
tg
ran
t
emp
loyee
sacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
l
:(a
)de
s
igna
teasen
io
ragency
o
f
f
ic
ia
lto d
i
rec
t and adm
in
i
s
te
rthe agency
’
s pe
r
sonne
lsecu
r
i
ty p
rog
ram
e
s
tab
l
i
shedbyth
i
so
rde
r
.A
l
lsuch p
rog
ram
ssha
l
linc
ludeac
t
iveove
r
s
igh
t
andcon
t
inu
ingsecu
r
i
tyeduca
t
ionandawa
rene
s
sp
rog
ram
stoen
su
ree
f
fec
t
ive
imp
lemen
ta
t
iono
fth
i
so
rde
r
;
(b
) coope
ra
te
, unde
rthe gu
idance o
fthe Secu
r
i
ty Po
l
icy Boa
rd
, w
i
th
o
the
r agenc
ie
sto ach
ieve p
rac
t
ica
l
, con
s
i
s
ten
t
, and e
f
fec
t
ive ad
jud
ica
t
ive
t
ra
in
ingandgu
ide
l
ine
s
;and
(c
)conduc
t pe
r
iod
iceva
lua
t
ion
so
ftheagency
’
simp
lemen
ta
t
ionandad
m
in
i
s
t
ra
t
ion o
fth
i
so
rde
r
,inc
lud
ingtheimp
lemen
ta
t
ion o
fsec
t
ion 1
.3
(a
)
o
fth
i
so
rde
r
. Cop
ie
so
feachrepo
r
tsha
l
lbep
rov
idedtotheSecu
r
i
tyPo
l
icy
Boa
rd
.
Sec
.6
.2
.Emp
loyeeRe
spon
s
ib
i
l
i
t
ie
s
.(a
)Emp
loyee
s whoa
reg
ran
tede
l
ig
ib
i
l
i
ty
fo
racce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ionsha
l
l
:
(1
)p
ro
tec
tc
la
s
s
i
f
iedin
fo
rma
t
ioninthe
i
rcu
s
todyf
romunau
tho
r
izedd
i
sc
lo
su
re
;
(2
)repo
r
ta
l
lcon
tac
t
sw
i
thpe
r
son
s
,inc
lud
ingfo
re
ignna
t
iona
l
s
, whoseek
inany waytoob
ta
inunau
tho
r
izedacce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ion
;
(3
)repo
r
ta
l
lv
io
la
t
ion
so
fsecu
r
i
tyregu
la
t
ion
stotheapp
rop
r
ia
tesecu
r
i
ty
o
f
f
ic
ia
l
s
;and
(4
) comp
ly w
i
th a
l
lo
the
rsecu
r
i
tyrequ
i
remen
t
sse
tfo
r
thinth
i
so
rde
r
andi
t
simp
lemen
t
ingregu
la
t
ion
s
.
(b
) Emp
loyee
sa
re encou
raged and expec
tedtorepo
r
t anyin
fo
rma
t
ion
tha
tra
i
se
s doub
t
sa
sto whe
the
r ano
the
r emp
loyee
’
s con
t
inued e
l
ig
ib
i
l
i
ty
fo
racce
s
stoc
la
s
s
i
f
iedin
fo
rma
t
ioni
sc
lea
r
lycon
s
i
s
ten
tw
i
ththe na
t
iona
l
secu
r
i
ty
.
)
Sec
.6
.3
. Secu
r
i
ty Po
l
icy Boa
rd Re
spon
s
ib
i
l
i
t
ie
s andImp
lemen
ta
t
ion
. (a
W
i
thre
spec
tto ac
t
ion
staken bythe Secu
r
i
ty Po
l
icy Boa
rd pu
r
suan
tto
sec
t
ion
s1
.3
(c
)
,3
.1
(
f
)
,3
.2
(b
)
,3
.3
(a
)
(2
)
,and3
.4
(c
)o
fth
i
so
rde
r
,the Secu
r
i
ty
Po
l
icy Boa
rd sha
l
l make recommenda
t
ion
stothe P
re
s
iden
tth
roughthe
A
s
s
i
s
tan
ttothe P
re
s
iden
tfo
r Na
t
iona
l Secu
r
i
ty A
f
fa
i
r
sfo
rimp
lemen
ta
t
ion
.
(b
) Any gu
ide
l
ine
s
,s
tanda
rd
s
,o
rp
rocedu
re
s deve
loped bythe Secu
r
i
ty
Po
l
icyBoa
rdpu
r
suan
ttoth
i
so
rde
rsha
l
lbecon
s
i
s
ten
tw
i
ththo
segu
ide
l
ine
s
i
s
suedbytheFede
ra
l Bu
reauo
fInve
s
t
iga
t
ionin Ma
rch1994on Backg
round
Inve
s
t
iga
t
ion
sPo
l
icy
/Gu
ide
l
ine
sRega
rd
ingSexua
lO
r
ien
ta
t
ion
.

App
.179

40254

Fede
ra
l Reg
i
s
te
r / Vo
l
. 60
, No
. 151/ Monday
, Augu
s
t7
, 1995/ P
re
s
iden
t
ia
l Documen
t
s
(c
)Inca
r
ry
ingou
ti
t
sre
spon
s
ib
i
l
i
t
ie
sunde
rth
i
so
rde
r
,theSecu
r
i
tyPo
l
icy
Boa
rdsha
l
l con
su
l
t whe
re app
rop
r
ia
te w
i
ththe Ove
r
sea
s Secu
r
i
ty Po
l
icy
Boa
rd
.Inca
r
ry
ingou
ti
t
sre
spon
s
ib
i
l
i
t
ie
s unde
rsec
t
ion1
.3
(c
)o
fth
i
so
rde
r
,
the Secu
r
i
ty Po
l
icy Boa
rdsha
l
l ob
ta
inthe concu
r
rence o
fthe D
i
rec
to
ro
f
the O
f
f
iceo
f Managemen
tandBudge
t
.
Sec
.6
.4
. Sanc
t
ion
s
. Emp
loyee
s sha
l
l be sub
jec
tto app
rop
r
ia
te sanc
t
ion
s
i
fthey know
ing
ly and w
i
l
l
fu
l
ly g
ran
te
l
ig
ib
i
l
i
tyfo
r
,o
ra
l
low acce
s
sto
,
c
la
s
s
i
f
iedin
fo
rma
t
ioninv
io
la
t
iono
fth
i
so
rde
ro
ri
t
simp
lemen
t
ingregu
la
t
ion
s
. Sanc
t
ion
s mayinc
luderep
r
imand
,su
spen
s
ion w
i
thou
t pay
,remova
l
,
ando
the
rac
t
ion
sinacco
rdance w
i
thapp
l
icab
lelawandagencyregu
la
t
ion
s
.
PART7—GENERAL PROV
IS
IONS
Sec
.7
.1
.C
la
s
s
i
f
iedIn
fo
rma
t
ion P
rocedu
re
s Ac
t
. No
th
inginth
i
so
rde
ri
s
in
tendedtoa
l
te
rthep
rocedu
re
se
s
tab
l
i
shedunde
rtheC
la
s
s
i
f
iedIn
fo
rma
t
ion
P
rocedu
re
s Ac
t(18 U
.S
.C
. App
.1
)
.
Sec
.7
.2
. Gene
ra
l
. (a
)In
fo
rma
t
ion ob
ta
ined by an agency unde
r sec
t
ion
s
1
.2
(e
)o
r1
.3 o
fth
i
so
rde
r may no
t be d
i
s
sem
ina
ted ou
t
s
idethe agency
,
excep
tto
:
(1
)theagencyemp
loy
ingtheemp
loyee whoi
sthesub
jec
to
fthereco
rd
s
o
rin
fo
rma
t
ion
;
(2
)the Depa
r
tmen
to
fJu
s
t
icefo
rlawen
fo
rcemen
to
rcoun
te
r
in
te
l
l
igence
pu
rpo
se
s
;o
r
(3
)anyagencyi
fsuchin
fo
rma
t
ioni
sc
lea
r
lyre
levan
ttotheau
tho
r
ized
re
spon
s
ib
i
l
i
t
ie
so
fsuchagency
.
(b
) The A
t
to
rney Gene
ra
l
,a
tthereque
s
to
fthe head o
fanagency
,sha
l
l
rende
ranin
te
rp
re
ta
t
ion o
fth
i
so
rde
rw
i
thre
spec
ttoany que
s
t
iona
r
i
s
ing
inthecou
r
seo
fi
t
sadm
in
i
s
t
ra
t
ion
.
(c
) No p
r
io
r Execu
t
ive o
rde
r
sa
rerepea
led byth
i
so
rde
r
. Tothe ex
ten
t
tha
tth
i
so
rde
ri
sincon
s
i
s
ten
tw
i
th any p
rov
i
s
ion o
f any p
r
io
r Execu
t
ive
o
rde
r
,th
i
so
rde
r sha
l
l con
t
ro
l
, excep
ttha
tth
i
so
rde
r sha
l
l no
td
im
in
i
sh
o
ro
the
rw
i
se a
f
fec
ttherequ
i
remen
t
so
f Execu
t
ive O
rde
r No
. 10450
,the
den
ia
landrevoca
t
ionp
rocedu
re
sp
rov
idedtoind
iv
idua
l
scove
redbyExecu
t
ive O
rde
r No
. 10865
,a
samended
,o
racce
s
s by h
i
s
to
r
ica
lre
sea
rche
r
sand
fo
rme
rp
re
s
iden
t
ia
l appo
in
tee
s unde
r Execu
t
ive O
rde
r No
. 12958 o
r any
succe
s
so
ro
rde
r
.
(d
)I
f any p
rov
i
s
ion o
fth
i
so
rde
ro
rthe app
l
ica
t
ion o
fsuch p
rov
i
s
ion
i
s he
ldto beinva
l
id
,therema
inde
ro
fth
i
so
rde
r sha
l
l no
t be a
f
fec
ted
.
(e
) Th
i
sExecu
t
iveo
rde
ri
sin
tendedon
lytoimp
rovethein
te
rna
l manage
men
to
ftheexecu
t
ive b
ranchandi
s no
tin
tendedto
,and doe
s no
t
,c
rea
te
anyr
igh
ttoadm
in
i
s
t
ra
t
iveo
rjud
ic
ia
lrev
iew
,o
ranyo
the
rr
igh
to
rbene
f
i
t
o
rt
ru
s
tre
spon
s
ib
i
l
i
ty
, sub
s
tan
t
ive o
rp
rocedu
ra
l
, en
fo
rceab
le by a pa
r
ty
aga
in
s
tthe Un
i
ted S
ta
te
s
,i
t
s agenc
ie
so
rin
s
t
rumen
ta
l
i
t
ie
s
,i
t
so
f
f
ice
r
so
r
emp
loyee
s
,o
ranyo
the
rpe
r
son
.
(
f
)Th
i
so
rde
ri
se
f
fec
t
iveimmed
ia
te
ly
.

œ
[FR Doc
.95–19654

THE WH
ITE HOUSE
,
Augu
s
t2
,1995
.

F
i
led8–4–95
;12
:18 pm
]
B
i
l
l
ingcode 3195–01–P

App
.180

–

Administration of George W. Bush, 2003 / Mar. 25
FBI investigate domestic threats in this time
of war, additional funding for the Coast
Guard for port security in the United States
and in the Middle East.
In this time of heightened security, we are
expecting States and communities to take on
greater responsibilities to protect critical infrastructure. And so I’m seeking additional
resources to help States and cities make
these preparations for the protection of our
citizens.
Yesterday I informed the leaders of Congress of these spending requests. The situation in any war is fluid. I reminded them
of that fact, and so I’m asking Congress for
flexibility in how these funds can be allocated. They heard that message. They also
heard the message that the need is urgent.
The wartime supplemental is directly related
to winning this war and to securing the peace
that will follow this war. I ask Congress to
act quickly and responsibly.
One thing is for certain: Business as usual
on Capitol Hill can’t go on during this time
of war. And by that I mean the supplemental
should not be viewed as an opportunity to
add spending that is unrelated, unwise, and
unnecessary. Every dollar we spend must
serve the interest of our Nation, and the interest of our Nation in this supplemental is
to win this war and to be able to keep the
peace.
Eighteen months ago, this building came
under attack. From that day to this, we have
been engaged in a new kind of war, and we
are winning. We will not leave our future
to be decided by terrorist groups or terrorist
regimes. At every turn in this conflict, Americans can be confident in the people who wear
our Nation’s uniform. We support them. We
are thankful for their service in places of
great danger, in this hour of great need.
May God continue to look out after those
who defend the peace and freedom. And may
God continue to bless America. Thank you.
NOTE: The President spoke at 10:30 a.m. in the
Eisenhower Dining Room. In his remarks, he referred to President Saddam Hussein of Iraq; and
Gen. Tommy R. Franks, USA, combatant commander, U.S. Central Command. The Office of
the Press Secretary also released a Spanish language transcript of these remarks.

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00007

Executive Order 13292—Further
Amendment to Executive Order
12958, as Amended, Classified
National Security Information
March 25, 2003
By the authority vested in me as President
by the Constitution and the laws of the
United States of America, and in order to
further amend Executive Order 12958, as
amended, it is hereby ordered that Executive
Order 12958 is amended to read as follows:
‘‘Classified National Security
Information
This order prescribes a uniform system for
classifying, safeguarding, and declassifying
national security information, including information relating to defense against
transnational terrorism. Our democratic
principles require that the American people
be informed of the activities of their Government. Also, our Nation’s progress depends
on the free flow of information. Nevertheless, throughout our history, the national defense has required that certain information
be maintained in confidence in order to protect our citizens, our democratic institutions,
our homeland security, and our interactions
with foreign nations. Protecting information
critical to our Nation’s security remains a priority.
Now, Therefore, by the authority vested
in me as President by the Constitution and
the laws of the United States of America, it
is hereby ordered as follows:
Part 1—Original Classification
Sec. 1.1. Classification Standards. (a) Information may be originally classified under
the terms of this order only if all of the following conditions are met:
(1) an original classification authority is
classifying the information;
(2) the information is owned by, produced by or for, or is under the control of the United States Government;
(3) the information falls within one or
more of the categories of information
listed in section 1.4 of this order; and
(4) the original classification authority
determines that the unauthorized disclosure of the information reasonably

App.Sfmt
181
1244

Fmt 1244

359

E:\PRESDOCS\P13MRT4.028

P13MRT4

360

Mar. 25 / Administration of George W. Bush, 2003

could be expected to result in damage
to the national security, which includes defense against transnational
terrorism, and the original classification authority is able to identify or describe the damage.
(b) Classified information shall not be declassified automatically as a result of any unauthorized disclosure of identical or similar
information.
(c) The unauthorized disclosure of foreign
government information is presumed to
cause damage to the national security.
Sec. 1.2. Classification Levels. (a) Information may be classified at one of the following three levels:
(1) ‘‘Top Secret’’ shall be applied to information, the unauthorized disclosure
of which reasonably could be expected to cause exceptionally grave
damage to the national security that
the original classification authority is
able to identify or describe.
(2) ‘‘Secret’’ shall be applied to information, the unauthorized disclosure of
which reasonably could be expected
to cause serious damage to the national security that the original classification authority is able to identify or
describe.
(3) ‘‘Confidential’’ shall be applied to information, the unauthorized disclosure of which reasonably could be expected to cause damage to the national security that the original classification authority is able to identify or
describe.
(b) Except as otherwise provided by statute, no other terms shall be used to identify
United States classified information.
Sec. 1.3. Classification Authority. (a) The
authority to classify information originally
may be exercised only by:
(1) the President and, in the performance
of executive duties, the Vice President;
(2) agency heads and officials designated
by the President in the Federal Register; and
(3) United States Government officials
delegated this authority pursuant to
paragraph (c) of this section.

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00008

(b) Officials authorized to classify information at a specified level are also authorized
to classify information at a lower level.
(c) Delegation of original classification authority.
(1) Delegations of original classification
authority shall be limited to the minimum required to administer this
order. Agency heads are responsible
for ensuring that designated subordinate officials have a demonstrable and
continuing need to exercise this authority.
(2) ‘‘Top Secret’’ original classification
authority may be delegated only by
the President; in the performance of
executive duties, the Vice President;
or an agency head or official designated pursuant to paragraph (a)(2)
of this section.
(3) ‘‘Secret’’ or ‘‘Confidential’’ original
classification authority may be delegated only by the President; in the
performance of executive duties, the
Vice President; or an agency head or
official designated pursuant to paragraph (a)(2) of this section; or the senior agency official described in section
5.4(d) of this order, provided that official has been delegated ‘‘Top Secret’’
original classification authority by the
agency head.
(4) Each delegation of original classification authority shall be in writing and
the authority shall not be redelegated
except as provided in this order. Each
delegation shall identify the official by
name or position title.
(d) Original classification authorities must
receive training in original classification as
provided in this order and its implementing
directives. Such training must include instruction on the proper safeguarding of classified information and of the criminal, civil,
and administrative sanctions that may be
brought against an individual who fails to
protect classified information from unauthorized disclosure.
(e) Exceptional cases. When an employee,
government contractor, licensee, certificate
holder, or grantee of an agency who does
not have original classification authority

App.Sfmt
182
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
originates information believed by that person to require classification, the information
shall be protected in a manner consistent
with this order and its implementing directives. The information shall be transmitted
promptly as provided under this order or its
implementing directives to the agency that
has appropriate subject matter interest and
classification authority with respect to this information. That agency shall decide within
30 days whether to classify this information.
If it is not clear which agency has classification responsibility for this information, it
shall be sent to the Director of the Information Security Oversight Office. The Director
shall determine the agency having primary
subject matter interest and forward the information, with appropriate recommendations,
to that agency for a classification determination.
Sec. 1.4. Classification Categories. Information shall not be considered for classification unless it concerns:
(a) military plans, weapons systems, or operations;
(b) foreign government information;
(c) intelligence activities (including special
activities), intelligence sources or methods,
or cryptology;
(d) foreign relations or foreign activities of
the United States, including confidential
sources;
(e) scientific, technological, or economic
matters relating to the national security,
which includes defense against transnational
terrorism;
(f) United States Government programs
for safeguarding nuclear materials or facilities;
(g) vulnerabilities or capabilities of systems, installations, infrastructures, projects,
plans, or protection services relating to the
national security, which includes defense
against transnational terrorism; or
(h) weapons of mass destruction.
Sec. 1.5. Duration of Classification. (a) At
the time of original classification, the original
classification authority shall attempt to establish a specific date or event for declassification based upon the duration of the national
security sensitivity of the information. Upon
reaching the date or event, the information
shall be automatically declassified. The date

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00009

or event shall not exceed the time frame established in paragraph (b) of this section.
(b) If the original classification authority
cannot determine an earlier specific date or
event for declassification, information shall
be marked for declassification 10 years from
the date of the original decision, unless the
original classification authority otherwise determines that the sensitivity of the information requires that it shall be marked for declassification for up to 25 years from the date
of the original decision. All information classified under this section shall be subject to
section 3.3 of this order if it is contained in
records of permanent historical value under
title 44, United States Code.
(c) An original classification authority may
extend the duration of classification, change
the level of classification, or reclassify specific
information only when the standards and
procedures for classifying information under
this order are followed.
(d) Information marked for an indefinite
duration of classification under predecessor
orders, for example, marked as ‘‘Originating
Agency’s Determination Required,’’ or information classified under predecessor orders
that contains no declassification instructions
shall be declassified in accordance with part
3 of this order.
Sec. 1.6. Identification and Markings. (a)
At the time of original classification, the following shall appear on the face of each classified document, or shall be applied to other
classified media in an appropriate manner:
(1) one of the three classification levels
defined in section 1.2 of this order;
(2) the identity, by name or personal
identifier and position, of the original
classification authority;
(3) the agency and office of origin, if not
otherwise evident;
(4) declassification instructions, which
shall indicate one of the following:
(A) the date or event for declassification,
as prescribed in section 1.5(a) or section 1.5(c);
(B) the date that is 10 years from the date
of original classification, as prescribed
in section 1.5(b); or
(C) the date that is up to 25 years from
the date of original classification, as
prescribed in section 1.5 (b); and

App.Sfmt
183
1244

Fmt 1244

361

E:\PRESDOCS\P13MRT4.028

P13MRT4

362

Mar. 25 / Administration of George W. Bush, 2003

(5) a concise reason for classification that,
at a minimum, cites the applicable
classification categories in section 1.4
of this order.
(b) Specific information described in paragraph (a) of this section may be excluded if
it would reveal additional classified information.
(c) With respect to each classified document, the agency originating the document
shall, by marking or other means, indicate
which portions are classified, with the applicable classification level, and which portions
are unclassified. In accordance with standards prescribed in directives issued under
this order, the Director of the Information
Security Oversight Office may grant waivers
of this requirement. The Director shall revoke any waiver upon a finding of abuse.
(d) Markings implementing the provisions
of this order, including abbreviations and requirements to safeguard classified working
papers, shall conform to the standards prescribed in implementing directives issued
pursuant to this order.
(e) Foreign government information shall
retain its original classification markings or
shall be assigned a U.S. classification that
provides a degree of protection at least equivalent to that required by the entity that furnished the information. Foreign government
information retaining its original classification markings need not be assigned a U.S.
classification marking provided that the responsible agency determines that the foreign
government markings are adequate to meet
the purposes served by U.S. classification
markings.
(f) Information assigned a level of classification under this or predecessor orders
shall be considered as classified at that level
of classification despite the omission of other
required markings. Whenever such information is used in the derivative classification
process or is reviewed for possible declassification, holders of such information shall
coordinate with an appropriate classification
authority for the application of omitted markings.
(g) The classification authority shall, whenever practicable, use a classified addendum
whenever classified information constitutes a

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00010

small portion of an otherwise unclassified
document.
(h) Prior to public release, all declassified
records shall be appropriately marked to reflect their declassification.
Sec. 1.7. Classification Prohibitions and
Limitations. (a) In no case shall information
be classified in order to:
(1) conceal violations of law, inefficiency,
or administrative error;
(2) prevent embarrassment to a person,
organization, or agency;
(3) restrain competition; or
(4) prevent or delay the release of information that does not require protection in the interest of the national security.
(b) Basic scientific research information
not clearly related to the national security
shall not be classified.
(c) Information may be reclassified after
declassification and release to the public
under proper authority only in accordance
with the following conditions:
(1) the reclassification action is taken
under the personal authority of the
agency head or deputy agency head,
who determines in writing that the reclassification of the information is
necessary in the interest of the national security;
(2) the information may be reasonably recovered; and
(3) the reclassification action is reported
promptly to the Director of the Information Security Oversight Office.
(d) Information that has not previously
been disclosed to the public under proper
authority may be classified or reclassified
after an agency has received a request for
it under the Freedom of Information Act (5
U.S.C. 552) or the Privacy Act of 1974 (5
U.S.C. 552a), or the mandatory review provisions of section 3.5 of this order only if such
classification meets the requirements of this
order and is accomplished on a documentby-document basis with the personal participation or under the direction of the agency
head, the deputy agency head, or the senior
agency official designated under section 5.4
of this order.

App.Sfmt
184
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
(e) Compilations of items of information
that are individually unclassified may be classified if the compiled information reveals an
additional association or relationship that: (1)
meets the standards for classification under
this order; and (2) is not otherwise revealed
in the individual items of information. As
used in this order, ‘‘compilation’’ means an
aggregation of pre-existing unclassified items
of information.
Sec. 1.8. Classification Challenges. (a) Authorized holders of information who, in good
faith, believe that its classification status is
improper are encouraged and expected to
challenge the classification status of the information in accordance with agency procedures established under paragraph (b) of this
section.
(b) In accordance with implementing directives issued pursuant to this order, an
agency head or senior agency official shall
establish procedures under which authorized
holders of information are encouraged and
expected to challenge the classification of information that they believe is improperly
classified or unclassified. These procedures
shall ensure that:
(1) individuals are not subject to retribution for bringing such actions;
(2) an opportunity is provided for review
by an impartial official or panel; and
(3) individuals are advised of their right
to appeal agency decisions to the
Interagency Security Classification
Appeals Panel (Panel) established by
section 5.3 of this order.
Part 2—Derivative Classification
Sec. 2.1. Use of Derivative Classification.
(a) Persons who only reproduce, extract, or
summarize classified information, or who
only apply classification markings derived
from source material or as directed by a classification guide, need not possess original
classification authority.
(b) Persons who apply derivative classification markings shall:
(1) observe and respect original classification decisions; and
(2) carry forward to any newly created
documents the pertinent classification
markings. For information derivatively classified based on multiple

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00011

sources, the derivative classifier shall
carry forward:
(A) the date or event for declassification
that corresponds to the longest period
of classification among the sources;
and
(B) a listing of these sources on or attached to the official file or record
copy.
Sec. 2.2. Classification Guides. (a) Agencies with original classification authority shall
prepare classification guides to facilitate the
proper and uniform derivative classification
of information. These guides shall conform
to standards contained in directives issued
under this order.
(b) Each guide shall be approved personally and in writing by an official who:
(1) has program or supervisory responsibility over the information or is the
senior agency official; and
(2) is authorized to classify information
originally at the highest level of classification prescribed in the guide.
(c) Agencies shall establish procedures to
ensure that classification guides are reviewed
and updated as provided in directives issued
under this order.
Part 3—Declassification and
Downgrading
Sec. 3.1. Authority for Declassification.
(a) Information shall be declassified as soon
as it no longer meets the standards for classification under this order.
(b) It is presumed that information that
continues to meet the classification requirements under this order requires continued
protection. In some exceptional cases, however, the need to protect such information
may be outweighed by the public interest in
disclosure of the information, and in these
cases the information should be declassified.
When such questions arise, they shall be referred to the agency head or the senior agency official. That official will determine, as an
exercise of discretion, whether the public interest in disclosure outweighs the damage to
the national security that might reasonably
be expected from disclosure. This provision
does not:

App.Sfmt
185
1244

Fmt 1244

363

E:\PRESDOCS\P13MRT4.028

P13MRT4

364

Mar. 25 / Administration of George W. Bush, 2003

(1) amplify or modify the substantive criteria or procedures for classification;
or
(2) create any substantive or procedural
rights subject to judicial review.
(c) If the Director of the Information Security Oversight Office determines that information is classified in violation of this
order, the Director may require the information to be declassified by the agency that
originated the classification. Any such decision by the Director may be appealed to the
President through the Assistant to the President for National Security Affairs. The information shall remain classified pending a
prompt decision on the appeal.
(d) The provisions of this section shall also
apply to agencies that, under the terms of
this order, do not have original classification
authority, but had such authority under predecessor orders.
Sec. 3.2. Transferred Records. (a) In the
case of classified records transferred in conjunction with a transfer of functions, and not
merely for storage purposes, the receiving
agency shall be deemed to be the originating
agency for purposes of this order.
(b) In the case of classified records that
are not officially transferred as described in
paragraph (a) of this section, but that originated in an agency that has ceased to exist
and for which there is no successor agency,
each agency in possession of such records
shall be deemed to be the originating agency
for purposes of this order. Such records may
be declassified or downgraded by the agency
in possession after consultation with any
other agency that has an interest in the subject matter of the records.
(c) Classified records accessioned into the
National Archives and Records Administration (National Archives) as of the effective
date of this order shall be declassified or
downgraded by the Archivist of the United
States (Archivist) in accordance with this
order, the directives issued pursuant to this
order, agency declassification guides, and any
existing procedural agreement between the
Archivist and the relevant agency head.
(d) The originating agency shall take all
reasonable steps to declassify classified information contained in records determined to
have permanent historical value before they

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00012

are accessioned into the National Archives.
However, the Archivist may require that classified records be accessioned into the National Archives when necessary to comply
with the provisions of the Federal Records
Act. This provision does not apply to records
being transferred to the Archivist pursuant
to section 2203 of title 44, United States
Code, or records for which the National Archives serves as the custodian of the records
of an agency or organization that has gone
out of existence.
(e) To the extent practicable, agencies
shall adopt a system of records management
that will facilitate the public release of documents at the time such documents are declassified pursuant to the provisions for automatic declassification in section 3.3 of this
order.
Sec. 3.3. Automatic Declassification. (a)
Subject to paragraphs (b)–(e) of this section,
on December 31, 2006, all classified records
that (1) are more than 25 years old and (2)
have been determined to have permanent
historical value under title 44, United States
Code, shall be automatically declassified
whether or not the records have been reviewed. Subsequently, all classified records
shall be automatically declassified on December 31 of the year that is 25 years from
the date of its original classification, except
as provided in paragraphs (b)–(e) of this section.
(b) An agency head may exempt from
automatic declassification under paragraph
(a) of this section specific information, the
release of which could be expected to:
(1) reveal the identity of a confidential
human source, or a human intelligence source, or reveal information
about the application of an intelligence source or method;
(2) reveal information that would assist in
the development or use of weapons
of mass destruction;
(3) reveal information that would impair
U.S. cryptologic systems or activities;
(4) reveal information that would impair
the application of state of the art technology within a U.S. weapon system;
(5) reveal actual U.S. military war plans
that remain in effect;

App.Sfmt
186
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
(6) reveal information, including foreign
government information, that would
seriously and demonstrably impair relations between the United States and
a foreign government, or seriously
and demonstrably undermine ongoing diplomatic activities of the United
States;
(7) reveal information that would clearly
and demonstrably impair the current
ability of United States Government
officials to protect the President, Vice
President, and other protectees for
whom protection services, in the interest of the national security, are authorized;
(8) reveal information that would seriously and demonstrably impair current national security emergency preparedness plans or reveal current
vulnerabilities of systems, installations, infrastructures, or projects relating to the national security; or
(9) violate a statute, treaty, or international agreement.
(c) An agency head shall notify the President through the Assistant to the President
for National Security Affairs of any specific
file series of records for which a review or
assessment has determined that the information within that file series almost invariably
falls within one or more of the exemption
categories listed in paragraph (b) of this section and which the agency proposes to exempt from automatic declassification. The
notification shall include:
(1) a description of the file series;
(2) an explanation of why the information
within the file series is almost invariably exempt from automatic declassification and why the information
must remain classified for a longer
period of time; and
(3) except for the identity of a confidential human source or a human intelligence source, as provided in paragraph (b) of this section, a specific
date or event for declassification of
the information.
The President may direct the agency head
not to exempt the file series or to declassify
the information within that series at an earlier date than recommended. File series ex-

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00013

emptions previously approved by the President shall remain valid without any additional
agency action.
(d) At least 180 days before information
is automatically declassified under this section, an agency head or senior agency official
shall notify the Director of the Information
Security Oversight Office, serving as Executive Secretary of the Panel, of any specific
information beyond that included in a notification to the President under paragraph (c)
of this section that the agency proposes to
exempt from automatic declassification. The
notification shall include:
(1) a description of the information, either by reference to information in
specific records or in the form of a
declassification guide;
(2) an explanation of why the information
is exempt from automatic declassification and must remain classified for a
longer period of time; and
(3) except for the identity of a confidential human source or a human intelligence source, as provided in paragraph (b) of this section, a specific
date or event for declassification of
the information. The Panel may direct the agency not to exempt the information or to declassify it at an earlier date than recommended. The
agency head may appeal such a decision to the President through the Assistant to the President for National
Security Affairs. The information will
remain classified while such an appeal
is pending.
(e) The following provisions shall apply to
the onset of automatic declassification:
(1) Classified records within an integral
file block, as defined in this order,
that are otherwise subject to automatic declassification under this section shall not be automatically declassified until December 31 of the year
that is 25 years from the date of the
most recent record within the file
block.
(2) By notification to the Director of the
Information Security Oversight Office, before the records are subject to
automatic declassification, an agency

App.Sfmt
187
1244

Fmt 1244

365

E:\PRESDOCS\P13MRT4.028

P13MRT4

366

Mar. 25 / Administration of George W. Bush, 2003

head or senior agency official designated under section 5.4 of this order
may delay automatic declassification
for up to 5 additional years for classified information contained in
microforms, motion pictures, audiotapes, videotapes, or comparable
media that make a review for possible
declassification exemptions more difficult or costly.
(3) By notification to the Director of the
Information Security Oversight Office, before the records are subject to
automatic declassification, an agency
head or senior agency official designated under section 5.4 of this order
may delay automatic declassification
for up to 3 years for classified records
that have been referred or transferred
to that agency by another agency less
than 3 years before automatic declassification would otherwise be required.
(4) By notification to the Director of the
Information Security Oversight Office, an agency head or senior agency
official designated under section 5.4
of this order may delay automatic declassification for up to 3 years from
the date of discovery of classified
records that were inadvertently not
reviewed prior to the effective date
of automatic declassification.
(f) Information exempted from automatic
declassification under this section shall remain subject to the mandatory and systematic declassification review provisions of this
order.
(g) The Secretary of State shall determine
when the United States should commence
negotiations with the appropriate officials of
a foreign government or international organization of governments to modify any treaty
or international agreement that requires the
classification of information contained in
records affected by this section for a period
longer than 25 years from the date of its creation, unless the treaty or international agreement pertains to information that may otherwise remain classified beyond 25 years under
this section.
(h) Records containing information that
originated with other agencies or the disclo-

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00014

sure of which would affect the interests or
activities of other agencies shall be referred
for review to those agencies and the information of concern shall be subject to automatic
declassification only by those agencies, consistent with the provisions of subparagraphs
(e)(3) and (e)(4) of this section.
Sec. 3.4. Systematic Declassification Review. (a) Each agency that has originated
classified information under this order or its
predecessors shall establish and conduct a
program for systematic declassification review. This program shall apply to records of
permanent historical value exempted from
automatic declassification under section 3.3
of this order. Agencies shall prioritize the systematic review of records based upon the degree of researcher interest and the likelihood
of declassification upon review.
(b) The Archivist shall conduct a systematic declassification review program for classified records: (1) accessioned into the National Archives as of the effective date of this
order; (2) transferred to the Archivist pursuant to section 2203 of title 44, United States
Code; and (3) for which the National Archives serves as the custodian for an agency
or organization that has gone out of existence. This program shall apply to pertinent
records no later than 25 years from the date
of their creation. The Archivist shall establish
priorities for the systematic review of these
records based upon the degree of researcher
interest and the likelihood of declassification
upon review. These records shall be reviewed
in accordance with the standards of this
order, its implementing directives, and declassification guides provided to the Archivist
by each agency that originated the records.
The Director of the Information Security
Oversight Office shall ensure that agencies
provide the Archivist with adequate and current declassification guides.
(c) After consultation with affected agencies, the Secretary of Defense may establish
special procedures for systematic review for
declassification of classified cryptologic information, and the Director of Central Intelligence may establish special procedures for
systematic review for declassification of classified information pertaining to intelligence
activities (including special activities), or intelligence sources or methods.

App.Sfmt
188
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
Sec. 3.5. Mandatory Declassification Review. (a) Except as provided in paragraph (b)
of this section, all information classified
under this order or predecessor orders shall
be subject to a review for declassification by
the originating agency if:
(1) the request for a review describes the
document or material containing the
information with sufficient specificity
to enable the agency to locate it with
a reasonable amount of effort;
(2) the information is not exempted from
search and review under sections
105C, 105D, or 701 of the National
Security Act of 1947 (50 U.S.C. 403–
5c, 403–5e, and 431); and
(3) the information has not been reviewed for declassification within the
past 2 years. If the agency has reviewed the information within the
past 2 years, or the information is the
subject of pending litigation, the
agency shall inform the requester of
this fact and of the requester’s appeal
rights.
(b) Information originated by:
(1) the incumbent President or, in the
performance of executive duties, the
incumbent Vice President;
(2) the incumbent President’s White
House Staff or, in the performance
of executive duties, the incumbent
Vice President’s Staff;
(3) committees, commissions, or boards
appointed by the incumbent President; or
(4) other entities within the Executive
Office of the President that solely advise and assist the incumbent President is exempted from the provisions
of paragraph (a) of this section. However, the Archivist shall have the authority to review, downgrade, and declassify papers or records of former
Presidents under the control of the
Archivist pursuant to sections 2107,
2111, 2111 note, or 2203 of title 44,
United States Code. Review procedures developed by the Archivist shall
provide for consultation with agencies
having primary subject matter interest and shall be consistent with the
provisions of applicable laws or lawful

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00015

agreements that pertain to the respective Presidential papers or records.
Agencies with primary subject matter
interest shall be notified promptly of
the Archivist’s decision. Any final decision by the Archivist may be appealed by the requester or an agency
to the Panel. The information shall remain classified pending a prompt decision on the appeal.
(c) Agencies conducting a mandatory review for declassification shall declassify information that no longer meets the standards
for classification under this order. They shall
release this information unless withholding
is otherwise authorized and warranted under
applicable law.
(d) In accordance with directives issued
pursuant to this order, agency heads shall develop procedures to process requests for the
mandatory review of classified information.
These procedures shall apply to information
classified under this or predecessor orders.
They also shall provide a means for administratively appealing a denial of a mandatory
review request, and for notifying the requester of the right to appeal a final agency
decision to the Panel.
(e) After consultation with affected agencies, the Secretary of Defense shall develop
special procedures for the review of
cryptologic information; the Director of Central Intelligence shall develop special procedures for the review of information pertaining to intelligence activities (including
special activities), or intelligence sources or
methods; and the Archivist shall develop special procedures for the review of information
accessioned into the National Archives.
Sec. 3.6. Processing Requests and Reviews. In response to a request for information under the Freedom of Information Act,
the Privacy Act of 1974, or the mandatory
review provisions of this order, or pursuant
to the automatic declassification or systematic review provisions of this order:
(a) An agency may refuse to confirm or
deny the existence or nonexistence of requested records whenever the fact of their
existence or nonexistence is itself classified
under this order or its predecessors.

App.Sfmt
189
1244

Fmt 1244

367

E:\PRESDOCS\P13MRT4.028

P13MRT4

368

Mar. 25 / Administration of George W. Bush, 2003

(b) When an agency receives any request
for documents in its custody that contain information that was originally classified by another agency, or comes across such documents in the process of the automatic declassification or systematic review provisions of
this order, it shall refer copies of any request
and the pertinent documents to the originating agency for processing, and may, after
consultation with the originating agency, inform any requester of the referral unless such
association is itself classified under this order
or its predecessors. In cases in which the
originating agency determines in writing that
a response under paragraph (a) of this section
is required, the referring agency shall respond to the requester in accordance with
that paragraph.
Sec. 3.7. Declassification Database. (a)
The Director of the Information Security
Oversight Office, in conjunction with those
agencies that originate classified information,
shall coordinate the linkage and effective utilization of existing agency databases of
records that have been declassified and publicly released.
(b) Agency heads shall fully cooperate with
the Director of the Information Security
Oversight Office in these efforts.
Part 4—Safeguarding
Sec. 4.1. General Restrictions on Access.
(a) A person may have access to classified
information provided that:
(1) a favorable determination of eligibility
for access has been made by an agency head or the agency head’s designee;
(2) the person has signed an approved
nondisclosure agreement; and
(3) the person has a need-to-know the information.
(b) Every person who has met the standards for access to classified information in
paragraph (a) of this section shall receive
contemporaneous training on the proper
safeguarding of classified information and on
the criminal, civil, and administrative sanctions that may be imposed on an individual
who fails to protect classified information
from unauthorized disclosure.
(c) Classified information shall remain
under the control of the originating agency

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00016

or its successor in function. An agency shall
not disclose information originally classified
by another agency without its authorization.
An official or employee leaving agency service may not remove classified information
from the agency’s control.
(d) Classified information may not be removed from official premises without proper
authorization.
(e) Persons authorized to disseminate classified information outside the executive
branch shall ensure the protection of the information in a manner equivalent to that provided within the executive branch.
(f) Consistent with law, directives, and regulation, an agency head or senior agency official shall establish uniform procedures to ensure that automated information systems, including networks and telecommunications
systems, that collect, create, communicate,
compute, disseminate, process, or store classified information have controls that:
(1) prevent access by unauthorized persons; and
(2) ensure the integrity of the information.
(g) Consistent with law, directives, and
regulation, each agency head or senior agency official shall establish controls to ensure
that classified information is used, processed,
stored, reproduced, transmitted, and destroyed under conditions that provide adequate protection and prevent access by unauthorized persons.
(h) Consistent with directives issued pursuant to this order, an agency shall safeguard
foreign government information under
standards that provide a degree of protection
at least equivalent to that required by the
government or international organization of
governments that furnished the information.
When adequate to achieve equivalency, these
standards may be less restrictive than the
safeguarding standards that ordinarily apply
to United States ‘‘Confidential’’ information,
including modified handling and transmission and allowing access to individuals
with a need-to-know who have not otherwise
been cleared for access to classified information or executed an approved nondisclosure
agreement.
(i) Except as otherwise provided by statute, this order, directives implementing this

App.Sfmt
190
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
order, or by direction of the President, classified information originating in one agency
shall not be disseminated outside any other
agency to which it has been made available
without the consent of the originating agency. An agency head or senior agency official
may waive this requirement for specific information originated within that agency. For
purposes of this section, the Department of
Defense shall be considered one agency.
Prior consent is not required when referring
records for declassification review that contain information originating in several agencies.
Sec. 4.2. Distribution Controls. (a) Each
agency shall establish controls over the distribution of classified information to ensure
that it is distributed only to organizations or
individuals eligible for access and with a
need-to-know the information.
(b) In an emergency, when necessary to
respond to an imminent threat to life or in
defense of the homeland, the agency head
or any designee may authorize the disclosure
of classified information to an individual or
individuals who are otherwise not eligible for
access. Such actions shall be taken only in
accordance with the directives implementing
this order and any procedures issued by
agencies governing the classified information, which shall be designed to minimize the
classified information that is disclosed under
these circumstances and the number of individuals who receive it. Information disclosed
under this provision or implementing directives and procedures shall not be deemed declassified as a result of such disclosure or subsequent use by a recipient. Such disclosures
shall be reported promptly to the originator
of the classified information. For purposes
of this section, the Director of Central Intelligence may issue an implementing directive
governing the emergency disclosure of classified intelligence information.
(c) Each agency shall update, at least annually, the automatic, routine, or recurring distribution of classified information that they
distribute. Recipients shall cooperate fully
with distributors who are updating distribution lists and shall notify distributors whenever a relevant change in status occurs.
Sec. 4.3. Special Access Programs. (a) Establishment of special access programs. Un-

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00017

less otherwise authorized by the President,
only the Secretaries of State, Defense, and
Energy, and the Director of Central Intelligence, or the principal deputy of each, may
create a special access program. For special
access programs pertaining to intelligence activities (including special activities, but not
including military operational, strategic, and
tactical programs), or intelligence sources or
methods, this function shall be exercised by
the Director of Central Intelligence. These
officials shall keep the number of these programs at an absolute minimum, and shall establish them only when the program is required by statute or upon a specific finding
that:
(1) the vulnerability of, or threat to, specific information is exceptional; and
(2) the normal criteria for determining
eligibility for access applicable to information classified at the same level
are not deemed sufficient to protect
the information from unauthorized
disclosure.
(b) Requirements and limitations. (1) Special access programs shall be limited to programs in which the number of persons who
will have access ordinarily will be reasonably
small and commensurate with the objective
of providing enhanced protection for the information involved.
(2) Each agency head shall establish and
maintain a system of accounting for
special access programs consistent
with directives issued pursuant to this
order.
(3) Special access programs shall be subject to the oversight program established under section 5.4(d) of this
order. In addition, the Director of the
Information Security Oversight Office shall be afforded access to these
programs, in accordance with the security requirements of each program,
in order to perform the functions assigned to the Information Security
Oversight Office under this order. An
agency head may limit access to a special access program to the Director
and no more than one other employee
of the Information Security Oversight
Office, or, for special access programs

App.Sfmt
191
1244

Fmt 1244

369

E:\PRESDOCS\P13MRT4.028

P13MRT4

370

Mar. 25 / Administration of George W. Bush, 2003

that are extraordinarily sensitive and
vulnerable, to the Director only.
(4) The agency head or principal deputy
shall review annually each special access program to determine whether
it continues to meet the requirements
of this order.
(5) Upon request, an agency head shall
brief the Assistant to the President for
National Security Affairs, or a designee, on any or all of the agency’s
special access programs.
(c) Nothing in this order shall supersede
any requirement made by or under 10 U.S.C.
119.
Sec. 4.4. Access by Historical Researchers
and Certain Former Government Personnel.
(a) The requirement in section 4.1(a)(3) of
this order that access to classified information may be granted only to individuals who
have a need-to-know the information may be
waived for persons who:
(1) are engaged in historical research
projects;
(2) previously have occupied policy-making positions to which they were appointed by the President under section 105(a)(2)(A) of title 3, United
States Code, or the Vice President
under 106(a)(1)(A) of title 3, United
States Code; or
(3) served as President or Vice President.
(b) Waivers under this section may be
granted only if the agency head or senior
agency official of the originating agency:
(1) determines in writing that access is
consistent with the interest of the national security;
(2) takes appropriate steps to protect
classified information from unauthorized disclosure or compromise, and
ensures that the information is safeguarded in a manner consistent with
this order; and
(3) limits the access granted to former
Presidential appointees and Vice
Presidential appointees to items that
the person originated, reviewed,
signed, or received while serving as

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00018

a Presidential appointee or a Vice
Presidential appointee.
Part 5—Implementation and Review
Sec. 5.1. Program Direction. (a) The Director of the Information Security Oversight
Office, under the direction of the Archivist
and in consultation with the Assistant to the
President for National Security Affairs, shall
issue such directives as are necessary to implement this order. These directives shall be
binding upon the agencies. Directives issued
by the Director of the Information Security
Oversight Office shall establish standards for:
(1) classification and marking principles;
(2) safeguarding classified information,
which shall pertain to the handling,
storage, distribution, transmittal, and
destruction of and accounting for
classified information;
(3) agency security education and training programs;
(4) agency self-inspection programs; and
(5) classification and declassification
guides.
(b) The Archivist shall delegate the implementation and monitoring functions of this
program to the Director of the Information
Security Oversight Office.
Sec. 5.2. Information Security Oversight
Office. (a) There is established within the National Archives an Information Security
Oversight Office. The Archivist shall appoint
the Director of the Information Security
Oversight Office, subject to the approval of
the President.
(b) Under the direction of the Archivist,
acting in consultation with the Assistant to
the President for National Security Affairs,
the Director of the Information Security
Oversight Office shall:
(1) develop directives for the implementation of this order;
(2) oversee agency actions to ensure
compliance with this order and its implementing directives;
(3) review and approve agency implementing regulations and agency
guides for systematic declassification

App.Sfmt
192
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
review prior to their issuance by the
agency;
(4) have the authority to conduct on-site
reviews of each agency’s program established under this order, and to require of each agency those reports, information, and other cooperation that
may be necessary to fulfill its responsibilities. If granting access to specific
categories of classified information
would pose an exceptional national
security risk, the affected agency head
or the senior agency official shall submit a written justification recommending the denial of access to the
President through the Assistant to the
President for National Security Affairs within 60 days of the request for
access. Access shall be denied pending the response;
(5) review requests for original classification authority from agencies or officials not granted original classification
authority and, if deemed appropriate,
recommend Presidential approval
through the Assistant to the President
for National Security Affairs;
(6) consider and take action on complaints and suggestions from persons
within or outside the Government
with respect to the administration of
the program established under this
order;
(7) have the authority to prescribe, after
consultation with affected agencies,
standardization of forms or procedures that will promote the implementation of the program established
under this order;
(8) report at least annually to the President on the implementation of this
order; and
(9) convene and chair interagency meetings to discuss matters pertaining to
the program established by this order.
Sec. 5.3. Interagency Security Classification Appeals Panel.
(a) Establishment and administration.
(1) There is established an Interagency
Security Classification Appeals Panel.
The Departments of State, Defense,
and Justice, the Central Intelligence
Agency, the National Archives, and

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00019

the Assistant to the President for National Security Affairs shall each be
represented by a senior-level representative who is a full-time or permanent part-time Federal officer or
employee designated to serve as a
member of the Panel by the respective agency head. The President shall
select the Chair of the Panel from
among the Panel members.
(2) A vacancy on the Panel shall be filled
as quickly as possible as provided in
paragraph (a)(1) of this section.
(3) The Director of the Information Security Oversight Office shall serve as
the Executive Secretary. The staff of
the Information Security Oversight
Office shall provide program and administrative support for the Panel.
(4) The members and staff of the Panel
shall be required to meet eligibility
for access standards in order to fulfill
the Panel’s functions.
(5) The Panel shall meet at the call of
the Chair. The Chair shall schedule
meetings as may be necessary for the
Panel to fulfill its functions in a timely
manner.
(6) The Information Security Oversight
Office shall include in its reports to
the President a summary of the Panel’s activities.
(b) Functions. The Panel shall:
(1) decide on appeals by persons who
have filed classification challenges
under section 1.8 of this order;
(2) approve, deny, or amend agency exemptions from automatic declassification as provided in section 3.3 of this
order; and
(3) decide on appeals by persons or entities who have filed requests for mandatory declassification review under
section 3.5 of this order.
(c) Rules and procedures. The Panel shall
issue bylaws, which shall be published in the
Federal Register. The bylaws shall establish
the rules and procedures that the Panel will
follow in accepting, considering, and issuing
decisions on appeals. The rules and procedures of the Panel shall provide that the
Panel will consider appeals only on actions
in which:

App.Sfmt
193
1244

Fmt 1244

371

E:\PRESDOCS\P13MRT4.028

P13MRT4

372

Mar. 25 / Administration of George W. Bush, 2003

(1) the appellant has exhausted his or her
administrative remedies within the
responsible agency;
(2) there is no current action pending on
the issue within the Federal courts;
and
(3) the information has not been the subject of review by the Federal courts
or the Panel within the past 2 years.
(d) Agency heads shall cooperate fully with
the Panel so that it can fulfill its functions
in a timely and fully informed manner. An
agency head may appeal a decision of the
Panel to the President through the Assistant
to the President for National Security Affairs.
The Panel shall report to the President
through the Assistant to the President for
National Security Affairs any instance in
which it believes that an agency head is not
cooperating fully with the Panel.
(e) The Panel is established for the sole
purpose of advising and assisting the President in the discharge of his constitutional and
discretionary authority to protect the national
security of the United States. Panel decisions
are committed to the discretion of the Panel,
unless changed by the President.
(f) Notwithstanding paragraphs (a)
through (e) of this section, whenever the
Panel reaches a conclusion that information
owned or controlled by the Director of Central Intelligence (Director) should be declassified, and the Director notifies the Panel
that he objects to its conclusion because he
has determined that the information could
reasonably be expected to cause damage to
the national security and to reveal (1) the
identity of a human intelligence source, or
(2) information about the application of an
intelligence source or method (including any
information that concerns, or is provided as
a result of, a relationship with a cooperating
intelligence element of a foreign government), the information shall remain classified
unless the Director’s determination is appealed to the President, and the President
reverses the determination.
Sec. 5.4. General Responsibilities. Heads
of agencies that originate or handle classified
information shall:
(a) demonstrate personal commitment and
commit senior management to the successful

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00020

implementation of the program established
under this order;
(b) commit necessary resources to the effective implementation of the program established under this order;
(c) ensure that agency records systems are
designed and maintained to optimize the
safeguarding of classified information, and to
facilitate its declassification under the terms
of this order when it no longer meets the
standards for continued classification; and
(d) designate a senior agency official to direct and administer the program, whose responsibilities shall include:
(1) overseeing the agency’s program established under this order, provided,
an agency head may designate a separate official to oversee special access
programs authorized under this
order. This official shall provide a full
accounting of the agency’s special access programs at least annually;
(2) promulgating implementing regulations, which shall be published in the
Federal Register to the extent that
they affect members of the public;
(3) establishing and maintaining security
education and training programs;
(4) establishing and maintaining an ongoing self-inspection program, which
shall include the periodic review and
assessment of the agency’s classified
product;
(5) establishing procedures to prevent
unnecessary access to classified information, including procedures that:
(A) require that a need for access to classified information is established before initiating administrative clearance procedures; and
(B) ensure that the number of persons
granted access to classified information is limited to the minimum consistent with operational and security
requirements and needs;
(6) developing special contingency plans
for the safeguarding of classified information used in or near hostile or
potentially hostile areas;
(7) ensuring that the performance contract or other system used to rate civilian or military personnel performance includes the management of

App.Sfmt
194
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
classified information as a critical element or item to be evaluated in the
rating of:
(A) original classification authorities;
(B) security managers or security specialists; and
(C) all other personnel whose duties significantly involve the creation or handling of classified information;
(8) accounting for the costs associated
with the implementation of this order,
which shall be reported to the Director of the Information Security Oversight Office for publication; and
(9) assigning in a prompt manner agency
personnel to respond to any request,
appeal, challenge, complaint, or suggestion arising out of this order that
pertains to classified information that
originated in a component of the
agency that no longer exists and for
which there is no clear successor in
function.
Sec. 5.5. Sanctions. (a) If the Director of
the Information Security Oversight Office
finds that a violation of this order or its implementing directives has occurred, the Director shall make a report to the head of the
agency or to the senior agency official so that
corrective steps, if appropriate, may be taken.
(b) Officers and employees of the United
States Government, and its contractors, licensees, certificate holders, and grantees
shall be subject to appropriate sanctions if
they knowingly, willfully, or negligently:
(1) disclose to unauthorized persons information properly classified under
this order or predecessor orders;
(2) classify or continue the classification
of information in violation of this
order or any implementing directive;
(3) create or continue a special access
program contrary to the requirements
of this order; or
(4) contravene any other provision of this
order or its implementing directives.
(c) Sanctions may include reprimand, suspension without pay, removal, termination of
classification authority, loss or denial of access to classified information, or other sanctions in accordance with applicable law and
agency regulation.

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00021

(d) The agency head, senior agency official, or other supervisory official shall, at a
minimum, promptly remove the classification
authority of any individual who demonstrates
reckless disregard or a pattern of error in applying the classification standards of this
order.
(e) The agency head or senior agency official shall:
(1) take appropriate and prompt corrective action when a violation or infraction under paragraph (b) of this section occurs; and
(2) notify the Director of the Information
Security Oversight Office when a violation under paragraph (b)(1), (2), or
(3) of this section occurs.
Part 6—General Provisions
Sec. 6.1. Definitions. For purposes of this
order:
(a) ‘‘Access’’ means the ability or opportunity to gain knowledge of classified information.
(b) ‘‘Agency’’ means any ‘‘Executive agency,’’ as defined in 5 U.S.C. 105; any ‘‘Military
department’’ as defined in 5 U.S.C. 102; and
any other entity within the executive branch
that comes into the possession of classified
information.
(c) ‘‘Automated information system’’
means an assembly of computer hardware,
software, or firmware configured to collect,
create, communicate, compute, disseminate,
process, store, or control data or information.
(d) ‘‘Automatic declassification’’ means the
declassification of information based solely
upon:
(1) the occurrence of a specific date or
event as determined by the original
classification authority; or
(2) the expiration of a maximum time
frame for duration of classification established under this order.
(e) ‘‘Classification’’ means the act or process by which information is determined to
be classified information.
(f) ‘‘Classification guidance’’ means any instruction or source that prescribes the classification of specific information.
(g) ‘‘Classification guide’’ means a documentary form of classification guidance
issued by an original classification authority

App.Sfmt
195
1244

Fmt 1244

373

E:\PRESDOCS\P13MRT4.028

P13MRT4

374

Mar. 25 / Administration of George W. Bush, 2003

that identifies the elements of information
regarding a specific subject that must be classified and establishes the level and duration
of classification for each such element.
(h) ‘‘Classified national security information’’ or ‘‘classified information’’ means information that has been determined pursuant
to this order or any predecessor order to require protection against unauthorized disclosure and is marked to indicate its classified
status when in documentary form.
(i) ‘‘Confidential source’’ means any individual or organization that has provided, or
that may reasonably be expected to provide,
information to the United States on matters
pertaining to the national security with the
expectation that the information or relationship, or both, are to be held in confidence.
(j) ‘‘Damage to the national security’’
means harm to the national defense or foreign relations of the United States from the
unauthorized disclosure of information, taking into consideration such aspects of the information as the sensitivity, value, utility, and
provenance of that information.
(k) ‘‘Declassification’’ means the authorized change in the status of information from
classified information to unclassified information.
(l) ‘‘Declassification authority’’ means:
(1) the official who authorized the original classification, if that official is still
serving in the same position;
(2) the originator’s current successor in
function;
(3) a supervisory official of either; or
(4) officials delegated declassification authority in writing by the agency head
or the senior agency official.
(m) ‘‘Declassification guide’’ means written instructions issued by a declassification
authority that describes the elements of information regarding a specific subject that
may be declassified and the elements that
must remain classified.
(n) ‘‘Derivative classification’’ means the
incorporating, paraphrasing, restating, or
generating in new form information that is
already classified, and marking the newly developed material consistent with the classification markings that apply to the source information. Derivative classification includes
the classification of information based on

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00022

classification guidance. The duplication or
reproduction of existing classified information is not derivative classification.
(o) ‘‘Document’’ means any recorded information, regardless of the nature of the
medium or the method or circumstances of
recording.
(p) ‘‘Downgrading’’ means a determination
by a declassification authority that information classified and safeguarded at a specified
level shall be classified and safeguarded at
a lower level.
(q) ‘‘File series’’ means file units or documents arranged according to a filing system
or kept together because they relate to a particular subject or function, result from the
same activity, document a specific kind of
transaction, take a particular physical form,
or have some other relationship arising out
of their creation, receipt, or use, such as restrictions on access or use.
(r) ‘‘Foreign government information’’
means:
(1) information provided to the United
States Government by a foreign government or governments, an international organization of governments,
or any element thereof, with the expectation that the information, the
source of the information, or both, are
to be held in confidence;
(2) information produced by the United
States Government pursuant to or as
a result of a joint arrangement with
a foreign government or governments, or an international organization of governments, or any element
thereof, requiring that the information, the arrangement, or both, are to
be held in confidence; or
(3) information received and treated as
‘‘foreign government information’’
under the terms of a predecessor
order.
(s) ‘‘Information’’ means any knowledge
that can be communicated or documentary
material, regardless of its physical form or
characteristics, that is owned by, produced
by or for, or is under the control of the
United States Government. ‘‘Control’’ means
the authority of the agency that originates
information, or its successor in function, to
regulate access to the information.

App.Sfmt
196
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

Administration of George W. Bush, 2003 / Mar. 25
(t) ‘‘Infraction’’ means any knowing, willful, or negligent action contrary to the requirements of this order or its implementing
directives that does not constitute a ‘‘violation,’’ as defined below.
(u) ‘‘Integral file block’’ means a distinct
component of a file series, as defined in this
section, that should be maintained as a separate unit in order to ensure the integrity of
the records. An integral file block may consist
of a set of records covering either a specific
topic or a range of time such as presidential
administration or a 5-year retirement schedule within a specific file series that is retired
from active use as a group.
(v) ‘‘Integrity’’ means the state that exists
when information is unchanged from its
source and has not been accidentally or intentionally modified, altered, or destroyed.
(w) ‘‘Mandatory declassification review’’
means the review for declassification of classified information in response to a request
for declassification that meets the requirements under section 3.5 of this order.
(x) ‘‘Multiple sources’’ means two or more
source documents, classification guides, or a
combination of both.
(y) ‘‘National security’’ means the national
defense or foreign relations of the United
States.
(z) ‘‘Need-to-know’’ means a determination made by an authorized holder of classified information that a prospective recipient
requires access to specific classified information in order to perform or assist in a lawful
and authorized governmental function.
(aa) ‘‘Network’’ means a system of two or
more computers that can exchange data or
information.
(bb) ‘‘Original classification’’ means an initial determination that information requires,
in the interest of the national security, protection against unauthorized disclosure.
(cc) ‘‘Original classification authority’’
means an individual authorized in writing, either by the President, the Vice President in
the performance of executive duties, or by
agency heads or other officials designated by
the President, to classify information in the
first instance.
(dd) ‘‘Records’’ means the records of an
agency and Presidential papers or Presidential records, as those terms are defined

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00023

in title 44, United States Code, including
those created or maintained by a government
contractor, licensee, certificate holder, or
grantee that are subject to the sponsoring
agency’s control under the terms of the contract, license, certificate, or grant.
(ee) ‘‘Records having permanent historical
value’’ means Presidential papers or Presidential records and the records of an agency
that the Archivist has determined should be
maintained permanently in accordance with
title 44, United States Code.
(ff) ‘‘Records management’’ means the
planning, controlling, directing, organizing,
training, promoting, and other managerial activities involved with respect to records creation, records maintenance and use, and
records disposition in order to achieve adequate and proper documentation of the policies and transactions of the Federal Government and effective and economical management of agency operations.
(gg) ‘‘Safeguarding’’ means measures and
controls that are prescribed to protect classified information.
(hh) ‘‘Self-inspection’’ means the internal
review and evaluation of individual agency
activities and the agency as a whole with respect to the implementation of the program
established under this order and its implementing directives.
(ii) ‘‘Senior agency official’’ means the official designated by the agency head under
section 5.4(d) of this order to direct and administer the agency’s program under which
information is classified, safeguarded, and
declassified.
(jj) ‘‘Source document’’ means an existing
document that contains classified information that is incorporated, paraphrased, restated, or generated in new form into a new
document.
(kk) ‘‘Special access program’’ means a
program established for a specific class of
classified information that imposes safeguarding and access requirements that exceed those normally required for information
at the same classification level.
(ll) ‘‘Systematic declassification review’’
means the review for declassification of classified information contained in records that
have been determined by the Archivist to

App.Sfmt
197
1244

Fmt 1244

375

E:\PRESDOCS\P13MRT4.028

P13MRT4

376

Mar. 25 / Administration of George W. Bush, 2003

have permanent historical value in accordance with title 44, United States Code.
(mm) ‘‘Telecommunications’’ means the
preparation, transmission, or communication
of information by electronic means.
(nn) ‘‘Unauthorized disclosure’’ means a
communication or physical transfer of classified information to an unauthorized recipient.
(oo) ‘‘Violation’’ means:
(1) any knowing, willful, or negligent action that could reasonably be expected to result in an unauthorized
disclosure of classified information;
(2) any knowing, willful, or negligent action to classify or continue the classification of information contrary to the
requirements of this order or its implementing directives; or
(3) any knowing, willful, or negligent action to create or continue a special
access program contrary to the requirements of this order.
(pp) ‘‘Weapons of mass destruction’’
means chemical, biological, radiological, and
nuclear weapons.
Sec. 6.2. General Provisions. (a) Nothing
in this order shall supersede any requirement
made by or under the Atomic Energy Act
of 1954, as amended, or the National Security Act of 1947, as amended. ‘‘Restricted
Data’’ and ‘‘Formerly Restricted Data’’ shall
be handled, protected, classified, downgraded, and declassified in conformity with
the provisions of the Atomic Energy Act of
1954, as amended, and regulations issued
under that Act.
(b) The Attorney General, upon request
by the head of an agency or the Director
of the Information Security Oversight Office,
shall render an interpretation of this order
with respect to any question arising in the
course of its administration.
(c) Nothing in this order limits the protection afforded any information by other provisions of law, including the Constitution,
Freedom of Information Act exemptions, the
Privacy Act of 1974, and the National Security Act of 1947, as amended. This order is
not intended to and does not create any right
or benefit, substantive or procedural, enforceable at law by a party against the United
States, its departments, agencies, officers,

VerDate Jan 31 2003

03:29 Apr 01, 2003

Jkt 200250

PO 00000

Frm 00024

employees, or agents. The foregoing is in addition to the specific provisos set forth in sections 3.1(b) and 5.3(e) of this order.’’
(d) Executive Order 12356 of April 6,
1982, was revoked as of October 14, 1995.
Sec. 6.3. Effective Date. This order is effective immediately, except for section 1.6,
which shall become effective 180 days from
the date of this order.
George W. Bush
The White House,
March 25, 2003.
[Filed with the Office of the Federal Register,
9:17 a.m., March 27, 2003]
NOTE: This Executive order was published in the
Federal Register on March 28.

Letter to the Speaker of the House of
Representatives Transmitting a
Supplemental Budget Request To
Support Military and Humanitarian
Operations in Iraq and To Ensure
Domestic Safety
March 25, 2003
Dear Mr. Speaker:
On October 16, 2002, I signed into law
the ‘‘Authorization for Use of Military Force
Against Iraq Resolution of 2002’’ (Public Law
107–243). After condemning Saddam Hussein’s continued possession of chemical and
biological weapons, obstruction of inspections, and brutal repression of the Iraqi people, the Congress affirmed, ‘‘Iraq poses a
continuing threat to the national security of
the United States and international peace
and security of the Persian Gulf region and
remains in material and unacceptable breach
of its international obligations.’’
Subsequent to enactment of Public Law
107–243, the United Nations Security Council unanimously agreed to Resolution 1441
offering Iraq one final chance to disarm.
After more than a decade of deceit and defiance, the regime, yet again, failed to ‘‘fully
and unconditionally’’ comply. Iraq continues
to pose a grave danger to global peace and
security. The United States and our allies
must seek to disarm Iraq and liberate the
Iraqi people, and we will prevail.

App.Sfmt
198
1244

Fmt 1244

E:\PRESDOCS\P13MRT4.028

P13MRT4

